<html>
<title> - EXAMINING THE DOMESTIC TERRORISM THREAT IN THE WAKE OF THE ATTACK ON THE U.S. CAPITOL</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


               EXAMINING THE DOMESTIC TERRORISM THREAT 
                IN THE WAKE OF THE ATTACK ON THE
                U.S. CAPITOL

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2021

                               __________

                            Serial No. 117-1

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]	
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________                               
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-243 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                              

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                               Witnesses

Mr. Christopher Rodriguez, Ph.D., Director, Homeland Security and 
  Emergency Management Agency, District of Columbia:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Ms. Elizabeth Neumann, Founder and Managing Director, Neu Summit 
  Strategies and Former Assistant Secretary for Counterterrorism 
  and Threat Prevention, U.S. Department of Homeland Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Jonathan Greenblatt, Chief Executive Officer, Anti-Defamation 
  League:
  Oral Statement.................................................    21
  Prepared Statement.............................................    23
Mr. Brian Michael Jenkins, Senior Advisor to the Rand President, 
  The Rand Corporation:
  Oral Statement.................................................    41
  Prepared Statement.............................................    43

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  The Year in Hate and Extremism 2020............................   102
  The Role of Guns & Armed Extremism in the Attack on the U.S. 
    Capitol......................................................   108
  Letter From The Leadership Conference on Civil and Human Rights   121
  Letter From Greg Nojeim, Center for Democracy & Technology.....   125

                                Appendix

Question From Chairman Bennie G. Thompson for Christopher 
  Rodriguez......................................................   127
Questions From Ranking Member John Katko for Christopher 
  Rodriguez......................................................   127
Questions From Chairman Bennie G. Thompson for Elizabeth Neumann.   132
Questions From Honorable Donald M. Payne for Elizabeth Neumann...   132
Questions From Honorable James Langevin for Elizabeth Neumann....   132
Questions From Ranking Member John Katko for Elizabeth Neumann...   133
Questions From Ranking Member John Katko for Jonathan Greenblatt.   133

 
 EXAMINING THE DOMESTIC TERRORISM THREAT IN THE WAKE OF THE ATTACK ON 
                            THE U.S. CAPITOL

                              ----------                              


                       Thursday, February 4, 2021

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. via 
Webex, Hon. Bennie G. Thompson (Chairman of the committee) 
presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Payne, Correa, Slotkin, Green, Clarke, Swalwell, Titus, Watson 
Coleman, Rice, Demings, Barragan, Gottheimer, Luria, 
Malinowski, Torres, Katko, McCaul, Higgins, Bishop, Van Drew, 
Norman, Miller-Meeks, Harshbarger, Clyde, Gimenez, LaTurner, 
Meijer, Cammack, Pfluger, Garbarino.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to receive 
testimony on examining the domestic terrorism threat in the 
wake of the attack on the U.S. Capitol.
    Without objection, the Chair is authorized to declare the 
committee in recess at any point.
    Today the committee is meeting to examine the threat of 
domestic terrorism in the wake of the attack on the U.S. 
Capitol on January 6. I would like to start by thanking the men 
and women of the U.S. Capitol Police, National Guard, Secret 
Service, Metropolitan Police Department, and all other law 
enforcement agencies that worked to keep us safe that day and 
in the days since.
    I also want to take a moment to remember Officer Brian 
Sicknick, who lost his life in the line of duty, and other 
members of law enforcement who responded to the attack who have 
tragically passed away.
    Several others tragically lost their lives during the 
domestic terrorism attack on our Nation, incited by the former 
President and his enablers seeking to overturn the results of a 
legitimate election.
    As Members of this committee are keenly aware, this act of 
terrorism was not an isolated incident. During the 116th 
Congress, the committee held 11 hearings that looked at various 
domestic terrorism threats. Over a year ago, FBI Director Wray 
sat before us and warned that domestic terrorism cases were at 
an all-time high, with racially-motivated violent extremists 
posing the greatest threat.
    Then, in July 2020, we received testimony from domestic 
terrorism expert J.J. MacNab that cautioned, and I quote, 
``that the upcoming election will spark one or more violent 
events if the President loses his reelection bid.
    ``[His supporters] want him to continue, and they have 
talked about civil war now for years if he does not.''
    Last September, Director Wray testified again before us, 
saying that racially-motivated violent extremists make up the 
largest portion of domestic terrorist cases that his agents are 
investigating.
    Then, in October, just 4 months before the attack on the 
Capitol, the Department of Homeland Security's threat 
assessment identified racially-motivated violent extremists, 
specifically White Supremacist extremists, as ``the most 
persistent and lethal threat in the homeland.''
    Today, we will begin to shed light on why these warnings 
were not heeded. The irrefutable fact is that the threat of 
right-wing, and, more specifically, White Nationalist 
terrorism, has been growing for years.
    The previous administration failed to address this threat 
appropriately, and on January 6 we saw the result right here at 
the U.S. Capitol. I witnessed the event unfold first-hand from 
my view in the House Gallery, where we had gathered to observe 
the counting of the electoral votes as required by the 
Constitution.
    I am hopeful that the Biden administration will work to do 
a better job of confronting this threat, which has been allowed 
to fester and even encouraged in recent years. Already DHS has 
taken action as the Department issued a rare warning last week 
about the heightened threat from domestic terrorism.
    I look forward to engaging newly-confirmed Secretary of 
Homeland Security Alejandro Mayorkas on this critical issue.
    President Biden also tasked the Office of the Director of 
National Intelligence, DHS, and FBI, who are conducting a 
comprehensive assessment of the threat. I commend this swift 
action.
    I also urge the administration to prioritize the report on 
domestic terrorism required by the Domestic and International 
Terrorism DATA Act, which is now 7 months past due.
    As Members of the Homeland Security Committee, we, too, 
have our work cut out for us in this Congress. This committee 
held 11 hearings last Congress on the threat of domestic 
terrorism, but clearly much more remains to be done. During a 
time in which ``both sides-ism'' runs rampant through our 
politics, I implore Members of this committee to follow the 
threats wherever they may lead. Any denial or attempt to 
distract from the threat at hand won't help us address the 
problem that many have been and continue to sound the alarm 
about.
    The conversations will be difficult, and they should be. 
This threat has long plagued and preyed on the most vulnerable 
in our society. But we must work together to find solutions. 
Our democracy and American lives are at stake.
    Today, we have a panel of experts that will outline the 
domestic terror threat as it stands, identify what was missed 
prior to January 6, and present what we ought to do moving 
forward. I look forward to their testimony and their responses 
to our questions so we can find a path to keep us all safe.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            February 4, 2021
    Today the committee is meeting to examine the threat of domestic 
terrorism in the wake of the attack on the U.S. Capitol on January 6. I 
would like to start by thanking the men and women of the U.S. Capitol 
Police, National Guard, Secret Service, Metropolitan Police Department, 
and all other law enforcement agencies that worked to keep us safe that 
day and in the days since.
    I also want to take a moment to remember Officer Brian Sicknick, 
who lost his life in the line of duty, and other members of law 
enforcement who responded to the attack who have tragically passed 
away. Several others tragically lost their lives during the domestic 
terrorism attack on our Nation, incited by the former President and his 
enablers seeking to overturn the results of a legitimate election.
    As Members of this committee are keenly aware, this act of 
terrorism was not an isolated incident. During the 116th Congress, the 
committee held 11 hearings that looked at various domestic terrorism 
threats. Over a year ago, FBI Director Wray sat before us and warned 
that domestic terrorism cases were at an all-time high, with racially-
motivated violent extremists posing the greatest threat.
    Then in July 2020, we received testimony from domestic terrorism 
expert J.J. MacNab that cautioned, and I quote, ``that the upcoming 
election will spark one or more violent events if the President loses 
his re-election bid . . . [his supporters] want him to continue and 
they have talked about Civil War now for years if he does not.''
    Last September Director Wray testified again before us saying that 
racially-motivated violent extremists make up the largest portion of 
domestic terrorist cases that his agents are investigating. Then in 
October, just 4 months before the attack on the Capitol, the Department 
of Homeland Security's threat assessment identified racially-motivated 
violent extremists--specifically White Supremacist extremists--as ``the 
most persistent and lethal threat in the homeland.''
    Today, we will begin to shed light on why these warnings were not 
heeded. The irrefutable fact is that the threat of right-wing and more 
specifically, White Nationalist terrorism has been growing for years. 
The previous administration failed to address this threat 
appropriately, and on January 6 we saw the result right here at the 
U.S. Capitol. I witnessed the events unfold first-hand from my view in 
the House Gallery, where we had gathered to observe the counting of the 
electoral votes as required by the Constitution.
    I am hopeful that the Biden administration will work to do a better 
job of confronting this threat, which has been allowed to fester and 
even encouraged in recent years. Already, DHS has taken action as the 
Department issued a rare warning last week about the heightened threat 
from domestic terrorism. I look forward to engaging newly-confirmed 
Secretary of Homeland Security Alejandro Mayorkas on this critical 
issue.
    President Biden also tasked the Office of the Director of National 
Intelligence, DHS, and FBI with conducting a comprehensive assessment 
of the threat. I commend this swift action. I also urge the 
administration to also prioritize the report on domestic terrorism 
required by the ``Domestic and International Terrorism DATA Act,'' 
which is now 7 months past due.
    As Members of the Homeland Security Committee--we too have our work 
cut out for us in Congress. This committee held 11 hearings last 
Congress on the threat of domestic terrorism, but clearly much more 
remains to be done. And during a time in which ``both sides-ism'' run 
rampant through our politics, I implore Members of this committee to 
follow the threats--wherever they may lead. Any denial or attempt to 
distract from the threat at hand won't help us address the problem--
that many have been and continue to sound the alarm about.
    These conversations will be difficult, and they should be. This 
threat has long plagued and preyed on the most vulnerable in our 
society. But we must work together to find solutions--our democracy and 
American lives are at stake.
    Today, we have a panel of expert witnesses that will outline the 
domestic terror threat as it stands, identify what was missed prior to 
January 6, and present what we ought to do moving forward. I look 
forward to their testimony and their responses to our questions so we 
can find a path to keep us all safe.

    Chairman Thompson. With that, I recognize the Ranking 
Member, the gentleman from New York, Mr. Katko, for an opening 
statement.
    Mr. Katko. Thank you, Mr. Chairman. I appreciate your 
comments.
    I appreciate being here with all of you today, and welcome 
to the witnesses.
    I am honored to serve with all of you and with all of our 
colleagues in the 117th Congress and recognize how timely and 
necessary today's hearing is.
    This year will mark the 20th anniversary of the September 
11 terrorist attacks, the very tragedy that necessitated the 
creation of the Department of Homeland Security and this 
committee.
    In the days and months following the deadliest terror 
attack on U.S. soil, Americans of all views came together to 
unify against the threat of foreign terrorists. Like so many 
challenges in our Nation's history, we emerged stronger than 
ever.
    To confront the emerging threats to our homeland today, we 
can't play politics with National security. That is why, Mr. 
Chairman, I appreciate your partnership as we have set out to 
ensure that this committee remains above the fray and focused 
on solving problems.
    Today, we sit here just shy of 20 years after 9/11 to 
examine the increasingly prevalent and troubling threat from 
violent extremists, not from some distant land but from here at 
home.
    The threat posed by domestic violent extremists may be new 
to many of us, but it is not new for our country. In the 1960's 
and 1970's, left-wing extremists known as the Weather 
Underground carried out dozens of bombings, including one right 
here inside the U.S. Capitol. In fact, in an 18-month period 
between 1971 and 1972, extremist groups conducted over 2,500 
bombings here in the United States.
    Three decades later, an anti-Government extremist planned 
and carried out the deadliest home-grown attack in United 
States history, killing 168 people with a truck bomb at a 
Federal building in Oklahoma City.
    The sad reality is that there will always be those who use 
ideology and politics as an excuse to commit violence. It is 
our responsibility to see to it that they are not successful.
    Over the past 12 months we have seen a marked increase in 
the activity of domestic violent extremists. In July, amid 
Nation-wide protests, extremists in Portland set fire to police 
stations and attacked a Federal courthouse. In December, a man 
in Nashville detonated a bomb planted in a recreational 
vehicle, killing himself, injuring 8 others, and disabling a 
critical telecommunications facility.
    Just last month right-wing extremists attacked the United 
States Capitol. Five people died on that dark day, including a 
Capitol police officer who was laid to rest this week. Just 
like 9/11, we will never forget. We will never forget the 
assault on the heart of our democracy on January 6. It was a 
very difficult thing to watch unfold.
    While our Nation's law enforcement and National security 
agencies are better prepared to combat emerging threats like 
domestic extremism than in previous years, much more needs to 
be done to bolster information sharing among Federal, State, 
and local partners.
    While investigations are on-going, I am concerned that our 
counterterrorism efforts continue to be hindered by 
bureaucratic silos, a failure to share the necessary 
intelligence, and then to act on that intelligence.
    The Department of Homeland Security is central to our 
Nation's effort to protect against terrorist and extremist 
violence here at home, and it is imperative that we ensure it 
is well-equipped for that mission.
    It is also our job here at the Committee on Homeland 
Security to better understand what motivates these extremists 
and ultimately how to stop them. Radicalization of all sorts 
that leads to any violence should be unacceptable across the 
board.
    With that in mind, I want to encourage all of my colleagues 
to rise above partisan politics and work together to examine 
these issues and find solutions. We must do the job our 
constituents sent us here to do by being honest about the 
challenges facing our country from violent extremism, even when 
it may not be politically expedient to do so. It is our solemn 
responsibility, especially on this committee, to be sober-
minded in our efforts to secure our homeland.
    That is why I co-sponsored legislation championed by 
Ranking Member Davis on the House Administration Committee to 
establish a National commission on the domestic terrorist 
attack on the U.S. Capitol. Similar to the 9/11 Commission 
which helped create the homeland security enterprise we have 
today, this important bipartisan commission would provide 
Congress with real answers to our questions and solutions to 
close critical homeland security gaps.
    This legislation, referred to our committee, has the 
support of every Republican Member of the committee, and I urge 
my colleagues on the other side of the aisle to join us and 
move this bill through Congress.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
                            February 4, 2021
    I am honored to serve with you and all of our colleagues in the 
117th Congress and recognize how timely and necessary today's hearing 
is. This year will mark the 20th anniversary of the September 11 
terrorist attacks--the very tragedy that necessitated the creation of 
the Department of Homeland Security--and this committee. In the days 
and months following the deadliest terrorist attack on U.S. soil, 
Americans of all views came together to unify against the threat of 
foreign terrorists. Like so many challenges in our Nation's history, we 
emerged stronger than ever.
    To confront the emerging threats to our homeland today, we can't 
play politics with National security. That's why Mr. Chairman I 
appreciate your partnership as we've set out to ensure that this 
committee remains above the fray and focused on solving problems.
    Today, we sit here just shy of 20 years after 9/11 to examine the 
increasingly prevalent and troubling threat from violent extremists--
not from some distant land--but from here at home. The threat posed by 
domestic violent extremists may be new to many of us, but it is not new 
for our country.
    In the 1960's and 70's, left-wing extremists known as the Weather 
Underground carried out dozens of bombings, including one right here 
inside the U.S. Capitol. In fact, in an 18-month period between 1971 
and 1972 extremist groups conducted over 2,500 bombings here in the 
United States.
    Three decades later, an anti-Government extremist planned and 
carried out the deadliest home-grown terrorist attack in United States 
history, killing 168 people with a truck bomb at a Federal building in 
Oklahoma City.
    The sad reality is that there will always be those who use ideology 
and politics as an excuse to commit violence. It is our responsibility 
to see to it that they are not successful. Over the past 12 months, we 
have seen a marked increase in the activity of domestic violent 
extremists. In July, amid Nation-wide protests, extremists in Portland 
set fire to police stations and attacked a Federal courthouse. In 
December, a man in Nashville detonated a bomb planted in a recreational 
vehicle, killing himself, injuring 8 others, and disabling a critical 
telecommunications facility.
    And just last month, right-wing extremists attacked the United 
States Capitol. Five people died that on that dark day, including a 
Capitol police officer who was laid to rest this week. Just like 9/11, 
we will never forget. We will never forget the assault on the heart of 
our democracy on January 6. It was a very difficult thing to watch 
unfold.
    While, our Nation's law enforcement and National security agencies 
are better prepared to combat emerging threats like domestic extremism 
than in previous years, much more needs to be done to bolster 
information sharing among Federal, State, and local partners. While 
investigations are on-going, I am concerned that our counterterrorism 
efforts continue to be hindered by bureaucratic silos and failures to 
share necessary intelligence and then to act on that intelligence. The 
Department of Homeland Security is central to our Nation's effort to 
protect against terrorist and extremist violence here at home, and it 
is imperative that we ensure it is well-equipped for that mission.
    It also is our job, here at the Committee on Homeland Security, to 
better understand what motivates these extremists and ultimately how to 
stop them. Radicalization of all sorts that leads to any violence 
should be unacceptable across the board.
    With that in mind I want to encourage all of my colleagues to rise 
above partisan politics and work together to examine these issues and 
find solutions. We must do the job our constituents sent us here to do 
by being honest about the challenges facing our country from violent 
extremism--even when it may not be politically expedient to do so. It 
is our solemn responsibility, especially on this committee, to be 
sober-minded in our efforts to secure our homeland.
    That is why I co-sponsored legislation championed by Ranking Member 
Davis on the House Administration Committee to establish a National 
Commission on the Domestic Terrorist Attack upon the U.S. Capitol. 
Similar to the 9/11 Commission, which helped create the Homeland 
Security Enterprise we have today, this important, bipartisan 
commission would provide Congress with real answers to our questions 
and solutions to close critical homeland security gaps. This 
legislation, referred solely to our committee, has the support of a 
dozen Republican Members of the committee, and I urge my Majority 
colleagues to join us and move this bill through Congress.

    Chairman Thompson. Other Members of the committee are 
reminded that under the committee rules opening statements may 
be submitted for the record.
    Members are also reminded that the committee will operate 
according to the guidelines laid out by the Chairman and 
Ranking Member in our February 3 colloquy regarding remote 
proceedings.
    I welcome our witnesses.
    Our first witness is Dr. Christopher Rodriguez, the 
director of Washington, DC's Homeland Security and Emergency 
Management Agency. Dr. Rodriguez is responsible for emergency 
planning, preparedness, response, and recovery for the city, 
including operations at a 24-hour emergency operations center 
in the District's intelligence fusion center.
    Our second witness is Ms. Elizabeth Neumann, the former 
assistant secretary of counterterrorism and threat prevention 
at the Department of Homeland Security. Ms. Neumann has over 2 
decades of experience developing and implementing homeland 
security and National security policies and strategies for 
multiple Federal agencies.
    Our third witness is Mr. Jonathan Greenblatt, the CEO and 
national director of ADL. Mr. Greenblatt brings extensive 
experience from the private sector and Government. Under Mr. 
Greenblatt, ADL has worked in new and innovative ways to 
counter and combat extremism in all forms.
    Our fourth and final witness is Mr. Brian Michael Jenkins, 
senior advisor to the RAND president. A former military 
officer, Mr. Jenkins is the author of numerous books, reports, 
and articles on domestic and international terrorism.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask Dr. Rodriguez to summarize his statement for 5 
minutes.

 STATEMENT OF CHRISTOPHER RODRIGUEZ, PH.D., DIRECTOR, HOMELAND 
 SECURITY AND EMERGENCY MANAGEMENT AGENCY, DISTRICT OF COLUMBIA

    Mr. Rodriguez. Thank you, Mr. Chairman.
    Thank you, Ranking Member Katko, Members of the committee.
    I am Dr. Christopher Rodriguez, director of the District of 
Columbia's Homeland Security and Emergency Management Agency, 
which I have led since 2017.
    Prior to this role, I was a counterterrorism analyst at the 
Central Intelligence Agency for over 10 years. As an appointee 
of Mayor Muriel Bowser, I am honored to lead an agency that is 
responsible for Washington, DC's preparedness, coordination, 
management, and recovery from all hazards, from a snowstorm to 
a hurricane to a global pandemic, and of course to a terrorist 
attack such as the one we saw on January 6.
    I appear today to discuss the January 6 attack that led to 
the insurrection at the U.S. Capitol, which based upon my 
experience was clearly an act of domestic terrorism. This 
attack exposed in the starkest terms the threat we face from 
domestic terrorists and from right-wing extremism specifically.
    Now, at various times throughout our history we have 
witnessed virulent strains of political ideologies and violent 
political ideologies that run through the American bloodstream. 
But time and again these radical movements have been rooted out 
or minimized in our system.
    Well, what should concern us now, in 2021, is that the 
current manifestation of these movements is so insidious, 
because while in the past they existed on the fringes of 
society, they are becoming rapidly part of the cultural 
mainstream. These movements are fueled and fed by 
misinformation and lies that, if not addressed, will only 
continue to exacerbate our underlying social divisions and 
threatening to tear at the delicate fabric of our democratic 
culture.
    Now, as we manage and coordinate public safety agencies to 
respond to various nefarious acts, the District of Columbia is 
reimagining safety and security in the face of the evolving 
threat of domestic terrorism. I want to speak very briefly 
about the 5 elements of our strategy.
    First, we must regain the narrative. A byproduct of radical 
violent movements entering the mainstream is that they distort 
real and meaningful debate. Right-wing extremism and left-wing 
extremism are not mainstream viewpoints. QAnon, Proud Boys, 
Oath Keepers, anarchists, and Antifa do not espouse mainstream 
perspectives, nor should they be treated and validated as such.
    While the District of Columbia hosts hundreds of First 
Amendment events per year and respects the rights of all 
Americans to exercise this Constitutional guarantee, even when 
we disagree with those viewpoints, we will not tolerate 
violence in our city and we will call such acts what they are 
in accordance with the law--crimes and terrorism.
    In a similar vein, we also know, and we have experienced 
this here in the District, that our foreign adversaries, Russia 
in particular, are employing decades-old tools of covert action 
to fan the flames of cultural conflict here in the United 
States, and our foreign enemies do this by creating or 
perpetuating false narratives that strike at the heart of 
democracy itself--that our elections are rigged, that our 
system is inherently corrupt and should be overthrown, and that 
radical voices who call for violence or insurrection have 
legitimate views that should be heard.
    In regaining the narrative, we need to call these actions 
what they are--a direct assault on our system of government.
    Second, we must demonstrate an overt security presence in 
the District of Columbia, at least for now. The District of 
Columbia, at Mayor Bowser's direction, has requested that 500 
D.C. National Guard personnel remain on standby as a Quick 
Reaction Force through March 12. We believe that this posture 
is essential to ensuring that the Metropolitan Police 
Department can deploy resources to all parts of the city during 
an emergency.
    We also believe that we can achieve security in our city--
and specifically on Capitol Hill--without making permanent the 
current razor wire-topped fencing and armed troops surrounding 
the Capitol.
    As the host of our Federal Government, the District 
government plays an important role in the Capitol's long-term 
security posture. Mayor Bowser has already suggested one 
commonsense proposal, and that is to transfer control of the 
D.C. National Guard to the Mayor of the District of Columbia, 
which would allow her swifter operational decisions during an 
evolving incident. As we saw on January 6, under Federal 
control the guard is not as nimble and responsive as it could 
be.
    Third, we must leverage our National intelligence network 
better. At its core, the value of intelligence is early 
warning. It gives policy makers, such as yourselves, the 
decision-making advantage in a world full of strategic threats. 
We need to utilize a key tool developed after 9/11 in a more 
systematic way, and that is the State fusion centers.
    Funded by the U.S. Department of Homeland Security, these 
intelligence hubs need to do better at sharing information 
across the network, because the domestic terrorist threat is 
fundamentally one that originates locally and then spreads 
across State borders.
    The nearly 80 fusion centers that exist across the Nation 
have more than 2,000 intelligence analysts that are funded by 
Federal dollars, but their intelligence should be more widely 
disseminated to those who need it.
    In the District of Columbia, we seek to build out our 
fusion centers' analytic capabilities in both the physical and 
virtual realms, particularly to assist local and Federal law 
enforcement. In the coming months, the fusion center will begin 
to deploy personnel to key Federal agencies, but we need more 
funding and more resources from DHS for this program.
    Fourth, we must engage our communities and work forces 
better. A particularly troublesome finding in the early 
investigations of those who participated in the January 6 
insurrection is that a small but disproportionately impactful 
segment of the mob used military tactics to organize and manage 
the successful advance into and throughout the Capitol. FBI 
investigations that have been made public have reported that 
some of these individuals had U.S. military backgrounds and 
participated in military-style training camps prior to 
traveling here to Washington, DC.
    All this said, surely there are people in our communities 
that might know such activities are taking place, either in 
plain sight, in the dark corners of the internet, or in casual 
conversations. We need to prioritize insider threat programs in 
the U.S. military and law enforcement to ensure that their 
specific skill sets, which are developed to defend the Nation, 
State, and community, are not then turned on the very people 
they are sworn to protect.
    Finally, we must be prepared for a long fight. Many of the 
initiatives discussed here will require new law enforcement and 
legal tools. However, the key element of our success will be 
ours, yours and mine, as well as the American people's 
willingness to persist in the fight.
    The mental and psychological toll of what happened on 
January 6, as all of you and your staffs and our police 
officers can personally attest, can be overwhelming. 
Tragically, some of our finest have already taken their lives 
following the insurrection.
    Our best chance for success, though, is to be straight with 
the American people that the threats we now face are arguably 
as dangerous as they were in the post-9/11 environment and 
these threats are not going away.
    Thank you, Mr. Chairman, Ranking Member, and I look forward 
to answering your questions.
    [The prepared statement of Mr. Rodriguez follows:]
              Prepared Statement of Christopher Rodriguez
                            February 4, 2021
    Thank you, Chairman Thompson, Ranking Member Katko, and Members of 
the committee. I am Dr. Christopher Rodriguez, and I have served as the 
director of the District of Columbia's Homeland Security and Emergency 
Management Agency--or HSEMA--since 2017; the agency hosts Washington, 
DC's intelligence fusion center, which leads counterterrorism analysis 
and preparedness for the city. Prior to this role, I was a 
counterterrorism analyst at the Central Intelligence Agency for more 
than 10 years. As an appointee of Mayor Muriel Bowser, I am honored to 
lead an agency that is responsible for Washington, DC's preparedness, 
coordination, management, and recovery from all hazards--everything 
from a snowstorm to a hurricane to a global pandemic, including the 
attack at the U.S. Capitol. Like FEMA, HSEMA sits at the crossroads of 
the District government's interagency operations, and the HSEMA team 
works tirelessly to ensure unity of effort before, during, and after 
emergencies.
    I appear today to discuss the January 6 attack leading to the 
insurrection at the U.S. Capitol, which, based upon my experience, was 
an act of domestic terrorism. This attack exposed, in the starkest 
terms, the threat we face from domestic terrorists generally, but also 
from right-wing extremism specifically. At various times throughout our 
history, we have witnessed virulent strains of political ideologies 
running through the American bloodstream. But, time and again, these 
radical, violent movements have been rooted out or minimized by a 
combination of medicines unique to the American experience: The central 
role of democratic institutions, the rule of law, and the unshakeable 
resolve of men and women of goodwill seeking to build a better Nation. 
What should concern us now, in 2021, is that the current manifestation 
of these movements is so insidious because while, in the past, they 
existed on the fringes of society, they are becoming part of the 
cultural mainstream. These movements are fueled and fed by 
misinformation and lies that, if not addressed, will only continue to 
exacerbate underlying social divisions, threatening to tear the 
delicate fabric of our democratic culture.
    The gains our adversaries have made must be stemmed and reversed. 
As we manage and coordinate public safety agencies to respond to 
various nefarious acts, the District must reimagine safety and security 
in the face of the evolving threat of domestic terrorism. There are 5 
elements of our strategy.
  <bullet> First, we must regain the narrative.--A byproduct of 
        radical, violent movements entering the mainstream is that they 
        distort real, meaningful debates. ``Right-wing extremism'' and 
        ``left-wing extremism'' are not mainstream viewpoints. QAnon, 
        Proud Boys, OathKeepers, anarchists, and Antifa do not espouse 
        mainstream perspectives, nor should they be treated and 
        validated as such. While the District of Columbia hosts 
        hundreds of First Amendment events per year and respects the 
        rights of all Americans to exercise this Constitutional 
        guarantee--even when we disagree with those viewpoints--we will 
        not tolerate violence in our city, and we will call such acts 
        what they are in accordance with the law: Crimes or terrorism. 
        In a similar vein, we know that our foreign adversaries--
        Russia, in particular--are employing a decades-old tool of 
        covert action to fan the flames of cultural conflict here in 
        the United States. Our foreign enemies do this by either 
        creating or perpetuating false narratives that strike at the 
        heart of democracy itself: That our elections are rigged; that 
        our system is inherently corrupt and should be overthrown; that 
        radical voices who call for violence or insurrection have 
        legitimate views that should be heard. In regaining the 
        narrative, we need to call these actions what they are: A 
        direct assault on our system of government and to call those 
        who lend credence to these views as succumbing to foreign 
        influence.
  <bullet> Second, we must demonstrate an overt security presence in 
        DC, at least for now.--The District of Columbia, at Mayor 
        Bowser's direction, has requested 500 D.C. National Guard 
        personnel remain on standby as a Quick Reaction Force through 
        March 12. This posture is essential to ensuring the 
        Metropolitan Police Department can deploy resources to all 
        parts of the city during an emergency. However, we believe we 
        can achieve security in our city, and specifically on Capitol 
        Hill, without making permanent the current razor wire-topped 
        fencing and armed troops surrounding the Capitol. The 
        ``people's house'' must remain exactly that and not be turned 
        into an armed fortress, closed off from the rest of our city. 
        As the host of our Federal Government, the District government 
        plays an important role in the Capitol's long-term security 
        posture. Mayor Bowser has already suggested one common-sense 
        proposal: The transfer of control of the D.C. National Guard to 
        the Mayor of the District of Columbia, which would allow for 
        swifter operational decisions during an evolving incident. As 
        we saw on January 6, under Federal control, the Guard is not as 
        nimble and responsive as it could be.
  <bullet> Third, we must leverage our National intelligence network 
        better.--At its core, the value of intelligence is early 
        warning; it gives policy makers decision-making advantage in a 
        world full of strategic threats. We need to utilize a key tool 
        developed after 9/11 in a more systematic way: The State fusion 
        centers. Funded by the Department of Homeland Security, these 
        intelligence hubs need to do better at sharing information 
        across the network because the domestic terrorist threat is 
        fundamentally one that originates locally and then spreads 
        across State borders. The nearly 80 fusion centers across the 
        Nation have more than 2,000 intelligence analysts funded by 
        Federal dollars, but their intelligence should be more widely 
        disseminated to those who need it. In the District of Columbia, 
        we seek to build out our fusion center's analytic capabilities 
        in both the physical and virtual realms, particularly to assist 
        local and Federal law enforcement. In the coming months, the 
        fusion center will begin to deploy personnel to key Federal 
        agencies, but we need more funding and resources from DHS for 
        this program.
  <bullet> Fourth, we must engage communities and workforces better.--A 
        particularly troublesome finding in the early investigations of 
        those who participated in the January 6 insurrection is that a 
        small, but disproportionately impactful, segment of the mob 
        used military tactics to organize and manage the successful 
        advance into and throughout the Capitol. FBI investigations 
        have reported that some of these individuals had U.S. military 
        backgrounds, held ``leadership only'' planning calls, and 
        participated in military-style training camps prior to 
        traveling to Washington, DC. Recently discovered evidence that 
        some of the attackers were carrying hand ties conjure up foiled 
        plots last year to kidnap the Governors of Michigan and 
        Virginia. All this said, surely people in our communities might 
        know such activities are taking place, either in plain sight, 
        in dark corners of the internet, or in casual conversation. We 
        need to prioritize insider-threat programs in the U.S. military 
        and law enforcement to ensure these specific skill sets, which 
        are developed to defend a nation, a State, or a community, are 
        not then turned on the very people they are sworn to protect.
  <bullet> Finally, we must be prepared for a long fight.--Many of the 
        initiatives discussed here will require new law enforcement and 
        legal tools, such as a domestic terrorism statute. However, the 
        key element of our success will be our--yours and mine--as well 
        as the American people's, willingness to persist in this fight. 
        The mental and psychological toll of what happened on January 
        6, as some of you, your staffs, and our police officers can 
        personally attest, can be overwhelming--and tragically, some of 
        our finest have already taken their lives following the 
        insurrection. Our best chance for success is to be straight 
        with the American people--that the threats we now face are 
        arguably as dangerous as they were in the immediate post-9/11 
        environment, and these threats are not going away. We will be 
        tested; we will be challenged. But in the end, as we have 
        throughout our history, we will prevail--and those who seek to 
        divide us will never be as strong as a people united in a 
        common purpose, for good.
    Thank you, and I look forward to answering your questions.

    Chairman Thompson. I now ask Ms. Neumann to summarize her 
statement for 5 minutes.

STATEMENT OF ELIZABETH NEUMANN, FOUNDER AND MANAGING DIRECTOR, 
   NEU SUMMIT STRATEGIES AND FORMER ASSISTANT SECRETARY FOR 
  COUNTERTERRORISM AND THREAT PREVENTION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. Neumann. Good morning, Chairman Thompson, Ranking 
Member Katko, distinguished Members of the committee. Thank you 
for holding today's hearing.
    I offer my deepest condolences to Officer Sicknick's 
family, all of the police officers that were injured, and to 
you, Members of Congress, and your staff.
    While the attack on January 6 was an assault on our 
democracy and, therefore, on all Americans, it was an extremely 
personal experience for each of you. I thank you for your 
willingness to serve the American people during this dark time, 
even in the face of threats of violence.
    I have spent my career immersed in homeland security-
related Government reforms needed to address emerging threats 
and Government failures. The security failure of January 6 was 
not an intelligence failure. Many had warned about the threat 
of violence. It was, rather, a failure of poor judgment and 
insufficient preparation.
    It was also an act of domestic terrorism. As I explain in 
my written testimony, the statutory definition is clearly met 
by the crimes that occurred and the intent of the individuals 
that stormed the Capitol.
    Bipartisan agreement upon this designation is paramount to 
ensuring future security efforts. We must be clear with our 
words on this matter and stand unified against rhetoric that 
incites violence to achieve political goals.
    In my written testimony I lay out 5 recommendations. For 
brevity, let me highlight 3 here.
    I believe we need to establish an independent, bipartisan 
commission to explore the best ways to update our laws, 
policies, and culture to address domestic terrorism. I believe 
we need to criminalize domestic terrorism and consider updating 
other statutes to ensure equal justice is applied. I believe we 
need to formally codify the Office of Targeted Violence and 
Terrorism Prevention to send a strong signal to the community 
that we are investing in prevention.
    Since I last appeared before one of the subcommittees of 
this body, I believe the environment in which we approach 
domestic terrorism has become exponentially more complicated.
    A few highlights.
    First, the global COVID-19 pandemic increased social 
isolation and other stress factors known to increase 
radicalization. These stressors exposed cracks and amplified 
grievances held by vulnerable individuals, which led to 
increased radicalization and some mobilization to violence.
    As a side note, the term ``vulnerable individuals'' is 
explained more thoroughly in my written testimony and there is 
a graphic at the end of my testimony which you can refer to 
which outlines these terms. It shows a simplistic framework for 
the different stages of how an individual radicalizes and 
mobilizes to violence. This graphic came out of a RAND study 
that was done for DHS in 2018.
    Second, the underlying causes behind the January 6 attack 
also increased the number of vulnerable individuals. So 
recruitment is easier now for extremist groups than it ever has 
been before. Extremist ideas have been mainstreamed and 
normalized through political speech, conspiracy theories, and 
communications that use humor and memes to mask the danger of 
those ideas present.
    Consequently, there is a high likelihood of violence in the 
coming months on a range of softer targets associated with 
their perception of the ``Deep State,'' including 
infrastructure, mainstream media, law enforcement, ``Big 
Tech,'' and elected officials.
    There are many other complicating factors I can't go 
through at this moment. But, sadly, I do believe that we will 
be fighting domestic terrorism that has its roots and 
inspiration points from January 6 for the next 10 to 20 years. 
For this reason I believe it is paramount that we establish a 
shared understanding of this threat and a bipartisan commitment 
to address it so that discussions about domestic terrorism 
itself can't be manipulated or misreported, further feeding the 
grievance cycle into radicalization and mobilization to 
violence.
    So let me return to where I started. I urge the Congress to 
consider establishing a domestic terrorism commission. I urge 
that at a minimum we change our laws to ensure equal justice, 
treating threats from ideologies that originated overseas and 
within the United States the same. These are very complicated 
and thorny issues, which is why I believe we need a commission 
to address them appropriately.
    Last, I want to urge you to scale the prevention work we 
began together in the 116th Congress. Thank you for your 
support during my tenure at DHS and thereafter. Your bipartisan 
work on expanding prevention capabilities in the United States 
has prepared us for this moment, but there is still much work 
that needs to be done. You led a 1,200 percent increase in 
funding for prevention over the last 2 fiscal years. In Federal 
budget terms that is almost unheard of.
    I would ask you to please consider accelerating these 
prevention efforts. In particular, I urge you to authorize the 
Office of Targeted Violence and Terrorism Prevention and help 
it scale rapidly through additional resources to be able to 
assist our State and local partners with developing the 
prevention capabilities we need in our communities to better 
assist individuals before they mobilize to violence.
    In closing, we need to recognize that the root causes of 
this new face of terrorism are not things that the security 
community can fix. President Obama called it ``an 
epistemological crisis.'' He said, ``If we do not have the 
capacity to distinguish what is true from what is false, then 
by definition the marketplace of ideas does not work and by 
definition our democracy does not work.''
    Today's hearing is an opportunity for each of us to 
demonstrate democracy does still work. We can disagree without 
becoming disagreeable.
    I believe there is much upon which we can agree. 
Confronting this threat will require calling on other parts of 
our society to defeat domestic terrorism.
    The challenge ahead requires rediscovering we are Americans 
before we are a party affiliation or a political philosophy. It 
requires rebuilding civic society at a local level, choosing 
respectful civil discourse over cancel culture, and rejecting 
political ideologies or identity politics that focus on 
grouping ``them'' into an ``enemy'' of the ``tribe.''
    We will begin here today, but each of us has a role as we 
lead in our homes and in our local communities, because the 
greatest disruption to the grievance cycle that leads to 
violence begins by loving our neighbor as we would like to be 
loved ourselves.
    Thank you so much. I look forward to your questions.
    [The prepared statement of Ms. Neumann follows:]
                Prepared Statement of Elizabeth Neumann
                            February 4, 2021
                              introduction
    Chairman Thompson, Ranking Member Katko, and distinguished Members 
of the committee, thank you for holding today's hearing ``Examining the 
Domestic Terrorism Threat in the Wake of the Attack on the U.S. 
Capitol.''
    Before addressing the hearing topic, I want to thank this committee 
for their support in the last Congress, during my tenure at DHS and 
thereafter, for working on a bi-partisan basis to support the expansion 
of prevention capabilities across the country. Many of the Members of 
the last session of Congress continue on this committee today--and 
because of their willingness to work with us--we were able to increase 
DHS funding for prevention efforts by over 1,200 percent in 2 fiscal 
years. That is unheard of in Federal budgeting. Thank you. While my 
remarks today will not go into the details of prevention--I wanted to 
note for the record that I believe the plan we laid out in 2019 in the 
Strategic Framework for Countering Terrorism and Targeted Violence, and 
what we began implementing, are a critical part of the set of solutions 
needed to address domestic terrorism.
    the january 6, 2021 attack on the capitol was domestic terrorism
    I have spent my career immersed in homeland security-related 
Government reforms--stemming from Government failures, like the attacks 
of September 11, 2001, or the Hurricane Katrina response, as well as 
emerging threats. The security failure of January 6, 2021 is nearly 
incomprehensible for me. I believe the failure was not one of 
intelligence, but a failure of imagination born of a lack of judgment 
and preparation. I believe the investigation should be thorough and 
must make recommendations that ensure we never see such a security 
failure again.
    While we can debate the merits of whether to call those that 
stormed the Capitol ``terrorists,'' the attack on January 6 meets the 
definition of domestic terrorism as laid out in U.S. Code at 18 U.S.C. 
2331(5):\1\ ``Involving acts dangerous to human life that are a 
violation of the criminal laws of the United States or of any State; 
Appearing to be intended to: (1) Intimidate or coerce a civilian 
population; (2) Influence the policy of government by intimidation or 
coercion; or (3) Affect the conduct of a government by mass 
destruction, assassination, or kidnapping; and (4) Occurring primarily 
within the territorial jurisdiction of the United States.''
---------------------------------------------------------------------------
    \1\ https://www.fbi.gov/file-repository/fbi-dhs-domestic-terrorism-
definitions-terminology-methodology.pdf/view.
---------------------------------------------------------------------------
  <bullet> A police officer was killed and 140 officers were injured--
        thus it was ``dangerous to human life'';
  <bullet> We see from the indictments that there are multiple 
        ``violations of criminal laws'';
  <bullet> Based on video testimonials prior to, during, and after the 
        attack--the motivation for many was to interrupt a 
        Constitutionally-mandated activity and ``intimidate or coerce'' 
        the U.S. Congress to change the outcome of the election of our 
        President; and
  <bullet> There is evidence, though we should wait for the 
        investigations to conclude, that some of the attackers had 
        prepared for assassinating, or taking hostage, Members of 
        Congress and the Vice President.
    The attacks may also meet other criminal statutory definitions, 
such as seditious conspiracy and treason, but we will leave that to the 
investigators and prosecutors to determine.
 framing the radicalization to extremism and mobilization to violence 
                                process
    While the radicalization process is not necessarily linear, I find 
it helps to use a linear framework to identify the different places 
individuals might be on the pathway to violence. During my time at DHS, 
we asked the RAND Corporation to help us identify where to head with 
our prevention efforts. A graphic they produced in the resulting study 
lays out the different stages of radicalization. I have included the 
graphic as Appendix A to this testimony for the Committee's reference.
    As the RAND Study on Practical Terrorism Prevention \2\ explains, 
they used a ``basic model to anchor their work,'' which divides 
``people involved in radicalization processes into 3 relevant 
populations:
---------------------------------------------------------------------------
    \2\ Jackson, Brian A., Ashley L. Rhoades, Jordan R. Reimer, Natasha 
Lander, Katherine Costello, and Sina Beaghley, Practical Terrorism 
Prevention: Reexamining U.S. National Approaches to Addressing the 
Threat of Ideologically Motivated Violence. Homeland Security 
Operational Analysis Center operated by the RAND Corporation, 2019. 
https://www.rand.org/pubs/research_reports/RR2647.html. Also available 
in print form.
---------------------------------------------------------------------------
  <bullet> Vulnerable population--i.e., all the people who might 
        radicalize to violence
  <bullet> Individuals who are radical of thought but may or may not 
        become violent
  <bullet> Individuals actually involved in attempted attacks (planning 
        or actual carrying out of attacks).''\3\
---------------------------------------------------------------------------
    \3\ Ibid., xix.
---------------------------------------------------------------------------
    RAND explained that ``each successive population is much smaller 
than the population preceding it, with only a small percentage of any 
vulnerable population radicalizing and only a percentage of that 
population escalating to violence.''\4\
---------------------------------------------------------------------------
    \4\ Ibid.
---------------------------------------------------------------------------
    Traditional counterterrorism efforts have focused on the third 
category--criminal activity that requires a law enforcement response to 
disrupt, investigate, and prosecute. The first 2 categories of 
individuals concern government and the people because of their 
potential for moving to violence. Since they have not moved into 
criminal conduct, the Government's activities toward these individuals 
need to be framed differently than those in the third category.
    RAND also noted that, ``the model is not specific to any given 
ideology or population.''\5\ This latter point is notable. Yes, we need 
to understand the ideologies of violent White Supremacists and anti-
Government extremists. In part because they may help us understand 
where the next attack may occur or the method they may use, and it may 
help law enforcement better detect associations with or activities of a 
particular extremist group. But many extremism experts note that the 
motivation to join terrorist movements tend to be less about the 
ideology and more about filling unmet needs caused by trauma, exposure 
to violence, a sense of marginalization, grievance, or humiliation.\6\ 
This means, arguing with a White Supremacist about why their ideology 
is wrong and disgusting, is not an effective de-mobilization or de-
radicalization technique.
---------------------------------------------------------------------------
    \5\ Ibid.
    \6\ This is the assessment of many that research extremism. For 
example, see: Miller-Idriss, Cynthia. Hate in the Homeland: The New 
Global Far Right (pp. 3). (2020). Princeton, NJ. Princeton University 
Press. Picciolini, Christian. Breaking Hate: Confronting the New 
Culture of Extremism (pp. xxi-xxiii). (2020). New York, NY: Hachette 
Books. An interview with Jessica Stern: http://www.bu.edu/articles/
2021/jessica-stern-on-why-january-6-attack-on-capitol-was-act-of-
terroris m/.
---------------------------------------------------------------------------
  participants in the january 6 attack represent a different kind of 
                               extremism
    It was clear even as the attack unfurled, that several organized 
violent extremist groups were present, including Neo-Nazis, Proud Boys, 
Oath Keepers, and Three Percenters. There were also less organized 
Groypers and QAnon adherents, along with unaffiliated individuals there 
to support Trump. The investigations are still underway and while there 
are some signs of coordination among some organized extremist groups, a 
study released this week from the University of Chicago found startling 
distinctions between those who have been indicted thus far for actions 
on January 6 and ``traditional'' domestic extremists.\7\ The indicted 
January 6 attackers have significantly less ties to organized extremist 
groups; about 10 percent of those arrested had ties compared to almost 
50 percent of domestic extremists in the 2015-2020 period. January 6 
attackers were also, on average, older and 40 percent owned businesses 
or held white-collar jobs.
---------------------------------------------------------------------------
    \7\ https://www.theatlantic.com/ideas/archive/2021/02/the-capitol-
rioters-arent-like-other-extremists/617895/.
---------------------------------------------------------------------------
    As we examine the current state of the threat and discuss what to 
do, we need to keep in mind that the threat that manifested on January 
6 was likely aided by organized extremist movements, but it appears 
that a large majority that participated in criminal acts were 
unaffiliated with an organized group and primarily motivated by 
grievances created and amplified by the former President.
            the challenges of addressing domestic terrorism
    When I appeared at my last hearing a year ago this month, the 
challenges I highlighted related to scaling up DHS's prevention and 
protection capabilities to address the threat of domestic terrorism. We 
were concerned about a growth in violent White Supremacist and anti-
Government extremist groups and what we often call the ``quick-
radicalization'' problem--the speed at which an individual can be 
exposed to extremist content and mobilize to violence. And the 
Government was challenged by lack of good prevalence data. While those 
challenges remain, I believe the environment in which we approach 
domestic terrorism has become more exponentially more complicated.
    1. The global COVID-19 pandemic increased social isolation and 
other stress factors known to increase radicalization. Last March, 
while at DHS, I asked my team to research how pandemic mitigation 
efforts might exacerbate violent extremism. For decades, the Secret 
Service, the FBI, and academic researchers have examined the 
backgrounds and pre-attack behaviors of mass-attack perpetrators. Some 
of the risk factors of violent extremism they identified are increasing 
Nation-wide: Social isolation, financial stress, job loss, loss of 
loved ones, and significant changes or uncertainty in life. My team 
assessed that some groups would perceive public health measures as 
Government overreach infringing on rights and liberties, which might 
encourage anti-Government extremists. And we had already observed 
foreign actors and domestic violent extremists spreading disinformation 
about the pandemic to foment discord and encourage violence.\8\
---------------------------------------------------------------------------
    \8\ Note: This paragraph originally appeared in my opinion piece 
published in the Washington Post on October 16, 2020. https://
www.washingtonpost.com/opinions/2020/10/16/threats-against-democratic-
governors-prove-trumps-rhetoric-encourages-violence/.
---------------------------------------------------------------------------
    While we were frustrated that our warnings and recommendations for 
building resilience were not heeded by the previous administration's 
COVID-19 Taskforce, they were included in the recently-released 2020 
Homeland Threat Assessment, which concluded: ``Domestic Violent 
Extremists [present] the most persistent and lethal threat . . . 
Violent extremists will continue to target individuals or institutions 
that represent symbols of their grievances, as well as grievances based 
on political affiliation or perceived policy positions . . . The 
domestic situation surrounding the COVID-19 pandemic creates an 
environment that could accelerate some individuals' mobilization to 
targeted violence or radicalization to terrorism.''
    Three examples of this challenge:
  <bullet> In the first months of the pandemic, Moonshot CVE studied 
        the impact of mitigation measures on engagement with violent 
        extremist content on-line. They found a 21 percent average 
        increase in engagement with White Supremacist content on-line 
        in States with local ``stay at home'' directives in place for 
        10 or more days, compared to a 1 percent average increase in 
        engagement in States with local ``stay at home'' directives in 
        place for less than 10 days.\9\
---------------------------------------------------------------------------
    \9\ https://moonshotcve.com/social-distancing-white-supremacy/.
---------------------------------------------------------------------------
  <bullet> The rapid rise, even quasi-mainstreaming, of QAnon 
        conspiracy theories during the pandemic.\10\ While the 
        conspiracies alone are not domestic terrorism--there are 
        individuals who have attempted acts of terrorism in response to 
        their conspiratorial beliefs--including the intentional 
        derailing of a freight train near the hospital ship Mercy in 
        Los Angeles and QAnon supporters that traveled to Philadelphia 
        during the city's ballot counting operations who were arrested 
        with an AR-15 rifle and 160 rounds of ammunition.\11\
---------------------------------------------------------------------------
    \10\ https://www.usatoday.com/in-depth/tech/2020/08/31/qanon-
conspiracy-theories-trump-election-covid-19-pandemic-extremist-groups/
5662374002/.
    \11\ https://www.theguardian.com/us-news/2020/oct/15/qanon-
violence-crimes-timeline.
---------------------------------------------------------------------------
  <bullet> The arrests in October of militia group members allegedly 
        training for civil war, plotting to kidnap Michigan Governor 
        Gretchen Whitmer and Virginia Governor Ralph Northam.
    2. The underlying causes behind the January 6 attack has increased 
the number of ``vulnerable individuals''--likely leading to increases 
in the other two categories (individuals with radicalized thought but 
may or may not become violent; and individuals actually intending, 
planning, or attempting violence).
    We are often asked about prevalence. How many people in the United 
States are domestic terrorists? This is a difficult question to answer 
due to lack of good data and the way in which Government systems 
categorize data. In her recent book, Hate in the Homeland, Cynthia 
Miller Idriss offers a ``best estimate--looking across all groups and 
organizations . . . of 75,000 to 100,000 people affiliated with White 
Supremacist extremist groups in the United States, not including 
individuals who engage occasionally from the peripheries of far-right 
scenes or who are ideologically supportive but engaged either on-line 
or off-line.''\12\ Germany, which has better monitoring of domestic 
extremists, estimates they have approximately 24,000--what they term, 
``right-wing extremists''--and about 50 percent of those are considered 
potentially violent.\13\ If we apply their ratio to our numbers, that 
would put us at 37,000-50,000 potentially violent White Supremacists 
within the United States.
---------------------------------------------------------------------------
    \12\ Miller-Idriss. Pp 20.
    \13\ Ibid.
---------------------------------------------------------------------------
    Because we lack monitoring and data collection capabilities, I 
caution how these numbers are used, but it certainly gives you a sense 
of the scope. When the FBI briefed Congress last year, they indicated 
they had about 1,000 open domestic terrorism investigations--but we may 
have significantly more potentially violent individuals in just one 
type of domestic terrorism (White Supremacy). We are outmanned.
    More chilling, those were estimates prior to the attack on January 
6. According to an Economist/YouGov poll completed last week, 78 
percent of Trump voters believe the Presidential election was 
``stolen''.\14\ That's approximately 57 million Americans. The 2020 
campaign was framed as an existential battle for the ``soul of the 
country.'' If one believes the election was ``stolen'' and that the 
``other side'' poses an existential threat, one could be vulnerable to 
arguments that violence is justified. While it might be illegal and 
immoral, it is not illogical for one to conclude a revolution might be 
called for if you believe your Government has broken its obligations to 
you under the Constitution.
---------------------------------------------------------------------------
    \14\ YouGov surveyed 1,500 U.S. adults, including 1,245 registered 
voters, between January 24 and January 26 for its latest poll. Its 
overall margin of error stands at 3.4 percentage points.
---------------------------------------------------------------------------
    To be clear, statistically speaking, it would be a relatively small 
percentage that might move to violence--but even if it is as low as 
0.5-1 percent--that's somewhere between 240,000-570,000 people. (For 
context, imagine how our Nation would react if that was the number of 
international terrorists living among our citizens.) It is a number 
that far exceeds any law enforcement or security capability we have 
within the country. Accordingly, one of our primary goals in these next 
months needs to be debunking the lies about the stolen election, in 
order to shrink the number of individuals vulnerable to radicalization 
to violence.
    We do not have much time. On-line chatter collected by open-source 
groups like the SITE Intelligence Group indicates significant 
elevations of anti-state sentiment from QAnon and Trump supporters, as 
they feel they've been pushed out of the mainstream.
    Further, we expect to see a networking effect from January 6--
having physical, in-person encounters during an emotional experience 
that many consider to be a ``battle'' is likely to form bonds among 
people that perhaps had never before met or had previously been limited 
to on-line contact. What we are seeing on-line seems to align with that 
expectation--intermingling between traditional organized extremist 
groups and disaffected Trump supporters and QAnon adherents.
    Certain violent extremist groups like the Neo-Nazi's, are sharing 
tips on how to recruit disheartened QAnon and Trump supporters. The 
SITE Intelligence Group assessed one such post as ``notable for the 
confluence of far-right concepts and slogans, tied together with more 
mainstream conservative ideas in an effort to make them palatable to a 
broader audience.''\15\ And postings on both Neo-Nazi and Proud Boys 
channels, offered instructions on how to approach--including guidance 
to not ``haze'' but be a ``shepherd'' and ``let them know there is an 
alternative to what the Beast System offered them''.\16\ Others were 
more direct, encouraging Trump supporters to ``Abandon the GOP'' and 
``embrace the ultranationalist 3d position'' fascism.\17\
---------------------------------------------------------------------------
    \15\ SITE Intelligence Group Bulletin, January 12, 2021. ``We 
Cannot Vote Our Way Out Of This'': Prominent Neo-Nazi Channel Addresses 
Trump Supporters.'' https://ent.siteintelgroup.com/Far-Right-/-Far-
Left-Threat/we-cannot-vote-our-way-out-of-this-prominent-neo-nazi-
channel-addresses-trump-supporters.html.
    \16\ SITE Intelligence Group Bulletin, January 23, 2021. 
``Prominent Neo-Nazi Venue Urges Trump Supporters to `Abandon GOP' and 
Embrace `Third Position' Fascism.'' https://ent.siteintelgroup.com/Far-
Right-/-Far-Left-Threat/prominent-neo-nazi-venue-urges-trump-
supporters-to-abandon-gop-and-embrace-third-position-fascism.html.
    \17\ Ibid.
---------------------------------------------------------------------------
    Recruitment is easier for extremist groups now than ever before. 
Dr. Miller-Idriss explains that extremist ideas have been mainstreamed 
and normalized through ``political speech, conspiracy theories, and . . 
. communication styles'' that use ``humor and memes . . . [to make] 
extreme ideas seem less dangerous than they really are.''\18\
---------------------------------------------------------------------------
    \18\ Miller-Idriss. Pp 47.
---------------------------------------------------------------------------
    The expanded pool of vulnerable individuals resulted in some 
mobilization to violence on January 6. Extremism experts believe we 
will likely see more. There is a high likelihood of violence in the 
coming months on a range of softer targets associated with their 
perception of the ``Deep State'' including infrastructure, mainstream 
media, law enforcement, ``Big Tech'', and elected officials.
    But beyond the short-term, I believe we will be fighting domestic 
terrorism that has its roots or inspiration points in the events 
leading up to and on January 6 for the next 10-20 years.
    3. We lack a shared understanding and unity of commitment to 
address the threat, and discussions about Domestic Terrorism are being 
manipulated and disinformation is further feeding the grievance cycle--
which could cause more people to radicalize to violence.
    There is a growing overlap between extremism and political 
discourse. Foundations have been laid for years by right-leaning media 
outlets that ``mainstream media'' is misleading, biased, or presents 
``fake news.'' In fact, during the 2016 election cycle and its 
aftermath, right-leaning media were heartened (and amused) that Trump 
would ``fight back'' and ``push against'' the ``mainstream media.'' 
This onslaught created an atmosphere of distrust of the ``mainstream 
media,'' and sent many into seeking news and information within ``echo 
chambers'' that provided feedback that substantiated opinions, but not 
facts.
    To wit, there has also been significant conflation between news 
desks and opinion show formats--where the latter presents ``breaking 
news'' opinion as factual news. Already, certain voices on the right 
side of the political spectrum have used opinion media platforms to 
assert that ``the mainstream media'' have declared anyone who attended 
the rally on January 6 a ``domestic terrorist.'' Next right-leaning 
opinion commentary declared that ``radical liberals'' consider all 74 
million that voted for Trump ``domestic terrorists''.\19\
---------------------------------------------------------------------------
    \19\ https://www.washingtonpost.com/politics/2021/01/28/tucker-
carlson-is-telling-his-viewers-that-democrats-see-them-terrorists/.
---------------------------------------------------------------------------
    As an avid news consumer and commentator on this topic, I have not 
seen an example of a major news organization or ``mainstream media'' 
opinion commentator declaring everyone on the right a domestic 
terrorist. Nor, in reviewing the prominent commentators' assertions, 
have I found right-leaning opinion shows to present actual facts and 
evidence to back-up those arguments. In other words, I believe they 
are, based on financial and marketing decisions, purposefully lying to 
their viewers. But that does not matter in our present moment when 
passions are inflamed, and those who are told they are being 
disenfranchised by the ``radical left,'' trust no one but your ``side'' 
to tell you ``truth.''
    Disinformation and lack of action by the Trump administration also 
created an impression of equivalency between extremist groups that 
identify with the far right-side of the political spectrum and those 
that identify with the far-left. In particular, the former President's 
obsession (fueled by right-leaning media outlets' obsessions) with 
ANTIFA--a descriptor that stands for Anti-Fascist--led to a redirection 
of resources away from open domestic terrorism investigations \20\ and 
led many to believe that they are just as dangerous as Neo-Nazis. The 
statistics do not support this belief.
---------------------------------------------------------------------------
    \20\ https://www.nytimes.com/2021/01/30/us/politics/trump-right-
wing-domestic-terrorism.html?searchResultPosition=4.
---------------------------------------------------------------------------
    While all violence should be treated equally under the law, the 
Government should portion its resources to those threat actors posing 
the gravest threats to our National security. The Government will need 
to repeatedly offer the facts about the number of arrests, attacks, and 
deaths caused by violent White Supremacists and anti-Government 
extremists versus those adhering to a far-left ideology. But as with 
the disinformation challenge noted above, it will be difficult for the 
Government to communicate facts to an audience that is predisposed to 
believing the disinformation.
    I agree with President Obama's assertion that we are facing ``an 
epistemological crisis.'' ``If we do not have the capacity to 
distinguish what is true from what is false, then by definition the 
marketplace of ideas does not work, and by definition our democracy 
does not work,'' he explained.\21\
---------------------------------------------------------------------------
    \21\ Goldberg, Jeffrey. ``Why Obama Fears for Our Democracy''. The 
Atlantic. November 16, 2020. https://www.theatlantic.com/ideas/archive/
2020/11/why-obama-fears-for-our-democracy/617087/.
---------------------------------------------------------------------------
    It is not law enforcement or the counterterrorism community's 
responsibility to fix an epistemological crisis. But if our society 
does not fix it, it will increase the workload of the security 
community. And in addressing this challenge and the violent threat 
associated with it, we must be careful to not inadvertently ostracize 
and anger more people, which could then lead to more radicalization to 
violence.
    4. Some in the counterterrorism, homeland security, and law 
enforcement communities underestimated the threat.
    The narratives of ``lone-wolf'' attackers have dominated threat 
assessments for decades. While mostly true that Oklahoma City, Mother 
Emannuel Church, Pittsburgh, Christchurch, El Paso, and other attacks 
were committed by one individual--they were not alone in getting to the 
point of committing acts of violence. Rather this is the preferred 
tactic by design of White Supremacist movement.
    Before we design tactics and strategies and consider changes in 
law, we need a deeper understanding of the history and intent behind 
these extremists movements. For example, Kathleen Belew, a historian of 
the White Power and paramilitary movements in America, explains that in 
1983 the White Power movement declared war on the Federal 
Government.\22\ Their goals were to destabilize the Government, wage a 
revolutionary race war, and establish a White homeland. They also 
decided to follow a leaderless resistance model and encouraged 
individual or small group attacks to reduce detection by law 
enforcement.
---------------------------------------------------------------------------
    \22\ Belew, Kathleen. Bring the War Home: The White Power Movement 
and Paramilitary America (pp. 104). (2018). Cambridge, MA. Harvard 
University Press.
---------------------------------------------------------------------------
    During my time in Government, I asked intelligence analysts for 
assessments on the motivations and strategic aims of violent White 
Supremacists, I was never briefed about their 1983 declaration of war 
on the Government, or that some were pursuing the establishment of a 
``White homeland.'' I was left with the impression that their primary 
efforts were to create fear among non-White populations--which of 
course is horrid--but not as sophisticated an intent as overthrowing 
the U.S. Government.
    Calling the attackers ``lone wolves'' left the impression for 
policy makers and those crafting counterterrorism strategies, there is 
a randomness to attacks--that you can explain their actions away as 
individuals that are mentally unwell--and therefore we cannot track the 
threat the same way we track threats emanating from ISIS or al-Qaeda. 
But that is inaccurate.
    I believe January 6 may be a turning point for the law enforcement 
and counterterrorism community to see the movement behind the 
individuals. President Biden's task to DNI Haines for a threat 
assessment was scoped wisely to include data and expertise from outside 
Government. That's the first step--understand the enemy.
                           what should we do?
    In closing, some thoughts on where we go from here.
    I believe as the pandemic ends, hopefully later this year, and 
people begin to return to some form of normal socializing we are likely 
to see both a decrease in vulnerability to radicalization--the comforts 
of our old lives will help ease anxieties, people will spend less time 
on-line indulging in conspiracy theories; but paradoxically, the 
increase in mass gatherings will provide the targets that violent 
extremists are waiting for. Therefore, we must be prepared for these 
attacks.
    1. Define the Threat and Educate the American People About the 
Threat
    The DNI-coordinated threat assessment will provide a baseline from 
which the Government can begin to educate the American public about 
domestic terrorism.
    Information will help inoculate some that might be in the 
``vulnerable'' category on the radicalization spectrum. It will also 
help bystanders better understand what to look for if a loved one or 
colleague demonstrates a change of behavior that might be indicative of 
radicalization to violence.
    DHS, FBI, and State and local law enforcement should recognize that 
they are not necessarily viewed as credible voices by some Americans, 
and as such, they should work with voices viewed as credible to educate 
the public about the intent of extremist groups, the ways they recruit, 
and that breaking the law will lead to prosecution and legal 
consequences. In particular, there appears to be significant 
misinformation about the legality of private militia groups in the 
United States. A concerted campaign to educate on what is and is not 
protected by the 2nd Amendment may reduce their numbers.
    2. Encourage Potential Targets to Dust-Off Security Plans and Urge 
Public Vigilance and Bystander Reporting
    I have confidence that the new leadership at DHS and current 
leadership at FBI will continue to encourage public vigilance, see 
something/say something; and encourage owners and operators of 
infrastructure, especially those hosting public spaces--including 
faith-based organizations--to review their protective security plans, 
consider running exercises and update security plans as necessary.
    The recent National Terrorism Advisory System (NTAS) Bulletin \23\ 
issued by DHS makes it easier for State and local governments to access 
overtime funding for security functions, which is helpful in a 
heightened threat environment. Congress could consider providing 
additional funds to assist faith-based and non-profit organizations 
which are often mentioned as potential targets by the White Power 
movement. Such considerations should also factor in that many COVID-19 
and QAnon-related conspiracy theories promote anti-Semetic beliefs and 
often list specific infrastructure targets such as 5G towers.
---------------------------------------------------------------------------
    \23\ https://www.dhs.gov/sites/default/files/ntas/alerts/
21_0127_ntas-bulletin.pdf.
---------------------------------------------------------------------------
    3. DHS should continue expanding locally-based, multi-disciplinary 
prevention capabilities, and the administration should encourage State 
and local governments to join the effort. The Congress should codify 
DHS's Office of Targeted Violence and Terrorism Prevention to 
memorialize its support for these prevention efforts.
    4. Federal Law Enforcement activity should appropriately 
demonstrate that any threat or acts of violence is treated the same 
regardless of the ideological motivation. In particular, the Government 
needs to explain their rationale for acting, or not acting, on 
situations often raised by those on the conservative side of the 
political spectrum pertaining to ``far-left violent extremism.'' The 
Government should also publicize data on the actual number of acts of 
violence and arrests associated with the protests last summer to help 
debunk the disinformation spread about ANTIFA-related attacks.
    5. We must explore domestic terrorism-related statutory, policy, 
and culture changes with diligence, wisdom, and care.
    I believe equal justice under the law requires treating threats 
from ideologies that originated overseas and within the United States 
the same. Of course the way we investigate U.S. citizens and those 
residing within the United States is different than how we investigate 
a foreigner overseas. But it makes no sense that the same plans to 
commit a crime within the United States in the name of ISIS can 
leverage more investigative tools and stiffer penalties than if it's 
committed on behalf of a violent White Supremacist ideology.
    I believe that at a minimum, we should pass a law that makes 
domestic terrorism a crime, which would allow more flexibility in 
investigations and stronger sentences. It also may serve as a deterrent 
effect. I also believe the material support statute should be updated 
to reflect any new criminal domestic terrorism statute.
    Finally, I believe we should consider and robustly debate expanding 
the current foreign terrorist designation capability to domestic 
terrorism. While this is usually looked at through the lens of the aide 
it provides FBI and DOJ--I would encourage those studying the pros and 
cons to examine the assistance a designation process may provide to 
other parts of the counterterrorism community. Tools such as 
watchlisting, screening, and vetting would benefit from a designation 
process. Likewise, private industry can be better informed about whom 
they should not conduct business and the tech industry has guidance it 
can rely on for decisions related to content takedown and deplatforming 
for violations of their terms of service. This also allows for clear 
communication to the public about such groups and may have a deterrent 
effect.
    As we have learned over the years, such efforts can also have 
unintended consequences and those should be examined. We may find 
domestic terrorist groups adapt to be even more decentralized or 
constantly rebranding (as Attomwaffen Division has done). And of 
course, such changes need to be undertaken in a way to ensure 
Constitutional rights and liberties are protected.
    For these reasons, I renew the call I made last year before a 
subcommittee of this body--for a bi-partisan commission to be 
established to explore the best ways to update our laws, policies, and 
cultures within the security community to ensure we address this threat 
appropriately. We must learn from both the successes and the failures 
of the past 20 years of counterterrorism. You responded to that call 
with a proposed commission that nearly made it into law, but was cut 
from the NDAA at the last minute.
    The attacks of January 6 demand not only an accounting of how they 
occurred, but a thorough review of options to better address this 
complex and rapidly-changing threat. These are difficult issues and 
they would benefit from deep consideration by a bi-partisan set of 
legal, security, and civil liberties experts that can dedicate most of 
their attention to quickly examining options. These debates need to be 
removed from the political spotlight for reasonable and diligent 
deliberations to occur. And once the commission reports its findings 
and proposed solutions, those solutions should be debated by the public 
through their representatives in Congress.
    Finally, a year ago, when I testified at a subcommittee of this 
committee--I stated: ``We need to make it harder to carry out an attack 
and reduce the potential loss of life, as well as prevent individuals 
from mobilization to violence in the first place. Achieving those 
objectives is beyond the Federal Government's capability and role 
alone.''
    At the time, I was referencing the need for a multi-disciplinary 
approach to prevention. But where we sit now a year later, the threat 
requires more. We must call on other parts of our society to reflect on 
their contributions to our current moment. What can the technology 
community do better? What can educators do to help? How can the faith 
community better help their followers who chose a dark path?
    Ultimately, repairing what is broken in our country will not happen 
inside the institutional halls of Washington, DC. Yes, the security 
community has a role and the Congress should debate what additional 
tools and resources to give them to carry out those roles. And yes, 
those who incited or committed the attacks on January 6 must be held 
accountable. But that alone will not fix the extremist threat we face.
    The challenge ahead requires rediscovering we are Americans before 
we are a party affiliation or a political philosophy. It requires 
discipline among citizens, and exercising leadership among elected 
officials and the media, to not give into the monetized grievance cycle 
of our media and political system. It requires rebuilding civic society 
at a local level; choosing respectful civil discourse over cancel-
culture; and rejecting political ideologies or identity politics that 
focus on grouping ``them'' into an ``enemy'' of the ``tribe''. Where 
and how do we start? Locally. By remembering how to love our neighbor.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Thompson. I thank you very much.
    I now ask Mr. Greenblatt to summarize his statement for 5 
minutes.

  STATEMENT OF JONATHAN GREENBLATT, CHIEF EXECUTIVE OFFICER, 
                     ANTI-DEFAMATION LEAGUE

    Mr. Greenblatt. Thank you, Mr. Chairman, Ranking Member 
Katko, and all the Members of the committee. It is a pleasure 
to be here today.
    My name is Jonathan Greenblatt. I am the CEO of ADL. It is 
an honor to talk with you about the urgent threat posed by 
domestic terrorism.
    As many of you know, ADL is the oldest anti-hate group in 
the world and one of the longest-standing civil rights 
organizations in the United States. For more than a century ADL 
has worked to stop the defamation of the Jewish people and 
secure justice and fair treatment to all. As part of our work, 
we have built a world-class team investigating extremist 
threats, an evil that has intensified and expanded with 
devastating consequences.
    Indeed, we should keep in mind extremism is not new. It has 
evolved and mutated over the decades. In the 1960's what we 
could describe as left-wing terrorism was a serious threat. But 
in recent decades, and in particular over the past 5 years, 
right-wing extremism, and in particular White Supremacy, has 
experienced a terrifying resurgence.
    Let me make clear this is not a Republican problem or a 
Democratic problem. It is an American problem. I am heartened 
to see this committee coming together to tackle it.
    Why is the threat of right-wing extremism on the rise? I 
believe there are two forces that are fueling this movement.
    First, leaders at the highest levels who have repeated 
their rhetoric, co-opted their conspiracies, and whether 
intentional or not, given extremists the green light.
    The second is social media. No longer does a person have to 
decamp to a clandestine compound in the woods. Today you can 
find hate 24/7 with just a few clicks on your phone. As we 
know, on-line hate can explode into real-world violence.
    We saw this in 2015 at a Black church in Charleston, South 
Carolina, in 2018 at a synagogue in Pittsburgh, Pennsylvania, 
in 2019 at a Walmart in El Paso, Texas.
    Indeed, White Supremacists are responsible for more murders 
than any other type of domestic extremists, accounting for 
nearly 60 percent of all such crimes in the past decade.
    ADL just released yesterday our annual report on murder and 
extremism. We found that extremist activity skyrocketed in 
2020. Sixteen out of 17 of the deaths were caused by right-wing 
extremists, and there were more than 5,000 incidents of White 
Supremacist propaganda in the country last year, almost double 
the number in 2019.
    Frighteningly, as we saw on January 6, more and more 
ordinary people are being radicalized and spurred to acts of 
terror, weaponized against this very Congress and the Republic 
itself.
    For decades, ADL's Center on Extremism has been actively 
monitoring hate groups of all stripes, and in recent months we 
have tracked domestic extremists lashing out at elected 
officials in the wake of last November's election. Indeed, what 
happened at the U.S. Capitol was the most predictable terror 
attack in American history.
    That act of domestic terrorism was a watershed moment for 
the White Supremacist movement in this country. For them, the 
sight of Congressmen and -women cowering under tables, 
Confederate flags and Nazi symbols being paraded through the 
building, was nothing short of a victory.
    At ADL, while we were shocked by the violence, we weren't 
surprised. This insurrection didn't materialize out of thin air 
and it will not dissipate in its aftermath unless we take 
action. We believe it is time not just for a whole-of-
Government approach, but a whole-of-society strategy to combat 
White Supremacy and all forms of domestic terrorism.
    With that in mind, ADL respectfully presents to you today 
the bipartisan PROTECT framework, a comprehensive 7-part plan 
to mitigate the threat posed by right-wing extremism and 
domestic terrorism while staying true to American freedoms and 
values.
    The details are in my written testimony and I am happy to 
talk about it in the Q&A, but the highlights include, No. 1, 
passing the Domestic Terrorism Prevention Act; No. 2, 
coordinating across all Government agencies--Federal, State, 
and local--with a clear prioritization of the problem; No. 3, 
ensuring that extremists cannot serve in the military, in law 
enforcement, or in elected office; No. 4, holding social media 
companies accountable for their complicity in facilitating 
extremism; No. 5, funding creative efforts to prevent people 
from radicalizing and off-ramping individuals caught up in 
these conspiracies; and No. 6, targeting foreign White 
Supremacist terror groups, because make no mistake, this 
movement is a global threat.
    Here is what you need to keep in mind and what I think 
makes our plan different than some of the others. There is no 
silver bullet to stopping the threat of domestic terrorism. A 
singular statute won't solve the problem. This is a multi-
pronged approach to address a multi-pronged issue. It 
acknowledges the existing authorities that are already 
available, even as we innovate with new approaches.
    Members of the committee, we can accomplish our goals while 
protecting vulnerable communities. Together these actions 
should have a significant impact on preventing and countering 
domestic extremism and protecting the homeland.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Greenblatt follows:]
               Prepared Statement of Jonathan Greenblatt
                            February 4, 2021
    Chair Thompson, Ranking Member Katko, Members of the committee, 
good morning. I am Jonathan Greenblatt, chief executive officer and 
national director at the ADL, and it is an honor to appear before you 
today to address the issue of domestic terrorism and the dire threat 
that it poses.
    Since 1913, the mission of ADL (the Anti-Defamation League) has 
been to ``stop the defamation of the Jewish people and to secure 
justice and fair treatment to all.'' For decades, one of the most 
important ways in which ADL has fought against bigotry and anti-
Semitism has been by investigating extremist threats across the 
ideological spectrum, including White Supremacists and other violent 
extremists, producing research to inform the public of the scope of the 
threat, and working with law enforcement, educators, the tech industry, 
and elected leaders to promote best practices that can effectively 
address and counter threats to communities.
    As ADL has said time and time again, extremists must be taken at 
their word. Anyone who has been paying attention to extremist activity 
across the country, or to the chorus of disinformation and hatred 
rampant across extremist media and some corners of social media, will 
tell you that what happened at the U.S. Capitol on January 6 was in 
some ways the most predictable outbreak of political violence in 
American history.
    For many of the people who were roused to violence that day, their 
actions were the product of years of incitement, spread with stunning 
speed, scope, and impact on social media. A portion of these 
individuals constitute a new breed of extremist, one foundationally 
animated by devotion to now-former President Trump. They are also 
living in an entire ecosphere of disinformation, lies, and conspiracy 
theories, ones fertilized by Alex Jones, QAnon, groups like the Proud 
Boys, Oath Keepers, and Three Percenters, the former President, and 
many others.
    But the insurrectionists who stormed the Capitol last month are by 
no means our Nation's only concern when it comes to domestic extremism. 
Without a doubt, violence from White Supremacists and other right-wing 
extremist actors is currently the greatest domestic extremism threat. 
From Charleston to Charlottesville to Pittsburgh, to Poway and El Paso, 
we have seen the deadly consequences of White Supremacist extremism 
play out all over this country. We cannot afford to minimize this 
threat. We need a bipartisan ``whole-of-Government approach''--indeed, 
a ``whole-of-society'' approach--to counter it, and the work must start 
today.
    Right now, many policy makers and pundits are looking for a silver 
bullet--a one-size-fits-all approach that will solve the challenge of 
domestic terrorism. Unfortunately, we know from our extensive work and 
analysis in this field that no such panacea exists. That is why ADL is 
launching the PROTECT plan--a comprehensive, 7-part plan to mitigate 
the threat of domestic terrorism while protecting civil rights and 
civil liberties. The key elements of this plan, discussed in more 
detail below, are appropriately prioritizing and allocating sufficient 
resources--informational, legal, and financial--to address this 
extremist threat. Together, they can have an immediate and deeply 
significant impact in preventing and countering domestic terrorism and 
the extremism associated with it--more so than any one law--and can 
accomplish these goals while protecting vulnerable people and 
communities against the risk of Government overreach.
    In my testimony today, I will explain and elaborate on this 
framework and offer concrete steps that Congress can take to begin to 
confront and reduce the lethal threat of domestic extremism and 
domestic terrorism. First, however, I will contextualize the events as 
they unfolded on January 6 and summarize what we know and what the data 
tells us regarding the rising threat of domestic extremism and domestic 
terrorism in our Nation today.
                      insurrection at the capitol
Overview of Events
    On January 6, a broad coalition of right-wing extremists descended 
on Washington, DC and a number of State capitals. Ostensibly gathered 
to hear President Trump and his family speak and to dispute the results 
of the 2020 Presidential election, rioters stoked violence against law 
enforcement officers before storming the U.S. Capitol in an 
extraordinary display of political violence.\1\ By the afternoon, the 
Capitol was under siege by domestic terrorists who had taken over the 
building, videoing and photographing themselves in the House chamber, 
calling for the execution of administration officials and Members of 
this Congress, violently attacking overwhelmed law enforcement members 
charged with protecting this body, and trapping Members and staffers 
throughout the building.
---------------------------------------------------------------------------
    \1\ Washington Post staff, ``Woman dies after shooting in U.S. 
Capitol; D.C. National Guard activated after mob breaches building,'' 
Washington Post, January 7, 2021. (https://www.washingtonpost.com/dc-
md-va/2021/01/06/dc-protests-trump-rally-live-updates/#link-
FLU6WSIEHRHQRJKE6ANICM7ZQQ).
---------------------------------------------------------------------------
    As the chaos unfolded, President Trump tweeted his support for the 
insurrectionists: ``These are the things and events that happen when a 
sacred landslide election victory is so unceremoniously & viciously 
stripped away from great patriots who have been badly & unfairly 
treated for so long. Go home with love & in peace. Remember this day 
forever!'' The tweet was later deleted by Twitter, and the President's 
account was put on a temporary suspension, which has since been made 
permanent.
    Earlier in the day, Metropolitan Police discovered and successfully 
detonated 2 homemade bombs which were placed near the buildings housing 
the offices of the Democratic and Republican National Committees.
    The siege resulted in at least 5 deaths: 3 from ``medical 
emergencies,'' 1 pro-Trump extremist who was shot by Capitol Police, 
apparently while breaking into the Capitol, and 1 Capitol Police 
officer who apparently was hit repeatedly by protesters wielding a fire 
extinguisher and subsequently died from his injuries. Furthermore, 2 
officers who responded to the violent insurrection reportedly died by 
suicide in the intervening days, and dozens of officers present at the 
scene have sustained documented injuries.\2\
---------------------------------------------------------------------------
    \2\ Caitlin Emma and Sarah Ferris, ``Second police officer died by 
suicide following Capitol attack,'' Politico, January 27, 2021. 
(https://www.politico.com/news/2021/01/27/second-officer-suicide-
following-capitol-riot-463123)
---------------------------------------------------------------------------
Context
    The attack on our Capitol took place against a political and 
cultural backdrop in which hate has proliferated and gone largely 
unchecked, particularly over the past 5 years. This has served only to 
embolden extremists, especially White Supremacist and other right-wing 
violent extremists. Right-wing extremists--including anti-Government 
extremists--have been responsible for 75 percent of domestic extremist-
related killings in the United States over the course of the past 
decade, most of them targeting marginalized communities.\3\
---------------------------------------------------------------------------
    \3\ ADL, ``Murder and Extremism in the United States in 2019.'' 
(https://www.adl.org/media/14107/download) Over the past 10 years, 
right-wing extremists committed 75 percent of extremist-related 
murders, making the 2019 figure higher than average.
---------------------------------------------------------------------------
    Therefore, the attack on the Capitol does not mark a sudden 
increase in extremist violence. Rather, it is the unfortunate and 
largely predictable result of years of growing hate and violence coming 
home to roost. Just as the attack did not materialize out of nowhere, 
the threat has not dissipated in its aftermath. We are all at risk if 
we do nothing.
    For years, ADL has warned of the growing threat of White 
Supremacist violence here in the United States. This goes hand-in-hand 
with a significant threat of violence from anti-Government extremists, 
including militia groups.
The White Supremacist Threat
    Since the 2016 Presidential election campaign, White Supremacy has 
experienced a resurgence, driven in large part by the rise of the alt 
right, the newest segment of the White Supremacist movement.
    Modern White Supremacist ideology is centered on the belief that 
White people are in danger of extinction, drowned by a rising ``tide'' 
of people who are not White, who are being controlled and manipulated 
by Jews. White supremacists believe that almost any action is justified 
if it will help ``save'' the White race from ``replacement.''
    Violence and crime represent the most serious problems emanating 
from the White Supremacist movement. White Supremacists have killed 
more people in recent years than any other type of domestic extremist, 
accounting for 58 percent of all domestic extremist-related murders in 
the past 10 years.\4\ They are also a troubling source of domestic 
terror incidents, including 21 plots or attacks within the past 5 
years.\5\
---------------------------------------------------------------------------
    \4\ ADL, ``Murder and Extremism in the United States in 2020.'' 
(https://www.adl.org/murder-and-extremism-2020).
    \5\ ADL H.E.A.T. Map. (https://www.adl.org/education-and-resources/
resource-knowledge-base/adl-heat-map).
---------------------------------------------------------------------------
    Yet murders and terror plots represent only the tip of the iceberg 
of White Supremacist violence, as there are many more incidents 
involving less severe crimes, including attempted murders, assaults, 
weapons and explosives violations, and more. In addition, White 
Supremacists engage in a large amount of non-ideological crime, 
including crimes of violence against women and drug-related crimes.
    From 2011 through 2020, White Supremacists alone killed 249 people 
in the United States in terrorist acts, hate crimes, and other violent 
acts. Other right-wing extremists added 107 more deaths to the grisly 
toll.
    Describing these as ``lone wolf'' attacks is often a 
mischaracterization or tells only part of the story. There is a 
throughline from the attacks at Charleston and Charlottesville and 
Pittsburgh to Poway and El Paso, as well as to attacks by White 
Supremacists that took place outside of the United States, such as the 
massacre of Muslim worshippers in Christchurch, New Zealand.
    And each attack was followed by White Supremacists celebrating on-
line. Extremists use the internet as a gathering place, a place to 
extoll supposed martyrs, a place to declare their intentions, and a 
place to share encouragement and instructions. As we've said before, a 
number of on-line forums and platforms host what amounts to a 24/7 
extremist rally. We need to recognize that because of the internet, 
extremists need not travel to a training camp to be inculcated with a 
toxic ideology and learn how to carry out deadly attacks.
Anti-Semitism and Racism on Display
    The domestic terrorists who attacked our Capitol wore racist and 
anti-Semitic clothing, and triumphantly marched a Confederate flag 
through the halls of the Capitol building. This mix of racism and anti-
Semitism was not an accident, nor was its display a coincidence.\6\ The 
goal of the January 6 attack was not merely to assert political power 
and to overturn the result of the 2020 Presidential election. For some, 
it was also to assert White power and create fear in marginalized 
communities.
---------------------------------------------------------------------------
    \6\ ADL, ``Antisemites Implicate Jews, Zionists in DC Violence,'' 
ADL Blog, January 7, 2021. (https://www.adl.org/blog/antisemites-
implicate-jews-zionists-in-dc-violence).
---------------------------------------------------------------------------
    After the insurrection, various extremist channels celebrated the 
attack as a victory against Jews and other communities and expressed 
optimism about the potential for future violence.\7\ On Telegram, for 
example, the ``National Socialist Network''\8\ channel posted that 
``the brave White men in Washington DC have lit a flame that will never 
go out. By storming the spiritual home of the global parasite class, 
those heroes proved--before the whole world--that the Jews and their 
lackeys are not invulnerable.'' The ``White American National 
Socialist'' channel similarly exclaimed, ``what Whites must do now is 
to go out there and oppose these Jews & Sellout Politicians more and 
more because we finally showed ourselves we can be United and we 
achieve Victory here in America taking back our country along with 
showing the White People that we won't be tolerated by a lousy Jewish 
Minority!''\9\
---------------------------------------------------------------------------
    \7\ Id.
    \8\ ADL, National Socialist Movement. (https://www.adl.org/
education/references/hate-symbols/national-socialist-movement).
    \9\ ADL, ``Antisemites Implicate Jews, Zionists in DC Violence,'' 
ADL Blog, January 7, 2021. (https://www.adl.org/blog/antisemites-
implicate-jews-zionists-in-dc-violence).
---------------------------------------------------------------------------
What Went Wrong
    The attack on the U.S. Capitol was not a failure of intelligence. 
Planning for this event took place in plain sight, largely on social 
media; it was there for all the world to see. Then-President Trump--and 
some of his closest supporters--incited it in broad daylight. ADL knew 
that a severe conflagration might be coming, even publishing a roundup 
of some of the violent calls to arms that we were seeing in the days 
leading up to the event.\10\
---------------------------------------------------------------------------
    \10\ ADL, ``Extremists and Mainstream Trump Supporters Plan to 
Protest Congressional Certification of Biden's Victory,'' ADL Blog, 
January 4, 2021. (https://www.adl.org/blog/extremists-and-mainstream-
trump-supporters-plan-to-protest-congressional-certification-of).
---------------------------------------------------------------------------
    After President Trump lost the election and started reasserting 
ever more baseless accusations of voter fraud, ADL also warned of the 
danger that his words posed. In light of the tension across the country 
and the demonstrated tendency of right-wing extremists to resort to 
violence, we warned that his charges placed our nation ``in a red zone 
without precedent.''\11\ We urged elected officials, particularly 
members of the GOP, to call for calm, for law enforcement authorities 
at all levels to monitor these threats with utmost vigilance, and for 
social media services to remove any content that endorsed violence in 
any form. We watched extremist Trump supporters (and some mainstream 
ones) gather in D.C. on November 14 for the so-called ``Million MAGA 
March,''\12\ and then again on December 12 for multiple pro-Trump 
demonstrations,\13\ including one that was organized by White 
Supremacists and another that featured extremist speakers on its dais.
---------------------------------------------------------------------------
    \11\ ADL, ``Extremists and Mainstream Trump Supporters Plan to 
Protest Congressional Certification of Biden's Victory,'' ADL Blog, 
January 4, 2021. (https://www.adl.org/blog/extremists-others-respond-
to-president-trumps-calls-to-stop-the-count).
    \12\ ADL, ``Extremists and Mainstream Trump Supporters Gather for 
`Million MAGA March,' '' ADL Blog, November 15, 2020. (https://
www.adl.org/blog/extremists-and-mainstream-trump-supporters-gather-for-
million-maga-march).
    \13\ ADL, ``Pro-Trump Rallies in DC Attract Extremists & Erupt into 
Violence,'' ADL Blog, December 13, 2020. (https://www.adl.org/blog/pro-
trump-rallies-in-dc-attract-extremists-erupt-into-violence).
---------------------------------------------------------------------------
    In the days leading up to January 6, on-line chatter among 
potential attendees increased dramatically. On ``TheDonald.Win'' forum, 
users shared messages filled with violent rhetoric directed at a wide 
range of perceived enemies. In response to a user who wondered what 
would happen if Congress ignored ostensible ``evidence'' that President 
Trump won the election, another user wrote, ``Storm the capitol'' and 
another added, ``My truck is lifted and I have a plow on it right now. 
What do you need Mr. President?''
    Many extremist Trump supporters, and some mainstream ones, began 
framing the rallies as a last stand to prevent Joe Biden from being 
sworn in as the next President, and chatter indicated that there was a 
desire among some people to engage in radical or violent tactics to 
ensure that the election was not stolen from President Trump. As one 
user wrote on a militia forum, ``The 6th is the line for me. It will 
change or it will begin.'' Added another, ``I am waiting until the 06 
Jan date, then if Trump does nothing . . . I have a few LEO [law 
enforcement officer] friends who are going to do some major action and 
I am joining them.''
    All of this information was readily available--to the public, to 
elected leaders, to extremism experts, and to law enforcement. What was 
missing, and what has been missing for quite some time, is the 
political will to appropriately identify, adequately prioritize, and 
allocate sufficient resources to this ever-growing threat. As recently 
as late September 2020, for example, ADL expressed concern about the 
nomination of Chad Wolf for Homeland Security Secretary, in part due to 
his serious downplaying of the threat posed by White Supremacists and 
right-wing extremists in the year-plus that he had already spent in 
leadership at the Department of Homeland Security.
    Reportedly, the DHS intelligence office was ``gutted'' months ahead 
of the Capitol attack \14\--the same office in which the Trump 
administration had previously disbanded the unit specializing in 
addressing domestic terrorism.\15\ A former DHS intelligence official 
claims to have been ordered to downplay the threat of White Supremacist 
terrorism, despite a clear intelligence picture that it was a rising 
and present threat.\16\
---------------------------------------------------------------------------
    \14\ Josh Margolin and Lucien Bruggeman. ``Months Ahead of Capitol 
Riot, DHS Threat Assessment Group was Gutted: Officials.'' ABC News. 9 
January 2021. (https://abcnews.go.com/US/months-ahead-capitol-riot-dhs-
threat-assessment-group/story?id=75155673).
    \15\ Swan, Betsey. ``Homeland Security Disbands Domestic Terror 
Intelligence Unit.'' Daily Beast. 2 April 2019. (https://
www.thedailybeast.com/homeland-security-disbands-domestic-terror-
intelligence-unit).
    \16\ Zolan Kanno-Youngs and Nicholas Fandos. ``DHS Downplayed 
Threats from Russia and White Supremacists, Whistle Blower Says.'' New 
York Times. 9 September 2020. (https://www.nytimes.com/2020/09/09/us/
politics/homeland-security-russia-trump.html).
---------------------------------------------------------------------------
    Almost exactly 1 year ago, I myself testified before the House 
Committee on Homeland Security's Subcommittee on Intelligence and 
Counterterrorism on the topic of confronting the rise in anti-Semitic 
domestic terrorism.\17\ I warned then, as I do again today, of the 
unique dangers posed by White Supremacist extremism and the urgent need 
for action. Without a concerted, committed effort by our political and 
social leaders to combat this threat now as a major priority, we cannot 
hope to meaningfully address it.
---------------------------------------------------------------------------
    \17\ Testimony of Jonathan Greenblatt before the House Homeland 
Security Committee Subcommittee on Intelligence and Counterterrorism, 
``Confronting the Rise in Anti-Semitic Domestic Terrorism,'' January 
15, 2020. (https://www.adl.org/media/13948/download).
---------------------------------------------------------------------------
        current trends: the growing threat of domestic terrorism
    After years of manifestos and mass killings by domestic extremists 
in the United States, these attacks should no longer come as a surprise 
to anyone. Lawmakers, law enforcement, and the public need to recognize 
the grave and dangerous threat posed by right-wing extremism and White 
Supremacist extremism in particular. We cannot begin to defeat this 
deadly form of hatred if we fail to recognize it.
ADL Trends: By the Numbers
            ADL's 2020 Murder & Extremism Report
    ADL will soon be publishing our Center on Extremism's sixth annual 
report on extremist-related murders, ``Murder and Extremism in the 
United States in 2020.'' The good news is that 2020 saw a significant 
decrease in extremist-related killings--primarily because we were 
fortunate, for the first time in several years, to avoid mass killing 
attacks. However, the relatively low number of murders does not mean 
that extremists were less active overall. In fact, the opposite is 
true.
    In 2020, domestic extremists killed at least 17 people in the 
United States in 15 separate incidents. This represents a significant 
decrease from the 45 extremist-related murders documented in 2019, and 
the 54 murders of 2018. This is the lowest annual total in ADL 
statistics since 2004, which saw 14 extremist-related murders.
    It is important, however, to look at these extremism-related 
murders in context. First, 2020 was consistent with years past in terms 
of the proportion of the murderers who displayed right-wing extremist 
ideologies. Second, this drop in numbers is an apparent outlier when 
compared to other years, though we would certainly wish for this dip to 
continue.
    As has been the case for most of the past 30 years, the extremist-
related murders in 2020 were overwhelmingly tied to right-wing 
extremists. All but one of the incidents last year (16 of the 17 
murders) were linked to right-wing extremism; more than half had ties 
to White Supremacists.
    Similarly, all but one of the 42 extremist-related murders in 2019 
(the sixth-deadliest year for domestic extremist-related killings since 
1970) were perpetrated by right-wing extremists.\18\
---------------------------------------------------------------------------
    \18\ ADL, ``Murder and Extremism in the United States in 2019,'' 
ADL Center on Extremism, February 2020. (https://www.adl.org/media/
14107/download).
---------------------------------------------------------------------------
    Taking a longer view, of the 429 people killed by domestic 
extremists in the last 10 years, 75 percent were murdered by right-wing 
extremists--77 percent of whom were White Supremacists. This makes 
White Supremacists the deadliest type of extremist movement in the 
United States over the past 10 years, by far.\19\
---------------------------------------------------------------------------
    \19\ ADL, ``Murder and Extremism in the United States in 2020,'' 
ADL Center on Extremism, February 2021. (https://www.adl.org/murder-
and-extremism-2020).
---------------------------------------------------------------------------
    Despite the relatively low number of extremism-related murders in 
2020, extremists were not less active overall in 2020. ADL recorded 16 
right-wing extremist-related terrorist plots or attacks through 
November 2020, an increase from the 13 documented in 2019. We also 
counted more than 5,000 incidents of White Supremacist propaganda 
distribution in the United States in 2020, compared to 2,724 in 2019--
nearly a 100 percent increase.
            ADL's Audit of Anti-Semitic Incidents
    Since 1979, ADL has compiled an annual Audit of Anti-Semitic 
Incidents (the Audit) tracking both criminal and non-criminal acts of 
harassment and intimidation throughout the United States, including 
distribution of hate propaganda, threats, and slurs. The data we have 
compiled from the last 3 years show that anti-Semitism in America is 
increasingly pervasive. Our 2019 Audit, for example, recorded 2,107 
anti-Semitic incidents in the United States,\20\ a 12 percent increase 
from the 1,879 incidents recorded in 2018. There were incidents 
reported in every State except Alaska and Hawaii. The Audit found that 
there were, on average, as many as 6 anti-Semitic incidents in the 
United States for each day of the year--the highest level of anti-
Semitic activity ever recorded by ADL. 2019 also included 5 fatalities 
directly linked to anti-Semitic violence, and another 91 individuals 
were targeted in physical assaults.\21\
---------------------------------------------------------------------------
    \20\ ADL, ``Audit of Anti-Semitic Incidents: Year in Review 2019.'' 
(https://www.adl.org/audit2019).
    \21\ Id.
---------------------------------------------------------------------------
    While most anti-Semitic incidents are not directly carried out by 
extremists, a growing number of incidents do have ties to extremism. In 
2019, ADL recorded 270 anti-Semitic incidents attributed to known 
extremist groups or individuals inspired by extremist ideology. This 
represents 13 percent of the total number of incidents, tying 2018 for 
the highest level of anti-Semitic incidents with known connections to 
extremists or extremist groups since 2004.
    For even more up-to-date information regarding anti-Semitic 
incidents on an ongoing basis, we urge your committee to regularly 
consult ADL's ``Tracker of Antisemitic Incidents,''\22\ which includes 
more recent cases of anti-Jewish vandalism, harassment, and assault 
reported to or detected by ADL.
---------------------------------------------------------------------------
    \22\ ADL, Tracker of Anti-Semitic Incidents. (https://www.adl.org/
education-and-resources/resource-knowledge-base/adl-tracker-of-
antisemitic-incidents? field_incident_location_state_tar- 
get_id=All&page=1).
---------------------------------------------------------------------------
            Latest Hate Crime Data
    While countering domestic terrorism in particular is the core 
objective of this hearing, we cannot ignore the relevance of other 
crimes, such as hate crimes, that are often committed with the same 
discriminatory motivations, even if they are not carried out by 
extremists or rise to the level of domestic terrorism.
    The FBI's annual Hate Crime Statistics Act (HCSA) report reveals 
that 2019, the most recent year for which the Bureau has data, was the 
deadliest year on record, with 51 hate crime murders--a 113 percent 
increase over the previous record of 24 set in 2018. Total hate crime 
incidents rose to 7,314, marking the fourth increase in the past 5 
years.
    It is instructive to look at the short-term trends. Race-based hate 
crimes remained the most common type of hate crime, as has been the 
case every year since the FBI began reporting hate crime data nearly 3 
decades ago. Constituting over 50 percent of all hate crimes reported 
to the FBI, in 2019 race-based hate crimes underscore the importance of 
the national action to counter systemic and pervasive anti-Black 
racism.\23\
---------------------------------------------------------------------------
    \23\ FBI, Hate Crime Statistics 2019. (https://ucr.fbi.gov/hate-
crime/2019/hate-crime).
---------------------------------------------------------------------------
    After declining in 2018, religion-based hate crimes increased by 7 
percent in 2019, with fully 63 percent of the total number of reported 
religion-based hate crimes directed at Jews and Jewish institutions. 
Anti-Hispanic hate crimes rose nearly 9 percent, the fourth straight 
year of escalating numbers. In our experts' views, this is spurred by 
the escalation of anti-immigrant rhetoric, bigotry, and dehumanization 
in the public discourse emanating in part from the previous 
administration.
    After a 41 percent increase in 2018, hate crimes targeting 
individuals based on gender identity rose another 18 percent last year.
    The increase in reported hate crimes comes despite the fact that, 
for the second straight year, the number of law enforcement agencies 
providing data to the FBI has declined. The FBI's annual report has 
consistently provided the most comprehensive snapshot of bias-motivated 
criminal activity in the United States, but a notable reporting gap has 
long existed that has resulted in a significant underestimate of the 
true number of hate crimes that occur each year. Hate crime reporting 
by law enforcement agencies is voluntary, and in 2019, 86 percent of 
participating agencies did not report a single hate crime to the FBI, 
including at least 71 cities with populations over 100,000. That is 
simply not credible. In order to effectively combat hate crimes, the 
Government needs to be able to measure and analyze them, and that 
endeavor is undermined by underreporting or the lack of any reporting 
in certain areas.
    Congress should act swiftly to ensure that the Federal Government 
transparently reports on hate crimes to the public, and that State and 
local governments are empowered to effectively report hate crimes to 
the Federal Government to guarantee this reporting accurately 
represents the threat of hate in our communities.
    It would be remiss not to mention that another significant problem 
in reporting hate crimes comes from the distrust of Government felt by 
many in communities that are disproportionately targeted by such 
crimes. Building greater trust between law enforcement and those 
communities is essential and should be a law enforcement priority.
            White Supremacist Propaganda
    With hate and extremism in America on the rise, White Supremacist 
extremism in particular poses a grave and underappreciated threat to 
everyone in this country.
    The White Supremacist movement is not as overt about its true 
objectives as it might once have been when racist skinheads dominated 
White Supremacists' ranks in the 1980's and early 1990's. Within the 
White Supremacist community, there is some disagreement about the best 
strategy to pursue. Many now seek to dress in a nondescript manner and 
use coded language. They feel the need to adhere to ``optics''\24\ and 
purposefully obfuscate their views in an effort to infiltrate 
mainstream politics. Others hope to purposefully spark a race war, an 
ideology known as ``accelerationism.''\25\ With one approach involving 
secrecy and coded language, and the other sometimes including seemingly 
random acts of violence, both approaches are alarming in different 
ways.
---------------------------------------------------------------------------
    \24\ ADL, ``Tree of Life Shooting Revives `Optics' Debate Among 
White Supremacists,'' ADL Blog, November 6, 2018. (https://www.adl.org/
blog/tree-of-life-shooting-revives-optics-debate-among-white-
supremacists).
    \25\ ADL, ``White Supremacists Embrace `Accelerationism,' '' ADL 
Blog, April 16, 2019. (https://www.adl.org/blog/white-supremacists-
embrace-accelerationism).
---------------------------------------------------------------------------
    In 2020, ADL documented more than 5,000 incidents of White 
Supremacist propaganda distribution, by far the highest number of 
propaganda incidents ADL has ever recorded.\26\
---------------------------------------------------------------------------
    \26\ ADL, ``Murder and Extremism in the United States in 2020,'' 
ADL Center on Extremism, February 2021. (https://www.adl.org/murder-
and-extremism-2020).
---------------------------------------------------------------------------
    Propaganda allows White Supremacists to maximize media and on-line 
attention while limiting the risk of individual exposure, negative 
media coverage, arrests, and public backlash that often accompanies 
more public events. It can include everything from veiled White 
Supremacist language to explicitly racist images and words, often 
features a recruitment element, and frequently targets marginalized 
communities, including Jews, Muslims, Black people, non-White 
immigrants and the LGBTQ+ community. We urge your committee to 
regularly consult ADL's Hate, Extremism, Anti-Semitism, and Terrorism 
(H.E.A.T.) Map,\27\ which provides the public with a jurisdiction-
specific, on-going opportunity to review incident and propaganda data 
from all 50 States and Washington, DC.
---------------------------------------------------------------------------
    \27\ ADL, H.E.A.T. Map p. [sic] (https://www.adl.org/education-and-
resources/resource-knowledge-base/adl-heat-map).
---------------------------------------------------------------------------
            ADL's Efforts to Combat Election-Related Extremism
    In the months leading up to the 2020 Presidential election, we 
increased our efforts to combat election-motivated violent extremism. 
ADL's Center on Extremism, in conjunction with ADL's Center for 
Technology and Society, released a series of news briefs and blog posts 
on topics of concern regarding the role extremists and extremism more 
broadly were playing in regard to our political environment. We worked 
with partners to analyze the chatter and trends we were seeing on-line 
across numerous platforms used by extremists, and broke down 
information geographically to assist local partners and otherwise 
mitigate the impact of on-line extremist propaganda.
    We engaged State Attorneys General, Secretaries of State, 
Governors, Mayors, law enforcement, and other key players to bring 
visibility to the extremist threat to election safety and to empower 
officials to respond to these threats, briefing approximately 400 State 
and local government officials on election security. We created and 
disseminated a toolkit for State and local officials with actions to 
mitigate election-related extremist violence. ADL also established a 
new on-line incident reporting tool that would enable voters to flag 
any potential hate crimes or disruptions involving extremists.
    Our work became even more urgent in the immediate aftermath of the 
election, when the country heard then-President Trump make baseless and 
increasingly wild accusations of massive voter fraud grounded in 
conspiracy theories. In light of the tension across the country and the 
amply demonstrated tendency of right-wing extremists to try to 
manipulate such tensions and resort to violence, these charges were not 
just unprecedented--they were an abuse of power and unequivocally 
dangerous, like throwing a match into a stack of kindling that could 
light the country aflame.
    It wasn't long before ``Protect the Vote'' and ``Stop the Steal'' 
pro-Trump rallies began popping up Nation-wide, with particular 
attention being paid to Las Vegas,\28\ Detroit, Philadelphia, Phoenix 
\29\ and Atlanta--all cities in States where results were close, or 
where the Trump campaign was contesting the count. On Facebook, support 
for the ``Stop the Steal'' campaign grew rapidly among some mainstream 
Trump supporters. One ``Stop the Steal'' Facebook group, which included 
posts promoting disinformation and violence, reportedly \30\ gained 
more than 300,000 members within a matter of days before Facebook 
finally shut it down. Extremists across less mainstream social media 
platforms, including Parler, Telegram, and militia forums, also 
continued to promote the false ``Democratic election theft'' 
narrative.\31\ After all major media outlets called the Presidential 
election for President Joe Biden, right-wing extremists reacted to the 
news as expected--with anger, distrust, and nebulous, non-specific 
threats of violence.
---------------------------------------------------------------------------
    \28\ Tea Party Patriots, Protect the Vote. (https://
www.teapartypatriots.org/protect-the-vote/).
    \29\ Id.
    \30\ David Gilbert, ``A GOP-Linked `Stop the Steal' Facebook Group 
Is Gaining Thousands of Members a Minute,'' Vice, November 5, 2020. 
(https://www.vice.com/en/article/xgzx8q/a-gop-linked-stop-the-count-
facebook-group-is-gaining-thousands-of-members-a-minute).
    \31\ ADL, ``Extremists, Others Respond to President Trump's Calls 
to `Stop the Count,' '' ADL Blog, November 6, 2020. (https://
www.adl.org/blog/extremists-others-respond-to-president-trumps-calls-
to-stop-the-count).
---------------------------------------------------------------------------
    At the time, Trump ally and former White House adviser Sebastian 
Gorka appeared to advocate extreme actions in response to Democrats' 
alleged fraud, telling listeners of his November 5 ``America First'' 
radio show, ``We need the judges to enforce the rule of law, and if the 
local bureaucrats prevent us from seeing the evidence, from seeing the 
legitimate votes, we need the U.S. Marshals to deploy and they need to 
break down the doors of those polling stations and stop the crimes 
being committed. It is that simple.'' Gorka added, ``Now, now, now, get 
out on the streets, protest and show them who you are and that they 
can't get away with it.''\32\ Donald Trump, Jr. appeared to urge 
``total war'' over the election results, tweeting: ``The best thing for 
America's future is for Donald Trump to go to total war over this 
election to expose all of the fraud, cheating, dead/no longer in State 
voters, that has been going on for far too long.''\33\
---------------------------------------------------------------------------
    \32\ Media Matters staff, ``Sebastian Gorka: `We need the U.S. 
Marshals to deploy and they need to break down the doors of those 
polling stations,'' Media Matters, November 5, 2020. (https://
www.mediamatters.org/sebastian-gorka/sebastian-gorka-we-need-us-
marshals-deploy-and-they-need-break-down-doors-those).
    \33\ Chantal da Silva, `` `Reckless' and `stupid': Trump Jr calls 
for `total war' over election results,'' Independent, November 6, 2020. 
(https://www.independent.co.uk/news/world/americas/us-election-2020/
trump-jr-election-results-war-b1634841.html).
---------------------------------------------------------------------------
    Our Center on Extremism prioritized monitoring and reporting on 
election-related extremism, both before and after the election itself. 
We dedicated additional staff and resources to ensure that we would be 
able to continue producing news briefs, blog posts, and expertise on 
this rapidly-evolving situation.
            The Growing Threat of On-line Hate
    The internet is an incredibly powerful tool that, by its nature, 
gives every user a platform and a loudspeaker. However, the internet is 
only a tool, neither good nor bad, and can therefore be used by bad 
actors and for destructive ends. The particularly viral spread of 
misinformation and hate depends upon two things: One a human bias and 
the other a factor related to the dominant tech business model, which 
relies on engagement.
    As much evidence has shown--and as tech companies well know--
inflammatory content such as that which taps into existing grievances 
and beliefs will generate quick engagement. As that content is clicked 
on, liked, hovered over, forwarded, commented on or replied to, tech 
company algorithms almost immediately show it to still more users, 
prompting more and more engagement, and thus more revenue. Among other 
things, at its worst, this turns social media into likely the most 
powerful confirmation bias machine we have ever seen, and also explains 
why some advocates have even labeled this business model ``hate by 
design.''\34\
---------------------------------------------------------------------------
    \34\ Brookings Institution, ``How Misinformation Spreads on Social 
Media--and What to Do About It,'' May 9, 2018 (https://
www.brookings.edu/blog/order-from-chaos/2018/05/09/how-misinformation-
spreads-on-social-media-and-what-to-do-about-it/).
---------------------------------------------------------------------------
    And indeed, two significant concerns at ADL are the use of social 
media to spread stereotypes and hate, and the use of social media to 
coordinate extremist activity.
                Amplification of Hate and Harassment
    Where people go, hate follows. This past year, we have seen 
communities shift into a virtual-first world and, against the backdrop 
of COVID-19, our institutions have relied on digital spaces to continue 
to function. We have increasingly relied on the internet to facilitate 
work, school, worship, and social activities. So too, however, has the 
digital world facilitated hate, harassment, racism, extremism, and the 
proliferation of conspiracy theories. The Asian, Jewish, Muslim, 
Latinx, immigrant, and LGBTQ+ communities in particular are 
experiencing an onslaught of targeted hate, fueled in large part by 
White Supremacists and other extremists.
    Whether you consider it the catalyst or just a conduit, the fact is 
that social media often amplifies hate. It's frequently a font for 
conspiracy theories, weakening societal tolerance post after post, 
tweet after tweet, like after like. And the hate festering on social 
media inevitably targets the most vulnerable--particularly marginalized 
groups like religious, ethnic, and racial minorities, as well as 
members of the LGBTQ+ community.
    We do not have nearly enough information about the prevalence of 
hate and extremism on-line, the connection between on-line hate and 
off-line domestic terrorism, or the measures that can be taken to most 
effectively counter this phenomenon. We do know, however, that on-line 
hate and harassment is extraordinarily prevalent. According to ADL's 
2020 On-line Hate and Harassment survey,\35\ 44 percent of Americans 
experienced on-line harassment and 28 percent experienced severe on-
line harassment--including stalking, physical threats, swatting, 
doxing, and sustained harassment. ADL's research also shows that 
targeting based on specific identity-based characteristics has 
increased--1 in 3 Americans who are harassed on-line attribute the 
harassment to their identity. The 2020 ADL data, for example, show that 
race-based harassment affected 55 percent of Asian-American respondents 
and 42 percent of Hispanic and African-American respondents. Sixty-one 
percent of Muslim-American respondents who reported experiencing on-
line harassment felt they were targeted because of their religion and 
43 percent of Jewish-American respondents felt they were targeted with 
hateful content because of their religion. Additionally, 37 percent of 
female-identified respondents felt they were targeted because of their 
gender. Finally, 48 percent of LGBTQ+ respondents reported harassment 
based on sexual orientation in particular.
---------------------------------------------------------------------------
    \35\ ADL Survey, ``On-line Hate and Harassment Report: The American 
Experience 2020.'' (https://www.adl.org/online-hate-2020).
---------------------------------------------------------------------------
                Coordination by Extremists
    In addition to amplifying hate, the internet has also become a 
forum for extremists to communicate, organize, and mobilize. It is also 
a place for extremists to recruit, and the rising mainstream popularity 
of alt-tech platforms like Gab and Telegram, among many others, allows 
extremists to mix with--and possibly influence--non-extremists.
    Without a doubt, extremists relied on ``fringe'' platforms and apps 
such as Parler, Gab, and thedonald.win both before and during the 
events of January 6. According to at least one report, for example, 
directions for which streets to take to avoid the police and which 
tools to bring to help pry open doors were exchanged in comments on Gab 
leading up to the attack. On the day of the attack, Gab CEO and founder 
Andrew Torba posted on Gab: ``In a system with rigged elections there 
are no longer any viable political solutions.'' The phrase ``there is 
no political solution'' is used in on-line accelerationist White 
Supremacist circles and embraces political violence as the only valid 
response. Before hundreds of rioters broke into the Capitol building, 
Torba reportedly posted on his platform: ``would be a real shame if the 
people outside stormed the Senate.''\36\
---------------------------------------------------------------------------
    \36\ ADL, ``ADL Calls on U.S. Justice Department to Investigate Gab 
For Possible Criminal Liability in Capitol Attack,'' January 13, 2021. 
(https://www.adl.org/news/press-releases/adl-calls-on-us-justice-
department-to-investigate-gab-for-possible-criminal).
---------------------------------------------------------------------------
    Yet hate-fueled violence isn't limited to the darkest corners of 
the internet. Many extremists also use mainstream platforms--Twitter, 
Facebook, and Reddit--to communicate their message and recruit 
adherents, and it's clear that these outlets are playing a central role 
in the radicalization of domestic extremists too. Platforms like 
Facebook, which employ algorithms designed to promote engagement and 
thus end up amplifying the most corrosive content, serve up a firehose 
of material that glorifies hate and violence.
                            long-term trends
    You cannot successfully defeat an enemy that you do not know. While 
new strains of extremism are always evolving, there are observable 
long-term trends that we can study and analyze now to help us 
understand exactly what it is that we are up against and can reasonably 
expect to face in the foreseeable future. While trends are just that--
neither an exhaustive list nor a guaranteed prediction--they can be 
deeply informative in helping us understand the state of extremism, the 
threat it poses, and the mindframe of extremists today.
Extremist Groups
    The January 6 attack on the Capitol reflected some of today's most 
active extremist groups, including the Proud Boys, Oath Keepers, Three 
Percenters, and other far-right contingents, including some White 
Supremacists.\37\ ADL's Center on Extremism immediately started working 
to identify those who participated in the assault. We remained in close 
communication with law enforcement leading up to, during, and after the 
event. This was a natural extension of not only the work that we have 
been doing to track ``Stop the Steal'' and similar events since the 
election, but the work that our Center on Extremism has been doing for 
years to monitor and expose domestic extremists. In 2020 alone, ADL 
provided over 1,000 tips to law enforcement to address these threats.
---------------------------------------------------------------------------
    \37\ ADL, ``Extremists Engage in Political Violence During Pro-
Trump Rallies,'' ADL Blog, January 6, 2021. (https://www.adl.org/blog/
extremists-engage-in-political-violence-during-pro-trump-rallies).
---------------------------------------------------------------------------
    Our assessment of the White Supremacist threat is outlined in 
detail above. The following provides additional information about 3 
specific groups that played a significant role in the January 6, 2021 
siege on the U.S. Capitol.
            Proud Boys
    The Proud Boys are a right-wing extremist group with a long track 
record of violence. Members of the group have always loudly insisted 
that they are not racist. In the face of any accusation of anti-
Semitism or White Supremacy, they make a show of pointing to their 
Cuban-American leader, their Black and Latino members, or their tiny 
chapter in Israel.
    Proud Boys leadership has carefully crafted a public image of an 
inclusive club for men of all races, backgrounds, and sexual 
orientations who subscribe to one mantra: The West (i.e. ``Western'' 
culture) is best, and anyone who ``opposes'' it (``leftists'' of all 
stripes and feminists, among others) is the enemy.
    The group has been remarkably successful at building a brand and 
they have become popular public allies and security providers for a 
host of right-wing and conservative activists and politicians, even 
receiving positive attention from President Trump.\38\ Proud Boys 
leader Enrique Tarrio seems to understand that expressing overt anti-
Semitism or racism would not help them, and Tarrio's continuing 
assurances of anti-racism as well as his own Latino background provide 
the Proud Boys with a ready way to defend themselves against charges of 
bigotry. However, the actions of the group's members and even 
leadership have repeatedly belied the official party line.
---------------------------------------------------------------------------
    \38\ Neil MacFarquhar et al., ``Far-Right Group That Trades in 
Political Violence Gets a Boost,'' New York Times, September 30, 2020. 
(https://www.nytimes.com/2020/09/30/us/proud-boys-trump.html).
---------------------------------------------------------------------------
    At the December 12 pro-Trump rally in Washington, DC, a member of 
the Proud Boys attacked a counter-protester while screaming ``Fucking 
Jew.''\39\ The incident was captured on video that ADL has viewed.
---------------------------------------------------------------------------
    \39\ ADL, ``Pro-Trump Rallies in DC Attract Extremists & Erupt into 
Violence,'' ADL Blog, December 13, 2020. (https://www.adl.org/blog/pro-
trump-rallies-in-dc-attract-extremists-erupt-into-violence).
---------------------------------------------------------------------------
    Later that night, Tarrio, alongside an unidentified member of the 
Proud Boys, allegedly tore down and set fire to a Black Lives Matter 
banner outside the Asbury Methodist Church, one of the oldest Black 
churches in Washington, DC.\40\ Tarrio later claimed that the attack 
was not motivated by race, but rather because ``BLM is a Marxist 
movement,'' adding, ``the burning of this banner wasn't about race 
religion [sic] or political ideology it [sic] was about a racist 
movement that has terrorized the citizens of this country.'' However, 
his action is being investigated as a potential hate crime by 
Washington's Metropolitan Police Department.\41\ Tarrio was arrested 
and charged for his actions upon arriving in the District of Columbia 
ahead of January 6th's events.\42\
---------------------------------------------------------------------------
    \40\ Peter Hermann, ``Proud Boys Leader Says He Burned Black Lives 
Matter Banner Stolen From Church During Demonstrations in D.C.,'' 
Washington Post, December 18, 2020. (https://www.washingtonpost.com/
local/public-safety/enrique-tarrio-proud-boys-black-lives-matter-sign/
2020/12/18/c056c05e-415a-11eb-8db8-395dedaaa036-story.html).
    \41\ Id.
    \42\ Elliot Hannon, ``Proud Boys Leader Arrested and Charged With 
Burning D.C. Church's Black Lives Matter Banner,'' Slate, January 5, 
2021. (https://slate.com/news-and-politics/2021/01/proud-boys-leader-
arrested-charged-burning-church-black-lives-matter-banner.html).
---------------------------------------------------------------------------
    The Proud Boys' history of racist associations goes back to its 
founding. The 2016 creation of the group was first announced in Taki's 
Magazine, a right-wing publication that has published virulent racists 
like Jared Taylor and Richard Spencer.\43\ Since then, there have been 
many examples of close ties between the Proud Boys and racist right-
wing extremists, just some of which are outlined here.
---------------------------------------------------------------------------
    \43\ Gavin McInnes, ``Introducing: The Proud Boys,'' Taki's 
Magazine, September 15, 2016. (https://www.takimag.com/article/
introducing_the_proud_boys_gavin_mcinnes/).
---------------------------------------------------------------------------
    In 2017, members of the Proud Boys marched at the deadly Unite the 
Right rally in Charlottesville, although the organization denounced the 
event and warned members that they would be banned from the group if 
they marched.\44\ At the time of the event, Unite the Right's organizer 
Jason Kessler was a member of the group.
---------------------------------------------------------------------------
    \44\ Leighton Akio Woodhouse, ``After Charlottesville, The American 
Far Right Is Tearing Itself Apart,'' The Intercept, September 21, 2017. 
(https://theintercept.com/2017/09/21/gavin-mcinnes-alt-right-proud-
boys-richard-spencer-charlottesville/).
---------------------------------------------------------------------------
    Despite their loud and persistent denials, the Proud Boys are all 
too willing to embrace racists, anti-Semites, and bigots of all kinds 
as long as they subscribe to the superiority of ``western'' 
civilization. The Proud Boys powerfully illustrate that an organization 
with a Latino leader and Jewish members is quite capable of racism and 
anti-Semitism.
            Three Percenters
    Three Percenters (also known as 3 percenters, III percenters, and 
Threepers) are anti-Government extremists who are part of the militia 
movement. Three Percenters have a track record of criminal activity 
ranging from weapons violations to terrorist plots and attacks. They 
believe that, just as a small revolutionary vanguard overthrew the 
tyrannical British rule in America, a dedicated group of modern 
patriots could rid the United States of today's alleged tyranny. The 
term itself is a reference to a false belief that the number of 
Americans who fought against the British during the Revolutionary War 
amounted to only 3 percent of the population at the time (historians 
say that percentage was actually far higher).\45\
---------------------------------------------------------------------------
    \45\ John A. Tures, ``More Americans Fought in the American 
Revolution Than We Thought,'' Observer, July 3, 2017. https://
observer.com/2017/07/soldiers-militia-american-revolution/).
---------------------------------------------------------------------------
    Though the media often refer to Three Percenters as a movement or a 
group, they are neither. Rather, they constitute a major part of the 
broader anti-Government militia movement, whose ideology they share. 
Some Three Percenters form militia groups, while others form non-
paramilitary groups or create on-line networks; even more are active as 
individual or unaffiliated Three Percenters.
    At its core, the Three Percenter concept may be best understood as 
a way to simplify, popularize, and spread the ideology and beliefs of 
the militia movement--a right-wing anti-Government extremist movement 
that arose in 1993-94. Its core belief centers on the idea that the 
Federal Government is collaborating with a shadowy globalist and 
socialist conspiracy (often referred to as the ``New World Order'') in 
order to strip Americans of their rights and freedoms, starting with 
their right to bear arms, so that Americans can be made slaves to the 
New World Order and its agenda. Militia activists view the Federal 
Government as tyrannical and illegitimate; some seek to defend 
Americans from its perceived ravages, while others occasionally plot to 
attack the Government.
    The Three Percenter concept both contributed to and benefited from 
the resurgence of the militia movement in 2008 through a blog, the 
Sipsey Street Irregulars. The blog was run by Mike Vanderboegh, an 
Alabama-based anti-Government extremist who had been involved in the 
militia movement for many years. Vanderboegh's creation of the Three 
Percenter concept occurred at a propitious time for the militia 
movement, due in part to anger and anxiety caused by the recession and 
mortgage crisis as well as the election of Barack Obama as President. 
These developments gave right-wing anti-government activists in both 
mainstream America and on its far right fringes a new focus for their 
anger.
    In keeping with militia movement ideology, Three Percenters have 
typically focused most of their anger on the Federal Government. Their 
anti-Government ire usually focuses on gun control or on perceived 
``victims of government'' militia that Three Percenters seek to 
protect. Many adherents of the militia movement strongly support 
President Trump. As a result, Three Percenters have not been as active 
in opposing the Federal Government in recent years, directing their 
anger at other perceived foes, including leftists, antifa, Muslims, and 
immigrants.
    Three Percenters have been active in 2019-2020 in reaction to a 
range of issues, including attempts to pass State level gun control 
measures, State-imposed restrictions and lockdowns to prevent the 
spread of COVID-19, and the protests that have taken place across the 
country over the May 2020 murder of George Floyd in Minneapolis.
            Oath Keepers
    The Oath Keepers are a large but loosely-organized collection of 
right-wing anti-Government extremists who are part of the militia 
movement, which believes that the Federal Government has been co-opted 
by a shadowy conspiracy that is trying to strip American citizens of 
their rights.\46\
---------------------------------------------------------------------------
    \46\ ADL, ``Oath Keepers,'' ADL Blog. (https://www.adl.org/
resources/backgrounders/oath-keepers).
---------------------------------------------------------------------------
    Though the Oath Keepers will accept anyone as members, what 
differentiates them from other anti-Government extremist groups is 
their explicit focus on recruiting current and former military, law 
enforcement, and first responder personnel. Their propaganda reminds 
potential recruits that they swore an oath to defend the Constitution 
``from all enemies, foreign and domestic,'' and asks them to pledge to 
disobey theoretical unconstitutional orders they might get from 
superiors--orders that explicitly or implicitly reference militia-
related conspiracy theories,\47\ such as mass gun confiscation or 
rounding up Americans to put them in concentration camps.\48\ Each 
theory goes back to the idea that the U.S. Government has fallen under 
global governance and will at some point use police and military 
members to enforce the New World Order's plans. The Oath Keepers urge 
military and law enforcement personnel to step up to stop the 
conspirators.
---------------------------------------------------------------------------
    \47\ Mike Giglio, ``A Pro-Trump Militant Group Has Recruited 
Thousands of Police, Soldiers, and Veterans,'' The Atlantic, September 
30, 2020. (https://www.theatlantic.com/magazine/archive/2020/11/right-
wing-militias-civil-war/616473/).
    \48\ Jennifer Williams, ``The Oath Keepers, the far-right group 
answering Trump's call to watch the polls, explained,'' Vox, November 
7, 2016. (https://www.vox.com/policy-and-politics/2016/11/7/13489640/
oath-keepers-donald-trump-voter-fraud-intimidation-rigged).
---------------------------------------------------------------------------
    The number of active-duty police and military personnel who have 
publicly admitted to being Oath Keepers is very small; the number of 
closeted members may be larger. The Oath Keepers have had more success 
in recruiting former military personnel, which is a much larger pool to 
draw from; many Oath Keepers speak of past military service. The group 
has also recruited from among people already involved in the anti-
Government extremist movement. Membership has never actually required 
current or former ties with military, police, or first responders. The 
popularity of Oath Keepers social media accounts illustrates clearly 
that many more people support the Oath Keepers without ever officially 
joining (which requires paying dues).
    Based on its monitoring of the Oath Keepers, ADL estimates that the 
group has up to several thousand members, though the Oath Keepers have 
claimed far more. This estimated size would still make the Oath Keepers 
larger than any single traditional militia group. Though there is a 
formal national leadership, on the local level many Oath Keepers are 
essentially self-organized, forming official, semi-official, or 
informal groupings of Oath Keepers in specific, sometimes even 
overlapping, geographic areas.
    The Oath Keepers were particularly active in 2020, participating in 
various anti-lockdown protests, providing vigilante-style ``security'' 
for local communities and businesses during the Black Lives Matter 
protests that spread in the wake of the murder of George Floyd, and 
warning about a potential takeover by the ``Marxist left'' during the 
2020 election.
    The group also gained notoriety for their armed participation in 
disputes between ranchers or miners and Federal agencies, particularly 
in 2014 and 2015. However, their decision to retreat from the Bundy 
Ranch standoff in 2014 out of a fear of possible drone strikes 
tarnished the group's reputation among other anti-Government 
extremists.
    Members of the Oath Keepers have also been arrested in connection 
with a wide range of criminal activities, including various firearms 
violations, conspiracy to impede Federal workers, possession of 
explosives, and threatening public officials.
            A New Breed of Extremists
    President Trump has provided extremists the gift of a narrative 
that will carry them through at least the next 4 years. Extremists are 
often animated by the angry and paranoid conviction that something 
sacred is being or has been taken away from them, and the former 
President has offered a story about a ``stolen election,'' all thanks 
to the treasonous ``left'' and mainstream media, who are, as the 
narrative goes, suppressing the rights and voices of ``real 
Americans.''
    Many of the people who were roused to violent extremism for the 
first time on January 6 as the result of such incitement. They 
constitute a new breed of extremist, one foundationally animated by 
devotion to President Trump, placing him over party or country. They 
are living in an entire ecosphere of disinformation, lies, and 
conspiracy theories, one fertilized by Alex Jones, QAnon, President 
Trump and his most devoted enablers, and many others.
    Over the coming months and years, as they mingle with established 
extremists--including White Supremacists, anti-Government extremists, 
anti-Semites, and hardcore conspiracy theorists--these individuals 
could coalesce into a distinct and potent extremist movement. 
Alternatively, they could eventually add to the ranks of those other 
hateful causes.
    To be clear, this is not to argue that supporters of President 
Trump's policy agenda are domestic extremists. Indeed, 74 million 
Americans voted for him in the 2020 general election, and their 
interests, perspectives, and concerns should not be thoughtlessly 
dismissed. However, we must also recognize that Donald Trump's 
sustained propagation of falsehoods and acrimony--especially but not 
exclusively regarding the election result--has played an essential part 
in fueling our Nation's crisis of domestic extremist radicalization, 
recruitment, and violence.
Looking Ahead
    While it is hard to say with certainty what lies ahead, we know 
that White Supremacists and some other extremists, including 
Islamophobes, anti-immigrant extremists and anti-Semites, are also 
driven by manufactured fears around demographic change. Some within the 
movement believe these changes will only accelerate during the Biden 
administration as it enacts more welcoming policies toward immigrants 
and refugees who are people of color. Extremists equate those policies 
to ``White genocide.''
    Militia and other anti-Government groups may also be very active in 
the next few years. The militia movement has historically derived much 
of its energy and vitality from its rage toward the Federal Government. 
However, the movement's support of President Trump over the past few 
years dulled that anger. A Biden administration will allow militias to 
return to their foundational grievances--the belief that a tyrannical 
government in league with a globalist conspiracy is coming to enslave 
them by first taking their guns and then the remainder of their rights.
    Finally, anti-Semitism will likely continue to be a central part of 
the conspiratorial views that fuel right-wing violence. Many of the key 
narratives, especially the conspiracy theories that animated the D.C. 
attackers, are also drivers of anti-Semitism.
            Conspiracy Theories
    No one who stormed the Capitol was radicalized the day before. They 
were animated over time by a conspiracy theory about a stolen election, 
stoked by politicians up to and including President Trump, and a 
fervent commitment to preserving the status quo. One of the most 
prominent conspiracy theories supporting President Trump is QAnon, with 
substantial numbers of adherents coming to ``Stop the Steal'' events 
across the country after the election and establishing a notable 
presence at the Capitol attack.
            QAnon
    QAnon is not a coherent organization or movement. It is instead an 
ill-defined and wide-ranging conspiracy theory that encompasses a host 
of other conspiracy theories. It has spread from the backwaters of the 
internet onto mainstream platforms, where it has built a substantial 
following among supporters of former President Trump. Since the 
inauguration of President Biden, QAnon's adherents have been scrambling 
for purpose and direction.
    At its core, QAnon is a sprawling global conspiracy holding that 
rings of pedophiles control world governments. In the United States, 
QAnon adherents accuse leading Democrats and a supposed ``Deep State,'' 
which includes high-profile celebrities, of being part of a cabal of 
pedophiles who were determined to bring down President Trump. In recent 
months, QAnon has been a primary driver of the false conspiracy theory 
that the election was stolen from President Trump by virtue of massive 
voter fraud. The violent mob action and assault on the U.S. Capitol on 
January 6 grew out of the viral spread of these conspiracy theories. 
Yet for years, there have been warning signs that social media 
platforms such as Twitter were providing a fertile environment for 
increased radicalization and potential violence from conspiracy groups 
like QAnon.\49\
---------------------------------------------------------------------------
    \49\ Craig Timberg and Elizabeth Dwoskin, ``As QAnon grew, Facebook 
and Twitter missed years of warning signs about the conspiracy theory's 
violent nature,'' Washington Post, October 3, 2020. (https://
www.washingtonpost.com/technology/2020/10/01/facebook-qanon-
conspiracies-trump/).
---------------------------------------------------------------------------
    QAnon played a key role in the attack on the U.S. Capitol, with 
QAnon accounts on Twitter and other platforms hailing the violence as 
the first step in a civil war.\50\ Reportedly, QAnon supporters were 
the first rioters to enter the Capitol. One of them, Jake Angeli, a 
far-right conspiracy theorist dubbed the ``QAnon Shaman,'' has been a 
predictable presence at far-right rallies supporting President Trump's 
attempts to discredit the 2020 election.\51\ After several QAnon 
supporters claimed Angeli was a member of antifa, Angeli publicly 
denied the charges and reiterated his support for QAnon.
---------------------------------------------------------------------------
    \50\ Jessica Guynn, `` `Burn down DC': Violence that erupted at 
Capitol was incited by pro-Trump mob on social media,'' USA Today, 
January 6, 2021. (https://www.usatoday.com/story/tech/2021/01/06/trump-
riot-twitter-parler-proud-boys-boogaloos-antifa-qanon/6570794002/).
    \51\ Rachel E. Greenspan and Haven Orecchio-Egresitz, ``A well-
known QAnon influencer dubbed the `Q Shaman' has been arrested after 
playing a highly visible role in the Capitol siege,'' yahoo!news, 
January 9, 2021. (https://news.yahoo.com/well-known-qanon-influencer-
dubbed-230306934.html).
---------------------------------------------------------------------------
    QAnon's wide-reaching conspiracy theory is popular among a range of 
right-wing extremists and some public supporters of President 
Trump,\52\ including a number of recent candidates for Federal office 
and 2 Members of Congress.\53\ Its adherents follow the anonymous 
poster ``Q'' and believe that a shadowy cabal of pedophiles who control 
world governments must eventually be brought to justice. This dangerous 
conspiracy theory, which originated on the on-line message board 4chan 
in 2017, has been connected with a number of violent events,\54\ such 
as an armed standoff near the Hoover Dam,\55\ in addition to the attack 
on the Capitol in Washington, DC and an array of other plots noted in 
Representative Malinowski's bipartisan House resolution H. Res. 1154 
that was passed resoundingly in October by 371 to 18 with ADL's 
endorsement.
---------------------------------------------------------------------------
    \52\ ADL, ``QAnon,'' ADL Blog. (https://www.adl.org/qanon).
    \53\ Em Steck et al., ``The congressional candidates who have 
engaged with the QAnon conspiracy theory,'' CNN, October 30, 2020. 
(https://www.cnn.com/interactive/2020/10/politics/qanon-cong-
candidates/).
    \54\ Lois Beckett, ``QAnon: a timeline of violence linked to the 
conspiracy theory,'' The Guardian, October 16, 2020. (https://
www.theguardian.com/us-news/2020/oct/15/qanon-violence-crimes-
timeline).
    \55\ William Mansell, ``Man pleads guilty to terrorism charge after 
blocking Hoover Dam bridge with armored truck,'' ABC News, February 13, 
2020. (https://abcnews.go.com/US/man-pleads-guilty-terrorism-charge-
blocking-bridge-armored/story?id=68955385).
---------------------------------------------------------------------------
                      the time is ripe for change
    According to a recent ADL survey \56\ taken shortly after the 
events of January 6, approximately two-thirds of Americans believe that 
Donald Trump (67 percent) and members of White Supremacist, far-right, 
or militia groups (64 percent) are at least somewhat responsible for 
the violence at the Capitol. Roughly three-quarters of Americans are at 
least somewhat concerned about violence in the next year from anti-
Government and militia movement members (77 percent) and White 
Supremacists (75 percent).
---------------------------------------------------------------------------
    \56\ The survey of U.S. adults was conducted from Jan. 7-8, 2021 by 
YouGov, a leading public opinion and data analytics firm, on behalf of 
ADL. There were 1,176 respondents, 1,102 of whom were aware of the 
incident in the Capitol. The figures have been weighed and are 
representative of all U.S. adults aged 18 or over. The survey has a 
margin of error of +/- 2.95 percentage points. ADL, ``American 
Attitudes toward Extremist Threats: A Survey Following the Events at 
the U.S. Capitol.'' (https://www.adl.org/american-attitudes-toward-
extremist-threats).
---------------------------------------------------------------------------
    Over half of Americans also believe that social media companies 
like Facebook and Twitter (61 percent) and Congressional Republicans 
who said they would oppose certification of election results (55 
percent) are at least somewhat responsible for the violence on January 
6.
    Unequivocally, Americans want the Government to do more to address 
violent domestic extremism. Sixty-five percent want the Government to 
do more to address the rise of far-right extremism. Sixty-six percent 
of Americans believe that the Government should prosecute individuals 
who stormed the Capitol, and 63 percent agree that social media 
companies should ban posts and individuals encouraging or celebrating 
extremism and conspiracy theories.
                         policy recommendations
    Just as the attack on our Capitol did not materialize out of 
nowhere, so too has the threat not dissipated in its aftermath. Those 
who perpetrated the attack will not readily abandon their principles, 
nor will those who supported this act of domestic terrorism from afar. 
We cannot expect there to be a change unless we change something about 
our approach. The trauma of January 6 must not be in vain. It is time, 
at long last, for action. It is time for a whole-of-Government and 
whole-of-society approach to combating domestic extremism.
    With that in mind, ADL respectfully presents to this committee the 
PROTECT plan--a comprehensive, 7-part plan to mitigate the threat posed 
by domestic extremism and domestic terrorism while protecting civil 
rights and civil liberties. Together, these 7 steps can have an 
immediate and deeply significant impact in preventing and countering 
domestic terrorism--more so than any one action, policy, or law--and 
can do so while protecting vulnerable people and communities against 
the risk of Government overreach. Our suggestions are that you:
    P--Prioritize Preventing and Countering Domestic Terrorism
    R--Resource According to the Threat
    O--Oppose Extremists in Government Service
    T--Take Domestic Terrorism Prevention Measures
    E--End the Complicity of Social Media in Facilitating Extremism
    C--Create an Independent Clearinghouse for On-line Extremist 
        Content
    T--Target Foreign White Supremacist Terrorist Groups for Sanctions.
        prioritize preventing and countering domestic terrorism
    First, we urge Congress to adopt a whole-of-Government and whole-
of-society approach to preventing and countering domestic terrorism. 
Civil society has an important role to play in this effort. We must all 
work together toward a common goal if we hope to be successful.
  <bullet> The Biden-Harris administration must ensure interagency 
        coordination, as well as coordination between Federal, State, 
        and local stakeholders, civil society, and the private sector. 
        An important starting point would be the hosting of a 
        ``Preventing Domestic Terrorism Summit'' with civil society 
        groups.
  <bullet> The Biden-Harris administration must work to develop a 
        comprehensive interagency strategy designed to prevent and 
        counter domestic extremism and domestic terrorism, including 
        any international connections. This strategy must prioritize 
        transparency and oversight, so that the public can see how the 
        Government is analyzing the threat and that resources are being 
        devoted proportionately.
  <bullet> Law enforcement must be both instructed and trained to use 
        the available existing legal authorities, which are sufficient, 
        to investigate and prosecute domestic terrorist threats, and 
        provided adequate resources to do so.\57\
---------------------------------------------------------------------------
    \57\ Notably, this plan does not include the creation of a new 
Federal criminal domestic terrorism statute. Although there are a 
number of existing authorities for charging individuals with committing 
certain acts of domestic terrorism, a broad criminal domestic terrorism 
statute has not yet been codified at the Federal level, and for good 
reason. The Government's history of targeting marginalized communities 
and political activists in the name of National security, as well as 
First Amendment, Fourth Amendment and other civil rights concerns, 
raise serious questions about its feasibility. Trying to address the 
threat of White Supremacist violence through reforms that overstep or 
infringe on civil liberties and potentially expand racial profiling or 
unwarranted, discriminatory surveillance and harassment of marginalized 
communities would be unacceptable. Indeed, as a number of experts who 
are former law enforcement involved in counterterrorism have noted, law 
enforcement has all of the investigatory and prosecutorial powers it 
requires and that are consistent with Constitutional limitations, to 
effectively combat domestic terrorism.
---------------------------------------------------------------------------
  <bullet> Congress should, to the maximum extent possible, work with 
        the Biden-Harris administration to restore and empower offices, 
        like the domestic terrorism unit within the Department of 
        Homeland Security's Office of Intelligence and Analysis 
        (I&A),\58\ that have been hindered in their work to address the 
        threat of domestic terrorism in recent years.
---------------------------------------------------------------------------
    \58\ Woodruff, Betsy. ``Homeland Security Disbands Domestic Terror 
Intelligence Unit.'' Daily Beast. April 2, 2019. (https://
www.thedailybeast.com/homeland-security-disbands-domestic-terror-
intelligence-unit).
---------------------------------------------------------------------------
  <bullet> Congress must explore opportunities to keep firearms out of 
        the hands of convicted hate crimes perpetrators and to disarm 
        violent hateful groups. It is clear that guns are the weapon of 
        choice among America's extremist murderers, regardless of their 
        ideology, and a major reason why the death toll of such attacks 
        has risen over time.
  <bullet> The Domestic Terrorism Documentation and Analysis of Threats 
        in America (DATA) Act provided for appropriate coordination, 
        accountability, and transparency in the collection and 
        recording of data on domestic terrorism. A version of the bill 
        passed in the fiscal year 2020 National Defense Authorization 
        Act that became law in December 2019, yet has not been fully 
        implemented. Congress should continue to monitor implementation 
        of these requirements and ensure that we have accurate and 
        comprehensive data on domestic terrorism.
  <bullet> Congress must call out domestic terrorism as ``terrorism.'' 
        Federal prosecutors have a range of charges to choose from in 
        individual cases and make those decisions based on specific 
        facts to which the general public is generally not privy. 
        Whether someone is formally charged with committing an act of 
        domestic terrorism in court is distinct from whether they have 
        committed an act of domestic terrorism as a definitional 
        matter--namely, criminal acts that are dangerous to human life 
        and intended to intimidate or coerce a civilian population or 
        influence the policy or conduct of the Government. Public 
        officials have an obligation to use their bully pulpit to call 
        domestic terrorism what it is, regardless of what formal 
        charges are brought. That sends an important message, and 
        notably, means the Government is acknowledging that the 
        priority threat in the United States at this time--right-wing 
        and often White Supremacist political violence--is in fact 
        domestic terrorism.
                    resource according to the threat
    Second, we must ensure that the authorities and resources the 
Government uses to address violent threats are proportionate to the 
risk of lethality of those threats. In other words, allocation of 
resources must never be politicized, but rather transparently based on 
objective security concerns.
  <bullet> Congress should immediately pass the Domestic Terrorism 
        Prevention Act (DTPA) to enhance the Federal Government's 
        efforts to prevent domestic terrorism by formally authorizing 
        offices to address domestic terrorism and requiring law 
        enforcement agencies to regularly report on domestic terrorist 
        threats. Congress must ensure that those offices have the 
        resources they need and can deploy those resources in a manner 
        proportionate to existing threats.
  <bullet> Along with prioritizing the threat within existing budgets, 
        legislative appropriators must work to expand the funding 
        resources available to Federal and State officials to address 
        the threat of domestic terrorism.
                oppose extremists in government service
    Third, it is essential that we recognize the potential for harm 
from when extremists gain positions of power, including in Government, 
law enforcement, and the military. Of broader concern, however, is the 
inherent power imbalance between civilians and those in Government, law 
enforcement, and the military. As such, we must be especially 
thoughtful about whom we give Government authority and sensitive 
resources. In the wrong hands, it can be deadly.
  <bullet> To the extent permitted by law and consistent with 
        Constitutional protections, take steps to ensure that 
        individuals engaged in violent extremist activity or associated 
        with violent extremist movements, including violent White 
        Supremacist and unlawful militia movements, are deemed 
        unsuitable for employment at the Federal, State, and local 
        levels--including law enforcement. Appropriate steps must be 
        taken to address any current employees, who, upon review, match 
        these criteria.
  <bullet> To the extent permitted by law and consistent with 
        Constitutional protections, take steps to ensure that 
        individuals engaged in violent extremist activity or associated 
        with violent extremist movements, including violent White 
        Supremacist and unlawful militia movements, are not given 
        security clearances or other sensitive law enforcement 
        credentials. Appropriate steps must be taken to address any 
        current employees, who, upon review, match these criteria.
  <bullet> Finally, it is imperative that appropriate steps be taken to 
        identify any elected officials who have endorsed, given 
        credence to, or intentionally promoted QAnon content, and 
        leaders should decline to assign them to positions of 
        authority, which in ADL's view should also mean removing such 
        Members from Congressional committees.
              take domestic terrorism prevention measures
    Fourth, we must not wait until after someone has become an 
extremist or a terrorist attack has happened to act. Effective and 
promising prevention measures exist, which should be scaled. We can and 
must approach this problem holistically rather than through an 
exclusively reactive lens.
  <bullet> Congress can provide funding to civil society and academic 
        programs that have expertise in addressing recruitment to 
        extremist causes and radicalization, whether on-line or off-
        line. By providing funding for prevention activities, including 
        education, counseling, countermeasures, and offramping, 
        Congress can help empower public health and civil society 
        actors to prevent and intervene in the radicalization process 
        and undermine extremist narratives, particularly those that 
        spread rapidly on the internet.
  <bullet> These initiatives must, of course, be accompanied by an 
        assurance of careful oversight and safeguards. They must also 
        meaningfully engage communities who have been targeted by 
        domestic terrorism and who have been targeted when prior 
        terrorism authorities have been misused. They must be 
        responsive to community concerns, publicly demonstrate careful 
        oversight, and ensure that they do not stigmatize communities.
  <bullet> While Congress has funded a small grant program for 
        prevention measures domestically, the program is too small to 
        have an impact at scale and, in some cases, DHS's 
        implementation of the program has lost the confidence of 
        communities. The administration should reform the Targeted 
        Violence and Terrorism Prevention office at DHS and Congress 
        should significantly scale its grant program; ADL has 
        recommended a $150 million annual grant level.
      end the complicity of social media in facilitating extremism
    Fifth, Congress must prioritize countering on-line extremism and 
ensuring that perpetrators who engage in unlawful activity on-line can 
be held accountable with regard both to criminal charges and civil 
liability, and do so without implicating First Amendment concerns. 
There is clearly a role for Government here; we note, for example, that 
the few meaningful steps taken by the large social media companies to 
self-regulate came about only when the companies also faced a 
combination of legislative and regulatory pressure, as well as public 
outrage and significant reputational damage. It has also become 
abundantly clear that self-regulation will never be enough.
    We need aggressive enforcement actions, increased transparency and 
accountability from social media platforms, and reports studying the 
prevalence of hate, harassment, and extremism across key platforms. We 
also need cyber hate victim resource centers, training for law 
enforcement, and funding for innovative tools to combat these issues.
    So-called ``transparency'' reports touted by platforms such as 
Facebook are opaque and inadequate at best. Indeed, as ADL and others 
have reported, it is nearly impossible to understand the prevalence and 
impact of hate on social media, as well as accurate measurements of how 
effective enforcement is, based on platforms' current transparency 
reports. This is not surprising because platform transparency reports 
are self-initiated and, thus, there is no independent oversight of 
reporting requirements. Without clear and accurate reporting, there 
will inevitably be significant gaps in our understanding of how on-line 
extremism and cyber hate influence or impact domestic terrorism and 
hate crimes.
    The public also urgently needs more research on the impact of 
social media platforms' recommendation systems and algorithmic 
amplification mechanisms on the mental health of users, especially 
related to addiction and radicalization. This can give us an important 
understanding of the role social media plays in amplifying extremism. 
Another imperative is more funding and support for technology 
innovation to mitigate on-line hate, including tools related to the 
measurement, detection, support, and mitigation of hate and abuse.
    Another area that urgently lacks research and data is the world of 
on-line games and its relation to White Supremacy, harassment, and 
domestic extremism. Studying similarities between on-line games and 
social media platforms is crucial to determine the need for better 
oversight of their potential market power, influence on youth and adult 
consumers, and impact on our democratic systems. ADL's research shows 
that more than 80 percent of the 66 million U.S. on-line multiplayer 
gamers aged 18-45 have experienced harassment while gaming on-line.\59\ 
Alarmingly, nearly 1 in 10 on-line multiplayer gamers (9 percent) 
witnessed discussions on White Supremacist ideology. We need to learn 
more about how gaming platforms enable hate and extremism.
---------------------------------------------------------------------------
    \59\ ADL, ``Free to Play? Hate, Harassment and Positive Social 
Experience in On-line Games 2020.'' (https://www.adl.org/free-to-play-
2020#results).
---------------------------------------------------------------------------
    On-line gaming should be considered a key part of the conversation 
about preventing on-line extremism and creating more just and inclusive 
digital social spaces.
  <bullet> Congress can work with independent extremism experts to 
        protect vulnerable targets from becoming either victims of 
        abuse or radicalized perpetrators of violence. Legislation like 
        the National Commission on On-line Platforms and Homeland 
        Security Act,\60\ for example, would establish a commission to 
        investigate how on-line content implicates certain National 
        security threats, such as targeted violence. Congress should 
        also pass legislation like the Raising the Bar Act,\61\ which 
        would attempt to reduce the amount of content related to 
        terrorism on social media platforms.
---------------------------------------------------------------------------
    \60\ H.R. 4782--National Commission on On-line Platforms and 
Homeland Security Act, 116th Congress (2019-2020). (https://
www.congress.gov/bill/116th-congress/house-bill/4782).
    \61\ Emily Birnbaum, ``Democratic lawmaker introduces bill to 
tackle on-line terrorist activity,'' The Hill, November 20, 2019. 
(https://thehill.com/policy/technology/471226-dem-lawmaker-introduces-
bill-to-tackle-online-terrorist-activity).
---------------------------------------------------------------------------
  <bullet> We also need to provide better recourse for victims and 
        targets of on-line hate and harassment. In the 115th Congress, 
        Representative Katherine Clark (D-MA) introduced and led H.R. 
        3067, the On-line Safety Modernization Act,\62\ which, among 
        other things, would have provided Federal protections against 
        doxing and swatting. It is time to pass laws that cover these 
        types of harms. It is crucial that legislation provide private 
        rights of action.
---------------------------------------------------------------------------
    \62\ H.R. 3067--Online Safety Modernization Act of 2017, 115th 
Congress (2017-2018). (https://www.congress.gov/bill/115th-congress/
house-bill/3067).
---------------------------------------------------------------------------
  <bullet> We also need to train law enforcement to investigate cyber 
        crimes and require better reporting of these crimes. Only then 
        can we fully understand the extent of the problem.
  <bullet> Finally, Congress must amend Section 230 of the 
        Communications Decency Act to make tech companies legally 
        accountable for their role in enabling stalking, facilitating 
        violence, civil rights violations, and inciting domestic 
        terrorism. We do not support the elimination of Section 230 
        altogether for the simple reason that doing so will have the 
        unintended consequence of allowing more hate on-line where that 
        hate is heinous and harmful, but doesn't on its own rise to the 
        level of being unlawful. We are also well aware that too blunt 
        a legislative instrument in this area could silence and harm 
        the very communities and speech we seek to protect. We 
        therefore urge lawmakers to seriously consider Section 230 
        reform proposals that prioritize equity and justice for users 
        and bar immunity when platforms put profit over people. This 
        could include enacting measures such as the Protecting 
        Americans from Dangerous Algorithms Act,\63\ which would 
        prevent the use of algorithms to amplify discriminatory 
        content, or aid and abet terrorism. We will separately be 
        providing more details on ADL's views on reform.
---------------------------------------------------------------------------
    \63\ ``Reps. Malinowski and Eshoo Introduce Bill to Hold Tech 
Platforms Liable for Algorithmic Promotion of Extremism,'' October 20, 
2020. (https://malinowski.house.gov/media/press-releases/reps-
malinowski-and-eshoo-introduce-bill-hold-tech-platforms-liable-
algorithmic).
---------------------------------------------------------------------------
   create an independent clearinghouse for on-line extremist content
    Sixth, Congress should work with the Biden-Harris administration to 
create a publicly-funded, independent nonprofit center to track on-line 
extremist threat information in real time and make referrals to social 
media companies and law enforcement agencies when appropriate. The 
Center should be well-funded with sustained, on-going funding, but 
should be independent of the Federal Government.
  <bullet> This approach is needed because those empowered with law 
        enforcement and intelligence capabilities must not be tasked 
        with new investigative and other powers that implicate civil 
        liberties--for example, through broad internet surveillance. 
        Scouring on-line sources through an independent organization 
        will act as a buffer, but will not prevent the nonprofit center 
        from assisting law enforcement in cases where criminal behavior 
        is suspected. This wall of separation, modeled in part on the 
        National Center for Missing and Exploited Children (NCMEC), 
        will help streamline National security tips and resources while 
        preserving civil liberties.
           target foreign white supremacist terrorist groups
    Finally, Congress must recognize that White Supremacist extremism 
is a major global threat of our era and mobilize with that mindset. 
Foreign White Supremacists influence domestic extremists and vice 
versa. Like the social media channels through which it courses, White 
Supremacy knows no borders.
  <bullet> To date, no White Supremacist organization operating 
        overseas has been designated as a Foreign Terrorist 
        Organization. Only one has been designated as a Specially 
        Designated Global Terrorist. The National Security Council 
        should immediately hold a Deputies Committee meeting to review 
        how these designation decisions were made, if any additional 
        racially or ethnically motivated extremist groups outside the 
        United States, particularly White Supremacist groups, have 
        reached the threshold for either designation, and whether doing 
        so would help advance U.S. National interests.\64\
---------------------------------------------------------------------------
    \64\ The First Amendment's assembly and speech protections would 
not permit designation of White Supremacist organizations operating 
here in the United States, but designating foreign White Supremacist 
groups could make knowingly providing material support or resources to 
them a crime--extending authority for law enforcement officials to 
investigate whether such a crime is being planned or is occurring. Mary 
B. McCord, ``White Nationalist Killers Are Terrorists. We Should Fight 
Them Like Terrorists,'' Washington Post, Aug. 8, 2019. (https://
www.washingtonpost.com/outlook/white-nationalist-killers-are-
terrorists-we-should-fight-them-like-terrorists/2019/08/08/3f8b761a-
b964-11e9-bad6-609f75bfd97f_story.html).
---------------------------------------------------------------------------
  <bullet> The Biden-Harris administration must also ensure consistent 
        analysis of the global nature of the White Supremacist 
        terrorist threat, including by scrutinizing links between 
        foreign and domestic White Supremacist extremist groups. The 
        recent surge of mass shootings targeting Jews, immigrants, 
        Hispanics, Blacks, and Muslims from Pittsburgh to 
        Christchurch--and many others--provide ample evidence of the 
        global influence and network of the threat. One way to target 
        foreign White Supremacists is by empowering the National 
        Counterterrorism Center (NCTC) to analyze the threat to the 
        fullest extent permitted by law. Another would be for the U.S. 
        Department of State to create a comprehensive strategy to 
        address the issue (as required by the NDAA) and carefully carry 
        that strategy out. Congress and the administration should 
        consider additional measures as well.
  <bullet> States also have a role to play, including working closely 
        with Federal authorities to identify and investigate foreign 
        connections to domestic terrorist activity. Many times the 
        first line of defense to a domestic threat is a State or local 
        law enforcement official. States should ensure officials are 
        aware of their role in protecting against this global threat 
        and that they are working seamlessly with Federal counterparts.
                               conclusion
    Thank you for the opportunity to testify before this committee and 
for calling a hearing on this urgent topic. ADL data clearly and 
decisively illustrates that the impact of hate is rising across the 
United States, and that domestic extremism and terrorism will continue 
to pose a grave threat.
    It is long past time to acknowledge that these threats 
overwhelmingly come from right-wing extremists, especially White 
Supremacists, and to allocate our resources to address the threat 
accordingly, while assiduously preserving civil liberties.
    We must also address these threats holistically rather than 
piecemeal. This is precisely what ADL's PROTECT plan does, applying a 
whole-of-Government and whole-of-society approach to the fight against 
hate and extremism. On behalf of ADL, we look forward to working with 
you as you continue to devote your attention to this critical issue.

    Chairman Thompson. Thank you very much.
    I now ask Mr. Jenkins to summarize his statement for 5 
minutes.

STATEMENT OF BRIAN MICHAEL JENKINS, SENIOR ADVISOR TO THE RAND 
                PRESIDENT, THE RAND CORPORATION

    Mr. Jenkins. Thank you, Chairman Thompson, Ranking Member 
Katko, Members of the committee, for inviting me to again 
testify.
    We have come through a difficult year that has witnessed 
anguish, anger, and turmoil in our cities, which violent 
anarchists and others have exploited to advance their own 
agendas. We have recently seen the resurgence of threats from 
the far right, as the previous members of the panel have 
pointed out, culminating in the events of January 6. I want to 
focus on that event and its potential consequences.
    But first, I, too, want to acknowledge the Capitol police 
officer killed during the attack, the 2 police officers who 
ended their lives shortly after, and the many brave officers 
who were injured defending the Capitol.
    A violent mob invaded the very symbol of our Republic 
during a Constitutionally-mandated procedure necessary for the 
peaceful transfer of power, the very essence of our democracy. 
This unprecedented assault on America's political system will 
have long-term consequences, including the likelihood of 
further violence throughout the country, as the most determined 
elements of the movement transition from mass protests to 
clandestine campaigns.
    I have called for a National commission to review what 
happened on January 6, conduct impartial inquiries, and level 
hard criticism when warranted. The commission's purpose would 
not be to affix blame, but the reasons for the inadequacy of 
security must be examined and remedied.
    Our concern is not just protecting the Capitol. Most of 
you, I suspect, have been obliged to think more about your own 
security in recent days. Incessant threats to politicians, 
their staffs, and their families, vandals attacking the homes 
of Congressional leaders, armed protesters barging into 
statehouses, extremists plotting to kidnap a Governor, now the 
violent invasion of the Capitol, are having a profound effect 
on public officials. The normalization of violence and threats 
affects their willingness to remain in office, and it could 
discourage others from entering public service.
    Tougher laws against incitement and communicating threats 
may be necessary, but how much control is possible while 
maintaining First Amendment rights?
    Many, including my fellow panel members here, are arguing 
for a domestic terrorism statute. Frankly, I have to say I am a 
bit wary about this. A new statute should improve the chances 
of preventing attacks by facilitating intelligence collection 
and criminal investigations. I believe that that can be 
addressed by adjustments in the Attorney General's guidelines, 
combined with Congressional oversight.
    What many mean by a new domestic terrorism statute is a 
domestic version of the material support provision of the 
PATRIOT Act, which criminalizes providing material support to a 
designated foreign terrorist organization.
    Now, that requires designating domestic terrorist groups, 
and there is the problem. There are hundreds of extremist 
groups on both ends of the political spectrum, along with other 
issue-oriented groups that conceivably might be labeled 
terrorist organizations. Battle lines will be drawn as each 
party proposes its preferred list. The contentious debate could 
distract us from the problem, and it could end badly.
    My advice is to avoid the terrorism as much as possible and 
base prosecutions on existing criminal offenses, putting aside 
the political pretensions of the perpetrators.
    Mr. Katko mentioned that we are coming up to the 20th 
anniversary of the 9/11 attack. For the past 20 years, home-
grown jihadists have been a principal concern of authorities. 
Efforts to thwart their plots fortunately have been largely 
successful.
    I believe that shutting down domestic violent extremists 
may prove far more difficult. They are better organized than 
the home-grown jihadists, and recent actions have given them 
the opportunity to expand their networks. They are better 
armed. Some have military or police experience. Intelligence 
operations may operate in a less permissive environment, and 
programs aimed at preventing radicalization will provoke 
greater resistance.
    Let me conclude with a personal observation. Any realistic 
appreciation of the situation cannot ignore the current 
political environment. We, the people, elect you to represent 
our interests. Those interests are diverse and often 
conflicting. Addressing them requires calm discourse, 
thoughtful deliberation, and creative political compromise. How 
you conduct yourselves sets the tone. Whether it is one of 
divisive, bellicose rhetoric or instructive civil discourse, 
the choice is yours.
    Thank you.
    [The prepared statement of Mr. Jenkins follows:]
          Prepared Statement of Brian Michael Jenkins \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of the RAND Corporation or any of the sponsors of its research.
    \2\ The RAND Corporation is a research organization that develops 
solutions to public policy challenges to help make communities 
throughout the world safer and more secure, healthier, and more 
prosperous. RAND is nonprofit, nonpartisan, and committed to the public 
interest.
---------------------------------------------------------------------------
                            February 4, 2021
 the collapse of comity: perilous times in the third turbulent century 
                of our political experiment, ct-a1175-1
    Thank you Chairman Thompson, Ranking Member Katko, and Members of 
the committee for inviting me to again appear before the House 
Committee on Homeland Security.
    It is not an exaggeration to say that these are perilous times.
    We face a continuing threat from a global jihadist enterprise that 
remains determined to mount terrorist attacks on the United States from 
abroad while exhorting home-grown jihadists to carry out attacks here.
    We face a still-raging COVID-19 pandemic that in the past 12 months 
has killed more Americans than were killed during World War II.
    And we face a heightened threat of domestic violent extremism.
                         a trifecta of dangers
    It is a trifecta of dangers that is testing the resiliency of 
American society and the strength of our democratic institutions.
    I believe that we will come through this as we have come through so 
many dark moments in our Nation's turbulent history, but we should not 
underestimate the hazards.
    Jihadist fronts remain active in many parts of the world. At great 
cost in blood and treasure, we have degraded their operational 
capabilities, but we have not diminished their determination. They 
continue to plan operations against the United States--last in 
December, authorities revealed that a foreign jihadist plot to train a 
pilot to carry out a 9/11-style attack in the United States.\3\ And as 
the arrest of a U.S. solider in New York in January confirms, there are 
still Americans willing to assist the jihadists in terrorist 
operations.\4\
---------------------------------------------------------------------------
    \3\ U.S. Department of Justice, ``Kenyan National Indicted for 
Conspiring to Hijack Aircraft on Behalf of the Al Qaeda-Affiliated 
Terrorist Organization Al Shabaab,'' press release, December 16, 2020 
(as of February 1, 2021: https://www.justice.gov/opa/pr/kenyan-
national-indicted-conspiring-hijack-aircraft-behalf-al-qaeda-
affiliated-terrorist).
    \4\ U.S. Department of Justice, ``U.S. Army Soldier Arrested for 
Attempting to Assist ISIS to Conduct Deadly Ambush on U.S. Troops,'' 
January 19, 2021 (as of February 1, 2021: https://www.justice.gov/usao-
sdny/pr/us-army-soldier-arrested-attempting-assist-isis-conduct-deadly-
ambush-us-troops).
---------------------------------------------------------------------------
    Pandemics devastate economies, as COVID-19 has done. Pandemics 
expose and exacerbate existing inequalities in society, including 
throughout the recovery. Their economic, social, psychological, and 
political effects last long after the disease has subsided.
    Historically, pandemics have been accompanied by popular resistance 
to public health measures, threats to political authority, increases in 
violent crime, and the spread of conspiracy theories. These things we 
have also seen here.\5\
---------------------------------------------------------------------------
    \5\ Brian Michael Jenkins, ``Could 2020 Spawn `70's-Style Radicals 
and Violence?'' NBC News THINK, August 16, 2020 (as of February 1, 
2021: https://www.rand.org/blog/2020/08/could-2020-spawn-70's-style-
radicals-and-violence.html).
---------------------------------------------------------------------------
    We have come through an exceptionally difficult year that has 
witnessed anguish, anger, and turmoil in our cities, which violent 
anarchists and other extremists have exploited to advance their own 
agendas. These actions continue. On Inauguration Day, anarchist 
protesters in Portland and Seattle attacked the offices of Federal 
agencies and a headquarters of the Democratic Party.\6\ We have 
experienced the most contentious election in our Nation's history.\7\ 
We have seen the resurgence of violent activity by far-right extremists 
across the country. In the wake of the recent attack on the Capitol, 
these extremists are currently the most immediate but certainly not the 
only cause of concern, and they are the focus of the remainder of my 
remarks.
---------------------------------------------------------------------------
    \6\ There were violent demonstrations in Portland on both January 6 
and January 20 and in Seattle on February 20. See ``Windows Smashed, 
Portland Police Declare Unlawful Assembly,'' KOIN 6 News, January 6, 
2021 (as of February 1, 2021: https://www.koin.com/news/protests/
direct-action-protest-justice-center-portland-01062021/); Lindsay 
Nadrich, Jennifer Dowling, Jenny Young, Hannah Ray Lambert, and Elise 
Haas, ``Inauguration Day in Portland: Tear Gas, Arrests, 
Demonstrations,'' KOIN 6 News, January 20, 2021 (as of February 1, 
2021: https://www.koin.com/news/protests/inauguration-protests-
portland-01202021/); ``Three Arrested During Destructive March in 
Downtown Seattle,'' KING 5, January 20, 2021 (as of February 1, 2021: 
https://www.king5.com/article/news/local/protests/seattle-protests-
downtown-january/281-6e085af2-4d54-4238-8ec8-9b3c0fb3834d).
    \7\ Brian Michael Jenkins, ``Domestic Terrorism and the U.S. 
Elections,'' RAND Blog, October 7, 2020 (as of February 1, 2021: 
https://www.rand.org/blog/2020/10/domestic-terrorism-and-the-us-
elections.html).
---------------------------------------------------------------------------
    Right-wing extremism in the United States is an assemblage of 
causes and grievances. We saw that on full display on January 6. Many 
of the extremists' causes constitute a continuing dark undercurrent in 
American history that widens during periods of economic, social, or 
political stress.
    There is no single organization or doctrine that unites these 
disparate groups other than their shared hostility toward political 
authority in general and the Federal Government in particular.
    Their discontents fuel and feed upon the increasing polarization of 
American politics and society.
    Many elements of the movement coalesced in what I have called ``the 
Battle of Capitol Hill.''\8\ This was a turning point in our cultural 
and political history. It will have long-term consequences.
---------------------------------------------------------------------------
    \8\ Brian Michael Jenkins, ``The Battle of Capitol Hill,'' The 
Hill, January 9, 2021 (as of February 1, 2021: https://thehill.com/
opinion/national-security/533474-the-battle-of-capitol-hill).
---------------------------------------------------------------------------
    Astonishingly weak security made it possible for a violent mob to 
invade the Capitol (the very symbol of our democracy) during a 
Constitutionally-mandated procedure necessary for the peaceful transfer 
of power (the very essence of democracy).
    Some of those who broke in wandered about the building like 
tourists. Others trashed offices or stole so-called souvenirs. Some 
reportedly hunted for the Vice President and certain Members of 
Congress who were forced to hide out or barricade themselves in the 
House chamber.
    Retaking the building took hours. It could have been worse. This 
was an unprecedented assault on America's political system.
                            a 1/6 commission
    In an opinion piece published in the Los Angeles Times on January 
19, I called for a National commission to review the events of January 
6: What happened, how it happened, what lessons can be learned, and 
what should be done. Insulated from the passions that sunder our 
politics and our society, a commission can conduct impartial inquiries, 
assemble experts, and level hard criticism when warranted.\9\
---------------------------------------------------------------------------
    \9\ Brian Michael Jenkins, ``Why We Need a January 6 Commission to 
Investigate the Attack on the Capitol,'' Los Angeles Times, January 19, 
2021 (as of February 1, 2021: https://www.rand.org/blog/2021/01/why-we-
need-a-january-6-commission-to-investigate-the.html).
---------------------------------------------------------------------------
    A commission can also provide an accurate historical record of the 
events. The 
9/11 Commission is still the most authoritative source on the attacks 
of September 11; although we now have additional information, its 
conclusions hold.
    A 1/6 commission should aim for a detailed chronology that looks at 
the political setting over recent decades, the contentious atmosphere 
following the November 3 elections, the days and hours leading up to 
January 6, and a minute-by-minute account of what happened--from the 
gathering of the crowd in front of the Capitol to the clearing of the 
building hours later. There remains much that we do not know.
    This is not merely for the historical record. A thorough and 
accurate accounting would provide the basis for an informed discussion 
of measures and policies. It is also a way of recording and thereby 
bounding the National trauma. A 1/6 commission could offer a road to 
National recovery.
                why did security fail so spectacularly?
    The commission's purpose would not be to affix blame, but the 
reasons for the inadequacy of security on January 6 must be examined. 
One issue is the matter of intelligence.
    Public statements by Capitol Police, DC Police, and various FBI 
officials have offered contradictory accounts of whether there was 
intelligence warning of an attack and, if there was, who saw it. That 
sharing intelligence about potential attacks in the Nation's capital is 
still a problem nearly 2 decades after 9/11 seems astounding. One of 
the tasks of a commission would be to sort out who knew what when.
    Even if there was no specific intelligence warning of the assault--
often a finding of previous commissions looking at surprise attacks--
that is no excuse for the security failure. Rarely is there specific 
intelligence indicating an imminent attack. If there were, the 
authorities could intervene and prevent it. There is a difference 
between specific tactical intelligence and sensible foresight.
    An assault on the Capitol should have been anticipated. Shootings 
and bombings have occurred here in prior years. Since 9/11, the Nation 
has been especially concerned about a terrorist attack on the Capitol. 
We have gone through a year of protests in Washington. Violent street 
clashes occurred in the city just weeks before January 6. Members of 
Congress warned of potential problems.
    Days before January 6, groups with histories of violence were 
gathering again. Internet chatter among these extremists--as reported 
in the news media--included discussions about smuggling guns into the 
Nation's capital. Formalizing the electoral count, which would take 
place in the Capitol, was identified by some extremists as the last 
opportunity to change the outcome of the November election. Yet no one 
thought the Capitol might be a target?
    The Department of Homeland Security is responsible for preparing 
intelligence reports on domestic threats and sharing them with Federal, 
State, and local law enforcement, including the Capitol Police. 
Reportedly, social media were buzzing with talk of violence in the days 
leading up to the invasion, but the Department of Homeland Security had 
stopped at least some of its reporting months before. Why?
    Whether the Capitol Police reportedly was prevented from enlisting 
help or rejected offers of assistance in preparing for January 6 
appears to be another area of conflicting accounts. That still would 
not let other Federal agencies entirely off the hook. They were aware 
of the threat and had routinely dealt with situations like this before.
    The President's State of the Union Address, for example, is a 
``National Special Security Event'' that engages all assets of the 
Federal Government to protect it against terrorist attack. The 
Department of Homeland Security designates the events that fall in this 
category. Was doing so in the case of the electoral count even 
considered as a possibility?
    The Department of Homeland Security is in the Executive branch. The 
Capitol Police operates under Congressional authority. Did 
jurisdictional issues get in the way?
    Some have suggested that, following the criticism of the 
militarized response to the Black Lives Matter demonstrations over the 
summer, Federal authorities did not want to create the appearance of 
another oppressive armed presence. Was inadequate security at the 
Capitol an overreaction to an overreaction?
    The Capitol Police performed bravely, as evidenced by the many who 
were injured and the death of one officer. (One other Capitol Police 
officer and one member of the DC Police who defended the Capitol later 
committed suicide.) And it is understandable that being so badly 
outnumbered discouraged futile resistance, but there are disturbing 
reports of inappropriate behavior, suggesting affinity with the 
invaders.
    The astonishing inadequacy of security raises questions about the 
leadership, recruitment, and training of the Capitol Police, but it 
also raises questions about the adequacy of oversight. Did Congress 
take responsibility for ensuring its own safety, or did members simply 
assume that they would be adequately protected? After all, the Capitol 
Police comprises 2,300 officers and civilian employees and has an 
annual budget of $460 million.
    A question going forward is whether the Capitol Police, which 
mainly mans security checkpoints at entrances, should be held 
responsible for protecting the facility from mass assaults.
    The mass demonstrations and riots in the United States during the 
1960's, the barricade-and-hostage situations that began in the 1970's, 
and the Middle East truck bombs of the 1980's required continuing 
changes in security measures and response. Facing large groups of 
potentially violent occupiers, some of whom may be displaying but not 
using firearms, along with others who may be carrying concealed 
weapons, requires rethinking how to protect public officials and 
enforce the law.
                       addressing broader issues
    Earlier commissions charged with investigating specific events also 
identified broader National challenges. The 1960's commissions on civil 
disturbances pointed to the fundamental problem of violence in America 
and warned of a divided society.\10\ The Long Commission not only 
examined the 1983 Beirut bombing but warned that terrorism had become a 
new mode of warfare--17 years before the 
9/11 attacks--for which the Nation's armed forces must be prepared.\11\ 
More than a year before 9/11, the National Commission on Terrorism 
warned of the potential for large-scale terrorist attacks on U.S. 
soil.\12\
---------------------------------------------------------------------------
    \10\ National Advisory Commission on Civil Disorders, Report of the 
National Advisory Commission on Civil Disorders: Summary of Report, 
Washington, DC: U.S. Government Printing Office, 1968 (http://
www.eisenhowerfoundation.org/docs/kerner.pdf).
    \11\ See, for example, DOD Commission on Beirut International 
Airport Terrorist Act, October 23, 1983, Report of the DOD Commission 
on Beirut International Airport Terrorist Act, October 23, 1983, 
Washington, DC, December 20, 1983 (as of February 1, 2021: https://
fas.org/irp/threat/beirut-1983.pdf); see also Brian Michael Jenkins, 
The Lessons of Beirut: Testimony Before the Long Commission, Santa 
Monica, Calif.: RAND Corporation, N-2114-RC, February 1984 (as of 
February 1, 2021: https://www.rand.org/pubs/notes/N2114.html).
    \12\ National Commission on Terrorism, Countering the Changing 
Threat of International Terrorism: Report of the National Commission on 
Terrorism, Washington, DC, 2000 (as of February 1, 2021: https://
fas.org/irp/threat/commission.html).
---------------------------------------------------------------------------
    The 1996 White House Commission on Aviation Safety and Security 
made numerous practical suggestions for improving security, but it also 
argued that aviation security was a component of National security, a 
concept that was accepted only after 9/11. The 1998-2001 Commission on 
National Security/21st Century determined that the United States would 
become increasingly vulnerable to hostile attack within its own borders 
and that U.S. military superiority would not entirely protect American 
citizens.\13\
---------------------------------------------------------------------------
    \13\ United States Commission on National Security/21st Century: 
New World Coming: American Security in the 21st Century; Supporting 
Research and Analysis, Washington, DC, 1999 (as of February 1, 2021: 
https://www.hsdl.org/?view&did=2078).
---------------------------------------------------------------------------
    The practical problem of defending Government officials and 
buildings goes beyond barriers and tactics. On the same day as the 
invasion of the Capitol, armed protesters showed up at the Georgia 
State house, demanding to see the secretary of state.\14\ In April 
2020, armed protesters entered the Michigan legislature to protest 
control measures for dealing with COVID-19.\15\ Similar incidents have 
occurred at State capitols across the country, raising a fundamental 
question: How do we maintain the reality and appearance of open 
government that guarantees access by the public to elected officials 
and at the same time protect public officials and their staffs and even 
their families?
---------------------------------------------------------------------------
    \14\ Associated Press, ``Georgia Secretary of State's Office 
Evacuated as Armed Protesters Gather,'' WBUR News, January 6, 2021 (as 
of February 1, 2021: https://www.wbur.org/news/2021/01/06/georgia-
election-secretary-of-state-evacuated).
    \15\ ``Coronavirus: Armed Protesters Enter Michigan Statehouse,'' 
BBC News, May 1, 2020 (as of February 1, 2021: https://www.bbc.com/
news/world-us-canada-52496514).
---------------------------------------------------------------------------
    The internet and social media offer access to information and 
unprecedented connectivity. At the same time, they have become highways 
of hate, disinformation, radicalization, and incitement to violence 
while they facilitate mobilization and planning. How does a society 
maintain its commitment to free speech but deny those bent upon its 
destruction from hijacking this powerful communication technology?
    The Capitol was not invaded by extraterrestrials. Domestic violent 
extremists are made in the USA. Part of the inquiry must be an 
examination of the motives and intentions of those who broke into the 
Capitol. That does not mean offering a forum for the spread of hate or 
excusing anyone's behavior. The country needs to understand the 
invaders' perspective, not just dismiss them as fanatics and lunatics. 
Who were the invaders? What did they want to do? Was this merely an 
aroused but disorganized horde that swarmed into the Capitol, or were 
there elements within it following a preconceived plan? If so, what 
were the objectives? Did they receive direction or support from others 
not on the scene?
    The invaders describe themselves as ``patriots,'' and Revolutionary 
War symbols were certainly abundant on January 6. In the eyes of most 
people, invading the Capitol and threatening the lives of 
democratically-elected officials hardly qualifies as an act of 
patriotism or a defense against criminal charges, but it is significant 
that the invaders see themselves in this way. If they were merely a mob 
of vandals and looters, devoid of intellectual content or spiritual 
impetus, this would be a security and law enforcement problem. The 
thinking they reflect runs deeper and poses a greater societal 
challenge.
     the political consequences of normalizing threats and violence
    As heirs to the Founding Fathers of this Nation, Members of 
Congress bear an awesome burden--increasingly, it is a dangerous one. I 
suspect that probably all of you have received venomous communications. 
Most of you, I suspect, have been obliged to think more about your own 
security in recent days.
    When the mob broke into the building on January 6, no one knew how 
many might be armed or what their intentions were. Security had already 
broken down. A single determined shooter could have caused a massacre. 
Or the invaders could have seized hostages, leading to a dangerous 
siege.
    Incessant threats to politicians and their families on social 
media, vandals attacking the homes of Congressional leaders, armed 
protesters barging into State houses, extremists plotting to kidnap, 
and, most dramatically, the violent invasion of the Capitol on January 
6 are having a profound effect on those in public office and their 
families.\16\ This goes beyond an immediate security issue and affects 
the psychology of politicians--whether they can trust their colleagues, 
their willingness to remain in office. It will alter the readiness of 
others to enter public service.
---------------------------------------------------------------------------
    \16\ Brian Michael Jenkins, ``Capitol Rioters and Threats to 
Lawmakers Could Distort the Political Landscape for Years,'' NBC News 
THINK, January 25, 2021 (as of February 1, 2021: https://
www.nbcnews.com/think/opinion/capitol-rioters-threats-lawmakers-could-
distort-political-landscape-years-ncna1255602).
---------------------------------------------------------------------------
    Some historians have noted that recent political violence may be no 
worse than that witnessed throughout U.S. history--a periodic spasm. 
But the violent takeover of the U.S. Capitol building on January 6 
changed perceptions. This was an unprecedented assault on American 
legislators conducting a solemn responsibility, and it has 
understandably rattled Members of Congress.
    An angry mob invaded your workplace. Experiencing any kind of 
criminal assault can cause anxiety, apprehension, and other 
psychological problems, which can take months or even longer to get 
over. Crowds, sudden approaches by individuals, shouts--any loud noise 
can trigger alarm. This is especially difficult for politicians who 
move constantly among strangers, shaking hands, pressing the flesh, 
drawing strength from noisy crowds--an affirmation of connectivity in a 
tumultuous democracy.
    In addition to shootings, bombing plots, and angry mobs, 
politicians are targets of continuous, often graphic threats on social 
media, in e-mails, and on phone calls. A heavily-armed man arrested in 
Washington, DC, the day after the Capitol invasion had previously 
texted, ``Ready to remove several craniums from shoulders.''\17\ 
Authors of threat messages seldom turn out to be assassins, but for the 
foreseeable future, no threats can be dismissed. They are a constant 
reminder of peril, and they contribute to distress.
---------------------------------------------------------------------------
    \17\ Porter Garrison, ``Officials: Man Who Traveled from Colorado 
to DC with Assault Rifle Charged with Threatening Pelosi,'' Denver7, 
January 10, 2021 (as of February 1, 2021: https://
www.thedenverchannel.com/news/local-news/officials-man-who-traveled-
from-colorado-to-dc-with-assault-rifle-charged-with-threatening-
pelosi).
---------------------------------------------------------------------------
    Improving security is necessary, but there are practical and 
philosophical limits to what can be done. Are armed fortresses 
necessary to protect democracy from itself? Should 24-hour Secret 
Service protection be offered to all Members of Congress, as well as at 
the State level for Governors and legislators? Can politicians go 
entirely virtual, operating from undisclosed locations? Do we risk 
disconnecting Government from the citizenry?
    Tougher laws against incitement and communicating threats may be 
necessary. More policing by social media platforms may be required. But 
how much control is possible while maintaining First Amendment rights?
                are new domestic terrorism laws needed?
    A number of analysts have indicated that the takeover of the 
Capitol building meets the definition of terrorism. Federal prosecutors 
may or may not decide to add the terrorism enhancement to the criminal 
charges facing those involved. You may note, however, that I have 
avoided using the terms terrorism and terrorist as they apply to 
domestic crime. This avoidance is deliberate, but not for political 
reasons.
    The term used by the U.S. Government is domestic violent 
extremists, or DVEs. The operative word is violent, which falls in the 
category of ordinary crime, like assault, kidnapping, or murder, for 
which there already are criminal statutes. Domestic refers to location, 
and without violence extremist beliefs are not a crime. Hate speech 
might be considered to be a nonviolent expression of extremism, 
although it often involves threats.
    Terrorism is a pejorative. Affixing a terrorist label to one's foes 
offers political advantage. In the 1970's, national governments and 
nongovernmental organizations battled about the definition of 
terrorism, and it took years to achieve a rough international consensus 
based on specific acts, such as airline hijacking, or target 
categories, such as diplomats.
    We can expand the definition of terrorism to include whatever 
crimes we want, but doing so will make the term increasingly 
meaningless.
    Many have argued for a domestic terrorism statute, not as 
enhancement that increases a potential sentence but as a stand-alone 
crime. I am wary. In part, these initiatives reflect a popular view 
that ordinary criminal statutes do not adequately reflect the heinous 
nature of a deed. In part, they reflect a desire to draw greater 
attention to the threat.
    In my view, neither of these is a valid reason to justify new laws. 
The only justifications for a new terrorism statute would be to improve 
the odds of preventing attacks by facilitating intelligence collection 
and criminal investigations or to assist prosecutions, thereby removing 
dangerous actors from society and deterring others, all while not 
creating other complications.
    I believe that intelligence operations and decisions to open 
investigations can be achieved by adjustments in the Attorney General's 
guidelines, combined with Congressional oversight.
    Hate crimes are included in the Federal criminal code, also as an 
enhancement. These are crimes committed on the basis of the victim's 
race, color, religion, National origin or motivated by a person's 
ethnicity, sexual orientation, gender, gender identity, or disability. 
Hate speech is another expression of extremism, but owing to First 
Amendment concerns, hate speech is not in the Federal criminal code.
    Congress could legislate new laws or increase the penalties for 
illegally entering Federal buildings or disrupting Government 
operations. These need not contain the word terrorism.
    Timothy McVeigh was not prosecuted for terrorism. He was charged, 
convicted, and executed for murdering 8 Federal law enforcement 
officers--a capital crime.\18\
---------------------------------------------------------------------------
    \18\ Timothy McVeigh was charged with ``conspiracy to detonate a 
weapon of mass destruction,'' ``use of a weapon of mass destruction,'' 
``destruction by explosives resulting in death,'' and ``first-degree 
murder'' (specifically, the murder of 8 law enforcement officers during 
the attack).
---------------------------------------------------------------------------
    What many mean by a new domestic terrorism statute is a domestic 
version of the material-support provision of the Patriot Act, which 
criminalizes providing material support to a designated foreign 
terrorist organization. Prosecutors have interpreted this broadly, and 
the courts have gone along.
    The problem with a domestic version of a material-support provision 
is that it requires designating domestic terrorist groups--and therein 
lies the trouble. There are hundreds of extremist groups on both ends 
of the political spectrum, along with other issue-oriented groups that 
conceivably might be labeled terrorist organizations. And organization 
in the domestic context is a slippery term. Some ``organizations'' are 
definable groups. Others are mindsets.
    Some are large. Others are little more than a website.
    The emotive and propaganda power of the term terrorism will raise 
the political stakes.
    Battle lines will be drawn as each side proposes its preferred 
list. One can envision Congressional horse-trading. The end result is 
not likely to be a coherent list of terrorist groups. The immediate 
consequence is that the effort could completely distract us from the 
problem.\19\ My advice is to avoid the term as much as possible and 
base prosecutions on ordinary criminal offenses.
---------------------------------------------------------------------------
    \19\ To avoid the political complications that inevitably would 
arise in designating domestic terrorist groups, some Federal officials 
suggest relying on the earlier version of the material-support 
provision, 18 U.S.C. Sec. 2339A, which addresses material support for 
crimes that entered the U.S. criminal code when the United States 
signed international conventions prohibiting certain crimes, such as 
airline hijacking. To ensure that hijackers, for example, would not be 
granted asylum, some of the conventions called for extradition or 
prosecution. Material support for tactics or target sets covered by 
these conventions is also illegal. However, the conventions that are 
part of the Federal criminal code address only a limited range of 
terrorist activity.
---------------------------------------------------------------------------
                             future tactics
    Public revulsion over the Capitol building takeover, denunciations 
by politicians who were once viewed as supportive, and the deterrent 
effects of rigorous prosecution may combine to reduce the ranks of the 
extremists. With popular participation declining, the diehards may move 
from street brawls to more surreptitious operations.
    Scenarios drawn from past attacks and plots include mass shootings 
by lone gunmen, such as the 2011 attack in Oslo, Norway, which also 
involved a large bomb, and the 2019 shooting at a mosque in 
Christchurch, New Zealand.
    We can envision assassination attempts like the assassination of 
President Kennedy in 1963, the shooting of President Reagan in 1981, 
the 2011 shooting of Representative Gabby Giffords in Tucson, Arizona, 
and the 2017 shooting of Republican House members at baseball practice 
in Alexandria, Virginia.
    The scenarios contemplated by those arrested for plotting the 
kidnapping of the Governor of Michigan included taking over the State 
house in Lansing and holding hostages, including the Governor. Armed 
takeovers of Government buildings to seize hostages, create Government 
crises, and perhaps make demands must be considered part of the 
potential terrorist playbook. There have been a number of dramatic 
hostage incidents in the United States, including in Washington, DC.
    The arsenal displayed at some of the right-wing protests suggests a 
predilection toward shootings rather than bombings, which were the 
favored tactic of domestic terrorist groups in the 1970's; however, 
bombings cannot be excluded. Until 9/11, the 1995 bombing of the 
Federal building in Oklahoma City was the deadliest domestic terrorist 
attack the country had seen.
    Although mass casualties were not the intent of the recent 
Nashville bomber, and his motives are still not entirely clear, the 
event reminds us that large-scale bombings remain a threat.\20\
---------------------------------------------------------------------------
    \20\ Natalie Allison and Adam Tamburin, ``Retracing the Key Moments 
After the Christmas Morning Bombing in Nashville,'' Tennessean, January 
10, 2021 (as of February 1, 2021: https://www.tennessean.com/in-depth/
news/local/2021/01/10/timeline-christmas-morning-bombing-nashville/
6578915002/).
---------------------------------------------------------------------------
    Suspected pipe bombs were placed at the headquarters of the 
Republican and Democratic National Committees on January 5;\21\ on 
January 27, the FBI arrested a suspected extremist with pipe bombs who 
might have been targeting California's Governor and social media 
companies who had blocked his accounts. Pipe bombs suggest a continuing 
terrorist campaign.
---------------------------------------------------------------------------
    \21\ Michael Balsamo, ``FBI: Pipe Bombs at RNC, DNC Were Planted 
Night Before Riot,'' ABC News, January 29, 2021 (as of February 1, 
2021: https://abcnews.go.com/Politics/wireStory/fbi-pipe-bombs-rnc-dnc-
planted-night-riot-75566629).
---------------------------------------------------------------------------
                   we face a more difficult challenge
    For the past 20 years, home-grown jihadists have been a principal 
concern of authorities.
    Efforts to disrupt terrorist networks, prevent terrorist 
recruitment, thwart terrorist plots, and deter attacks through 
prosecutions of those who plotted or carried out attacks have largely 
been successful.\22\ Shutting down domestic violent extremists may 
prove more difficult, for a variety of reasons.\23\
---------------------------------------------------------------------------
    \22\ Brian Michael Jenkins, Paths to Destruction: A Group Portrait 
of America's Jihadists--Comparing Jihadist Travelers with Domestic 
Plotters, Santa Monica, Calif.: RAND Corporation, RR-3195-RC, 2020 (as 
of February 1, 2021: https://www.rand.org/pubs/research_reports/
RR3195.html).
    \23\ Some of these points are discussed in greater detail in Brian 
Michael Jenkins, ``Domestic Violent Extremists Will Be Harder to Combat 
Than Homegrown Jihadists,'' The Hill, January 31, 2021 (as of February 
1, 2021: https://thehill.com/opinion/national-security/536637-domestic-
violent-extremists-will-be-harder-to-combat-than-homegrown).
---------------------------------------------------------------------------
    The home-grown jihadists have never had a supportive constituency. 
With deep roots in American history and society, today's domestic 
extremists may have a sympathetic underground.
    Domestic violent extremists are better organized than the home-
grown jihadists. Recent actions have given them opportunities to 
network, build contacts, and coalesce.
    The Nation has not been galvanized. Fortunately, there has been no 
follow-on 
9/11-scale attack to bring the country together in a fervent National 
effort. Rather than being a catalyst for unity, the events of January 6 
seem to be a source of continuing division.
    Right-wing extremists are better armed than the jihadists. 
Jihadists have been able to acquire firearms, but they did not match 
the personal arsenals on display at far-right protests.
    Many right-wing extremists have military or police training, which 
adds to their skills in planning operations and avoiding arrest. We may 
have an insider problem.
    Preventing radicalization will provoke outrage and raise civil 
liberty concerns. The idea that domestic extremists may be the subjects 
of thought control and thus require a form of ``deprogramming'' has 
already provoked angry complaints. The environment for domestic 
intelligence collection will be less permissive, and prosecutions may 
be more difficult.
    Historically, the American political system has been adept at co-
opting issues and addressing underlying grievances, thereby separating 
violent extremists from larger potential constituencies. A majority of 
Americans of all races believe that systemic racism against Black 
Americans is a problem that should be addressed, although perceptions 
vary greatly according to race.\24\ Recognition is important to getting 
something done, although real progress is required.
---------------------------------------------------------------------------
    \24\ ``Most Americans Agree That Institutional Racism Is Real and 
That Change Is Needed,'' Ipsos, September 2, 2020 (as of February 1, 
2021: https://www.ipsos.com/en-us/most-americans-agree-institutional-
racism-real-and-change-needed).
---------------------------------------------------------------------------
    Co-option is harder with far-right extremists. Government cannot 
compromise with those whose views are antithetical to unalienable 
rights and American values. However, a strategy aimed at reducing 
reservoirs of potential recruits for far-right extremists should not be 
ignored.
    Beneath the anger, there are some legitimate and understandable 
complaints. Segments of our population and regions of our country have 
been left behind by technological developments, globalization, and 
insufficient investment in physical and human infrastructure. Education 
has not equipped them--or their children--to compete in the new 
economies. They have been marginalized, dismissed, and disparaged. Drug 
addiction, drink, and suicide are killing off middle-aged and younger 
White men who do not have college educations.\25\ The system has failed 
them. Their despair does not entirely explain the rise of domestic 
extremists, but those who have been left behind are part of their 
constituency.
---------------------------------------------------------------------------
    \25\ Anne Case and Angus Deaton, Deaths of Despair and the Future 
of Capitalism, Princeton, NJ: Princeton University Press, 2020.
---------------------------------------------------------------------------
    The challenges are daunting, but the situation is not hopeless. 
Continuing violence may attract some, but it will alienate many. The 
FBI ultimately cracked the Ku Klux Klan without a domestic terrorism 
statute. Recent arrests and revelations suggest that the bureau already 
has informants inside the extremist constellations. A new strategy will 
be required. I am confident that our democracy will prevail.
                          a final observation
    Let me conclude with a personal observation. I am ferociously 
nonpartisan. However, any realistic appreciation of the situation 
cannot ignore the current political environment.
    We, the people, elect you to represent our interests. Given this 
vast and diverse country, those interests are equally diverse and often 
conflicting. Addressing them requires calm discourse, thoughtful 
deliberation, and creative political compromise.
    How you conduct yourselves sets the tone--whether it is one of 
divisive bellicose rhetoric or instructive civil discourse, the choice 
is yours. It will determine the course of our Nation.

    Chairman Thompson. I thank the witness for his testimony.
    I will remind each Member that he or she will have 5 
minutes to question the witnesses. I now recognize myself for 
questions.
    Dr. Rodriguez, just for the sake of the committee's 
information, were you aware of the potential violence that 
might have occurred on January 6? If so, who did you notify of 
this information?
    Mr. Rodriguez. Thank you, Mr. Chairman.
    Can you hear me?
    Chairman Thompson. Yes.
    Mr. Rodriguez. OK. So it is a great question. The Homeland 
Security Emergency Management Agency worked very closely with 
the Metropolitan Police Department and our Federal partners to 
assess the threat environment prior to the January 6 
insurrection. We did, and as I think all Federal agencies that 
were sharing information with the city, did indicate that there 
was the potential for violence and that there was intelligence 
to suggest that there could be violence. So that information 
was shared with the city.
    What it prompted us to do, Mr. Chairman, as the District of 
Columbia government, was to recommend to Mayor Bowser that we 
call up the National Guard. We did that on December 31 to help 
with traffic management and crowd control on city property. So 
we also activated our Emergency Operations Center to ensure 
interagency coordination from the city's standpoint prior to 
that--prior to the protests that were expected on the 6.
    Chairman Thompson. Thank you very much.
    Mr. Greenblatt, earlier before this committee you talked 
about the importance of political leaders' rhetoric in 
combating anti-Semitism. Do you see that kind of rhetoric as a 
problem for what occurred on January 6?
    Mr. Greenblatt. Thank you for the question, Mr. Chairman.
    There is no doubt that right-wing extremists have been 
encouraged to see their rhetoric repeated, to see their memes 
moved around by elected leaders at the highest levels.
    Again, when individuals, including the ex-President, would 
make statements, like after the melee in Charlottesville where 
a woman was murdered, where White Supremacists rampaged through 
the town chanting, ``Jews will not replace us,'' when the 
President, the prior President, said that, ``There are very 
fine people on both sides,'' or, again, when he would retweet 
out the rhetoric coming from White Supremacists and use their 
language, like making claims about globalist conspiracy 
theories or telling the Proud Boys in a debate that they 
should, ``stand back or stand by,'' or even after the melee--
after the attack on the Capitol, suggesting that his supporters 
were, ``very special people,'' and that he loved them, when I 
say that this rhetoric emboldens them, I don't mean that 
rhetorically. I mean it literally.
    Because at ADL we track the extremists. We are monitoring 
them on Facebook and Twitter, but also on Signal and Telegram 
and the other platforms that they use, and they were saying, 
``We feel emboldened,'' to one another. The Proud Boys were 
saying, ``Reporting for duty, sir.''
    Again, we know that tens of thousands of people who showed 
up at the National Mall, look, the vast majority of them were 
ordinary individuals who had come to believe and been 
brainwashed to think that somehow the election wasn't 
legitimate, that somehow the votes had been stolen, despite the 
overwhelming and unambiguous evidence to the contrary.
    So there is no question, Mr. Chairman, and all the Members 
of the committee, no matter--there is nothing political in 
pushing back on prejudice, right? There is nothing partisan in 
adhering to a basic set of principles. When leaders don't do 
that it creates the space, if you will, that extremists can 
exploit and move from the margins into the mainstream.
    I will just make one last point. It isn't just about, 
again, the President of the United States. It could be the 
president of the local PTA. But people in positions of 
authority need to clearly and consistently call out 
disinformation, extremism, and hate. Whether, again, it is 
coming from the President of the United States or a first-term 
Member of Congress, those who obsess about conspiracy theories, 
those who spread anti-Semitism and racism, they don't belong in 
the public conversation with a seat at the table. Period. End 
of story.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from New York, Mr. Katko, for 
questions.
    Mr. Katko. Thank you, Mr. Chairman.
    Mr. Greenblatt, I appreciate your comments, and I do think 
that the rhetoric has definitely led to what happened on 
January 6. I credit what you are saying. It is incumbent upon 
all of us to be mindful of what that rhetoric can do and what 
it did in this case.
    That is why I voted for impeachment, because there is no 
question in my mind--as a Republican, I was the first to do so, 
and I did so because there is no question in my mind that the 
rhetoric inflamed and turned the boiling water from a hot pot 
of water to overflowing, and that is what happened. There is 
just no question about it. So thank you for that.
    But I want to look at the issues more broadly, because that 
is what our job is. Ms. Neumann, you mentioned that we need a 
domestic terror commission, if you will. What would you 
envision that looking like, and what would you think we should 
do from a legislative standpoint to form that commission and 
make sure it is effective?
    Ms. Neumann. Thank you, Ranking Member, for the question.
    Look, as a former Executive branch official, the day-to-day 
work that you have to do, the portfolios that counterterrorism 
professionals and law enforcement professionals have is 
enormous. You are often looking at urgent threats, at trying to 
make sure, especially in a heightened threat environment that 
we are in, that we are staying ahead of the threat actors.
    So my concern is that in this moment that we have really 
the fantastic people that I trust, that I think are experts 
that are coming into the Biden administration, that are going 
to treat this seriously. They are going to look at updating 
what they can from a policy perspective or from even a cultural 
perspective. I think we need to explore how various 
institutional cultures may have contributed to missing this or 
not taking a threat seriously enough.
    The honest truth is this is extremely complex. As Mr. 
Jenkins pointed out, we really need to weigh the pros and cons 
of what, if we change the law, what are the unintentional 
consequences? There are many communities that have been 
historically hurt by laws that were passed to try to address 
terrorism. We need to treat that seriously and hear their 
concerns.
    It is not something that in your day-to-day work as a 
counterterrorism official you have the time and the space to 
treat with the level of diligence it deserves.
    That is why I think this is where you need a commission. 
You also need it out of, quite frankly, the political 
spotlight. The rhetoric I am seeing on certain fairly prominent 
commentators that are painting with very broad brush strokes, 
they, whoever ``they'' is, believe that 74 million Americans 
that voted for President Trump are domestic terrorists.
    Now, I am an avid consumer of news, and I have been a news 
commentator of late. I haven't heard anybody saying that. It is 
not a prominent talking point in the mainstream, if you will. 
Yet we have just informed an echo chamber and it continues to 
be repeated that they are now painted as domestic terrorists.
    Well, unfortunately, that feeds the grievance cycle. That 
is likely to create more moving toward radicalization, 
potentially mobilizing to violence, because they have now been 
told that they are been painted as domestic terrorists.
    So we have got to cut that off. We have got to cool the 
rhetoric happening on both sides. Part of the way to do that is 
to stand up a commission, bipartisan, that the people that are 
selected are trusted as being experts, honest brokers, and let 
them go off behind closed doors and debate this. Then let them 
bring it out to the public, to you, the Congress, who have the 
most important job of debating what the laws should be in our 
country.
    So I think you are looking for expertise in 
counterterrorism, law enforcement, civil liberties, and 
representatives from communities that have historically been on 
the receiving end of too much scrutiny or abuse by authorities. 
We need expertise from all those to come and evaluate what the 
best path forward is here.
    Mr. Katko. Thank you, Ms. Neumann.
    Mr. Jenkins, real briefly, 2 questions, and you can answer 
them briefly, if you can.
    First of all, obviously, some of the far-right violent 
extremism manifested itself on January 6, but is it fair to say 
that, you know, violent extremism goes across the entire 
political spectrum, from the far left to the far right, and 
that is something we need to keep in mind as we go forward 
here? That is No. 1.
    No. 2 is, did you want to add anything to what this 
commission should look like and what Ms. Neumann said?
    Unmute yourself, please.
    Mr. Jenkins. To the first question, you, yourself, pointed 
out that in the 1960's and 1970's we were dealing with left-
wing terrorists. In the 1980's and 1990's it shifted back to 
the right. For the last 20 years we have been looking at 
jihadist terrorists. In recent years right-wing terrorists has 
resurged again to be our principal problem.
    This moves over time, and I think we do have to address all 
dimensions of the threat coming from left and right. That is 
the nature of the kind of political violence we deal with in 
our country.
    In answer to the second part, about the mission of the 
commission, I certainly agree with Ms. Neumann that a 
bipartisan commission, insulated from daily news and partisan 
politics, can, No. 1, provide an accurate, thorough history of 
the events of January 6. The 9/11 Commission's history of the 
9/11 events is still the most accurate, thorough account, and 
that is useful.
    I think it can look at the intelligence issues, the 
security issues, not in the narrow sense but in the broadest 
sense about how we protect our Government and its processes 
going forward in an age of the internet and without turning 
really our public buildings, including the Capitol, into armed 
fortresses.
    Mr. Katko. Thank you very much.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes other Members for questions they 
may wish to ask witnesses. I will recognize Members in order of 
seniority, alternating between Majority and Minority. Members 
are reminded to unmute themselves when recognized for 
questioning and to then mute themselves once they have finished 
speaking and to leave their cameras on so they may be visible 
to the Chair.
    The Chair recognizes for 5 minutes the gentlelady from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much, and to 
the Ranking Member as well, and to the witnesses.
    The attack on the Capitol was an act of domestic terrorism 
and it was primarily and much attributed to the words of the 
President of the United States, President Trump, who emboldened 
those who carried out this terrorist act.
    I want to first of all acknowledge the loss of our beloved 
officer, Officer Sicknick, and other officers who have also 
lost their lives, but those who now continue to suffer with 
injuries, some of whom are still in hospitals. I believe it is 
our responsibility to find a solution and to do it in a 
bipartisan way. We need to do it as Americans.
    So I am interested, Dr. Rodriguez, you indicated 
information coming from a number of sources. Would you tell me 
whether you as DHS know that you got information directly from 
FBI national? Did you convey that information to the Capitol 
Hill officers, police officers, brass, the chief and others, in 
your preparation?
    Dr. Rodriguez.
    Mr. Rodriguez. Thank you, Representative Jackson Lee. I 
appreciate the question.
    To the first part, about getting information from the 
Federal Government or from the FBI, yes, we have good 
information-sharing and intelligence-sharing relationships with 
the Washington Field Office here in the District and we were 
getting information from them about the potential for violence.
    Ms. Jackson Lee. Did you convey that to the police on 
Capitol Hill?
    Mr. Rodriguez. I was just about to get to that. So we did 
convene--the Metropolitan Police Department and my office 
convened a variety of different phone calls and briefings with 
all relevant Federal stakeholders, the Park Police, the Capitol 
Police, and all of our Federal partners, to make sure that 
everyone had the same intelligence and the same----
    Ms. Jackson Lee. Thank you so much very. I support Mayor 
Bowser's need for control over the National Guard. Thank you so 
much very much.
    Let me ask Ms. Neumann about the idea of what has been 
represented is the number of witnesses--excuse me--the number 
of individuals found to be affiliated with the United States 
military and law enforcement formally, either active or 
retired.
    What would be your thought about the idea of stopping this 
tide of extremism in these particular organizations, overcoming 
the many excellent officers who stood the line for us, visibly 
fighting against domestic terrorists? How do we address that?
    I would like the witness, Mr. Jenkins, to answer that 
question as well. Thank you.
    Ms. Neumann? My time is short. Thank you.
    Ms. Neumann. Yes, ma'am. Thank you for the question.
    Yes, can you hear me?
    Ms. Jackson Lee. Very well.
    Ms. Neumann. Thank you for the question.
    I believe that, though it might have shocked the American 
public and there has been a lot of conversation about it, this 
has been a known challenge for decades. We know that White 
Supremacist groups and militia groups have targeted military, 
former military and former law enforcement, for recruitment 
purposes upon their retirement.
    We also know that they encourage people when they are 
young, when they have been recruited into these movements, to 
stay clean so that they can enter into and not get caught 
through screening mechanisms that are in place, so that they 
can get into the military, get into law enforcement. This is 
primarily because they are looking for people to have the 
training associated with being in the military and law 
enforcement.
    So your question was, what do we do about it? I do know 
that military and law enforcement cultures do have----
    Ms. Jackson Lee. I have a short period of time, so I will 
take your answer.
    Ms. Neumann. Yes.
    Ms. Jackson Lee. I will just get Mr. Jenkins for a brief 
moment, because I would like to ask a question of Mr. 
Greenblatt very quickly. I have a very short time, seconds.
    Mr. Jenkins, do you want to offer any comments?
    Mr. Jenkins. Yes. No, the military canon over the years has 
repeatedly had to address the issue of political displays, of 
political loyalties, of things that interfere with the unity of 
effort that is required in the military. They have experience 
in doing so, and they can do so.
    With regard to police departments, the major police 
departments have the ability to do this and are addressing it. 
But we have 17,000 police departments in this country and to 
get some of the smaller police departments in various parts of 
the country to do this is a much bigger challenge.
    Ms. Jackson Lee. Thank you.
    Mr. Greenblatt, the symbols of racism, hatred for African 
Americans, hatred for people of the Jewish heritage and faith, 
why is that so strong in the White terrorists or domestic 
terrorism?
    Mr. Greenblatt. So there are different types of right-wing 
extremists, Congresswoman, that you could bunch into White 
supremacists and sort of anti-Government types, but racism and 
anti-Semitism is at the beating heart of these movements. They 
believe there is a conspiracy controlled by Jews to use Black 
people to take over the White race. It is wrong, it is lunatic, 
but that is what we are dealing with, and unfortunately it is 
far too prevalent.
    Ms. Jackson Lee. Thank you so very much.
    With that, Mr. Chairman, I yield back. Thank you so very 
much.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Louisiana for 5 
minutes, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. Let me say I am 
humbled to return to the Homeland Security Committee to 
continue working to ensure the safety and security of our 
Nation.
    I would also like to welcome all the new Members to the 
committee. This is an effective and functional and well-led 
committee. We seek nonpartisan solutions to challenges that 
face our country.
    It is an honor to resume my duties as the Ranking Member of 
the Border Security, Facilitation, and Operations Subcommittee. 
There is still an abundance of work to be done to secure our 
Nation, and I look forward to working with my colleagues in 
this committee to make that happen.
    The Biden administration has unfortunately begun 
implementing dangerous policies that threaten our homeland. The 
administration's proposal of amnesty for 11 million illegal 
immigrants will allow individuals who have knowingly committed 
the crime to receive the benefits and privileges that normally 
come with United States citizenship. This could be at the 
expense of hardworking Americans who are struggling due to the 
COVID-19 impact.
    This issue is further compounded by the Biden 
administration's Executive Order to end funding for the border 
wall. Reports from boots on the ground and crime statistics 
overwhelming show that physical barriers work. They deter and 
delay illegal crossings, which gives our border agents an 
advantage, and they need that over the illicit activities of 
drug cartels, gangs, and human traffickers. Those guys are 
outnumbered down there, and any delay and deterrence to the 
actual crossing gives them a chance to respond.
    Further, what is referred to as the ``Remain in Mexico'' 
policy, MPP, has been a critical tool in securing our Southwest 
Border. MPP ended the incentive of making fraudulent asylum 
claims and prevented migrants from disappearing into the United 
States. The end of that. Catch and release is back. Reversing 
that policy allows our laws to be exploited.
    These Biden administration actions encourage illegal 
immigration. They reward it, and they will undoubtedly result 
in a surge of immigrants at the border, creating a new 
humanitarian crisis in the middle of a pandemic.
    Politically-driven policies to reduce the footprint of 
Customs and Border Protection capabilities and resources at our 
Southern Border will also increase the number of immigrants who 
choose to take the dangerous, illegal journey across our 
Nation's bottom border.
    The administration's immigration policies are not safe for 
the American people or immigrants. Border security should not 
be as partisan of an issue as it has become. It never was 
before. We should all agree that we should secure our sovereign 
border. Together, we can work on making improvements to our 
immigration system while enforcing laws and providing security 
to our citizens.
    I am pleased to continue the important duty of securing our 
homeland. I look forward to working with my colleagues moving 
forward.
    I thank the witnesses for being here today. The topic of 
domestic terrorism should continue to be addressed aggressively 
through this committee. None of us condone any type of violent 
protest. While at the same time we support a citizen's right to 
have his grievances heard through his First Amendment 
protections to assemble and to redress those grievances.
    So we must seek a balance of aggressively prosecuting 
domestic terror where it is truly uncovered after a thorough 
investigation and due process has been served and, at the same 
time, maintain our core principles of protection of First 
Amendment rights and freedoms across the country.
    Mr. Chairman, I especially appreciate your leadership. You 
have been a solid and fair and incredibly even-handed gentleman 
through the course of my service. I look forward to working 
with my colleague and friend, Representative Katko, as the 
Ranking Member. God bless us, one and all. We have work to do.
    I yield, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Rhode Island, Mr. 
Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    First of all, I want to congratulate you, Mr. Chairman. 
Thank you for, again, sharing together in a very timely and 
important hearing, but I especially want to congratulate you on 
once again taking the helm, the gavel, as our Chairman. I look 
forward to continue working with you.
    I want to congratulate also Mr. Katko on his new role as 
the Ranking Member of the full committee. I have found Mr. 
Katko to be one of most bipartisan Members of Congress.
    I have enjoyed working with you, Mr. Katko, on a number of 
issues, particularly around cyber, and I especially appreciate 
your leadership on that topic.
    So, with that----
    Mr. Katko. Thank you, Mr. Langevin.
    Mr. Langevin. Thank you.
    I also just wanted to welcome our witnesses. Thank you for 
your input and your insights today and helping us and guiding 
us as we go forward to get our arms around the challenges we 
face around domestic terrorism and the undermining of our 
democracy. This is a long-term challenge that we are going to 
have to confront, and we have to get this right for the good of 
our country.
    One of the most corrosive things I see out there and that 
we have to contend with is the disinformation/misinformation 
campaigns that are out there and that continue to have this 
terrible corrosive nature.
    Ms. Neumann, I wanted to start with you, asking what tools 
and metrics does the Department of Homeland Security have in 
place for measuring the prevalence of corrosive disinformation/
misinformation in circulation?
    Also, Ms. Neumann, I wanted to ask, in your written 
testimony, you highlight that the starting point for many 
extremists is a vulnerable population who may be frustrated or 
angry and are susceptible to messages of blame and grievance. 
You list countermeasures, including community-based resilience 
and direct counter-messaging.
    What agencies or organizations are in place to implement 
these countermeasures, and what more can we be doing?
    But if you can start with the misinformation/
disinformation.
    Ms. Neumann. Yes, sir. Thank you for the question.
    On the disinformation, at DHS, the Cybersecurity and 
Infrastructure Security Agency, CISA, largely has taken the 
lead around disinformation, in particular because of election 
security, but I believe they appreciated that there is much to 
disinformation that expands far beyond the elections.
    In particular, we noted, when the pandemic was starting 
back in March, we saw early signs of disinformation and 
misinformation. My former staff actually predicted that we were 
likely to see violence related to that, and, sadly, that became 
true.
    You asked, though, how we measure it, and I don't know that 
I have a good answer. During my tenure, it was certainly more 
qualitative, not necessarily quantitative. But it has been a 
year since I was at the Department, so they may have made some 
advances. Certainly, they were able to tell me whether there 
had been an increase or a decrease or if the nature or origin 
of it had shifted, but I don't know that we have solid metrics. 
That would be a good question to ask the Department.
    On the nature of the vulnerable individuals and what do we 
do, that is where the Office of Targeted Violence and Terrorism 
Prevention is doing work around innovation and research. You 
all provided grant funds. This last year, it increased to $20 
million. Those funds, in part, are going to research some of 
these issues.
    There are also some private industry or private-sector 
efforts. Moonshot CVE comes to mind, where they are looking at, 
when people search for certain terms, if they are offered kind-
of an alternative perspective, does that messaging work? Does 
that move people away from maybe the disinformation that they 
were seeking?
    So there are any number of efforts, including one that I 
feel is fairly promising, a peer-to-peer exchange where college 
students, as part of a class in communications, develop 
campaigns to basically counter disinformation. The winning--
usually it is done in a contest style--the winning campaign 
gets paid for to be used more broadly in their community.
    I think innovation is really important here. 
Disinformation, of course, has been around for decades, but the 
viral nature of it through technology makes the challenge very 
hard.
    Mr. Langevin. OK.
    Do you think that DHS is the agency that should be leading 
this counter-messaging resilience within the U.S. Government, 
yes or no?
    Ms. Neumann. It certainly--yes, in strong partnership with 
other agencies that have expertise.
    Mr. Langevin. OK.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from North Carolina for 
5 minutes, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Ms. Neumann, you are familiar with the security profile 
around Lafayette Square and the events of last June, where St. 
John's Church was burned somewhat, and then there was a big 
controversy over the security cordon that was sort of 
established thereafter, right? You are familiar with that?
    Ms. Neumann, are you able to hear me?
    Ms. Neumann. I am familiar. I was a private citizen at the 
time.
    Mr. Bishop. Yes, ma'am.
    Ms. Neumann. Yes, I can. I was a private citizen at the 
time, but I am familiar with the public accounts.
    Mr. Bishop. OK. You spend time in Washington even now, I 
assume, right?
    Ms. Neumann, were you able to hear me?
    Ms. Neumann. Yes, I live in the area.
    Mr. Bishop. Have you been in the Lafayette Park area since 
then and seen the fencing and so forth that is in that area?
    Ms. Neumann. Yes, I live in----
    Mr. Bishop. It is also true that, since last summer, much 
of the downtown area has been boarded up and so forth, correct?
    Ma'am, it has been--there were a lot of the storefronts and 
so forth----
    Ms. Neumann. Yes, sir.
    Mr. Bishop [continuing]. That have been continuously 
boarded up, Right?
    You have also said in your paper, made the point, in fact, 
on page 10----
    Ms. Neumann. That is correct.
    Mr. Bishop [continuing]. That there is a known challenge 
involving right-wing extremist violence. In fact, you sort-of 
make the point that, you know, there is a false equivalence 
drawn. You make the point that the official view is that the 
source of right-wing violence is actually more concerning as a 
matter of domestic violent extremists. Is that correct?
    Are you able to hear me, ma'am?
    I am not sure my----
    Ms. Neumann. My point is that, historically, the statistics 
show that the preponderance--yes. Sorry. There does seem to be 
a delay. I am able to hear you.
    The issue is that the statistics show that there has been 
more violence, more planned attacks, more arrests coming from 
groups that would be considered right-wing extremists.
    CSIS, ADL, multiple organizations have studied this from a 
statistical standpoint, and you have seen--let's just take the 
last 10 years--76 percent of all hate-crime-related murders are 
coming from that right-wing violent extremist ideology, as 
compared to Islam jihadism and left-wing violent extremism.
    So the issue----
    Mr. Bishop. Yes, ma'am. So, Ms. Neumann, given----
    Ms. Neumann. So the issue is, No. 1, not that we don't need 
to treat all violence with seriousness and go after that 
threat----
    Mr. Bishop. Given the prevalence of that----
    Ms. Neumann [continuing]. But, statistically speaking, we 
have seen more come from what is ultimately the right wing.
    Mr. Bishop. Given the prevalence of that, wouldn't it be 
true that there would have been a fairly obvious need for a 
significant security profile around the Capitol on January 6?
    In fact, I understand there were some threat warnings and 
so forth in advance. Do you have any insight as to why 
decisions were made not to have the sort of security around the 
Capitol that we have right now?
    Chairman Thompson. I think Ms. Neumann is having some 
challenges with her internet right now.
    Ms. Neumann. I will tell you that, as I was observing on 
the TV, I was--can you hear me?
    Mr. Bishop. Mr. Chairman, I think, unfortunately, there is 
such a delay----
    Ms. Neumann. I will keep talking in case you can.
    Mr. Bishop [continuing]. I think perhaps I will just yield 
back.
    Ms. Neumann. I believe that what I observed on TV, I 
thought that the security was woefully unprepared. It did not 
make sense to me why police officers----
    Chairman Thompson. The gentleman has yielded his time, Ms. 
Neumann, and we will go to our next questioner.
    The Chair recognizes Mr. Correa for 5 minutes for 
questioning.
    Mr. Correa. Thank you, Mr. Chairman. Can you hear me OK?
    Chairman Thompson. Yes, we can.
    Mr. Correa. Thank you very much.
    First of all, I want to thank you, Chairman Thompson, for 
holding this most important hearing on domestic terrorism.
    Mr. Katko, I want to congratulate you for your position as 
the Ranking Member.
    We are going to continue to have a long discussion 
[inaudible]. As you know, this is not a Democrat or Republican 
issue, but, rather, this is an issue about security of all 
Americans, here and abroad.
    Mr. Chairman, again, I thank you for this hearing because, 
as you remember, I called on the House Homeland Security 
Committee right after the Charlottesville ``Unite the Right'' 
rally, where 32-year-old Heather Heyer was killed, I called on 
this kind of a hearing to address this home-grown right-wing 
terrorism. So I am glad we are finally here.
    In the few moments that I have, I want to ask some of our 
witnesses a couple of questions.
    First, my question to all of you: Given the events that we 
just witnessed, especially January 6, and, again, having been 
in that gallery myself and watching everything unfold, are we 
now prepared? Are we adequately redirecting resources to 
address domestic terrorism?
    After 9/11, rightly so, we focused almost exclusively on 
foreign terrorism. My question is, to all of you, are we now 
focused the way we should be on domestic terrorism?
    Mr. Rodriguez.
    Mr. Rodriguez. Thank you, Representative Correa.
    I do think that, in the wake of January 6, we need to 
reinforce the importance of information sharing and 
intelligence sharing. That is why I spoke in my comments----
    Mr. Correa. I am limited in my time, Mr. Rodriguez, so let 
me ask you: We have more than 17,000 police agencies, fusion 
centers. Do we need more legislation? More resources? Or do we 
just have to have a better attitude in terms of coordinating 
information?
    Mr. Rodriguez. We need more information [inaudible] and get 
that information flowing into liaison officers into some of 
these Federal agencies. Yes.
    Mr. Correa. Ms. Neumann, same question.
    Mr. Greenblatt.
    Mr. Greenblatt. What I would say, Mr. Congressman, is, we 
at the ADL work closely with the FBI, who I think is focused on 
the problem, but we do not yet have a whole-of-Government 
approach. We do not yet have adequate resources. The Biden 
administration has given us some very encouraging signals and 
said they will make it a priority, but now we really need an 
integrated Federal strategy across the Executive branch.
    Mr. Congressman, we also need State and local governments 
to make sure they are also resourcing to the threat.
    Mr. Correa. Mr. Jenkins.
    Mr. Jenkins. Certainly the focus is there right now. I 
can't answer to how the resources are being readjusted. I think 
we do need, however, to have a rethink of our fundamental 
strategy. We simply cannot take the strategies that we have 
used to deal with home-grown jihadists and say we will apply 
these to domestic violent extremists. Because there are 
different conditions, we do need to have a fundamental rethink 
of our whole-of-Government strategy to deal with this problem.
    Mr. Correa. So, Mr. Jenkins, you talked about the material 
support, a legal framework, as it addresses foreign terrorism, 
maybe flipping that and applying that to domestic terrorism. I 
am thinking to myself, YouTube, GoFundMe, First Amendment, hate 
speech that incites hate violence.
    Do we need more legislation? How can we pivot from foreign 
material support to domestic support and preserve our 
Constitutional rights?
    Mr. Jenkins. Mr. Correa, in my written testimony and in my 
oral testimony, I have said that I am very wary of additional 
legislation or additional criminal statutes. I think we do have 
adequate criminal statutes to deal with this as a criminal 
problem.
    I think that, if we go in the direction of adding terrorism 
statutes to deal with the domestic issue, we are going to 
become embroiled in endless discussions about definition and 
about designation of groups. So I would be very, very cautious 
in that area.
    Mr. Correa. Mr. Greenblatt, same question to you, sir.
    Mr. Greenblatt. Mr. Congressman, it may be a bit beyond 
scope for this committee, but I believe that Section 230 of the 
Communications Decency Act absolutely needs attention. It needs 
to be reformed. It creates a shield of liability for the big 
social media platforms, a shield that I would suggest to you 
they have abused. They have utilized it to the detriment of the 
public.
    It absolutely needs attention. I know Congressman 
Malinowski and Congresswoman Eshoo have a bill on that. It 
absolutely merits your attention and that of other Members of 
Congress.
    Mr. Correa. So you do believe there are some legislative 
fixes that we can----
    Mr. Greenblatt. The Domestic Terrorism Prevention Act 
absolutely should be passed. That is out there right now. So 
there are some existing--and the NO HATE Act, as well, should 
be looked at to deal with hate crimes.
    Then I think new legislation, Mr. Congressman, to look at 
Section 230, it is long overdue. You will find wide-spread 
support in civil society and in the business community if you 
take that on.
    Mr. Correa. Same question, Ms. Neumann----
    Chairman Thompson. The gentleman's time from California has 
expired.
    Mr. Correa. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from New Jersey, Mr. Van 
Drew.
    Mr. Van Drew. Good morning, everybody. It is wonderful to 
be with you all.
    I do want to congratulate the Chairman on being Chairman 
once again and look forward to working with him. I had a 
wonderful relationship last year. Of course, our Ranking 
Member, Congressman Katko, I know will do a wonderful and fine 
job, and I look forward to working with him.
    I am proud to be here with my colleagues on both sides of 
the aisle and to be addressing these real issues that are 
facing our Nation. As you know, I am someone that served at 
almost every level of Government, and I understand the 
importance of bipartisanship. It would be supremely cool--I 
don't know how else to say it--if we actually could do it. It 
would be wonderful if we were, like, an example of one of the 
very, very few committees that actually achieves that goal. I 
think that that is possible.
    You know, in all my years as a dentist and in State 
politics, State senate, which I was in for 16 years, I never 
thought I would be here discussing the threat that violent 
domestic extremism exposes to our great Nation. Whether it is 
left-wing extremism, such as what we saw in Portland, Seattle, 
Kenosha, and even here in the District of Columbia, or right-
wing extremism, as what occurred at the Capitol on January 6, 
it is a serious issue, and it must be remedied.
    Just to be clear, I am not condemning peaceful rallies in 
memory of George Floyd or Jacob Blake, but, rather, the violent 
anarchists who senselessly take advantage of protests. No 
form--no form--of extremism should ever be tolerated, period. 
We can't pretend one side is good and one side is bad. We need 
to use common sense and work with one another.
    We live in a country where freedom of speech is not only 
allowed but it is encouraged, which needs to happen without 
destructive and divisive actions. That is the real devil in the 
details here with all of this. Our voices as Members of 
Congress need to be used to soothe rather than to inflame.
    I just wanted to agree with Jonathan Greenblatt on Section 
230. I think there is support for legislation along those lines 
on the Republican and the Democratic side.
    I think you are absolutely right. They have gotten away 
with too much, too arbitrarily. Thank you for making that 
statement.
    I have a couple of questions, and one of them is--and let 
me find it--to Chris Rodriguez.
    Chris, what I wanted to ask was, how much is too much when 
we talk about the kind of protection--this is a very specific 
question--around the Capitol?
    We didn't have enough before, obviously. I have to be 
honest with you. As somebody who was used to being in the State 
capitol many years and now in this Capitol for a few years, as 
you just walked around, sometimes you would have the sense--
wonderful, brave, good men and women--that there just wasn't 
enough of them and enough help for them.
    So we have learned the hard way that we need to do more. 
But are we overdoing it a bit? I mean, we are literally 
affecting commerce in the city. We are affecting traveling in 
the city. We are affecting a way of life.
    You know, somebody asked me, when I went to the 
inauguration, how did I feel or how did it feel. To be really 
honest with you, I felt like I was in a Third World country or 
I was somewhere--like, I was in Venezuela or somewhere. It just 
didn't feel like America, the amount of National Guard we had 
and the amount of barbed wire.
    When is too much just too much?
    Mr. Rodriguez. Thank you, Congressman. It is good to see a 
fellow New Jerseyan today.
    But I would say that----
    Mr. Van Drew. We always stick together. You know that.
    Mr. Rodriguez. Yes, we do, sir.
    I would say that we do recognize, from the city's 
standpoint, the importance of security. We do not agree that 
the current security footprint at the Capitol is something that 
should be maintained permanently. It is the people's House, and 
we need to make sure that the citizens who it serves have 
access to it.
    Mr. Van Drew. Yep. I agree with you. I think that is one of 
the first things we have to work at, is really finding the 
right formula for safety but making sure it is still the 
people's House. Just the feeling you get in your gut, it is 
just--it is not reminiscent of America. It is not reminiscent 
of our Capitol and what we have been.
    We have had things happen before. We have to fix them. We 
have to make sure we are safe. We may need more, and we may 
need to check better, and I have no problem with that. But we 
have to, in some way, get back to--you know, I have all these 
kids piled up--everybody does here--who want to go and tour the 
Capitol, and families and just people. It belongs to them, and 
we want to get them back. So that is so important, and I hope 
that we do that soon.
    I had another question, if I have time for one more 
question, and that----
    Chairman Thompson. The gentleman's time has expired.
    Mr. Van Drew. It did. I couldn't see the clock. Thank you 
so much, Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from New Jersey, Mr. 
Payne, for 5 minutes.
    Unmute yourself.
    Mr. Payne. Thank you, Mr. Chairman. It seems like you have 
been inundated with New Jerseyans all of a sudden.
    Ms. Neumann, I would like to ask about the responsibility 
that political leaders bear for encouraging and inciting the 
violence at the Capitol.
    In your testimony, you note that, as of last week, 78 
percent of Trump voters believe that the Presidential election 
was stolen. This follows months of lies by the former President 
and his allies that the election was stolen. These baseless 
claims of election fraud have been rejected by courts over 60 
times in multiple jurisdictions.
    Can you please share with the committee how these months of 
lies helped contribute to the violent mob that killed a USCP 
officer and led to 2 others to death by suicide?
    Ms. Neumann. Yes, sir.
    The issue that we have at the present moment is that there 
is still a perpetuation of this belief that the election was 
stolen. The latest poll from last week was around 78 percent of 
Trump voters believe this, and that is about 57 million 
Americans.
    So, when I look at that for the potential of violence, of 
course not all 57 million would go and do something violent 
about this. I think, in some ways, January 6 really 
crystallized for many that that was too far.
    But when you are looking at the radicalization process, you 
have vulnerable individuals, a smaller subset of those 
radicalized in their thought, and a smaller subset of those 
mobilized to violence. That is what that graphic that RAND 
produced kind of shows.
    My concern is, when your vulnerable pool is 57 million 
people, 1 percent or even half of 1 percent puts us at 250,000-
ish people, and that is too much. I mean, if somebody were to 
say, we have 250,000 ISIS adherents inside the country, the 
country would panic.
    But the potential that we have the longer that this lie is 
allowed to stay out there--so it is really important for 
credible voices within the community to come out very clearly 
and explain the election was not stolen, that there was not 
enough fraud to overturn the results of the election, and help 
us shrink that pool of vulnerable individuals.
    That is not going to save us all of the potential violence, 
but that goes a long way to helping the security officials be 
able to wrap their arms around the challenge that we have.
    Mr. Payne. Thank you.
    Also in your testimony, you note that recruitment is easier 
now for extremists. Extremist ideas have been mainstreamed and 
normalized via political speech.
    Is this trend reversible? If political leaders that are 
perceived to be sympathetic to extremists were to speak out and 
disavow these lies about the election, could that lead to a 
reduction in the threats and violence?
    Ms. Neumann. So, yes, we need more credible voices to be 
speaking out, calling for calm, telling the truth. That reduces 
our vulnerability.
    Mr. Payne. Thank you.
    Mr. Chairman, I will yield back.
    Chairman Thompson. Thank you very much.
    The gentleman yields back.
    The Chair recognizes the gentleman from Texas, Mr. McCaul, 
for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    As the Chairman knows, when I was Chairman, we had several 
hearings on domestic terrorism. I know it has been an issue of 
concern for the Chairman as well.
    I think that what happened on January 6--when you look at 
the USA PATRIOT Act, they actually define domestic terrorism, 
and international, but they never include any charges or 
penalties for domestic terrorism. They only did it for 
international. I think it was because, in 2001, they were more 
focused on foreign terrorists like al-Qaeda, those responsible 
for 9/11.
    But the definition says: Activities that involve dangerous 
acts to human life that are a violation of the criminal laws in 
the United States or any state that appeared to be intended to 
influence the policy of a government by intimidation or 
coercion, or affect the conduct of a government by mass 
destruction.
    I think the Capitol attack seems to fit squarely within 
that definition.
    So my question: I introduced a bill, along with Congressman 
Weber, last Congress called the Domestic Terrorism Penalties 
Act, which--in working with the FBI, who fully agree. You know, 
they open up DT cases, but they can't charge it as a domestic 
terrorism case.
    So my question is to both Ms. Neumann and Director 
Rodriguez. Do you believe that now is the time that we should 
proceed with this type of legislation?
    Ms. Neumann. I do. I believe that, while the prosecutors 
and the FBI are doing the best that they can with the tools 
that they have--and they will tell you, ``Hey, I can usually 
deal with this''--you also see them having to go the extra mile 
in a way they really shouldn't.
    There was a case late summer of last year that was a 
Boogaloo Bois case, and the best way to be able to make sure 
that they were able to be prosecuted was to see that they got 
tied to Hamas in their planning. That just shows you, it is 
indicative that, hey, if we can get them tied to a foreign 
terrorist ideology or group, it is easier for us to prosecute.
    So there is one thing. You know, let's make their jobs just 
a little bit easier.
    But the second thing is just equal justice. It doesn't make 
sense to me why, if you commit a crime in the name of White 
Supremacy or you commit a crime in the name of an ISIS 
ideology, that you get more jail time for ISIS versus a violent 
White Supremacist act. We should treat things equally. That is 
what ``equal justice under the law'' means.
    Mr. McCaul. I agree with that statement.
    Mr. Rodriguez.
    Mr. Rodriguez. Yes, Congressman, I do believe that it is 
absolutely critical that we hold individuals accountable for 
terrorism, domestic and international.
    Mr. McCaul. Well, thank you.
    Mr. Chairman, I hope we can work on getting this bill out 
this Congress. I think, if anything, what happened January 6 
just cries out--and I was a Federal prosecutor as well, and I 
know there are other charges that could be brought, but I think 
it sends a strong message about where Congress is, that we are 
going to treat domestic on an equal plane as international 
terrorism.
    My last question has to do with threat streams. I also 
introduced a bill to use the fusion centers to gather the 
social media. It is my understanding that, prior to January 6, 
there was quite a bit of social media coming in. I think it was 
underestimated. I think the crowds were underestimated and the 
level of violence was underestimated. I think it would have 
been helpful in terms of the planning of security for January 
6, specifically the National Guard.
    What do you think about a bill to allow the fusion centers 
to gather this social media in advance to help in the planning 
of these events? But, also, what in the world happened with the 
National Guard that day? Why did it take maybe 2\1/2\ to 3 
hours for the National Guard to respond?
    I would ask Director Rodriguez and I guess Ms. Neumann 
again.
    Mr. Rodriguez. Congressman, thank you for the question.
    If you are referring to the Protecting America through 
Information Sharing Act----
    Mr. McCaul. Yes.
    Mr. Rodriguez [continuing]. I believe that that is 
absolutely critical for the fusion centers to be able to work 
with technology companies to look at the indicators of violence 
and of terrorism.
    The challenge, as you know, sir, is that some of those 
fusion centers are not designated as law enforcement entities, 
and some of them cannot access that information. So I know here 
in the District of Columbia we have legislation that has 
already been passed and signed by our mayor that designates our 
fusion center as a law enforcement entity to access law-
enforcement-sensitive information.
    On the issue of the National Guard, I think you would have 
to ask the National Guard. But that is one of the reasons why 
we support the mayor of the District of Columbia controlling 
the Guard, as a Governor, as the equivalent of a Governor, to 
be able to deploy or redeploy resources as swiftly as possible.
    Mr. McCaul. Thank you.
    Ms. Neumann, any final comments?
    Ms. Neumann. I concur. I will keep it short and just say I 
concur.
    Mr. McCaul. Well, Chairman, I would love to work with you 
on these two pieces of legislation, and I think it is vitally 
important.
    Chairman Thompson. I think there is a general sentiment 
that we have to do something, and we have a number of Members 
who have expressed an interest. So I am sure, somewhere, there 
will be agreement on specific legislation.
    The Chair recognizes the gentlelady from Michigan, Ms. 
Slotkin, for 5 minutes.
    Ms. Slotkin. Thank you, Mr. Chairman. Congratulations to 
you and Mr. Katko. I am happy to have you leading our 
committee.
    I am really proud to be back and to be subcommittee Chair 
for the Intel and Counterterrorism committee. A lot of the 
issues that we are talking about today are going to be the 
bread and butter of that subcommittee. They are sticky issues, 
complicated issues.
    I have started to discuss with my Co-Chair what an 
opportunity it is for our subcommittee and for this committee 
writ large to set an example that we, as Democrats and 
Republicans, can do our best at keeping this out of politics 
and focusing on protecting the American people. I think we have 
a real opportunity to demonstrate that.
    I think it is important. Because, for me, as someone who 
worked on preventing terrorist attacks on the United States for 
the first 20 years of my career, I believe the post-9/11 era is 
over. I think January 6 was the cap of one era and the 
beginning of another that makes clear that the most dangerous 
threat right now to us as Americans, physical threat, is the 
division between us and the way that some are exploiting those 
divisions.
    So I think it is good that we are having our first hearing 
on this and we are going to be really diving into this in this 
new Congress.
    For those of us who are from Michigan, what happened on the 
6th is extremely familiar. In my district, in particular, in 
April, we had armed protesters force their way into our 
capitol. We had plots uncovered in my district where people 
were trying to kidnap and kill my Governor. We have had a 
precipitous rise in groups like the Proud Boys and Boogaloo 
Bois, a four-fold increase in anti-Semitic events in the State 
of Michigan. Then, of course, threats against elected leaders, 
myself and others on this screen.
    So I knew there was going to be violence on the 6th; I just 
didn't think it would be inside the Capitol. I thought it was 
going to be outside, which is why I directed my staff not to 
come to work that day.
    But there are legitimately complicated issues around 
domestic terrorism because, at its heart, it is about our 
fellow citizens. It is about our neighbors and making sure that 
civil liberties aren't rolled over.
    Some of these issues we brought up today--do we want a 
commission? Do we need a new domestic terrorism law? I think 
what is going to hold us steady in this committee is agreement 
on the definitions of ``terrorism'' versus ``extremism'' and 
then the data, making sure that we are not expanding and 
exploding the numbers, the cases, the instances, that we use 
data.
    As FBI Director Wray came and testified in front us last 
Congress about what the real nature of the threat is, and we 
know he said that there are now more open domestic terrorism 
cases than foreign domestic cases and that White Supremacy 
constitutes the largest number of those domestic threats.
    One of those complicated issues some have talked about 
here, and it is the role of social media companies. It is very 
clear to me--we heard them testify last Congress. Frankly, they 
could not get their act together. They could not come up with a 
common policy. They could not rise to the occasion of this new 
industry and talk about how they were going to protect the 
public. Then the pendulum swung after the 6th, and thousands of 
people have been kicked off social media platforms.
    So we heard from Jonathan Greenblatt on this. I would like 
to hear from Ms. Neumann on what you think we should do with 
the social media companies vis-a-vis domestic terrorism.
    Ms. Neumann. Thank you for the question, and 
congratulations on your Chairmanship. I was pleased to see that 
you were appointed to that role.
    I agree with your assessment. They have dragged their feet 
too long. There are places where they have done really good 
work; it is just not enough. We need them to be moving faster.
    I am supportive, as others have mentioned, to looking at 
Section 230, in particular what Congressman Malinowski proposed 
last session, or the last Congress, that we need to explore the 
algorithms and the monetization of the algorithms. I think 
there are ways in which we can create incentive structures for 
them to do the right thing.
    I was also heartened by the Apple chairman, Tim Cook. In 
his comments last week, he also seemed to challenge the tech 
community.
    In the United States, we always prefer for industry to 
self-correct, but we might be at the point where it is needed 
for the Congress to not just hold a hearing but potentially 
pass legislation to address this problem.
    Ms. Slotkin. I know I am out of time, Mr. Chairman. I look 
forward to working on those issues and the other sticky issues 
with this committee.
    Chairman Thompson. Thank you very much. I don't think there 
is any question about us looking at social media companies and 
whether or not they are being as forthright in managing those 
platforms as they should be.
    The Chair recognizes the gentleman from South Carolina, Mr. 
Norman.
    Mr. Norman. Thank you, Chairman Thompson and Ranking Member 
Katko. Thank you for holding this meeting.
    Mr. Jenkins, you have had a storied career in the military 
with the Green Berets, and thank you for that service. But what 
is your opinion--we have talked a lot about, you know, 
incitement of violence and different things. But how does--when 
you have a Time magazine that publishes a defense of violent 
protest, when you have the Hachette Book Group publishing ``In 
Defense of Looting,'' when you have those calling for defunding 
the police, when you have sanctuary cities that don't cooperate 
with the police, what effect does this have on extreme 
movements and, I guess, their empowerment?
    Mr. Jenkins. Mr. Norman, thank you very much for the 
question.
    Look, there is no--we protect in this country free speech. 
A lot of that free speech is hateful, it is repugnant, but it 
is part of our country's history that we protect that.
    No. 2, we protect the right of protest in this country, and 
we do so fiercely. We realize that throughout our history there 
has been a lot of pushing and shoving in terms of getting 
things done. So that has to be maintained. We can't destroy 
that.
    However, I think, in the area of incitement, which is the 
word that you use, the courts have interpreted the incitement 
laws very narrowly, particularly applying the Brandenburg rule. 
I think, in the age of social media, in the age of internet, in 
the age of this kind of communications technology that we have, 
that we do have to reexamine how we view incitement.
    Now, that is not to destroy free speech, that is not to 
destroy right to protest. But I think that looking for too 
narrow of a connection between a specific word spoken by an 
individual and subsequent actions that take place, I think we 
do have to reexamine that.
    I think we do--I would agree with the others. I am cautious 
about new anti-terrorism legislation that leads us to deciding, 
well, you are a terrorist, this group is a terrorist, this 
group is a terrorist. That is going to be a long and futile 
argument.
    But examining these communications technologies and how 
these platforms run and rule themselves is something I think we 
have to do.
    Mr. Norman. Let me take it a step further. You know, we 
have talked about what happened on the 6th at the Capitol. We 
had fences. We had a perimeter that was fortified by our 
Capitol Hill police. It ended up not being enough.
    But from your vantage point, were they given, I guess, the 
enforcement measures, regardless of what it was to stop people 
from coming in a Capitol that was clearly off limits? What if 
the Green Berets had been there? What force would you describe 
that you would be authorized to take to stop it?
    Mr. Jenkins. First, Mr. Norman, as a former soldier, I 
would desperately like to keep the military out of these civil 
terrorism, these domestic terrorism issues as much as possible. 
The National Guard is different, but if we are talking about 
the Armed Forces, if we are talking about Green Berets, Special 
Forces, no, they do not have a role in dealing with domestic 
terrorism. We are not there.
    Insofar as putting that aside, the problem is that, 
clearly, the defenders of the Capitol were badly outnumbered. 
That was simply--I think is at issue. Now, a commission can 
investigate this further, but just having a greater number of 
people on the exterior, as well as--and I think this is one 
thing that I don't see in the response, is that there should 
have been inner perimeters as well.
    In other words, the presumption that, what if they break 
through that outer line? What if they break through the doors? 
Now we are dealing with them inside. Do we have prepared 
security within the Capitol Building, as opposed to around the 
Capitol Building, that will protect the officials and their 
staffs that are threatened by this action?
    Mr. Norman. Yes. But wouldn't it go to----
    Chairman Thompson. The gentleman's time has expired.
    The Chair recognizes the gentleman from Texas, Mr. Green, 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. If I may, I would like 
to associate myself with every word that you spoke in your 
opening statement. I totally concur with you.
    Let me start with this. My assumption is that all of our 
witnesses believe that there is something called White 
privilege. If I am incorrect, I would like for the witness who 
differs with me to say so. Is my assumption correct, that all 
of our witnesses have some understanding of what White 
privilege is?
    Hearing none, I assume that they do.
    I would like to know, what role do you think White 
privilege played in the response that the officers had to the 
persons who marched on the Capitol, who stormed the Capitol, 
who, by many standards, participated in what was called an 
insurrection?
    So let me just start quickly and ask--we will start with 
Director of Homeland Security Rodriguez, if you would, please.
    Mr. Rodriguez. Thank you, Congressman Green.
    I know that there are a variety of investigations that are 
on-going and commissioned by the Hill, and we will certainly 
find out the role that, I think, far-right and White Supremacy 
played in the insurrection.
    The FBI and U.S. Attorney's Office----
    Mr. Green. If I may, not White Supremacy, White privilege. 
White privilege. What role did it play in the reception that 
those persons who marched on the Capitol received?
    Mr. Rodriguez. Well, Congressman, as I said, I think that 
that is going to come out a lot in the investigations that are 
on-going as we speak.
    Mr. Green. All right.
    Is there anyone who has an opinion as to what role White 
privilege played?
    Ms. Neumann. I----
    Mr. Greenblatt. What I might offer, Mr. Congressman, is, 
you know, as a civil rights organization that tracks these 
issues, we definitely have seen law enforcement not take quite 
as seriously when a bunch of young people get together with 
Confederate flags. They treat them very differently than a 
bunch of boys or young men of color when they get together.
    But I will just say that the failure of law enforcement to 
create a National security special event and adequately protect 
the Capitol on January 6 contributed to what was nothing short 
of catastrophe. There is no excuse for it.
    So I think White privilege may have played a role, but it 
was incompetence at the top or maybe even a political decision 
that created the ultimate consequence that we are all dealing 
with today.
    Mr. Green. All right.
    I will yield to the lady next, please.
    Ms. Neumann. I echo what Mr. Greenblatt just said. It does 
appear that the nature of the threat, perhaps it is unwitting, 
perhaps it is--I wrote in my testimony that some of the 
challenge that we have had with this threat is that it wasn't 
taken seriously. It is really hard to understand fully 
everybody's motives behind that.
    I think one of the problems was the persistent use the term 
``lone wolf'' when you describe various attackers over the last 
10 years associated with domestic extremism, and it kind of 
leaves you with the impression that they are kind-of alone in 
their motivations, when, in fact, they are part of a massive 
movement.
    So we way underestimated what I believe to be the number of 
people in the country that are involved in the movement. They 
are not all violent. But in underestimating, I think that led 
to some of the bad judgment calls.
    But, yes----
    Mr. Green. If I may interrupt----
    Ms. Neumann [continuing]. I do think that White privilege 
is a part of this.
    Mr. Green. Let me apologize for interrupting, but I want to 
ask you a follow-up question.
    If the persons who marched on the Capitol--and I am being 
kind by saying ``marched,'' in my opinion--were of color and 
had hockey sticks and nooses and swastikas--I am told there may 
have been some, but let's say shirts with ``Auschwitz'' on 
them--would the reception have been the same? This is your best 
guess. Would it have been the same?
    Ms. Neumann. No. I think the evidence of even recent events 
like this last summer have showed that we treat threats 
differently based on the color of the protesters' skin. That 
needs to change.
    Mr. Green. Which leads me to my final question. Do we need 
some sort of means by which we can educate--I would prefer not 
to use the term ``train''--but educate the constabulary, those 
among the police and constables and sheriffs, all of these 
various departments, about something that we call an 
unconscious bias? Do we need to train and teach people about 
this?
    Ma'am?
    Ms. Neumann. Yes.
    Chairman Thompson. The gentleman's time----
    Mr. Green. Thank you, Mr. Chairman.
    Chairman Thompson [continuing]. From Texas has expired.
    The Chair recognizes the gentlelady from Iowa, Mrs. Miller-
Meeks, for 5 minutes.
    Mrs. Miller-Meeks. Thank you so much, Chairman Thompson, 
Ranking Member Katko. I am delighted to be a Member of this 
committee and look forward to working with all of you.
    I just had a question. We have heard from several of the 
witnesses about disinformation and specifically disinformation 
in social media. But I also want to ask Ms. Neumann, with a 
very short answer, if you will, do you feel that there was also 
disinformation among the traditional media?
    Ms. Neumann. From time to time, but the term of 
``disinformation'' means intentional. I think what we were more 
often likely to see in traditional media is the misinformation, 
which is inaccurate information but there is not an 
intentionality behind it. That often happens when things go 
viral and it takes a while to circle back around and discover 
things aren't true. That is a common problem that we have in 
this society today.
    Mrs. Miller-Meeks. Did you see on traditional media with 
police cars burning and being told by traditional media 
reporters and anchors that these were peaceful protests?
    Ms. Neumann. No, I----
    Mrs. Miller-Meeks. Is that considered disinformation or 
misinformation?
    Ms. Neumann. You know, if we are talking about the protests 
over the summer where there was rioting in certain cities, is 
that what you are referencing?
    Mrs. Miller-Meeks. Yes, ma'am.
    Ms. Neumann. The way that I--and I consume a lot of 
different media, but the media I personally consumed seemed to 
frame this as we did have some places where there was violence. 
Some of it I would classify as traditional criminal riots, you 
know, criminal actors taking advantage of a moment and/or very 
angry and acting out their anger. It is illegal. It should be 
handled appropriately.
    We also had a number of right-wing violent extremists use 
protests as a cover for acceleration of violence. That is part 
of their ideology. Boogaloo Bois have been arrested. They were 
very prominent in some of the killings of law enforcement 
officers. We saw on-line chatter any time there was a planned 
protest of right-wing violent extremists using this as an 
opportunity to potentially cause acts of violence.
    I think the data might refer to--the ADL, they might have 
better stats, but some of the data that is now coming out 
demonstrates that the preponderance of actual violence, 
intentional violence, as opposed to looting, was sadly more 
coming out of those right-wing violent extremist organizations 
as opposed to what had been argued, that it was Antifa. We, as 
far as I know, only have one incident of Antifa-related murder.
    Mrs. Miller-Meeks. So thank you very much for that, 
acknowledging that there is misinformation and disinformation 
both within social media and in traditional media, both in what 
is covered and portrayed.
    Mr. Jenkins, there is a question about the National Guard 
and why it took so long for the National Guard to respond. 
Would it be fair to say that the National Guard is made up of 
individuals who are not stationed at a post or a base, they are 
not stationed collectively together, that they have to be 
called upon to be activated, and that would cause a delay, they 
are not like a police SWAT team where they can immediately 
respond to an incident?
    Mr. Jenkins. That is true, that normally the National Guard 
are at their homes and are summoned to deal with various types 
of emergencies.
    However, as we have seen in the cases during the summer and 
in preparation for other events in Washington, National Guard 
units are mobilized in advance to be on standby. They may not 
be visible, but they are mobilized, they are in the area and 
can readily respond.
    I don't know the reasons for the delay in the response on 
January 6, but the fact that members of the National Guard in 
their normal civilian lives are scattered is not one of the 
reasons. We have seen them mobilize to standby before.
    Mrs. Miller-Meeks. Thank you.
    Throughout this have you heard of disinformation on the 
attacks on January 6? I am just wondering if people have 
investigated or looked at irregularities in voting that could 
have perpetuated disinformation. Have we had that oversight 
investigation yet to your knowledge?
    Mr. Jenkins. I don't know that we have had that 
investigation, if I understand your question correctly. I mean, 
in terms of the irregularities in the voting, there have been 
numerous investigations by the State authorities which run the 
elections in ensuring that there is an accurate count of the 
vote and that the elections can be certified.
    Are you talking about an investigation beyond that?
    Mrs. Miller-Meeks. I was just wondering if any of the--if 
you had looked into irregularities or complaints of 
irregularities. So thank you.
    Mr. Jenkins. No, I have not.
    Mrs. Miller-Meeks. Thank you very much.
    I yield my time.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentlelady from New York, Ms. 
Clarke, for 5 minutes.
    Ms. Clarke. I thank you, Mr. Chairman. I thank you for your 
continued strong, fair, and inclusive leadership. Today's 
hearing is quite timely.
    I would like to acknowledge my fellow New Yorker. It is 
great to have you serving as the Ranking Member of this 
extremely crucial committee.
    I continue to extend my condolences to the family, friends, 
and loved ones of Capitol Police Officer Sicknick. He lost his 
life protecting our lives, and I and the people of the Ninth 
District of New York prayerfully stand with their family during 
this season of bereavement.
    Last Congress one of the focuses of this committee was to 
highlight the threat of domestic terrorism. With terrifying 
frequency we have seen White supremacist terrorists terrorize 
our communities. Until January 20 of last month, we had a 
Federal Government that refused to take the threat seriously 
enough to address it, in effect complicit with the exponential 
rise of these terrorist organizations.
    Just a few short weeks ago this rising tide of White 
supremacist domestic terror combined forces with another 
dangerous force: Donald Trump's efforts to overturn the results 
of the 2020 election. The result was an attempted coup, 
orchestrated by none other than Donald Trump himself, and an 
insurrection at the Capitol, as we gathered to elect and 
certify the election of Joe Biden as our new President.
    We cannot parse words. This was an act of domestic 
terrorism, an attack on our citadel of democracy. It was 
incited and operationalized by Donald Trump. There are Members 
and Senators in this body who voted to overturn the results of 
the election, even after the very building where we work was 
attacked.
    Yes, this was an intelligence failure. Yes, this was a 
security failure. But even more troubling, this was a societal 
failure. Until we put to rest the lies about the election, the 
conspiracy theories like QAnon, and the racist ideologies that 
drive so many toward hate we will not be safe.
    As I mentioned, actions of these domestic terrorists are 
directly linked to the words of President Trump. For 2 months 
he promoted the lie after lie about the election fraud and 
demanded that they, ``Stop the Steal.''
    So my question, Mr. Jenkins, is, do you agree with my 
assessment that Donald Trump is directly responsible for and 
must be held accountable for what happened on January 6?
    Mr. Jenkins. You are going to be disappointed in my answer, 
not because it is contrary to the events as you have laid out. 
But, look, we have Congressional investigations taking place. 
We have criminal investigations taking place. We have an 
impeachment trial beginning next week.
    Ms. Clarke. Mr. Jenkins, I have a short period of time. If 
it is yes, it is yes. If it is no, it is no.
    Mr. Jenkins. It is neither. It is----
    Ms. Clarke. OK.
    Mr. Jenkins. That is a political question which I can't 
answer.
    Ms. Clarke. Very well. It is a practical question. But be 
that as it may.
    It is no secret that White Supremacist groups such as the 
Proud Boys were key players in the attack on January 6. This is 
not an isolated incident. From Charleston to El Paso to 
Pittsburgh to Wellington, deadly White Supremacist attacks have 
become the norm, not the exception.
    So my question is--and this is for any of our panelists. 
Let me direct it to Jonathan Greenblatt.
    What explains this surge in hate? What role has 
Presidential rhetoric played in fostering it over the last 4 
years? What additional steps can the new administration take to 
prioritize this deadly threat?
    Mr. Greenblatt. Thank you for the question, Congresswoman 
Clarke. It is nice to see you.
    Ms. Clarke. Likewise.
    Mr. Greenblatt. I would say a few quick points.
    So, No. 1, I mean, fighting hate previously was not a 
Republican issue or a Democratic issue. It was a bipartisan 
issue. That changed in the last 4 years when the prior 
President, indeed from the rhetoric he used on the campaign in 
2015 to 2016, when he would retweet White Supremacists and he 
would use their language, terms like globalists and whatnot and 
George Soros, that created the conditions in which they felt 
encouraged. So, No. 1, it was a failure of leadership, and, 
again, to call them out clearly, consistently, cogently, after 
Charlottesville, after the debate, every time.
    No. 2, the extremists felt emboldened, Congresswoman, and 
they leapt into the vacuum that he created. They recruited, 
they did more public events, they ran for office, and they 
really exploited social media. So they felt emboldened.
    No. 3, social media. Again, the tech companies have been 
far too lax and lazy about enforcing their own terms of 
service. They do not as a business have to abide by the First 
Amendment. But even then, freedom of expression isn't the 
freedom to incite violence. What has happened in the past 30 
days, taking off the worst actors, Congresswoman, it should 
have happened years ago.
    Social media should abide by the same standards as any 
business and give no quarter to those people who would commit 
violence against Jews, African Americans, or any other 
marginalized community in this country.
    Ms. Clarke. Thank you.
    Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentlelady from Tennessee, Mrs. 
Harshbarger, for 5 minutes.
    Mrs. Harshbarger. Thank you, Mr. Chairman.
    I am just going to introduce myself to the committee today. 
I am Diana Harshbarger, and I represent the First District of 
Tennessee, which is east Tennessee.
    As a health care provider and pharmacist for the past 30 
years, I really appreciate being put on this committee because, 
you know, I understand the National security threats of having 
over 90 percent of our finished pharmaceutical products and our 
chemicals that we use to make those products come outside of 
the United States of America--and in a lot of cases from 
adversarial nations, as a matter of fact. It took the COVID 
pandemic to open a lot of people's eyes as to the problem that 
we have with this.
    What we need to do is get domestic supply chains into this 
country so we won't have to worry about that, because we have 
an overreliance to those foreign adversarial countries for that 
supply chain.
    In my district of east Tennessee we have a couple of 
different things as far as National security threats to 
infrastructure. I have Nuclear Fuel Services, which works 
closely with the Oak Ridge National Laboratory, and I also have 
Holston Army Ammunition Plant in my district.
    I wanted just to comment on something that Mr. Jenkins said 
and he made the statement that the defenders of the Capitol 
were woefully outnumbered and we need to investigate this. I 
would hope honestly that we would be able to do that to see if 
there was any information exchanged between the Capitol Police, 
the D.C. Mayor, and the FBI, and, you know, that is of utmost 
importance. Also everything that has been said about Section 
230 and taking that immunity away from these social media 
companies, that is imperative.
    I look forward to working with my colleagues on things that 
would help with National security, both foreign and domestic.
    I yield the remainder of my time back, sir. Thank you.
    Chairman Thompson. Thank you very much.
    Mr. Jenkins, do you want to respond? I can go to the next 
questioner.
    Mr. Jenkins. Just very, very quickly.
    I mean, the public statements made by various officials in 
the FBI, Capitol Police, District police are somewhat 
contradictory as to who knew what when. That is, to what degree 
the warnings that were seen, in some cases produced by specific 
parties, were shared with other parties. That has to be an 
issue for the commission. I don't have personal knowledge to 
sort that out now.
    Insofar as the inadequate numbers, again, this was 
inadequate preparation. Why this was not already indicated as a 
special event requiring the coordination of all of the 
authorities and the sources available as, for example, the 
inauguration or the President's State of the Union Address, 
again, that is something that has to be investigated. Was it 
impeded? Was it poor planning? Was it bad decisions? I don't 
know.
    Chairman Thompson. Thank you.
    The gentlelady yields back.
    The Chair recognizes the gentlelady from Nevada, Ms. Titus, 
for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    From Nevada, from Las Vegas, I am no stranger, we are no 
strangers to this whole problem of domestic terrorism. We have 
had a U.S. Forest Service building bombed in Carson City. We 
had the Bundy armed stand-off against the BLM over their 
illegal grazing of cattle on public lands. He has since 
commented that you needed to get the work done, you can't drain 
the swamp by standing off to the side, and encouraged more 
people to turn out for Donald Trump's rally and attack on the 
Capitol.
    When I flew home after that incident that was so terrible 
that we all watched in horror there were people on the plane 
with me who had obviously come from Nevada to attend that. They 
were sharing pictures on their phone. They were talking about 
it. They were wearing masks that had derogatory comments on it.
    So that just leads me to ask Ms. Neumann the question about 
the screening of terrorists on airlines. We have heard that 
many of the people there maybe were already on the FBI's 
Terrorist Screening Database, known as the terrorist watch 
list, but that sometimes results in additional screening or 
not, but it doesn't necessarily mean that these people end up 
on the No Fly List, which is managed by DHS.
    Just tell me if that is correct or not and tell me if there 
would be any value in maybe redesigning or certainly looking at 
that comparison to see if we should put them on the No Fly 
List. You mentioned it just briefly in your statements, but 
could you unpack that a little bit more for us?
    Ms. Neumann. Yes, ma'am. The No Fly List is very explicitly 
for individuals that the intelligence community assesses pose a 
threat to aviation. So if in their assessment an individual 
poses a threat, that alone does not put you on a No Fly List.
    The second thing is that the purpose of the watch list, 
there are individuals that are known terrorists and there are 
individuals that are suspected terrorists, and then there are 
associations, meaning we don't quite know, but there is reason 
to believe that there might be associations that lead us to 
believe we need to screen this person more effectively before 
we allow them to receive an immigration benefit or board a 
plane or seek some other type of activity.
    The watch list in particular was designed for screening and 
vetting purposes, but it was designed at a time that we were 
primarily concerned about terrorists over there trying to get 
to us over here.
    I do know that there have been efforts to update and figure 
out if within existing authorities the watch list screening and 
vetting apparatus is able to apply it to anybody that has met 
the criteria to join the watch list.
    So I know that they are doing as much as they can, but it 
would be a good thing to talk to DHS, maybe have some closed-
door briefings to see if they have ideas of authorities that 
might help them be able to go do those things.
    That is part of the reason why I think there at least needs 
to be a discussion about a designation. I recognize that that 
is fraught with peril, as Mr. Jenkins has pointed out. But some 
of the tools that we have in our toolkit at DHS would be more 
effective if there were some clear ways in which you determine 
who is designated and who is not.
    So I just believe it needs to be discussed. I don't have my 
own opinion yet of what the right answer is.
    Last, I just want to point out there were a lot of 
conversations or media reports that people had been booted off 
of planes because they were, ``on the No Fly List.'' I believe 
that was misunderstood. Airlines have the ability to make 
decisions about who they allow on their planes for certain 
reasons. If they had been No Fly-listed they wouldn't have been 
allowed into the secure area past TSA screenings. So most 
likely those circumstances probably are a little different as 
opposed to saying that people had already been No Fly-listed.
    Ms. Titus. Well, thank you for that. I think we definitely 
need to look into it, because if we do come with some other 
kind of designation, TSA is going to have to be trained, 
airports are going to have to figure out how to accommodate 
that, and it would be a pretty big project, but certainly maybe 
one worthwhile to pursue. So thank you.
    Just briefly, a follow-up on Mr. Correa's question about 
fusion centers. You know, Las Vegas has the best private 
security in the world. We have got the eye in the sky watching 
everything that goes on along the Strip and in the gaming 
casinos that are so regulated. I wonder if these fusion centers 
are taking advantage of cooperating or working with or setting 
up some kind of plan to interact with private security. 
Anybody?
    Dr. Rodriguez.
    Mr. Rodriguez. Representative Titus, yes, I think there is 
a lot of work that still needs to be done in that environment 
and certainly building out the fusion center capabilities to 
work closely with the private sector is one of them, yes. There 
is a lot more work that could be done.
    Ms. Titus. Great.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes Mr. Gimenez from Florida for 5 
minutes.
    Mr. Gimenez. Thank you, Mr. Chairman, and it certainly is a 
pleasure for me to be here. It is my first complete meeting. I 
am very honored to work with you and the Ranking Member on this 
most important topic. If we, you know, want to work in a 
bipartisan manner--and I don't think--if we can't agree to work 
in a bipartisan manner on homeland security, I don't know what 
we can agree on.
    I have a couple of questions that I would like to get to. I 
know that we have a lot of topics, but I want to really home in 
on what happened on the 6th here at the Capitol.
    Mr. Rodriguez, is the Capitol Police part of the D.C. 
fusion center?
    Mr. Rodriguez. The D.C. fusion center has representatives 
at the U.S. Capitol Police, sir.
    Mr. Gimenez. All right. Did you have any information that 
indicated that there was a significant event about to happen on 
January 6?
    Mr. Rodriguez. Sir, as I have stated, we have had 
intelligence to suggest there would be violence in the city on 
January 6, and recall that there was some indication that there 
might be protests on the 4th and the 5th as well, which didn't 
materialize to the level that we had anticipated. But we did 
have indications that there would be violence on the 6th, yes.
    Ms. Gimenez. Was the National Guard offered to the Capitol 
Police?
    Mr. Rodriguez. Sir, from the city's standpoint, we are not 
responsible for security at the Capitol. So that would have to 
be a question for the Capitol Police. From the city, we did 
request the National Guard and we did receive National Guard 
resources in response to the threats that we received.
    Ms. Gimenez. I understand that that is something that the 
Capitol Police may have to respond to. But do you have any 
knowledge that the National Guard actually offered their help 
to the Capitol Police for the 6th?
    Mr. Rodriguez. Not prior to the 6th, sir, no, I do not.
    Ms. Gimenez. OK.
    To Ms. Neumann. You said there was poor judgment and poor 
judgment was exhibited. Who exhibited the poor judgment?
    Ms. Neumann. I will leave it to the investigation to show, 
but it just makes no sense to me that there were so few, such a 
low law enforcement presence at the Capitol, that there wasn't 
stronger perimeter security, that those law enforcement 
officers present didn't have riot gear. There are just basic 
things that we have learned over the last 20 years that a 
strong deterrent often avoids violence, and that was not 
present on January 6. So somewhere somebody made a bad judgment 
call.
    Ms. Gimenez. OK. Back to Mr. Rodriguez, do you know what 
the rules of engagement were that the Capitol Police was given?
    Mr. Rodriguez. No, sir, I do not. That is a question for 
the Capitol Police.
    Ms. Gimenez. What are your rules of engagement when you 
are--you know, look, I was the mayor of Miami-Dade County. We 
saw some disturbances in Miami back in June, July. But my rules 
of engagement were very, very direct to my director. As mayor, 
I also happen to be the sheriff, OK, of Miami-Dade, and my 
rules of engagement were we will protect everybody's right to 
protest, but once they leave that boundary and now they go into 
violence, there was no--there was zero tolerance.
    So they tested us the first night and they went into what 
is called Bayside, a very popular tourist site, and Miami-Dade 
police went in and made sure those people that were rummaging 
through Bayside were arrested and dispersed.
    What are the rules of engagement here in the District of 
Columbia concerning protestors, the right to protest, and then 
once they cross that boundary?
    Mr. Rodriguez. So, sir, as the sheriff, you will appreciate 
the answer here, which is I am not going to speak for the 
Metropolitan Police Department. But we can get you that 
information on the rules of engagement from the police 
department.
    Ms. Gimenez. You don't know--obviously, you also don't know 
what the Capitol Police's rules of engagement were for the 6th.
    Mr. Rodriguez. No, sir, that would have to be for the 
Capitol Police.
    Ms. Gimenez. Fair enough. OK. I think I have got 
sufficient.
    One more question to Ms. Neumann.
    You said that we needed a law, and I agree with you. I do 
think we need a law concerning terrorism, all kinds of 
terrorism. In Florida they are looking at upping significantly 
the penalties for people that break the law while they are 
protesting, in other words, they go outside the bounds of just 
protesting and now they start to create violence, destruction, 
et cetera.
    If we do, in fact, have a Federal law, how do you--how 
would you think that we would standardize the enforcement of 
those laws, say, if in a particular area the leadership, the 
political leadership, actually agreed with the philosophy or 
the ideology of the people that were protesting?
    Ms. Neumann. I mean, that is one of the very real 
challenges of going into strengthening our domestic terrorism 
laws, right? The threat is what it is today, but as has already 
been discussed, 50 years ago it looked different and we have to 
presume 50 years from now it will look different again.
    I think the critical factor is the violence associated with 
it. You know, clearly, given the experience we have just had, I 
would love to see an exploration of how we might be able to 
hold even our political officials accountable, either 
criminally or civilly, for incitement to violence. I think we 
need to send a strong signal that if you are choosing to take 
an oath of office, if you are choosing to take a leadership 
role in our society, that you have to be responsible for the 
words that you use.
    We do have individuals in this country that are both--we 
certainly have people that are mentally unwell. We also have 
people that are just vulnerable, maybe not definably mentally 
ill but are vulnerable to disinformation, they are vulnerable 
to their grievances being fed.
    We have seen over the last 5 years this increase in hateful 
political rhetoric and examples of it happening on the left as 
well as obviously a lot on the right.
    So I think that we may need to have, you know, an 
examination of what else could we do to encourage our elected 
officials and other leaders to be more responsible for their 
words.
    Ms. Gimenez. I agree with you on both the left and the 
right.
    Thank you. I yield my time.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from New Jersey for 5 
minutes, Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman, and to the 
Ranking Member. Congratulations to both of you. Thank you for 
this really important hearing. I appreciate the information 
that has been shared and the concerns that have been raised.
    I have a couple of observations. I certainly have a 
question for a former New Jerseyan, Dr. Rodriguez.
    First of all, I want to say that we all were pretty scared 
on January 6 and fearing for our lives and we all had some idea 
that things were really bad behind the--in the hallways and in 
the rooms. We were closeted in various places and perhaps we 
were safe or maybe not so much, depending upon what happened to 
us with COVID, but we knew that this was serious. We knew also 
that this was a breach, this was an insurrection against our 
Government.
    Here is my concern. I agree that rhetoric is bad. I agree 
that inflaming incitement happened on that day in the Ellipse. 
I agree that the higher up the rhetoric comes from, the more 
intense it is experienced and the more action that it provokes.
    I also think that things that happened afterwards were 
equally as important. Two of the things that concern me, 
particularly, is the way these thugs were treated breaching the 
Capitol, predominantly White female and male, and how other 
protestors of color have been treated in our Capitol, and also 
after the fact.
    We have got two examples of White women brought before 
judges who were given what I consider the ultimate White 
privilege in what happened to them. The first one was a young 
woman who stole the laptop and threatened Nancy Pelosi. She was 
given an ankle bracelet and sent home to her mommy.
    The second one was a woman who owns a small business and 
had tickets to go to Mexico. She is given permission from the 
court to leave the country to go to Mexico. Yet there are young 
people in prison right now for stealing backpacks, for having 
small drug offenses, that are people of color.
    This disparity in justice at all levels sickens me. This 
latest manifestation of this White Supremacy, this White 
privilege, has just got to stop.
    We had a gathering of the most diverse group of people who 
hate something in the whole country in the Capitol on January 
6. You know what I find the common thread was that brought them 
together? The former President of the United States, Donald 
Trump. So if they were anti-Government, they were pro-Donald 
Trump. If they were anti-Black or anti-Semitic or anti-LGBTQ or 
whatever they were against, they were pro-Trump. So the common 
thread there was Donald Trump and he needs to be held 
accountable.
    Mr. Rodriguez, I have got a question for you. I want to 
know, how early did you have information that we were possibly 
going to experience the kind of violence that we did 
experience, either before the 5th or the 6th, and what agencies 
were you communicating with specifically, and what were their 
responses? Because I don't think that this was a lack of 
intelligence. I think this was a lack of a desire to do what 
they needed to do to keep this Congress safe, to keep our 
leadership safe, and to have enough resources to push back what 
became an insurrection. I want everyone accountable.
    Before you answer that question, I have one more issue, and 
that is I don't know if we need more legislation or if we need 
more enforcement of existing legislation, and I look forward to 
that investigation, that kind of commission consideration, so 
that we know where we should go. We can't jump before we know. 
We need to know before we jump.
    So, Mr. Rodriguez, could you please in the time that I have 
left answer the question, when did you know, who did you tell, 
and what was their response? I want to know specifically what 
agencies you communicated with.
    Mr. Rodriguez. Yes, thank you, Congresswoman. It is good to 
see you again, and I appreciated working with you when I was 
the director in New Jersey.
    We saw indications that there would be violence for the 
4th, 5th, and the 6th in the middle of December. I will caveat 
that by saying that we had known that there would be or at 
least the initial indications of intelligence there would be 
violence around the election period. We were planning, and we 
briefed Mayor Bowser on this, that we could see protracted 
violence through the inaugural period.
    So as we began to brief--and that is why the Mayor called 
up the National Guard. That is why she activated the emergency 
operations center. That is why we activated our fusion center.
    Mrs. Watson Coleman. Did you communicate with anyone up 
higher than the local government? I want to know how far up in 
the Federal Government, the State government, the FBI, the 
Capitol Police, whoever, I want to know who knew what you 
thought was going to happen.
    Mr. Rodriguez. Yes, ma'am. As you know, it is an 
information-sharing process. It is an iterative process. FBI, 
Secret Service, U.S. Capitol Police, U.S. Park Police, 
Metropolitan Police Department, the U.S. Department of Homeland 
Security Intelligence and Analysis. So all of those entities 
are being communicated with on the violence and the threats.
    I think it is important also, if I could just say one last 
thing, Congresswoman, is that as an intelligence analyst by 
trade, the issue here was not the lack of intelligence or the 
lack of information. The issue here was the inability or the 
unwillingness to act on the intelligence.
    Mrs. Watson Coleman. Amen. Amen. That is where the 
accountability needs to take place. I think Ms. Neumann----
    Chairman Thompson. The gentlelady from New Jersey's time 
has expired.
    Mrs. Watson Coleman. You know, I gently yield back. Thank 
you, sir.
    Chairman Thompson. Thank you very much.
    Mr. Katko. Mr. Chairman, sir, could I speak just for a 
moment?
    Chairman Thompson. Yes, the Chair recognizes the Ranking 
Member.
    Mr. Katko. There has been repeated questions about what 
happened that day and how we are going to get to the bottom of 
it. I just want to reiterate that I have a bill out there that 
does exactly this. I think it is really important and it would 
be incumbent upon Members of the committee, I think, to join 
onto the bill and get that bill passed, so we can get this 
commission up and running and find out. Because I think, until 
we do that, we are going to have a hard time really 
understanding where the shortfall was here and where people 
fell down.
    So, with that, I will just yield back. Thank you, sir.
    Mrs. Watson Coleman. I agree.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Georgia for 5 
minutes, Mr. Clyde.
    You need to unmute yourself, Representative.
    I think there are some technical issues around 
Representative Clyde.
    We will go to Mr. LaTurner while Mr. Clyde gets his 
technical challenges corrected.
    Mr. LaTurner.
    Mr. LaTurner. Thank you, Mr. Chairman. I appreciate that.
    I want to say to you, this is my first meeting, and want to 
say to you and the Ranking Member and all the colleagues that I 
am honored to be on this committee. I look forward to working 
with you on the very serious issues that this committee has 
jurisdiction over.
    It is my sincere belief, and I hope that it rings true as 
we go through this process, that National security issues 
should not be partisan. I hope we can work together and make 
sure that we are working on behalf of the American people.
    My question is for Ms. Neumann. I have a couple of them.
    The first thing I would like you to talk about, you talked 
about January 6 was an inspiration point and would be an 
inspiration point for 10 to 20 years. So I would like for you 
to talk about the concept of it being an inspiration point, 
have you seen evidence of that, and where the time frame of 10 
to 20 years comes from.
    Ms. Neumann. Thanks for the question.
    We have seen on January 6 and in the month since then on-
line chatter that indicates that White Supremacist groups and 
anti-Government groups in particular view this as a rallying 
point. I don't want to say a starting pistol because they have 
existed for so long and have had this ideology of eventually 
overthrowing the U.S. Government. If you are a White 
Supremacist, you want to establish this White homeland within 
the United States.
    But it is certainly this moment where for many this fantasy 
was finally coming true and they--one of the examples is that 
in ``The Turner Diaries'' there is an attack on the Capitol. It 
is different than what we saw on January 6, but many cited that 
scene out of ``The Turner Diaries'' which, if folks watching 
are not familiar, is that horrible book about White 
Supremacists basically taking over the world. But there is this 
scene where they attack the Capitol and that is, like, the 
starting point for eventually leading to societal collapse and, 
you know, leading to nuclear war, and then you are able to 
start over and have a White homeland.
    So, sadly, some view this as a huge success, even though, 
you know, it only lasted a few hours. They see the terror that 
it caused. They see that it was easy to do. They believe that 
this is their moment, that they may actually be able to lead us 
into a civil war. So some of the concern is that those that 
belong to those types of ideology are going to be inspired to 
try to bring more violence so that they can eventually reach 
that civil war state.
    The other factor here is that you have such a large group 
of people that are unaffiliated with these terrorist movements 
or terrorist organizations but they are very vulnerable right 
now. They are disheartened QAnon followers, for example, or 
former Trump supporters who really thought that something was 
going to happen on January 6 and Trump was going to remain 
President.
    They are very vulnerable and we actively see neo-Nazis 
recruiting Trump supporters to their ideology. They are very 
sophisticated in how they do it. They don't come right at you. 
You don't necessarily know you are talking to a White 
Supremacist.
    So the concern I have is that we may see more mainstreaming 
of this fringe right ideology and, from that, you are going to 
have larger numbers of the people, not necessarily that are all 
the way to the violent end of the spectrum. But the more you 
have in the radicalized section of that graph, the more likely 
you are to see acts of violence.
    Then, last, you asked about the generational struggle. In 
talking with extremist experts, most of them see this as one of 
those moments in our history where it is going to inspire and 
encourage people for quite some time and that is why I gave 
that time period.
    Mr. LaTurner. The other thing I want to ask you really 
quick, because my time is running out, is the problem that I 
very much acknowledge is the social isolation that makes people 
more vulnerable to these kinds of arguments. As I am sure you 
would agree with me, this is going to exist after COVID is 
over. It will get better. But this has been a growing problem 
for the last couple of decades with the rise of what is in all 
of our pockets. That is a contributing factor. We can't pass a 
law to make people get to know and care about their neighbor.
    So what is the future of this social isolation? What can be 
done about it? Where do you see it going?
    Ms. Neumann. A couple of thoughts.
    No. 1, I do think when the restrictions related to the 
pandemic--and hopefully later this year--some of the challenge 
that we are facing right now will lessen a bit. So that is some 
bright news in an otherwise dark assessment.
    But you are absolutely right, we are increasingly isolated. 
This is a problem that has been documented going back at least 
2 decades. It is not one Government can solve. I wrote in my 
written testimony it really is so far beyond anything that the 
security industry can solve or the Government can solve. We 
really need to ask citizens and leaders within our 
neighborhoods and within our communities to stand up and decide 
that they want a country that looks different than the current 
moment that we are in. It does require changes in the faith 
community. It requires changes in the tech community. It 
requires changes maybe within our education system.
    I don't--I personally don't think--I am a conservative--I 
don't think that is coming from the Federal Government. I think 
what makes America great is when it comes from--organically 
from grass roots. I think there are so many amazing men and 
women in this country that love their country and don't want 
another January 6 attack, and we need to encourage them to step 
up and serve their communities and demonstrate the good that we 
still have in this country and push back the darkness and the 
violence and the hateful rhetoric.
    Mr. LaTurner. Thank you, Ms. Neumann.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentlelady from California for 5 
minutes, Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman.
    Let me start by saying that I appreciate every Member of 
Congress in this committee that believes 9/11 is real and that 
it happened. I never thought I would have to actually say that, 
but I have much greater appreciation now. So I wanted to start 
by thanking my colleagues on this committee for believing and 
agreeing that it occurred and that we are doing everything we 
can to stop another domestic terrorism attack or those coming 
from foreign terrorists from coming to our country.
    Ms. Neumann and Mr. Greenblatt, questions for you. The FBI 
warned, called QAnon a domestic terror threat. How dangerous is 
it for Members of the Congress to support these domestic terror 
groups and repeat their lies?
    Ms. Neumann.
    Ms. Neumann. QAnon has certainly accelerated as a threat, 
particularly over the summer. I think a lot of that has to do 
with what we were just talking about, social isolation, the 
pandemic, people searching for answers for why their lives had 
been turned upside down and seeking for a way to take control.
    It is really hard to extract people once they really go 
down the rabbit hole. So it is really important for anybody in 
a position of authority, particularly those that are considered 
a credible voice, which is often a pastor or, you know, a media 
personality or an elected Member of Congress, it is really 
important that they talk about what truth is and what is not 
truth.
    Even if in QAnon, it is a lot of asking questions like, 
``Well, suppose,'' or, ``What if?'' You know what? Like that is 
gossip and slander. We need to kind-of go back to the basics of 
we don't tell--we don't bear false witness. If you don't have a 
first-hand account of the conspiracy that you think is true, 
then you probably don't need to be spreading it. I think we 
need to help encourage our citizens to get back to the basics 
of civic society.
    Ms. Barragan. Thank you.
    Mr. Greenblatt.
    Mr. Greenblatt. Congresswoman, thank you for the question.
    I would say dangerous conspiracy theories, from 9/11 
truthers to the Sandy Hook kind of people to QAnon, are all 
part of a piece. They are a danger to our National security, 
and they are a danger to our communities.
    So the QAnon folks demonstrate anti-Semitism. They 
demonstrate racism. They demonstrate demonizing other people, 
suggesting that Democrats are pedophiles or part of some 
conspiracy to kill and eat children. All of it is disgusting.
    Whether you are an elected Member of Congress or some other 
office or you are an aspirant, whether you say it now or you 
said it in the past, it should disqualify you from being on 
committees or participating in it.
    If you believe that our democracy is being taken over by 
pedophiles and you subscribe to these crazy theories about 
Jewish space lasers, you don't belong at the table. Period. End 
of story.
    Ms. Barragan. Mr. Greenblatt, what message will it send if 
there are no consequences?
    Mr. Greenblatt. It is baffling how no matter what party you 
are a part of, no matter how you choose to pull the lever in 
the ballot box, that people think that someone who believes 
such crazy, outrageous lies should be part of a political 
process, who thinks that Sandy Hook didn't happen should sit on 
an Education Committee. It boggles the mind, and it undermines 
the credibility of whatever party would choose to do that and 
the political process overall.
    Ms. Barragan. Thank you very much.
    Now, often the role of women in extremist groups or 
movements is overlooked or underplayed. What role have women 
played in growing domestic terrorist movements over the past 4 
years, and what role did they play in the January 6 attack?
    Ms. Neumann, do you want to start?
    Ms. Neumann. I actually think my colleagues might have 
better answers to that. It is a really good question, though.
    Ms. Barragan. OK.
    Mr. Greenblatt. Congresswoman, if I might. So ADL has 
studied extremists for decades. First of all, I would say there 
is a clear link between White Supremacy and misogyny. So we 
should just point out right up front that White Supremacist 
rhetoric and extremist rhetoric often demeans and denigrates 
women. I would be happy to send you and all the Members of the 
committee our reporting and analysis on this.
    Second, it is also worth letting you know that, like, women 
can be radicalized just like men, and QAnon and conspiracy 
theories, disinformation campaigns, aren't just, if you will, 
the portion of one gender.
    We watched, you know, the ADL has watched all these 
extremists as they converged on the Capitol, and there were 
women and men among the crowd. We know that young woman was 
killed when she tried to literally burst into the Chamber of 
the Speaker.
    So women are often denigrated by these movements and yet 
they can be brainwashed and radicalized just like anyone else.
    Ms. Barragan. Good. Thank you.
    With that, my time has expired. I yield back, Mr. Chair.
    Chairman Thompson. Thank you very much. The gentlelady 
yields back.
    The Chair again recognizes the gentleman from Georgia, Mr. 
Clyde, for 5 minutes.
    We still can't hear the gentleman from Georgia. We will 
wait on the technical correction for the gentleman from Georgia 
again.
    We will go to the gentlelady from Florida, Ms. Cammack, for 
5 minutes.
    Mrs. Cammack. Hello. Can you all hear me?
    Chairman Thompson. Yes, we can.
    Mrs. Cammack. Excellent. Excellent.
    Well, I want to thank the gentleman for yielding. I am 
honored to join the Homeland Security Committee and look 
forward to working with Members of this committee this Congress 
to ensure the security of our Nation.
    I also want to thank my colleagues on both sides of the 
aisle for continuing the tradition of bipartisanship and 
addressing the issues and threats facing our National security.
    Because of COVID restrictions, I haven't had the 
opportunity to meet all of my colleagues on this committee and 
wanted to take a brief moment to introduce myself. I proudly 
represent Florida's Third Congressional District, which I 
affectionately refer to as the Gator Nation, central, north-
central Florida.
    The issue of homeland security is a personal and passionate 
issue for myself, having graduated from the United States Naval 
War College with a master's degree in information operations 
and counterterrorism.
    Additionally, for nearly a decade I have worked closely 
with law enforcement and first responders throughout the State 
of Florida and I am keenly aware of the issues that they face 
on a daily basis. In fact, my husband is a SWAT medic and a 
first responder for Gainesville Fire and Rescue in our 
hometown. Together we have created a nonprofit organization 
called The Grit Foundation which serves to provide critical 
life-saving equipment to our departments.
    That experience over the last few years has given me 
critical insight into how we can better serve and protect our 
communities by bolstering resources for first responders, 
rather than cutting them.
    I am also honored to serve as the Ranking Member on the 
Subcommittee for Emergency Preparedness, Response, and 
Recovery, along with Chairwoman and fellow Floridian Val 
Demings. I look forward to the work that we will do there.
    But turning now to the events of January 6 and the broader 
issue that we have been facing, which is extremism and domestic 
terrorism.
    As someone who witnessed the attack personally from the 
House floor, I have been vocal about condemning the attacks of 
that day, just as I have been very vocal about condemning the 
violence that we witnessed in Portland, Minneapolis, the 
District of Columbia, Denver, and beyond last year.
    I personally spent the following days after the attack 
speaking to law enforcement and custodial staff that was 
present there with us that day. That brings me to the 
conclusion that there is no doubt in my mind that the events of 
that day were premeditated and that a thorough and complete 
investigation that is extraordinarily transparent is needed, 
which is why I am very proud to support Ranking Member Katko 
and Representative Davis' efforts to create a 9/11-style 
commission to investigate the events leading up to January 6.
    I would be remiss if I did not make note of the fact that 
several of our colleagues have continued to rachet up divisive 
political rhetoric, for example, insinuating that fellow 
Members have been complicit in the planned violence of that 
awful day, January 6.
    We must also speak out against more than 570 protests last 
year that turned violent, resulting in 2,385 looting incidents, 
624 arson incidents, and more than 2,000 police officers that 
have been injured.
    Baseless and continual accusations are not helpful. We must 
denounce racism, we must denounce hate, and we must denounce 
violence, regardless of its origins. We need to collectively 
hold these criminals accountable that stormed the Capitol to 
the fullest extent of the law.
    I believe that we as Americans are bigger than the divisive 
rhetoric that continues today. I believe that we are bigger 
than the events of January 6. We are bigger and stronger that 
the challenges that we face as a Republic.
    So I know that I am limited here on time. I am going to 
turn this to Mr. Jenkins and ask, I know that you have touched 
on this a bit today, but I wanted to bring up this important 
issue again. How does Government and the Members of this 
committee here best move forward in preventing extremism and 
domestic terrorism, while preserving all Americans' First 
Amendment rights and privacy?
    Mr. Jenkins. Thank you very, very much for the question. I 
think that there are a couple of things that you do.
    No. 1, I, again, come back to the issue of a commission 
would be a most useful thing to start with a full exploration 
of the events of January 6 and what happened then.
    I think a second thing I have already heard repeated a 
number of times from my colleagues on the panel and from new 
Members of Congress, and that is to try to recover some of the 
comity that has been a hallmark of this Nation and to reduce 
the bellicose rhetoric going forward.
    Put aside the issues of the past for a moment, looking 
ahead. We still have people in this country talking about civil 
war. I am talking about high-ranking officials in State 
governments and elsewhere talking about civil war, talking 
about secession, talking about loading up with ammunition.
    That kind of rhetoric isn't going to help us going forward. 
It has nothing to do with going after and prosecuting those 
responsible for violence. They should be prosecuted wherever 
they are coming from on the political spectrum. But we 
certainly, as part of our National strategy, need to bring it 
down a notch and to try to set the standards for how we are 
going to communicate with one another.
    Chairman Thompson. The gentlelady from Florida's time has 
expired.
    The Chair recognizes the gentleman from New Jersey, Mr. 
Gottheimer, for 5 minutes.
    Mr. Gottheimer. Thank you, Mr. Chairman. It is an honor to 
be on this committee, and I want to thank you for welcoming me. 
I am grateful to be here and looking forward to serving 
together with all of my fellow Members on both sides of the 
aisle.
    In the wake of the unprecedented terrorist attack on the 
Capitol, we have seen detailed reports, thanks to the Anti-
Defamation League, of the involvement of despicable and 
dangerous extremist groups, such as the Oath Keepers, the Three 
Percenters, the New Jersey European Heritage Association, the 
Proud Boys, and others which were on the ground that day.
    Ms. Neumann, if I can ask you a question. What do you 
believe is the single most impactful thing we can do right now 
to stamp out these groups?
    Ms. Neumann. When you limit it to right now, I mean, most 
of the prevention work that interacts with individuals, helping 
them to either not radicalize or, if they are radicalized, to 
kind-of off-ramp them from violence, that takes a long time. 
The capabilities that we have in the country are limited. They 
are scaling. I think we can scale faster. That is something I 
noted in my comments that I hope to see you all take up.
    But we have very limited resources to do the one-on-one 
individual work that we really need to get after this problem 
from a comprehensive perspective. So if I look at the moment 
right now, the best thing would be, if we can clarify that the 
election was not stolen from credible voices, that reduces the 
vulnerable and reduces then the pool from which perhaps, you 
know, people get recruited into a Proud Boys or Boogaloo Bois 
or a neo-Nazi group. That is probably the single most important 
thing that we could do.
    Then the other thing is we have got to make sure that our 
protective systems are there. It has been a while since we have 
had mass gatherings. I think as summer comes, we will be 
outside. There will be more people. Hopefully the pandemic is 
starting to wane. That will create targets of opportunity.
    Now is the time to encourage critical infrastructure, 
owners and operators of any sort of event venue, malls, 
restaurants to dust off those plans, make sure that you have 
your protective measures. If you haven't exercised them in a 
while, you should do them now.
    Mr. Gottheimer. I appreciate that, and I appreciate you 
being here.
    There seems to be a difference of opinion about whether we 
need a statute criminalizing domestic terrorism or not. But 
without a Federal law, given the failure to enforce laws in 
most States criminalizing paramilitary activity, won't these 
groups continue to openly gather and threaten our communities 
if we don't take this action?
    Ms. Neumann. Yes. In particular I love that you pulled out 
the militia piece. That is something that we could probably 
make an impact on rather quickly if we could do some sort of 
coordinated public advisory, public communication effort to 
educate people that it is illegal to participate in a private 
militia, that that is not Second Amendment activity. I won't 
get into all of the nuance. There are experts out there, 
especially at Georgetown, that have put together the campaign 
that we would need to be able to educate people in the States.
    But I think there is a ton of misinformation out there, 
people thinking that it is perfectly legal and Constitutional 
for them to join these militia, and once you are in that group 
that it is easier for individuals to potentially follow that 
pathway to something violent.
    If we can educate people that private militias are not 
legal, and the second step, as you suggested, if we could pass 
a Federal law that makes that even more clear, that would be 
very helpful.
    Mr. Gottheimer. Thank you very much.
    Mr. Greenblatt, for years the ADL has diligently detailed 
the rise of anti-Semitism, and, of course, the rise in anti-
Semitism and violent extremism are intertwined. For instance, 
we were all sickened and horrified to see a man on the Capitol 
on January 6 wearing a hoody with the words ``Camp Auschwitz'' 
on the front and ``Staff'' on the back. I saw others the days 
before wearing other shirts with anti-Semitic slurs across 
them.
    How has the failure to contain and confront virulent and 
anti-Semitic conspiracy theories like QAnon and accelerationism 
led us not just to the lone wolf attacks in Pittsburgh and 
Poway, but to the insurrection here at the Capitol on January 
6?
    Mr. Greenblatt. Well, thank you for the question, Mr. 
Congressman.
    I think we know that anti-Semitism is literally at the root 
of White Supremacy and that it courses through right-wing 
extremism as an underlying theory of the case. They believe 
that Jewish groups, that Jewish people are somehow controlling, 
manipulating the levers of power, Government, Wall Street, 
Hollywood, the media. I could go on. We need to--law 
enforcement needs to recognize this and to see those symbols, 
like what you mentioned were on display at the Capitol.
    By the way, the ADL maintains an open source database of 
extremist symbols. You can find it at adl.org. We need law 
enforcement to utilize these things, take advantage of the 
information that we have, so that when they arrest someone and 
they see patches on their jacket or tattoos on them that 
indicate an affiliation with anti-Semitic, racist, White 
Supremacist groups, they treat them appropriately.
    I think the question was asked earlier by the Congressman 
from Texas about White privilege. We need to treat these 
hatemongers, these extremists, like the criminals that they 
are.
    Look, as a First Amendment--as a civil rights organization, 
Congressman, that deeply believes in the First Amendment, I 
have no problem with hate speech, even if I don't like it. But 
when people seek not hate--not just hate--but to cause harm, 
that is a clear and present danger that needs to be dealt with 
to the fullest extent of the law.
    Mr. Gottheimer. Thank you very much.
    Chairman Thompson. The gentleman's time from New Jersey has 
expired.
    Mr. Gottheimer. I yield back. Thank you so much, Mr. 
Chairman.
    Chairman Thompson. Thank you.
    The gentleman from Georgia, Mr. Clyde, for 5 minutes.
    Unmute yourself.
    Mr. Clyde. OK. All right. Is the third time the charm here?
    Chairman Thompson. The third time is the charm.
    Mr. Clyde. Great. Thank you. Thank you for holding this 
important hearing.
    Thank you for the witnesses for coming out today.
    First, I must remind the Members of the committee of the 
President's own words during the demonstrations held on January 
6. President Trump said, ``I know that everyone here will soon 
be marching over to the Capitol Building to peacefully and 
patriotically make your voices heard.''
    Our President called for peaceful and patriotic protests 
here at the Capitol, which is the right of every American 
citizen, and that is one of the reasons I did not support and I 
voted against the sham impeachment of President Trump. There 
was no investigation. There were no witnesses called. There was 
no cross-examination. Nothing was consistent with any prior 
impeachment precedent.
    That was wrong. Our Nation is a nation of law and order, 
and I think everyone will agree with that, and that includes 
the right of due process for everyone, including the President.
    Mr. Greenblatt, my question is for you. Your comments about 
screening members of the military--and I am a proud member of 
the military. I served 28 years in the Navy, including 3 combat 
tours, both Active and Reserve. But your comment about 
screening the members of the military, law enforcement, and 
every Government position, including those in elected office, 
are very concerning to me. This smacks of the thought police.
    We are Americans. We respect every person's right to their 
own opinions, especially those with which we do not agree. We 
all raised our hand and swore to the same oath of office.
    So, Mr. Greenblatt, do you agree that people can have 
differing opinions on issues and ideologies, but those 
differences will not affect the jobs that they do for our 
country, be it in the military, be it in law enforcement, or be 
it in political office?
    Mr. Greenblatt. So, Mr. Congressman, first, let me just 
thank you for your service. I appreciate not just your service 
as a Member of Congress but your service in the U.S. military. 
I am the son of a veteran of the U.S. Army, and I have only the 
highest respect. I have family members who are in law 
enforcement. I have only the highest respect for people in 
public service.
    Again, as a civil rights organization who deeply believes 
in free speech, I fully appreciate and fiercely protect the 
right of Americans who have differing opinions, even those that 
I don't like.
    But freedom of speech is not the freedom to commit 
sedition. Let's just be clear----
    Mr. Clyde. I did not----
    Mr. Greenblatt. Let me just----
    Ms. Clyde. I said differing opinions and ideologies.
    Mr. Greenblatt. But, Mr. Congressman, at the ADL, we track 
extremists. It was mentioned earlier by Ms. Neumann. We know 
for a fact that right-wing militias and White Supremacists have 
made it a point to try to be recruited into the military and 
enter law enforcement----
    Mr. Clyde. Can you answer the question, Mr. Greenblatt?
    Mr. Greenblatt. I am. I am answering the question. I am 
answering the question.
    It is not thought police to make sure that our police don't 
subscribe to White Supremacist ideals. It is not thought police 
to make sure that our politicians don't subscribe to conspiracy 
theories and want to overthrow the Government. I draw a 
distinct line between the two.
    Mr. Clyde. Mr. Greenblatt, can people not have differing 
opinions and those opinions not affect the actual work that 
they do? We all raised our hands to the same oath of office. Do 
you not agree with that, that they can have differing opinions 
and it cannot affect the job that they do?
    Mr. Greenblatt. I deeply agree on the value of differing 
opinions and fierce debate. But fierce debate shouldn't----
    Mr. Clyde. OK. All right. Thank you----
    Mr. Greenblatt. But fierce debate shouldn't allow you to 
dehumanize me or any other person from any minority group.
    Mr. Clyde. I didn't say that.
    OK. Thank you.
    I would also like to comment that I completely disagree 
with putting the National Guard under the mayor of the District 
of Columbia. The mayor of the District of Columbia is not a 
Governor. As a Reservist, I think it is very important that 
that separation continue to exist.
    Thank you, and I yield back my time.
    Chairman Thompson. The gentleman from Georgia yields back 
the time.
    The Chair recognizes the gentlelady from Virginia, Mrs. 
Luria, for 5 minutes.
    Mrs. Luria. Well, thank you, Mr. Chairman.
    Thank you to all of our witnesses for joining us to talk 
about this important topic today. As a new Member of this 
[inaudible] and also joining the Homeland Security Committee, 
because I know this is really a threat to our country and our 
democracy, and I think it is these important issues that we 
need to continue to address.
    I would like to address my question to Mr. Greenblatt. It 
follows on what one of my colleagues just mentioned a few 
minutes ago.
    You know, as you mentioned, we have seen the photos of 
insurrectionists in the Capitol. They were wearing sweatshirts 
that say ``Camp Auschwitz,'' ``6MWE,'' 6 Million Wasn't Enough, 
which is just reprehensible to myself as a Jewish American but, 
you know, I would assume, to everyone who is watching and 
listening to this today.
    You know, I would like to just spend a little bit of time 
addressing in a little bit more depth some of the anti-Semitic 
tropes that appear frequently in these White Nationalist groups 
and are associated with movements such as QAnon and how we 
could potentially look to address these issues and what you as 
an organization are doing to identify these groups and threats 
and, you know, root out some of these tropes that have existed 
for a long time but are just very clearly manifesting 
themselves today in the public eye.
    Mr. Greenblatt. Well, thank you very much for the 
questions, Congresswoman. I would say a few thoughts.
    So, No. 1, again, anti-Semitism is at the core--is a 
conspiracy theory of sorts and at the core of White Supremacy 
in this country. So it didn't just start on January 6. We saw 
this from Capitol Hill to Charlottesville and before that. You 
have seen it again and again. You know, Ms. Neumann referenced 
``The Turner Diaries.'' If you go back and look at White 
Supremacist literature and philosophy, again, it is rooted in a 
hatred of the Jewish people. Again, it is not right or left; it 
is just right and wrong. There should be no excuse for it in 
any public setting.
    In terms of what do about it, I mean, there are a few 
things.
    No. 1, I do believe--and I believe this very fiercely--that 
we have to hold these White Supremacists and right-wing 
extremists accountable for their actions. Every individual who 
perpetrated in that attack should be identified and arrested 
and prosecuted to the fullest extent of the law. We need to 
make sure that hate crimes are tracked effectively at the local 
level and the perpetrators punished, again, to the fullest 
extent of the law so there is some degree of deterrence.
    But I also think that we can't just legislate or arrest our 
way out of this situation. We also have to change hearts and 
minds. I really applaud Congresswoman Maloney for the Never 
Again Education Act that was passed in the last session that 
mandates Holocaust and genocide education. We are doomed to 
repeat the mistakes of history if we don't learn from them. So 
educating young people about the Holocaust and hate, all forms 
of hate, can have a demonstrable impact.
    At the ADL, we are one of the largest providers in the 
United States of anti-hate content in schools. We reach over 
1.5 million kids a year. We do that because we have seen the 
difference it makes. When children learn about difference, they 
demonstrate more compassion, more empathy. It can affect 
conditioning the environment to be more tolerant of everyone, 
no matter how you pray or where you are from or who you love.
    Mrs. Luria. Well, thank you for that additional insight and 
feedback, and, you know, I appreciate the work that you 
continue to do on behalf of this important topic.
    I yield back the remainder of my time.
    Chairman Thompson. The gentlelady yields back.
    The Chair recognizes the gentleman from Texas for 5 
minutes, Mr. Pfluger.
    Mr. Pfluger. Chairman Thompson, Ranking Member Katko, thank 
you for this opportunity. I am grateful to serve on this 
committee. Really, there is no greater importance to our 
country than for us and those in our military and law 
enforcement to safeguard the American people from any threats.
    As a 20-year veteran of the U.S. Air Force myself and 
somebody who has fought all over the world and, most recently, 
against terrorism in the Middle East, I hope that I can bring 
some value and that same commitment to our work here.
    As you may know, the 11th District of Texas, which I 
represent, is a critical intersection of National security 
interests for our country. It lays just north of the Southern 
Border, over 1,200 miles of shared border between Texas and 
Mexico, and is home to the top-producing area for oil and gas, 
a tremendous amount, millions of acres in fact, of agriculture, 
of farm and ranch land, and of a military base which trains 
intelligence personnel for our joint defense. It is a pretty 
incredible place that produces food, fuel, fiber, and powers 
and feeds the American people.
    A country that feeds and fuels itself is inherently safer 
and more secure. Ensuring that the development and the 
transportation of these resources remains safe and secure from 
chemical, biological, and cyber terrorism or any other threats 
is of utmost importance. So I appreciate the work that is being 
done here.
    I am additionally thankful for the trust bestowed upon me 
to use my experiences to lead my Republican colleagues on the 
Subcommittee for Intelligence and Counterterrorism. I would 
like to congratulate Chairwoman Slotkin as the Chair for that 
subcommittee, and I look forward to working with her to 
continue to strengthen the intelligence community and deter 
those future threats. I look forward to working together with 
all of the committee on something that really is a nonpartisan 
issue, the security of our country.
    Mr. Chairman, I would like to specifically thank you for 
your thoughts earlier on making sure that we don't distract 
from the threat, that there is no attempt to distract from the 
threat. Right now our country is facing a number of threats, 
and homeland security is incredibly important.
    I would like to explore a topic--and I will start with Mr. 
Greenblatt--on the subject of rhetoric and specifically that 
rhetoric which could embolden.
    I would like to kind-of pull this thread a little bit, Mr. 
Greenblatt, and ask your opinion on the escalation of rhetoric 
that has happened--and I will use a partisan term--that has 
happened on both sides, or the lack of rhetoric, or the lack of 
ability to condemn violence, or selective condemnation, and 
just hear your thoughts on where we are today and how that 
rhetoric has shaped this point.
    So, Mr. Greenblatt, over to you.
    Mr. Greenblatt. Congressman Pfluger, thank you for the 
question.
    I think it is absolutely fair to say that neither side of 
the political spectrum is exempt from intolerance. As I said in 
my opening remarks, we have seen extremism on both sides. It is 
absolutely true. I think it is incumbent upon everyone, 
regardless of how you vote, to represent a core set of values, 
like decency and fairness and the humanity of their fellow man 
and woman.
    That being said, I don't want to engage in kind-of a what-
aboutism here. Like, what happened on January 6 really has no 
precedent. I mean, again, at ADL, we track these extremists, 
and I just want to clarify, what we saw that day wasn't a riot; 
it was an attack. Right? Those weren't, like, protesters. They 
were militants who were marching up the Capitol steps to kidnap 
and murder many of you if they had the chance. Those people who 
would try to undermine our democracy and kidnap and kill our 
elected officials, I just think we have to acknowledge the fact 
that they were coming from one particular hateful ideology.
    Let me just say this. I don't think White Supremacy, like, 
has anything to do with traditional Republican politics. Like, 
we do ourselves and we do our great democratic tradition a deep 
injustice when we pretend as if these people are on the 
spectrum. They are not. They are way off the spectrum. They 
belong in the dustbin of history.
    Mr. Pfluger. Thank you, Mr. Greenblatt.
    Ms. Neumann, thank you, and to all the witnesses, for your 
expertise today.
    I am very interested in your thoughts on how a commission 
and how a nonpartisan look at this issue can be executed and 
recommendations for how we can conduct this and the types of 
resources that we pull in to make sure that we hear the facts, 
that we make good decisions, and that we come up with a good 
solution.
    Ms. Neumann.
    Chairman Thompson. The gentleman's time has expired, but I 
will allow Ms. Neumann to answer the question.
    Ms. Neumann. I would suggest that the model that we got out 
of the 9/11 Commission works fairly well. I am sure that some 
of the staff and commissioners probably have some lessons 
learned about how they could improve on that model, and I think 
that is something that is worth the committee's consideration.
    It certainly needs to be bipartisan. It certainly needs to 
be staffed on a full-time basis. They certainly need to have 
the authority to be able to review documents and compel people 
to tell the truth.
    Then you need a wide variety of expertise. You also need to 
ensure that various perspectives that have concerns, legitimate 
concerns, feel heard and that there is buy-in into the process.
    What I specifically mean is that, already, in the last few 
weeks, we have seen voices from the Muslim community, from the 
Black community express concern that, if we change the law, it 
ultimately will boomerang back around--even though we are 
saying it is because of White Supremacists, it is going to 
boomerang back around and affect their communities.
    This is coming from very real experiences that these 
communities have faced in the previous decades. That needs to 
be heard. We need to learn from our mistakes of the last 20 
years, in particular, and build that into whatever 
recommendations come out.
    But I also would argue that we have seen too many deaths. 
We have seen the most catastrophic symbolic and physical attack 
from a domestic terrorist since 1995. Not doing things, not 
updating our laws that in some cases haven't been touched in 50 
years is also not the answer.
    So we would encourage that we hear from the voices that 
have concerns, treat that with seriousness, but also not to let 
that become so chilling that we can't find a path forward.
    Chairman Thompson. The gentleman from Texas's time----
    Mr. Pfluger. Thank you so much for allowing that.
    Chairman Thompson. Thank you.
    The gentleman from Texas's time has expired.
    The Chair recognizes the gentleman from New Jersey for 5 
minutes, Mr. Malinowski.
    Mr. Malinowski. Thank you so much, Mr. Chairman. I am so 
happy to have a chance to join the committee this year and look 
forward to working with you and all of my colleagues.
    Mr. Greenblatt, I wanted to start by taking you back to 
something you said about the people who were part of that mob 
that attacked the Capitol on January 6. You said, I think quite 
rightly, that under normal circumstances we would have 
recognized them as just ordinary Americans who were absolutely 
convinced in that moment that what they were doing, this 
deviant thing that they were doing, was something completely 
normal. They were also probably convinced that most Americans 
were completely on their side, agreed with them.
    You mentioned that one reason for this--and this is, I 
think, the core problem we face--is that they were radicalized 
to these beliefs on social media. They came to believe that 
what they doing was normal and everyone supported them.
    My first question to you is, how did that happen? Did they 
just wake up one morning, these schoolteachers and real estate 
agents and fitness instructors, and decide they were going to 
search on the internet for neo-Nazi beliefs or White Supremacy? 
Or did something recommend it to them?
    Mr. Greenblatt. So, Congressman Malinowski, thank you for 
your question. Again, as someone who I know throughout your 
career you have looked at human rights issues around the world, 
I think what you probably saw happen on January 6 bore 
resemblance to coups and other insurrections you have seen in 
developing countries across the planet.
    Mr. Malinowski. It did, yes.
    Mr. Greenblatt. So I want to say one thing that builds upon 
my earlier answer. We need to recognize that the reason why 
tens of millions of ordinary Americans came to the National 
Mall is because, first, I will just say they were rallied to do 
so by mainstream politicians. They were encouraged to show up 
by mainstream pundits on cable news shows.
    So we do need to acknowledge that there is a broad 
responsibility for what happened. Again, the politicians who 
were standing there on the Mall encouraging them with waving 
their fists to go take Congress, they were only from one--I 
mean, it is not a political statement to--it is an observation 
of fact, they were only from one party. So let's say that, No. 
1.
    No. 2, indeed, why do people believe this kind of insanity 
and this lunacy, that there are pedophilia--you know, Satan-
worshipping Democrats, you know, in the basements of pizza 
parlors eating children, for God's sake?
    Part of it is because the algorithms that animate these 
social media platforms, invisibly to the user, route 
information to them. So, once you click on a certain kind of 
story, it is often reinforced. Any of us can see this today, if 
we have a normal internet browser like Chrome or Firefox or 
Edge, and you look at a YouTube video, it will start to send 
you more videos, the kinds of which you just looked at.
    So that algorithmic routing that happens to the user, 
unknown, shapes their world view and creates what Eli Pariser 
calls ``filter bubbles.'' They are deeply dangerous when they 
are telling people that, again, you have this conspiracy trying 
to hurt them.
    Mr. Malinowski. Just one example of that. You know, 
Facebook, in 2018, they did an internal study in which they 
determined that 64 percent of all joins, people joining an 
extremist group, on their platform was due to their 
recommendation tools, that it was recommended to them to do 
that by Facebook.
    The reason for that is that these algorithms are 
engagement-based, right? In other words, they are designed to 
maximize the time that everybody spends glued to the screen. 
They have figured out that what does that to us is content that 
reinforces our most passionate, intense beliefs, our fears and 
our hates. Isn't that correct?
    Mr. Greenblatt. It is absolutely correct. Their business 
models are based on engagement and clicks. As they used to say 
for local news, if it bleeds, it leads. Right? So, again, if it 
is a conspiracy, it drives clicks.
    It is deep--we see that things don't happen in a vacuum. 
On-line hate and conspiracy theories can metastasize into real-
world violence, and we saw that on January 6.
    Mr. Malinowski. So, you had mentioned the legislation that 
I introduced with Congresswoman Eshoo----
    Mr. Greenblatt. Yes.
    Mr. Malinowski [continuing]. Which is a narrow, narrow 
effort to deny these companies immunity under Section 230 if 
that kind of content, which they promote through these 
algorithms, contributes to real-world violence.
    I would say to all my colleagues, we can believe that the 
biggest problem is on the right, on the far right, or on the 
far left; it doesn't matter. We can debate that. But whichever 
of those things you believe, you should be for this, because 
the mechanism works the same way. It pushes people on the left 
further left, it pushes people on the right further right, 
until they reach an extreme that, as you rightly said, is 
totally out of the mainstream.
    Thank you so much.
    I yield back.
    Chairman Thompson. Thank you very much.
    I assure the gentleman from New Jersey that that issue has 
come up in a number of questions and responses to those 
questions, and, at some point, that part of the jurisdictional 
edge that we have, we will look at it. We will talk to the 
other committees, obviously. Because it presents a clear and 
present danger to us all if we don't get our arms around it.
    Mr. Malinowski. Thank you, Mr. Chair.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from Michigan, Mr. 
Meijer, for 5 minutes.
    Mr. Meijer. Thank you, Chairman Thompson and Ranking Member 
Katko, and our esteemed guests for joining us here today.
    I am Peter Meijer, representing Michigan's Third 
Congressional District, and proud to also be the Ranking Member 
on the Subcommittee on Oversight, Management, and 
Accountability. You know, I am extremely excited to be sitting 
on this committee. I am excited for the opportunity to work in 
a bipartisan fashion to address the security concerns that are 
confronting our Nation, especially those of a domestic nature.
    I have been greatly enjoying and learning a lot from the 
conversation so far.
    Ms. Neumann, I really appreciate you offering that 
clarification. The way in which we are engaging--the delta 
between how we treat international terrorism and, sort-of, the 
statutory grounding to prosecute versus domestic, I think, is a 
really salient issue. As you noted, the arrests in September of 
2 Boogaloo Bois, you know, for conspiring with Hamas. The way 
that the FBI, especially in undercover operations, has to, in 
most cases, default to finding an international connection in 
order to move forward on a prosecution, you know, does suggest 
that we need to be reevaluating or, as Mr. Jenkins said, 
fundamentally rethink some of these dynamics. That is a point I 
want to get back to in a minute.
    But one thing that was in Mr. Greenblatt's written remarks, 
I think, I really want to drill down in a little bit, and it is 
around the concept of accelerationism. You know, originally it 
came from Marx. It was a claim that capitalism carries the 
seeds of its own destruction, with the inherent social 
conflicts it creates.
    But what started off as a sort-of more left-wing notion has 
kind-of crossed over--and maybe it is with a horseshoe theory, 
where extremists on both sides loop back in the middle--and 
found its root on the right as well. The Boogaloo Bois are 
arguably accelerationists. You know, one of the uniting threads 
between some of the people who stormed the Capitol, such as the 
QAnon shaman with the face paint and the Viking horns, is just 
this desire to bring about some type of cataclysm, some means 
of upsetting the order.
    The question is, why is that so persuasive? Why are so many 
folks feeling disaffected and becoming entranced by some of 
these wilder theories?
    I think, Ms. Neumann, you said in your testimony, you know, 
it is about filling unmet needs caused by marginalization, 
grievance, and humiliation. Indeed, a lot of the folks I spoke 
to who felt compelled and came out on the 6th, not necessarily 
those who were violent--I didn't speak to any of them--but they 
did feel a sense of humiliation, they felt a sense of grievance 
and a means of address.
    Obviously, please do not take this to be a what-aboutism or 
a both-sidesism. I voted for impeachment and was 1 of only 10 
Republicans to do so and have unequivocally condemned the 
actions of January 6 and look forward to, in this hearing, 
making sure we are doing the necessary steps for redress.
    But I want to circle back and ask the question of Mr. 
Jenkins: When you talk about fundamentally rethinking our 
approach, as Ms. Neumann said, with the challenge between how 
we treat international terrorism and how we treat domestic, it 
also seems that the broader issue is, it is easier to go after 
an organization, something with a hierarchy, a command-and-
control structure, and that is identifiable in a way.
    But when it is a more pervasive, persuasive ideology like 
accelerationism, you know, how do we then root out that cause 
at the individual level, rather than having a strictly reactive 
approach?
    So, Mr. Jenkins, I would appreciate your thoughts along 
those lines.
    Mr. Jenkins. Thank you very much for the question.
    Look, some recent research, not done by RAND but done by 
the University of Chicago, looking at the people who were 
arrested for participation in the events on January 6, based 
upon statements they made on their own Facebook accounts and so 
on, indicates that about 20 percent of them were actually 
members of extremist groups going in, that the remaining 80 
percent were there because they felt the election had been 
stolen.
    Now, that raises a broader issue, and that is, we don't 
want to see the radicalization of the 80 percent by that 20 
percent. Part of the strategy, counterterrorism strategy, has 
to be that we will isolate the violent extremists from a 
potential constituency. That means going after with the full 
force of the law the violent extremists. But it also means 
addressing some of the issues that are broader.
    Now, I am not for one moment suggesting any had kind-of co-
option or compromise with individuals in groups whose causes 
are fundamentally antithetical to unalienable rights that we 
accept. But I am saying that within that broader community 
there are individuals who feel marginalized, people who have 
lost faith in our political systems. This is on both sides of 
the political spectrum. What we have to do, in our zeal to go 
after the violent component, is not accidently brand as enemies 
of the state a broader section of our population.
    Now, that is a continuing strategy, and that is one of the 
reasons, actually, why I want so much of our efforts against 
the violent extremists to be done within the ordinary criminal 
code. Put aside the political pretensions. Don't give them 
that. These are crimes--murder, assault, willful destruction of 
property. Deal with it on that basis.
    Mr. Meijer. Thank you, Mr. Jenkins.
    I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from California for 5 
minutes, Mr. Swalwell.
    Unmute yourself.
    Mr. Swalwell. Thank you, Chairman. Also, thank the Ranking 
Member, you know, for the collaboration on taking on such an 
important issue. I think for this to be our first hearing in 
the new Congress reflects the true threat that we are facing 
from domestic terrorism, particularly from White Supremacy 
groups.
    Last year, researchers at the Combating Terrorism Center at 
West Point Academy, they monitored QAnon activity on Telegram, 
and they found that there is a growing overlap between QAnon 
channels and more extremist channels affiliated with Proud 
Boys, paramilitary groups, and White Supremacists.
    Have any of you similarly observed an overlap between QAnon 
adherents, White Supremacists, militias, and other potentially 
violent extremists?
    Ms. Neumann, I think we should start with you, just 
considering your expertise and service in Government.
    Ms. Neumann. Thanks for the question.
    Yes, I mean, look, this idea of ideology is--we started to 
recognize maybe 3 or 4 years ago that it is kind-of held 
loosely. There is a phenomenon called ideology-hopping. When I 
was serving in the Government, we had U.S. attorneys telling us 
anecdotes of individuals that would join one White Supremacist 
group, then get frustrated it wasn't violent enough, and then 
join an ISIS-related group, which you would think is 
contradictory. But for some, it is just about the other 
psychological unmet needs that are driving them toward the 
violence and not about the ideology itself. So, increasingly, 
you are seeing intermixing of groups.
    QAnon, you know, kind-of made it famous to build your own 
conspiracy, so the thing that you might think QAnon is 5 days 
ago has changed at this point. We certainly see that as it 
pertains to, there was this expectation that January 20 was 
going to be the big moment and everybody was going to get 
rounded up and executed in one big day of judgment and Trump 
was still going to be President. When it didn't happen, some 
recognized, ``Oh, I have been conned'' and moved on, but a 
whole bunch just came up with the next theory: Now it is 
January 31; now it is March 4. They just keep evolving the 
theory.
    So, the more that some of these conversations go 
mainstream, the more that you see intermingling between the 
groups. The fact that they were in person together on January 6 
is this massive networking opportunity. As Mr. Jenkins pointed 
out, we have got to drive a wedge between these two. We don't 
want the organized organizations to be able to recruit from the 
unaffiliated, because that unaffiliated population is very 
large.
    So all of those factors have made the job of law 
enforcement counterterrorism specialists more difficult, 
because we are so used to thinking about a neat ideology, and, 
in fact, what is driving individuals may change from day to 
day.
    Which is why the prevention efforts that we started a few 
years ago that were based off of this RAND study that they ran 
in 2018 actually are ideologically neutral, that the signs and 
indicators of somebody mobilizing to violence--the risk 
factors, the stress factors--they were largely ideologically 
neutral, which allows us to train by standards and develop 
capabilities, locally-driven capabilities, that might be able 
to intervene with an individual before they mobilize to 
violence.
    Mr. Swalwell. Ms. Neumann, what effect does it have on a 
group like QAnon or a White Supremacy group when people who 
they perceive are leaders in Government and people they would 
support denounce them? Like, does that have an effect, when 
they are denounced by people who they are supporting? How 
important is it to do that, as far as legitimizing or 
delegitimizing them?
    Ms. Neumann. Historically, your anti-Government extremist 
and White Supremacists groups are used to being antithetical to 
the Government, meaning they view the Government as the enemy, 
so they are used to the condemnation.
    What shifted was that, all of a sudden, people in 
authority, elected officials, and then, quite frankly, some of 
the media outlets started using some of their ideology to 
justify their positions. That mainstreaming effect emboldened 
them. Then, when given the opportunity to condemn, and certain 
personalities have not, that further emboldens them, and it 
makes them feel like they can be more brash and bold in both 
what they say and in what they do.
    So, to counteract it, yes, it would be great if we could go 
back to the way things were, and the condemnation helps prevent 
enlarging the problem, but it doesn't necessarily get rid of 
the problem.
    Mr. Swalwell. Thank you very much.
    I yield back.
    Chairman Thompson. Thank you.
    The Chair recognizes the gentleman from New York, Mr. 
Garbarino, for 5 minutes.
    Mr. Garbarino. Thank you very much, Mr. Chairman.
    I just want to thank the Chairman and the Ranking Member 
for hosting this hearing today. Securing the homeland from all 
threats is the most critical thing that we can do in America. I 
am honored and eager to fill the seat on this committee left by 
my predecessor, Congressman Pete King, and I look forward to 
continuing to protect New York and our Nation from all security 
risks.
    Nearly 500 Long Islanders were killed in the horrific 
events on September 11, and many more Long Islanders have died 
or become sick in the years following that fateful day. I am 
committed to continuing the fight against radical Islamic 
terrorism as well as the increasing threat of additional 
foreign and domestic terrorism.
    As a New Yorker who is tough on terrorism and strongly 
supportive of law enforcement, I am eager to get to work as the 
Ranking Member of the Cybersecurity, Infrastructure Protection, 
and Innovation Subcommittee, and I look forward to working with 
my fellow New Yorker, Congresswoman Clarke, on these important 
issues.
    I am also excited to be a Member of the Emergency 
Preparedness, Response, and Recovery Subcommittee. My district 
was ravaged by Superstorm Sandy, and dealing with these issues 
is very important to me and my constituents.
    As all Americans continue to adapt to working and learning 
remotely as a result of the COVID-19 pandemic, I believe it is 
now more important than ever to work with agencies like CISA to 
fight to protect our data, infrastructure, and networks.
    Although it remains true that malicious cyber attacks are 
an increasing tactic used by America's adversaries to degrade 
our operational capabilities, we cannot ignore the fact that 
physical attacks by extremists in our Nation exist today. 
Physical threats and attacks by extremist groups are one of the 
greatest risks to our democracy, as evidenced by the events 
that occurred against the United States Capitol on January 6.
    We must not let these criminals win. We must rise above 
partisan labels and rhetoric and denounce all forms of violent 
extremism. That is why my colleagues and I are cosponsoring 
H.R. 275, to establish the National Commission on the Domestic 
Terrorist Attack Upon the United States Capitol.
    We must condemn the actions of those who stormed the 
Capitol and urge law enforcement to prosecute these criminals 
to the fullest extent of the law. The establishment of a 
commission will provide a bipartisan venue to ensure that what 
happened on January 6 never happens again in our country.
    Just as the September 11 Commission has been cited as one 
of the most widely-accepted data sources on 9/11, I strongly 
believe that our National commission to analyze these events on 
January 6 will provide factual data and solutions that will 
help heal our wounds and begin to pave the way to recovery 
across the United States.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from New York, Mr. 
Torres, for 5 minutes.
    Mr. Torres. Thank you, Mr. Chair.
    It was noted earlier that the security failure on January 6 
was not an intelligence failure but it was a planning failure. 
For me, the lack of preparedness on the part of the Federal 
Government for the siege on the U.S. Capitol reflects a deeper 
problem. It reflects a pattern of almost willful blindness to 
White Supremacist violence as a domestic terror threat.
    Even though White Supremacist violence has been the 
dominant driver of domestic terrorism in the United States for 
decades, the Federal Government did not designate a White 
Supremacist group as a terrorist organization until 2020.
    What does that tell us about the seriousness, or lack 
thereof, with which the Federal Government treats White 
Supremacist extremism as a domestic terror threat?
    That question is for Ms. Neumann.
    Ms. Neumann. Thank you for that question.
    So, interestingly enough, the designation that you are 
referencing uses the foreign terrorist designation statute. 
That means that we cannot use it--the restrictions that are in 
there do not allow us to designate a group that originated in 
the United States.
    Sadly, most of what we consider global White Supremacism at 
this point is originating from the United States. Now, there 
are other active pockets, particularly in Germany, some of the 
Nordic countries, Russia. Australia recognizes that they have 
some challenges.
    But, in large part, when you talk in the counterterrorism 
community--and this happened. In 2018, I was at a conference 
with 100 other like-minded nations that were supposed to be 
talking about retraining foreign terrorist fighters coming out 
of Syria, and everybody was acknowledging that the growing rise 
of what the world calls right-wing violent extremism was a 
problem. They were turning to us and saying, ``You guys are the 
exporters. What are you going to do about it?''
    The laws are not written to address the global nature of 
the threat that we are facing. Many of these laws have been 
around for decades. It is time for them to be updated, in my 
opinion.
    Mr. Torres. Fair enough. But I think it is important to 
emphasize that the United States does not have a monopoly on 
White Supremacist extremism; it is a global phenomenon. I find 
it odd that the United States until 2020 did not designate any 
White Supremacist group anywhere in the world as a terrorist 
organization. For me, it just speaks volumes about the 
counterterrorism priorities of the Federal Government.
    I have a question about social media sites. We all know 
that social media sites have been amplifiers of disinformation, 
and we know that social media sites have been an enabler of 
coordination among White Supremacist extremists who might 
otherwise operate as lone wolves but who can organize more 
easily on-line.
    So social media companies have been part of the problem. My 
question is, how do we get those companies to be part of the 
solution? How do we get those companies to do their part in 
countering terrorism?
    Mr. Greenblatt. Who was that question directed to, Mr.----
    Mr. Torres. It could be anyone, but I think it was 
Greenblatt who actually brought up social media companies 
earlier, so I will direct it to you.
    Mr. Greenblatt. Sure.
    So, first of all, I would say your earlier point about the 
global threat of White Supremacy is real. There were European 
White Supremacists marching in Charlottesville. There have been 
American White Supremacists who have participated in marches 
and training exercises in Europe. We saw what happened in 
Christchurch; that harkened back to what happened in 
Charleston. You are absolutely right; it is a global terror 
threat and needs to be treated as such.
    With respect to social media companies, look, ADL literally 
opened a center in Silicon Valley in 2017. I have staffed that 
not with nonprofit veterans but, rather, with industry veterans 
from the technology space. Because we need to have engineers on 
our side working to address these issues. We can't wait for the 
companies to do so.
    But I will be honest, Mr. Congressman. Their lackadaisical 
approach to this, their laziness, feeling like they are 
shielded from liability by Section 230, therefore they can be 
hands-off, that needs to change.
    We saw what happened in the wake of Capitol Hill attack. We 
saw how they could immediately move, when push came to shove, 
to remove armed militia groups, to remove White Supremacists, 
to shut down those accounts that were spouting disinformation, 
delegitimizing the election, and literally inciting violence. 
They have had the capabilities.
    But, in order to align interests, I would encourage you, 
No. 1, to look very hard at how do we reduce the liability 
shield to clarify what they are responsible for. No. 2, I think 
you have to look at the issue of monopolistic indifference and 
whether platforms like Facebook are just so big, just so large, 
that they are immune and invulnerable to the typical 
competitive pressures and fiduciary pressures that most 
companies deal with.
    So I think, both from the 230 and even the anti-trust end, 
there is work for Congress to do to apply the appropriate 
oversight to make sure these companies, which, again, are so 
innovative and have done so much good on so many levels, are 
not undermining our democracy and spreading stereotypes and 
hate.
    Mr. Torres. I yield back.
    Chairman Thompson. The gentlemen's time has expired.
    Well, let me just take off from that, as Chair.
    It is obvious that 230 we will look at. I will repeat it: 
If the companies don't assume the interest in policing their 
own platforms, then you leave Government no choice.
    So, for those companies who might be listening to this 
hearing, it is absolutely essential that they step up in a big 
way. Because, obviously, from the questioning and the 
responses, there is interest on the right and the left, 
Democrat and Republican, that we have to look at it, and I 
assure you as Chair that we will.
    I want to thank the witnesses for their testimony and the 
Members for their questions.
    The Members of the committee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    I would also like to ask unanimous consent to enter into 
the record the following reports: the Southern Poverty Law 
Center's report entitled ``The Year in Hate and Extremism 
2020'' and Everytown's report entitled ``The Role of Guns and 
Armed Extremism in the Attack on the U.S. Capitol.''
    [The information follows:]
                  The Year in Hate and Extremism 2020
February 01, 2021
By Rachel Janik and Keegan Hankes, Southern Poverty Law Center
                              introduction
    ``Our country has had enough. We will not take it anymore, and that 
is what this is all about . . . we fight, we fight like hell, and if 
you don't fight like hell, you're not going to have a country anymore. 
. . . So we are going to, we are going to walk down Pennsylvania Avenue 
. . . And we're going to the Capitol . . . ''--with those words on Jan. 
6, Donald Trump incited a mob that included the hate and antigovernment 
groups the Proud Boys, the Oath Keepers, and the Three Percenters to 
storm the U.S. Capitol in an insurrection to maintain white supremacy.
    Trump refused to condemn the insurrection, which left five people 
dead, including a Capitol law enforcement officer. He even praised the 
rioters, calling them ``patriots,'' saying ``we love you'' and ``you 
are very special.'' The episode was reminiscent of his notorious 
declaration that there were ``very fine people on both sides,'' in the 
aftermath of the violence at the deadly 2017 white supremacist rally in 
Charlottesville, Virginia.
    While every few months it seemed there was a new, brazen moment 
that would define the Trump presidency, it was this siege of the U.S. 
Capitol, with pro-Trump rioters parading through the halls of Congress 
with Confederate flags and a self-described white nationalist pilfering 
from the office of House Speaker Nancy Pelosi, that will exemplify 
Trump's racist demagoguery for posterity.
    Historically, SPLC research shows that when extremists perceive 
more allies in the halls of power, their numbers dip. Not so with the 
Trump presidency. For the first 3 years of his presidency, SPLC 
recorded historically high hate group numbers as bigotry found a 
comfortable home in the White House, and white nationalist ideologues 
influenced policies like the Muslim ban and separation of immigrant 
children from families at the border.
    Hate groups that traditionally occupy the mainstream, like anti-
LGBTQ groups and anti-immigrant groups, saw their influence in 
government balloon over the last 4 years, with serious consequences for 
human rights in America and around the world. Nativist bigotry brought 
about one of the worst human rights crises in modern U.S. history, when 
the Department of Homeland Security separated children from their 
parents at the southern border. The administration also effectively 
suspended the legal asylum process, stranding people who fled violence 
in their home countries, and vacated asylum protections for survivors 
of intimate partner violence. Anti-LGBTQ appointments to the judiciary 
will likely threaten trans and queer Americans' civil rights for a 
generation.
                 hate groups declined, but hate did not
    In 2020, SPLC tracked 838 active hate groups. Though numbers have 
dropped 11 percent overall, we are still recording historic highs. In 
2015, the numbers jumped from 784 to 892, and they have remained well 
above 800 for the duration of the Trump presidency.
    It is important to understand that the number of hate groups is 
merely one metric for measuring the level of hate and racism in 
America, and that the decline in groups should not be interpreted as a 
reduction in bigoted beliefs and actions motivated by hate. The SPLC 
has begun conducting polling as an additional tool to measure extremist 
sentiment. Our August 2020 polling, for example, revealed that 29 
percent of Americans personally know someone who believes that white 
people are the superior race.
    As another metric, SPLC keeps track of extremist flyers reported 
around the country. This year we recorded almost 4,900 flyering 
incidents. Groups under the white nationalist ideology exploited 
flyering as a tactic to spread their hateful worldview nearly 12 times 
more than all other ideologies combined.
    Typically, new hate groups are formed and membership grows in 
reaction to changes in society, especially changes that challenge white 
hegemony. A historical example of this is the Ku Klux Klan, which was 
virtually nonexistent in the 1930's and 1940's after its membership 
reached record levels in the 1920's, and came roaring back in the 
1950's. White nationalist beliefs had not declined in the 1930's and 
1940's alongside group membership, a fact that became clear when 
organized hate activities erupted after the 1954 Supreme Court decision 
in Brown v. Board of Education made segregation illegal. In the modern 
era, we tracked a gradual rise of hate groups during the George W. Bush 
administration, when numbers peaked in the 800's. After Barack Obama 
became the Nation's first Black president, the number jumped to more 
than 1,000.
    The demise of the Klan in the last decade has specifically resulted 
in an overall reduction in the number of hate groups that the SPLC 
tracks. The Ku Klux Klan, formerly a significant generator of white 
supremacist terror, saw its count dwindle to 25 groups in 2020. The 
number of Klan groups the SPLC tracked used to be consistently over 
150; in recent years they dropped below 100, and then under 50. A major 
reason for this is that the Klan's name has become extremely toxic--if 
you are a Klan member and your employer finds out, for instance, you 
are all but guaranteed to be fired. Unfortunately, those declining 
numbers do not reflect a parallel reduction in support for their ideas.
    Despite the massive drop in Klan groups, there are now many 
alternative hate organizations that make Klan membership obsolete. For 
example, the Proud Boys, which SPLC lists under the General Hate 
category, vandalized historically Black churches in Washington, DC. 
during a December pro-Trump demonstration, and members of the Proud 
Boys were front and center during the U.S. Capitol insurrection.
    Many extremist ideologues are not formal members of any 
organization. Online platforms allow individuals to interact with hate 
and antigovernment groups without joining them, as well as to form 
connections and talk with likeminded people. And, despite the lack of 
formal affiliation, these individuals still take real-world actions. 
The U.S. Capitol insurrection exemplifies this. Most of the people 
storming the Capitol building may not be card-carrying members of a 
hate or antigovernment group, but they harbor extremist beliefs.
    The U.S. Capitol insurrection also showed us how the Trump campaign 
and the MAGA movement offered individuals a twisted kind of camaraderie 
that you get from being a member of a hate or antigovernment group, 
where Trump himself was a radicalizing force. We again see this with 
the people who were arrested--many had previously attended several 
rallies, and viewed President Trump as their leader.
    Two other trends that impacted the count in 2020 and will likely 
affect it in future years: (1) COVID-19 minimized overt hate group 
activity. There were some groups that we did not relist this year 
because they ceased their in-person activity and did not appear to do 
anything online; and (2) Hate groups are increasingly being booted from 
popular social media platforms and moving their communications into 
encrypted chatrooms, which makes it harder for the SPLC to track them.
                    the hate group landscape in 2020
    As previously mentioned, The Ku Klux Klan continued its collapse, 
with only 25 active chapters in 2020.
    White nationalist group numbers also dipped by 27, a change that 
does not signal a trend toward less white nationalist organizing. Both 
white nationalist groups and neo-Nazi groups are becoming more diffuse 
and difficult to track and quantify as they proliferate online and 
communicate on encrypted platforms, a trend this report will explore in 
greater detail in our next installment.
    Anti-immigrant, anti-Muslim and anti-LGBTQ hate groups, which are 
typically more successful at laundering their ideas into mainstream 
political discourse, saw their numbers remain largely stable, though 
their in-person organizing was curtailed due to the COVID-19 pandemic.
    Even though anti-immigrant groups were not able to hold as many in-
person events as years past, their influence was felt where it 
mattered: In policy and legislation. Over Trump's 4 years in office, 
according to data published by the Migration Policy Institute, the 
Trump administration implemented more than 400 policy changes to curb 
both legal and illegal immigration. Exploiting the COVID-19 pandemic to 
stoke health and economic fears, the Trump administration enacted a de 
facto moratorium on all immigration to the U.S. by the end of 2020.
    Influential anti-LGBTQ hate groups became further entrenched in the 
Trump White House, and the Trump administration continued its years-
long pattern of appointing Federal judges with ties to anti-LGBTQ 
groups. The most high-profile of these appointments was Amy Coney 
Barrett, who joined the Supreme Court last fall and has ties to 
Alliance Defending Freedom, which SPLC has designated an anti-LGBTQ 
hate group. Though the anti-LGBTQ hate movement has lost an ally in the 
president, they are likely to continue to use the lower courts and the 
Supreme Court to try and roll back LGBTQ rights.
    The number of anti-Muslim hate groups dropped by 12, from 84 last 
year to 72 this year. The largest anti-Muslim hate group in the 
country, ACT for America, enjoyed attention from the Trump White House, 
which met with ACT head Brigitte Gabriel on at least two documented 
occasions in 2020. A former ACT staffer was also hired at the State 
Department. Despite that influence, the group suffered from infighting 
between smaller local chapters and the national office in Washington, 
DC. Following Trump's election loss, some leaders in the anti-Muslim 
movement have signaled a shift toward local and State-level organizing.
    Recommendations to combat extremist groups:
  <bullet> Enact the Domestic Terrorism Prevention Act, which would 
        establish offices within the Department of Homeland Security 
        (DHS), the Department of Justice, and the FBI to monitor, 
        investigate and prosecute cases of domestic terrorism--and 
        require these offices to regularly report to Congress. Passed 
        overwhelmingly by the House of Representatives last September, 
        this legislation would also provide resources to strengthen 
        partnerships with State and local law enforcement authorities 
        to confront far-right extremism and create an interagency task 
        force to explore white supremacist activities within the U.S. 
        armed forces and Federal law enforcement.
  <bullet> Improve Federal hate crime data collection, training, and 
        prevention. Data drives policy. The FBI's annual Hate Crime 
        Statistics Act (HCSA) report is the best national snapshot of 
        hate violence in America, but data received from the 18,000 
        Federal, State, local, and tribal law enforcement agencies is 
        vastly underreported--in part because reporting is not 
        mandatory. In 2019 (the most recent report), 86 percent of 
        police agencies either affirmatively reported that they had 
        zero hate crimes, or they did not report any data to the FBI at 
        all.
  <bullet> As we work to build support for mandatory hate crime 
        reporting to the FBI, Congress should enact the Khalid Jabara 
        and Heather Heyer National Opposition to Hate, Assault, and 
        Threats to Equality Act of 2019 (NO HATE Act), which would 
        authorize incentive grants to spark improved local and State 
        hate crime training and data collection initiatives, as well as 
        State-based hotlines to connect victims with support services.
  <bullet> The law is a blunt instrument to address violent hate and 
        extremism--it is much better to prevent these criminal acts in 
        the first place. Congress should shift funding away from 
        punishment models and toward the prevention of violent 
        extremism. It should focus on programs that build resilient 
        communities and empower adults--including parents, teachers, 
        caregivers, counselors, therapists, faith leaders, and 
        coaches--to help steer young people away from dangerous ideas. 
        These programs are better housed in the Department of Education 
        and Department of Health and Human Services than DHS or other 
        national security agencies.
  <bullet> Reject efforts to create a new criminal domestic terrorism 
        statute--or the creation of a listing of designated domestic 
        terrorist organizations. A new Federal domestic terrorism 
        statute or list would adversely impact civil liberties and 
        could be used to expand racial profiling or be wielded to 
        surveil and investigate communities of color and political 
        opponents in the name of national security.
              confronting far-right and racist narratives
    The incoming Biden administration faces dual challenges: Reversing 
the catastrophic damage to civil rights done by Trump and his allies, 
and doing the harder work of exposing and dismantling the engines of 
entrenched, systemic white supremacy that have always threatened 
inclusive democracy in the U.S. For example, SPLC's August 2020 poll 
found that 65 percent of respondents believe racism exists and is 
harmful, but 49 percent believe that people of color are more likely to 
be poor because of a lack of work ethic.
    Findings were similarly disturbing around gaps in health outcomes, 
with only 38 percent of respondents believing that systemic racism 
played a role, even as COVID-19 ravages communities of color.
    Despite some high-profile support for Black Lives Matter protests 
this summer, the poll showed that 51 percent of Americans thought that 
the looting which occurred in several cities was a bigger problem than 
police violence against Black people, and 51 percent also thought that 
the protests were not justified because the problem with police 
violence was isolated to a few ``bad apples.''
    These racist narratives and beliefs have been reinvigorated thanks 
to one of the most enduring and pernicious legacies of the Trump era: 
the far right's success constructing a false alternative reality, 
bolstered by a never-ending stream of baseless conspiracy theories and 
disinformation. This fight over the frame of reality has polarized 
American society further and fundamentally ruptured trust in 
institutions and information. The tech sector, an opportunistic ally in 
the propagation of this fraud, abdicated its responsibility so long ago 
that it has not been able to meaningfully recover. Only after Trump 
incited a deadly insurrection and Democrats flipped the Senate did they 
suspend the President's accounts and begin to purge other extremists 
from their platforms. The echo chambers have formed, trust in the 
credibility of reputable media outlets has been disastrously 
diminished, and the polarization of American society has accelerated.
    Some of the robber barons of social media are warming to revisions 
of section 230 of the Communication Decency Act--legislation that, in 
its current form, insulates platforms from liability for the content 
users post--long after its true utility ran out for their companies. 
The toxic networks that they nurtured are migrating to new platforms, 
like Parler and Telegram.
    The dangers of these isolated and tainted wells of information 
reached their most critical point during the 2020 election, when Trump, 
his allies and the extremists who support him, denied the severity of 
COVID-19 and preemptively declared the results of the general election 
fraudulent. Throughout the year, armed militias became fixtures at 
State houses, and election officials were targeted and threatened in 
multiple States, including at their private homes.
    Fortunately, predictions of violent attempts to disrupt voting 
proved largely unfounded, and the U.S. celebrated historic voter 
turnout. But in the weeks after Biden's victory, Trump and his 
compatriots spread disinformation and conspiracy theories at a 
breathtaking rate, and called on State and Federal elected officials, 
as well as judges, to overturn the will of voters in five States. By 
late November, only 20 percent of Republicans surveyed said they 
believed Joe Biden was the true winner of the election, after he won 
the popular vote in a free and fair election by a margin of more than 7 
million and secured the electoral college by 74 votes.
    While most--but not all--elected officials and judges ignored 
Trump, his followers succeeded in temporarily halting the certification 
of the 2020 election during the joint session of Congress on Jan. 6.
    The election, and the violent backlash from the right, have all 
taken place against the backdrop of a global pandemic which has claimed 
the lives of more than 400,000 Americans in less than a year--
disproportionately people of color, who have to contend with white 
supremacist systems that limit their access to high-quality healthcare 
and other vital resources. And skepticism toward safety measures and 
the vaccine--much of it fueled by rightwing conspiracy networks--
remains high.
Recommendation to address far-right and racist narratives
  <bullet> Hold former President Donald Trump and those who helped 
        incite the deadly assault on the U.S. Capitol accountable. 
        Action by the House of Representatives to impeach former 
        President Trump was absolutely necessary to protect the future 
        of our democracy. Now the Senate must have the courage and true 
        patriotism to convict him and permanently disqualify him from 
        holding public office. In addition, Congress should discipline, 
        censure, or expel all of the 147 Senators and Representatives 
        who supported the insurrection and baseless ``Stop the Steal'' 
        lies by voting against Electoral College certification of 
        President Biden's victory.
  <bullet> Public figures involved in inciting and giving encouragement 
        to the armed insurrectionists who stormed the U.S. Capitol on 
        Jan. 6--destroying property, injuring dozens of officers, and 
        leaving five people dead--should be permanently deplatformed 
        from all social media. In addition, corporations should 
        permanently suspend political donations to Members of Congress 
        and other elected officials that helped incite the violent 
        siege and request that any past political donations to their 
        campaigns be returned.
  <bullet> Provide funding for the Department of Education to develop a 
        curriculum on structural racism and funding for States to 
        implement their own related initiatives. Americans can only 
        dismantle white supremacy if they understand how racism shaped 
        (and continues to shape) housing, education, policing, health 
        care and other policies and practices that affect our everyday 
        lives.
  <bullet> Require renaming of military bases named for Confederate 
        leaders, and ban the display of Confederate flags or other 
        racist symbols from all military installations, Federal parks, 
        streets, and highways. The 2015 Charleston church massacre 
        sparked a nationwide effort to remove Confederate symbols from 
        public places, but hundreds remain--a sign that we have failed 
        to fully acknowledge the injustices of slavery or affirm our 
        commitment to a wholly inclusive, pluralistic democracy. In 
        addition, Congress should create a Federal grant program to 
        help municipalities remove symbols of the Confederacy.
                    american attitudes about racism
    Just weeks before the COVID-19 pandemic took hold of the United 
States, a different tragedy gripped Brunswick, Georgia when Ahmaud 
Arbery was pursued by three white men (one a former police officer) 
while he was jogging and shot to death. Despite the incident being 
captured on video, law enforcement made no arrests in connection with 
the attack for more than 70 days.
    Arbery's death was among the first extrajudicial killings of Black 
people in 2020 to garner national media attention. Each one is a 
reminder that the census of hate groups undertaken by the SPLC's 
Intelligence Project is only one metric for understanding the toll that 
white supremacy takes on Black and Indigenous Americans, along with 
other Americans of color.
    Despite a historic, national outcry over these murders, SPLC's poll 
showed a limited understanding of such structural racism. Large 
majorities of the population surveyed acknowledged the dangers posed by 
organized antigovernment and white power groups, but failed to connect 
their existence and influence to the greater culture of white 
supremacy. For example, the narrative of the odd ``bad apple'' in 
police departments persists, even as reports of violence and death at 
the hands of law enforcement proliferate across the country.
    Throughout his presidency, Trump and his allies denied and 
minimized the reality of bigotry in this country, and legitimized white 
supremacy through policies like the Muslim ban and the child 
separation, through personnel like Stephen Miller, Julia Hahn, Jason 
Richwine and Darren Beattie, and through behavior like defending 
Confederate monuments and the extremists who marched in 
Charlottesville. His administration mocked and resisted public 
education about our country's racist legacy, attacking the New York 
Times's The 1619 Project in particular. In late September, President 
Trump issued an executive order banning some forms of diversity 
training for Federal employees and contractors.
Recommendations to change attitudes about racism
  <bullet> Establish a national truth, racial healing and 
        transformation commission to examine the history of white 
        supremacy and structural racism in the United States. This 
        long-overdue truth and reconciliation commission would help the 
        United States reckon with the injustices our country has 
        committed and help spark a movement to eliminate racial 
        discrimination.
  <bullet> Prohibit racial, ethnic and religious profiling in Federal, 
        State and local law enforcement. Black, Latinx, Muslim and 
        Indigenous people are subject to discriminatory policing, 
        including increased surveillance, more harsh criminal sentences 
        and disproportionately high rates of being killed by police.
                        antigovernment uprising
    On Aug. 25, a 17-year-old named Kyle Rittenhouse traveled the 20 
miles between his hometown of Antioch, Illinois and Kenosha, Wisconsin. 
He was answering an open call, sent out over social media, for armed 
militia to ``defend'' Kenosha from the mostly peaceful protests that 
had sprung up in the city after a Kenosha police officer chased Jacob 
Blake into his car and shot him four times in the back, paralyzing him. 
Rittenhouse, despite being a minor, had procured a semiautomatic rifle 
and brought it with him to the protest. Before the night was over, he 
allegedly shot three men, killing two. He has been charged with 
multiple counts of homicide, and his attorneys are arguing he acted in 
self-defense. People on the right, from the mainstream to the fringe, 
not only defended his actions, but celebrated them.
    The shootings in Kenosha were the apex of a year of feverish 
paramilitary vigilantism, which began in January 2020 when militias 
showed up in Richmond, Virginia to oppose gun measures promised by a 
newly Democratic-controlled State legislature. Soon, they found a new 
mobilizing cause: As COVID-19 began to spread across the country, 
antigovernment groups came out in force to oppose mask mandates and 
other safety measures to slow the spread of the disease. As mass 
protests for racial justice mobilized around the country, 
paramilitaries styled themselves as ad hoc deputies of law enforcement, 
``patrolling'' the streets in opposition to the largely peaceful 
protests.
    A similarly laudatory reaction from the right greeted Mark and 
Patricia McCloskey, who brandished guns at a passing group of Black 
Lives Matter protesters in St. Louis. They were rewarded with a 
speaking slot at the Republican National Convention.
    In their defense of Rittenhouse and other armed militia action, the 
right has signaled that antigovernment participation is an acceptable 
form of right-wing political expression, a stance that did not even 
waver when members of a Michigan militia were arrested and charged with 
plotting to kidnap their Governor, Gretchen Witmer.
    The thwarted plot came after a string of violence and arrests 
attributed to the Boogaloo movement, a predominantly white and heavily 
armed online subculture that began as a racist meme. The subculture is 
an illustration of the porous boundaries between the antigovernment 
movement and the larger hate ecosystem, and how anonymous posting 
forums like 4Chan continue to influence both. Its adherents advocate 
for a second civil war and have been involved repeatedly in acts of 
violence, including murder.
    The antigovernment movement will be explored in detail in a 
subsequent installment of this report, along with SPLC's 2020 list of 
antigovernment groups.
Recommendations for squelching the antigovernment uprising
  <bullet> End funding for police militarization and the transfer of 
        excess military property to law enforcement agencies. Police 
        militarization disproportionately exposes communities of color 
        to police violence and it inflames the paranoia of the extreme 
        right, which uses State-sponsored violence as evidence of 
        government tyranny and impending civil war.
  <bullet> End funding for DHS Countering Violent Extremism/Targeted 
        Violence and Terrorism Prevention programs that profile and 
        target immigrants, Muslims and Black Americans and result in 
        illegal spying and surveillance. They are not only ineffective, 
        but harmful.
  <bullet> Codify independent authority and autonomy protections for 
        whistleblowers and inspectors general at Federal agencies--
        including Federal law enforcement agencies. President Trump's 
        unprecedented purge of several Federal agency inspectors 
        general revealed the limits of current law to protect these 
        necessary government watchdogs, who are capable of injecting 
        much needed accountability into the Federal Government. 
        Whistleblower protection can help address the ``Blue Wall of 
        Silence'' and encourage reporting of racist law enforcement 
        officials.
                            the path forward
    As we move into 2021, and beyond the Trump presidency, we must find 
ways to counter the reactionary, authoritarian populism that is 
mobilizing on the heels of Trump's loss. Hate groups that lose salience 
or public attention will not go away. Instead, they will find shelter 
elsewhere among the far right, particularly in the militant edge of 
campaigns like ``Re-Open'' and ``Stop the Steal.''
    An effective opposition to this antidemocratic movement has to 
dismantle the symptoms of white supremacy culture that justify it and 
give it fuel. The SPLC has developed four Impact Statements that help 
define and quantify our mission, and each has a role to play in 
combating the extreme right.
    First, dismantling white nationalism and protecting democracy. With 
robust anti-racist education, we can reduce the population of Americans 
that harbor sympathy for a white nationalist worldview.
    Second, protecting voting rights and civic engagement. By 
dismantling voter suppression laws, we can keep the power in the hands 
of the American people and safe from undue influence by the small 
antidemocratic minority.
    Third, decriminalizing and decarcerating Black and Brown people. 
Mass incarceration and overcriminalization saps resources and 
opportunities from communities of color and contributes to a culture 
that dehumanizes Black and Brown people and fuels the core ideology of 
white nationalism.
    Finally, eradicating poverty. Yet again, systemic racism creates 
barriers to advancement, meaning Black and Brown people are 
overrepresented in populations experiencing poverty. The challenges 
poverty presents overlap with the other challenges we face in the fight 
against white supremacy.
    Lydia Bates, Eddie Bejarano, Freddy Cruz, Hannah Gais, Tracey Gale, 
Rachel Goldwasser, Raven Hodges, Caleb Kieffer, and other members of IP 
research staff contributed to this report. Policy recommendations were 
contributed to this report by SPLC Senior Policy Advisor Michael 
Lieberman and other SPLC Policy staff.
                                 ______
                                 
  The Role of Guns & Armed Extremism in the Attack on the U.S. Capitol
By Everytown For Gun Safety
    The attack on the U.S. Capitol is the latest--not the first, nor 
the last--demonstration of the danger armed extremism poses to our 
democracy. Failure to address this threat will lead to the continued 
growth of extremist groups and violent incidents.
    The deadly insurrection attempt at the Capitol was fueled, in part, 
by gun rights extremists who brought their firepower to Washington to 
stop the certification of the electoral college votes. At least nine 
people who were at or around the Capitol have already been arrested on 
weapons charges, including a heavily armed man in D.C. who prosecutors 
allege had texted his intention to ``[put] a bullet'' in Speaker Nancy 
Pelosi's head. Thousands of rounds of ammunition were recovered by 
authorities. Rioters displayed militia patches, waved a ``Come and Take 
It'' Confederate flag with an AR-15 image, and dawned insignia of gun 
groups including the NRA. A review of the digital footprint of those 
arrested at the Capitol reveals ties to the NRA and other forms of gun 
rights extremism.
    Armed extremists seeking to undermine our democractic institutions 
are a chronic and ongoing problem. In 2020, white supremacists and 
anti-government extremists, including the ascendant boogaloo movement, 
used guns as tools of intimidation and violence in increasingly open 
ways, including taking advantage of weak State gun laws to brandish 
weapons at anti-government protests, to intimidate peaceful protests 
for racial justice, and in plans and actions to kill. Data collected by 
the Armed Conflict Location & Event Data Project (ACLED) and the 
Bridging Divides Initiative (BDI) at Princeton University shows at 
least 100 instances of armed protesters and incidents involving guns at 
protests in State capitals from May 2020 through mid-January 2021. 
These events were precursors to the attack on the U.S. Capitol and 
foreshadow a possible violent escalation in the future.
    Former President Trump has emboldened extremists and given them and 
their conspiracy theories a place in the political mainstream. But far 
right extremism did not start with Trump, his response to 
Charlottesville, or his call from the debate stage for the Proud Boys 
to ``stand back and stand by.'' Nor will it end now that he has left 
office.
    In fact, for decades, the NRA and the broader gun lobby has enabled 
access to guns by anti-government and white supremacist extremists 
through their advocacy against common-sense gun laws, while 
simultaneously harnessing their fixation on guns and violent response 
to perceived government overreach. In doing so, the gun lobby has 
amplified radicalizing messaging to new and broader audiences. The gun 
lobby's rhetorical, political, and sometimes organizational overlap 
with the extreme right--from the militia movement of the 1990's to the 
Oath Keepers that stormed the Capitol--has yielded dangerous and, at 
times, catastrophic results. The arrest of several insurrectionists on 
weapons charges and the presence of gun rights absolutists at the 
storming of the U.S. Capitol are just the latest example of the toxic 
mix of guns and extremism. In fact, just days before January 6th, NRA 
CEO Wayne LaPierre sent a letter to members warning of ``armed 
government agents storming your house, taking your guns, and hauling 
you off to prison'' and that they must ``STOP GUN CONFISCATION.'' This 
is the type of conspiratorial rhetoric that animates extreme right 
actors.
    In September 2020, Everytown released a comprehensive report 
detailing these threats entitled ``Armed and Dangerous: How the Gun 
Lobby Enshrines Guns as Tools of the Extreme Right.'' This report, 
which builds on the findings of our prior research, reviews (i) the 
presence of firearms at the Capitol insurrection, (ii) the 
constellation of extreme right actors present at the Capitol, (iii) 
these same groups' presence at armed protests throughout 2020, (iv) the 
gun lobby's complicity in the rise of extremism, and (v) policy 
solutions for disrupting how extremists use firearms to undercut 
democracy.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               the armed insurrection at the u.s. capitol
    On January 6, 2021, a group of insurrectionists stormed and 
vandalized the U.S. Capitol building. The day started with a pro-Trump 
rally outside the White House calling for the results of the U.S. 
Presidential election to be overturned. The former President, several 
allies, and members of his family spoke. Some members of the rally then 
marched to the Capitol where the angry mob quickly became impossible to 
control.
    The insurrection caused the evacuation and lockdown of the U.S. 
Capitol. Five people died. One Capitol Hill Police officer was killed 
and approximately 81 members of the Capitol Police and 58 members of 
the D.C. Metropolitan Police Department sustained injuries--officers 
were trampled, struck with a bat, pinned against a statue, hit with a 
fire extinguisher, sprayed with bear spray, and pushed down stairs, 
among several other violent acts. A number of the insurrectionists were 
armed leading to seizures of weapons and arrests on weapons charges. In 
addition, police discovered pipe bombs placed near the headquarters of 
the RNC and DNC. Monitoring of the event picked up individuals from a 
number of well-known extreme right groups in the crowd.
    The insurrectionists were armed.--While additional indictments may 
be forthcoming, at least nine individuals have been arrested on 
firearms charges relating to events in or around the Capitol. A review 
of the police reports related to the arrests show that police seized at 
least 3,071 rounds of ammunition during the course of these arrests--
enough ammunition to shoot every member of the House and Senate five 
times. Hundreds of rounds of additional ammo were found during the 
subsequent arrests of other individuals who participated. The firearms 
related arrests include:
    Cleveland Meredith.--Arrested in D.C. in possession of at least one 
        handgun, an assault rifle, and 2,500 rounds of ammunition. 
        Ahead of his trip to D.C., Meredith texted that he would be 
        ``putting a bullet'' in Speaker Nancy Pelosi's head. He also 
        bragged he was ``headed to DC with a sh*t ton of 5.56 armor 
        piercing ammo.'' News reports indicate that during the summer 
        of 2020 Meredith ``put several [Black Lives Matter] protesters 
        on edge'' when he counterprotested at a Black Lives Matter 
        rally armed with a large Tavor X95 rifle.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Lonnie Coffman.--Arrested in D.C. in possession of materials to 
        build nearly a dozen Molotov cocktails, plus three handguns, an 
        assault rifle, and five separate types of ammunition. He faces 
        a 17-count indictment on weapons charges. Prosecutors assert 
        that Coffman appears to have been motivated to conduct violence 
        against elected representatives, and notes in his possession 
        listed Representative Andrew Carson as ``one of two muslims in 
        House of Reps.''
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Thomas Gronek.--Arrested in D.C. with two guns, along with 275 
        rounds of .22 cal ammunition and a drum magazine that holds 110 
        rounds of ammunition. Ahead of the election, Gronek posted 
        conspiratorial content about the ``mass takeover of our 
        country.''
    Grant Moore.--Arrested in D.C. with a semi-automatic handgun, and 
        approximately 36 rounds of ammunition. When he was confronted 
        by the police, Mr. Moore allegedly pointed to a red ``Make 
        America Great Again'' hat and told the officer ``I'm one of 
        these.''
    The arrest and seizure data likely vastly understate the presence 
of weapons at and near the Capitol on January 6, as social media 
monitoring indicates many users sharing plans to carry guns at the 
Capitol and law enforcement did not detain and search the majority of 
the insurrectionists. One officer present that day indicated he 
intentionally avoided drawing his gun because ``I didn't want to be the 
guy who starts shooting, because I knew they had guns . . . And the 
only reason I could think of that they weren't shooting us was they 
were waiting for us to shoot first. And if it became a firefight 
between a couple hundred officers and a couple thousand demonstrators, 
we would have lost.''
    Police reports and court filings indicate the insurrectionists made 
explicit threats to harm several elected leaders, the preponderance of 
which seemed to be aimed at Speaker Nancy Pelosi, Rep. Andrew Carson, 
Rep. Alexandria Ocasio-Cortez, D.C. Mayor Muriel Bowser, and Senator 
Raphael Warnock. All of these leaders are women or Black--a fact that 
is consistent with the level of misogyny and racism found amongst 
extreme right organizations.
    The constellation of far right groups that rioted in the U.S. 
Capitol includes numerous extremist groups and individuals.--Members of 
the Oath Keepers and Three Percenters, anti-government militia groups 
organized around conspiratorial beliefs of looming civilian 
disarmament, were present at the Capitol on January 6. Stewart Rhodes, 
the founder of the Oath Keepers, was photographed outside the Capitol 
on the 6th. After the November election, Rhodes told conspiracy-peddler 
Alex Jones that his group was ready to attack Washington in defense of 
Trump, saying ``We'll also be on the outside of D.C., armed, prepared 
to go in, if the president calls us up.''
    Proud Boys leader Enrique Tarrio was arrested in D.C. 2 days before 
the riot with two illegal gun magazines emblazoned with the Proud Boys 
logo. There was a significant Proud Boys presence at the Capitol, 
including Nick Ochs, a founder of the Hawaii chapter of the Proud Boys 
and co-host of the streaming show ``Murder the Media,'' who was 
arrested for unlawful entry into the Capitol. Similarly, a Proud Boys 
organizer from Orlando, Florida, Joe Biggs, was arrested for his 
participation in the riot. A Proud Boy member who goes by the alias 
``Spazzo'' was reported to have broken a window during the Capitol 
insurrection. He was arrested and identified as Dominic Pezzola of 
Rochester, New York--he is facing charges of unlawful entry and 
destruction of property.
    Many individuals who were arrested for illegal conduct at the 
Capitol were not caught with weapons on their person, but are connected 
with extremist organizations, gun rights groups, or have espoused the 
intention to use firearms in pursuit of their idea of justice. Notable 
arrested individuals include:
    Richard Barnett.--Arrested for unlawful entry of the Capitol and 
        infamously posed for pictures sitting in Speaker Pelosi's 
        chair. Mr. Barnett is a gun rights activist from Arkansas that 
        self-identifies as a ``white nationalist.'' In post arrest 
        hearings, prosecutors revealed that Barnett had previously had 
        several encounters with local law enforcement, including one 
        where he matched the description of a suspect who had pointed a 
        gun at a woman in July 2020, and another where he was parked in 
        a school zone ``in possession of an AR-style rifle around his 
        back and a pistol on his side.''
    Wiliam McCall Calhoun, Jr.--Arrested for unlawful entry of the 
        Capitol; disorderly conduct; and witness tampering. Calhoun is 
        a gun rights activist and attorney whose since-deleted website 
        listed ``Self-defense/2d Amendment'' work. Calhoun's Twitter 
        profile picture includes him prominently wearing a NRA ballcap. 
        He organized at least one gun rights rally after the 2020 
        election, the purpose of which he said was ``we're not going to 
        tolerate an election with no transparency.'' Calhoun's social 
        media is filled with threats of armed violence, including that 
        he was attempting to join a militia to ``become an officially 
        state sanctioned COMMIE KILLER.'' In one post, he told another 
        user, ``My AR15 set up will do head shots at 200 meters no 
        problem. You have no clue what's coming.'' In another, he 
        warned, ``I'll be slinging enough hot lead to stack you commies 
        up like cordwood.'' On Twitter, Calhoun quoted the well-known 
        NRA slogan, ``from my cold dead hands.'' In advance of the 
        Capitol insurrection, Calhoun allegedly advised his followers, 
        ``Whether the police can enforce their gun laws depends on how 
        many armed Patriots show up.'' Afterwards, he reportedly told 
        them, ``The word is we're all coming back armed for war.''
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Karl Dresch.--Arrested for obstruction of justice, disorderly 
        conduct, and unlawful entry of the Capitol. Authorities found a 
        SKS rifle with an unattached bayonet, a shotgun and a .40-
        caliber Glock handgun, along with ammunition, in a search of 
        Mr. Dresch's home. Due to a previous felony conviction, Mr. 
        Dresch cannot lawfully own guns. While Dresch was not charged 
        with bringing a gun into the Capitol, prosecutors noted that a 
        backpack that he had on Capitol grounds was found with 
        ammunition in it.
    Guy Wesley Reffitt.--Arrested for obstruction of justice and 
        unlawful entry of the Capitol. Prosecutors allege that Reffitt 
        had ties to the Texas Freedom Force, what they describe as a 
        ``militia extremist group.'' Reffitt's wife told authorities he 
        identified as a Three Percenter. The night Reffitt came home 
        from his trip to the Capitol his son saw Reffitt take out two 
        firearms from his car, an AR-15 rifle and a pistol, and bring 
        them into the house. Reffitt allegedly made several threats of 
        violence against his own family, including that ``if you turn 
        me in, you're a traitor and you know what happens to traitors . 
        . . traitors get shot.''
    Kevin Greeson.--News reports indicate that Mr. Greeson suffered a 
        fatal heart attack during the insurrection. Social media posts 
        made under his account in the month ahead of the events at the 
        Capitol include posts encouraging civil war (``let's give it to 
        them. A war. Democrats don't have guns. We do . . . Im Bringing 
        MY GUNS'') [sic]. Over the summer Mr. Greeson appears to have 
        been agitated by Black Lives Matter protests, posting ``time 
        for protesting is over! Put the military in the streets of 
        every city.'' In November, Mr. Greeson posted on Parler: ``All 
        males over the age of 18 join a group . . . be ready to defend 
        our country!! Spend your money on guns and ammo . . . It's time 
        to stop this shit!!!!!'' Mr. Greeson regularly posted violent 
        content online and followed extremists like the Proud Boys and 
        militia groups.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Joe Biggs.--Arrested for unlawful entry of the Capitol; disorderly 
        conduct; and obstructing an official proceeding. Biggs is a 
        well-known member of the Proud Boys and a former Infowars 
        employee. He is also a reported NRA member who has been 
        mentioned multiple times on the NRA website. In 2016, Biggs 
        attended the NRA Annual Meeting, where he interviewed then-NRA 
        personality Colion Noir. Biggs has frequently posted about gun 
        rights online, at one point encouraging his followers to ``Get 
        a gun. Bu[y] ammo. [ . . . ] be ready because the left isn't 
        playing anymore and neither should we.'' There is also at least 
        one episode of an online show about gun ownership on a far 
        right website hosted by Biggs.
    Michael Curzio.--Arrested for unlawful entry of the Capitol. Curzio 
        was previously convicted and served prison time for attempted 
        murder in a 2012 shooting. On Facebook, Curzio had previously 
        dismissed the idea of gun laws, claiming, ``I'm a convicted 
        felon but I can get my hands on almost any weapon I have the 
        money to buy, and without the cops and legal weapons 
        confiscated. What do you think would happen if people like me 
        rose up and wanted to really take what we wanted and do what we 
        really wanted?'' The day after the 2020 election, he posted, 
        ``If shit really hits the fan, who's with me to do the right 
        thing? And you know what I mean, and you know what I'm talking 
        about.'' From his DC hotel room before the insurrection, he 
        posted a video to Facebook, saying, ``if anything happens--we 
        get fucked up, arrested, or killed--just know, man, I love 
        y'all and I did what I believed in [ . . . ] if I die, or if I 
        get fucked up, or whatever, y'know, it is what it is.'' Even 
        after being arrested for his role in the insurrection, Curzio 
        posted he had ``no regrets for anything.''
    Len Guthrie.--Arrested for unlawful entry of the Capitol. Mr. 
        Guthrie is a self-described ``lifetime NRA member'' who shared 
        NRA content, including the insurrectionist theory of the Second 
        Amendment, on his Facebook page.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    The insurrectionists were organized.--Video of the insurrection, 
and cached posts on social media, indicate that the storming of the 
Capitol was not spontaneous. Indeed, prosecutors have charged three 
individuals who were members of the Oath Keepers and/or the Ohio State 
Regular Militia (Thomas Caldwell, Jessica Watkins and Donovan Crowl) 
with conspiracy to obstruct the Congress' affirmation of the Electoral 
College, among other criminal charges, for their actions at the 
Capitol. Court affidavits filed by the government in the case describe 
the Oath Keepers as a ``paramilitary organization'' who ``believe that 
the Federal Government has been coopted by a shadowy conspiracy that is 
trying to strip American citizens of their rights.'' The same affidavit 
describes how the defendants moved ``in an organized and practiced 
fashion'', with one sending a voice message that ``We have a good 
group. We have about 30-40 of us. We are sticking together and sticking 
to the plan.'' One man was overheard offering words of encouragement 
during the riot saying ``Get it, Jess Do your fucking thing. Everything 
we fucking trained for.'' Recorded messages also revealed an individual 
saying ``You are executing a citizen's arrest. Arrest this assembly, we 
have probable cause for acts of treason, election fraud.'' Evidence 
presented in the case further indicates that the defendants had made 
extensive plans for the day, what one called ``an Oathkeepers Op,'' in 
a message, including gathering supplies, meeting up with other Oath 
Keeper groups, and ``night hunting'' of Antifa.
    The organization of the insurrectionists was evidenced by their 
supplies and mechanisms of communications. Pictures of an 
insurrectionist with flex cuffs, later identified by authorities as 
Eric Munchel, maneuvering through the gallery of the U.S. Senate 
quickly went viral. Flex cuffs are used by police to detain and 
transport suspects. Munchel was allegedly carrying a gun outside the 
Capitol, which he stashed before entering the building. After his 
arrest, prosecutors found an arsenal at Munchel's home, including 
``assault rifles, a sniper rifle with a tripod, shotguns'' and what was 
described as a ``drum-style magazine.'' Similarly, an FBI affidavit in 
connection with Proud Boy Joe Biggs notes the presence of earpieces 
among individuals associated with Proud Boys. This was not a 
spontaneous storming of the gates--it was a deliberate and orchestrated 
insurrection.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In the days after the riot, the FBI's Joint Terrorism Task Force 
arrested Proud Boy supporter Eduard Florea on weapons charges. News 
reports indicate Florea has allegedly threatened to kill people in the 
past and made several online threats to elected leaders and government 
agencies. Florea allegedly posted online ``Guns cleaned loaded . . . 
got a bunch of guys all armed and ready to deploy . . . we are just 
waiting for the word'' and ``Its [sic] time to unleash some violence.''
    Symbols of hate were commonplace throughout the Capitol 
insurrection. Far right iconography, such as signs supporting QAnon (a 
conspiracy that places former President Trump as the heroic savior of 
the republic against a cult of liberal pedophiles), Crusader 
paraphernalia (symbols popular with far-right ethnonationist groups), 
and references to Pepe the Frog (a series of memes popular in racist 
and bigoted spaces on the internet), were present. Imagery captured at 
the riot indicate the presence of the neo-Nazi group NSC 131, and some 
insurrectionists wore anti-semetic clothing with sayings such as ``Camp 
Auschwitz.'' Confederate flags were openly flown at the insurrection, 
with at least one with the pro-gun message ``Come and Take It'' 
emblazoned on it. A noose and gallows was erected outside the Capitol, 
and indeed, certain insurrectionists chanted ``hang Mike Pence.'' 
Photographs captured attendees wearing various forms of firearms-
related paraphernalia, including an NRA hat and a patch from the 
extremist gun group the Virginia Citizen Defense League.
    In sum, the insurrectionists at the Capitol were armed, organized, 
and violent.--Apart from the physical presence of guns, the strong ties 
of several of the insurrectionists to gun extremism is hardly 
surprising--guns are a recruiting and motivating tool for the extreme 
right. Conspiracies about election-rigging and the ``stolen'' election, 
driven by a deep state of shadowy government actors, echoed the same 
imaginary threats the gun lobby has parroted for years to motivate gun 
rights absolutism around the supposed looming confiscation of guns by 
the government.
           2020: the year of dangerous extreme right protests
    The insurrection at the U.S. Capitol on January 6 was a 
continuation of a pattern of extreme right wing intimidation and 
violence that has grown unchecked during the Trump presidency. In 2020, 
the extreme right used guns as tools of intimidation and violence in 
increasingly open ways, most notably by taking advantage of weak State 
gun laws to brandish weapons at anti-government protests and to 
intimidate peaceful protests for racial justice. These incidents, which 
are detailed in Everytown's September 2020 report ``Armed and 
Dangerous: How the Gun Lobby Enshrines Guns as Tools of the Extreme 
Right,'' are summarized below.
    Armed Protests in State Capitals and Cities Around the Country.--An 
analysis of data from the Armed Conflict Location & Event Data Project 
and the Bridging Divides Initiative at Princeton University shows at 
least 100 instances of armed protesters and incidents involving guns at 
protests in capital cities of 28 different States from May 2020 through 
mid-January 2021, including, but not limited to, the following 
examples:
    Richmond, Virginia Gun Extremist Rally.--In January 2020, heavily 
        armed protesters descended on Richmond, VA to decry anticipated 
        changes to Virginia's gun laws. Event organizers issued a 
        statement welcoming participation of militia groups at the 
        event, writing, ``We welcome our militia brothers and sisters 
        to be part of making the day a success!'' Militia groups, 
        including the Three Percenters and Oath Keepers, and other 
        extremists quickly organized. Ahead of the event, one far right 
        leader publicly threatened a State legislator: ``you should be 
        pulled out of office by the hair on your head, walked down the 
        streets of the capital, walked up to the steps of a swinging 
        rope that's placed around your neck.'' Militia groups who 
        descended on Richmond even organized and held a conference the 
        day before, titled, ``The State of the Militia,'' at which 
        various militia leaders spoke, including some who had helped 
        plan the violent Unite the Right rally in Charlottesville. The 
        scene around Richmond on the day of the protest was 
        militaristic and chaotic. Protesters openly carried pistols and 
        AR-15 assault-style rifles, among other weapons, often donning 
        military fatigues and tactical gear. Heavily armed militia 
        groups lined up and marched throughout the area. If not for the 
        work of the FBI in disrupting an accelerationist plot by white 
        supremacists who were building untraceable ghost guns to launch 
        an attack at the event, the Richmond rally could have been a 
        mass-casualty event.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Lansing, Michigan.--For three consecutive weeks in Michigan in 
        spring 2020, armed protesters, openly brandishing semi-
        automatic assault-style rifles, led rallies in and around the 
        Michigan State Capitol to protest the Governor's extension of 
        the State's COVID-19 stay-at-home order. The extremist Michigan 
        Liberty Militia and Michigan Proud Boys participated in these 
        armed events at the capitol. At one of the protests, a large 
        Confederate flag with an AR-15 rifle and the phrase ``Come and 
        Take It'' was displayed in the crowd. At another, armed 
        protesters stormed the capitol building to brandish their 
        weapons and intimidate lawmakers during their legislative 
        session. Michigan Governor Gretchen Whitmer noted the overlap 
        of hate symbols and firearms at these protests, saying, ``There 
        were swastikas and Confederate flags and nooses and people with 
        assault rifles.'' The FBI later arrested and charged extremists 
        who were plotting to kidnap Michigan Governor Gretchen Whitmer. 
        The arrests included individuals who had reportedly attended 
        the armed protests and were members of the militia group 
        Wolverine Watchman.
    Frankfort, Kentucky.--The Bluegrass State has been the home of 
        several armed protests, including one during which participants 
        hung an effigy of the Governor from a tree. Participants 
        included individuals with insignia from the Three Percenter 
        militia group. At another event, gun rights extremists marched 
        through the State capitol rotunda brandishing assault-style 
        weapons. More recently, after the riot at the U.S. Capitol, 
        approximately 100 individuals took to the State capitol in 
        Frankfort, once again armed.
    BLM Counterprotests.--Armed extreme right appeared at a number of 
Black Lives Matter and racial equality protests after the killing of 
George Floyd, with the overwhelming majority of these counterprotesters 
being white. Their appearance followed conspiratorial rhetoric around 
the threat of left-wing violence pushed by a constant barrage of 
statements and tweets from President Trump and his allies, including an 
allusion to gun violence by Trump, who tweeted, ``When the looting 
starts, the shooting starts.'' The theme of false equivalence had been 
pushed by the NRA for years. After a neo-Nazi murdered a peaceful 
protester at the Unite the Right rally in Charlottesville, then-NRA 
spokesperson Dana Loesch lectured, ``Don't think for 1 second that 
Antifa and Black Lives Matter are somehow more virtuous than the alt-
right. It's all the same stuff.'' The Southern Poverty Law Center 
chronicled at least 55 incidents of militias attending racial equality 
protests between the spring and fall of last year.
    Kenosha, Wisconsin.--After an online call for ``Armed Citizens,'' 
        right-wing extremists carrying assault rifles and handguns were 
        visible throughout protests seeking justice for the police 
        shooting of Jacob Blake. This included a 17-year-old white 
        Trump supporter who drove across State lines to ``protect'' the 
        city from racial justice protesters. He patrolled the streets 
        brandishing a long gun and ultimately shot three protesters, 
        two fatally. The shooter is a self-described militia member and 
        was later photographed flashing a white power sign while posing 
        with members of the Proud Boys. The violence in Kenosha could 
        have been even worse had the FBI not arrested two heavily armed 
        individuals who had driven from Missouri to Kenosha allegedly 
        ``with the intention of possibly using the firearms on 
        people.'' The two had attended a Trump rally in Kenosha and 
        planned to go to Portland, Oregon. Both were members of the 
        Missouri-based 417 Second Amendment Militia, and one reportedly 
        said he was willing to ``take action'' if police were defunded.
    Rise of the Boogaloo Movement.--The emergent boogaloo movement rose 
to national prominence in 2020 as a new and dangerous subset of the 
extreme right. The movement's focus on a supposedly imminent second 
civil war is rooted in a sense that American political institutions and 
norms are hopelessly corrupt and beyond peaceful reform. This belief 
set involves the fetishization of a civil war, ranging from obsessive 
preparation for it to action to hasten its arrival. Public displays of 
weaponry, particularly at political protests, are central to this 
movement's adherents. Among these groups, firearm training is a common 
part of preparation for the anticipated civil war. There were several 
instances of boogaloo violence in 2020, including in Santa Cruz, 
California, where prosecutors linked a man charged with the shooting 
and murder of two Federal law enforcement officers to the boogaloo 
movement. This is still an emergent movement, but its ideological core 
centers around guns and distrust of authority, whether that be the 
government, police, or political institutions.
    Threats to the Administration of Elections.--The rise in armed 
protest resulted in serious concern for the safety and security of the 
2020 election. Two incidents underscored the dangers of mixing guns and 
democracy. First, in Phoenix Arizona, supporters of President Trump--
some armed--rallied outside of the vote counting at the board of 
elections the day after the election. Second, two men were arrested en 
route to Philadelphia's vote-counting center in the days following the 
election. Police indicate the men drove with pistols, an AR-15 rifle, 
and roughly 160 rounds off ammunition. These same individuals, 2 months 
later, allegedly attended the U.S. Capitol insurrection, with one of 
them reportedly giving a speech as rioters stormed the building.
    Extremists are able to mount these armed intimidation campaigns 
because in most States it is legal to open carry loaded firearms at or 
around State capitol buildings or at demonstrations. This is largely 
due to the absence of State laws prohibiting the open carry of firearms 
in public, commonly known as the ``Open Carry Loophole.'' Few State 
legislatures have addressed the legality of the ``open carry loophole'' 
because responsible gun owners have not traditionally openly carried 
firearms in public. In fact, in 41 States, civilians can open carry 
loaded, semi-automatic rifles without a permit. More information about 
the Open Carry Loophole can be found in Everytown's June 2020 report 
``Armed COVID-19 Protests Exploit Open Carry Loophole.''
                the gun lobby and extreme right politics
    For decades, the gun lobby has sought to capture and wield the 
political fervor of right-wing extremists, spreading radicalizing far 
right conspiracy theories about mass civilian disarmament and looming 
authoritarianism to everyday Americans in a craven attempt to stop the 
reforms that would keep guns out of the hands of those very extremists. 
Guns and gun fanaticism are central organizing principles of this kind 
of extremism in America, including that of the groups and individuals 
that supported the storming of the U.S. Capitol.
    In the early 1990's, the NRA used over-the-top rhetoric to 
denigrate efforts to pass the Brady Bill and the Federal assault 
weapons ban. The organization leveraged the deadly law enforcement 
raids at Ruby Ridge, Idaho in 1992 and Waco, Texas in 1993 to 
villainize Federal law enforcement, repeatedly comparing them to Nazis 
in books and full-page newspaper ads, and suggesting the gun reforms 
were authoritarian measures to target gun owners. At the same time, 
armed extremists--animated by the same conspiracy theories around gun 
laws, Ruby Ridge, and Waco--were coalescing into the nascent anti-
government militia movement. One such extremist, who devoted himself to 
conspiracy theories about mass disarmament, visited the Waco siege, and 
read about Ruby Ridge in an NRA publication, was Timothy McVeigh.
    In a fundraising letter dated April 13, 1995, LaPierre referred to 
Federal agents as ``jack-booted government thugs,'' saying it was no 
longer ``unthinkable for Federal agents wearing nazi bucket helmets and 
black storm trooper uniforms to attack law-abiding citizens,'' all 
while specifically referencing ``Randy Weaver at Ruby Ridge . . . Waco 
and the Branch Davidians.'' Six days later, McVeigh bombed the Alfred 
P. Murrah Federal Building in Oklahoma City, a target he chose because 
it housed an ATF office, killing 168 people. The NRA falsely denied 
connections to the militia movement in the aftermath, instead blaming 
the ATF for ``creating the climate'' that led to the bombing.
    Those kinds of conspiracy theories form the backbone of the far 
right worldview of grievance and siege, namely the belief that the U.S. 
political system is compromised by a shadowy cabal of enemies enacting 
a grand conspiracy. The combination of a deep skepticism toward 
democratic institutions and paranoia over fictional threats from 
shadowy actors leads some extremists to conclude that there are few, if 
any, legitimate democratic solutions to these threats, and as a result, 
mass violence is inevitable or even justified. For these groups and 
radicalized individuals, guns are essential tools for that tactic of 
violence. Beyond simply purchasing or using guns individually, far 
right extremists, especially those in anti-government circles, organize 
politically to advocate against any limit to gun rights.
    The gun lobby has sought to leverage that political activism to its 
own ends, warning its members that the only thing standing between them 
and a grand authoritarian conspiracy or even their fellow Americans was 
their easy access to any and all firearms. To paint this picture, the 
gun lobby draws on many of the same conspiracy theories that the far 
right depends on, particularly those which hinge on the protection of 
lax gun laws: Either the imagined conspiracy has yet to happen because 
Americans have easy access to firearms, or the conspiracy itself is an 
attempt to disarm Americans (so that the first category of conspiracies 
can be executed).
    One extreme viewpoint at the forefront of the NRA's messaging for 
decades is the insurrectionist theory of the Second Amendment. In 1994, 
NRA CEO Wayne LaPierre summed up the theory when he wrote that the 
Second Amendment ``state[s] in plain language that the people have the 
right, must have the right, to take whatever measures necessary, 
including force, to abolish oppressive government.'' LaPierre put it 
more plainly years later, in 2009: ``Our Founding Fathers understood 
that the guys with the guns make the rules.'' More recently, days after 
the Capitol insurrection, NRA Board President Carolyn Meadows 
regurgitated the view writing in a column entitled ``Why They Fear 
Us,'' that ``gun-control advocates want control, but are often stopped 
because the Second Amendment fundamentally undermines their attempt to 
turn people into submissive subjects of a controlling state.''
    The nebulous idea that the Second Amendment provides the right for 
armed groups to attack the government when they decide it has become 
tyrannical is particularly dangerous when the same people making that 
claim are also the ones baselessly accusing political adversaries of 
having an authoritarian agenda. In short, the NRA has relentlessly 
insisted to its members that their guns give them the right to 
violently overthrow a tyrannical government, while at the same time 
sounding the alarm that anyone who wants to implement even the most 
modest regulation of gun ownership is a tyrant-in-waiting. It's a 
recipe for the exact kind of disaster seen at the U.S. Capitol on 
January 6th: Americans fraudulently convinced the democratic process 
had been hijacked and left feeling that armed insurrection is a 
justifiable remedy.
    For far right ideologies, defense of lax gun laws is paramount, 
which makes the gun lobby the hero standing in the gap to stop any and 
all efforts to regulate guns and, by extension, supposedly looming 
rampant criminality and authoritarianism. And in portraying itself as 
the hero, the gun lobby can activate its most ardent followers and 
raise more money from its members. As the NRA's former No. 2 recently 
put it in a tell-all book, LaPierre knew that when the NRA needed to 
raise money, it could depend on fear-mongering messaging, which 
LaPierre purportedly referred to as pouring ``gasoline on the fire.''
    Deploying this kind of rhetoric, the gun lobby exposes a wide 
audience to these radicalizing messages, pushing those in the 
mainstream toward extremism and those already radicalized further 
toward violence.
    The insurrectionists at the Capitol, many deceived by lies and 
conspiracy theories, believed that not only was the 2020 election a 
fraud, but it was a fraud in furtherance of installing an 
administration they wrongly view as an oppressive threat. As a result, 
in invading the Capitol, they believed they were exercising the 
nebulous right the NRA claims is granted to them by the Second 
Amendment ``to abolish oppressive government.'' This worldview is 
largely responsible for the resurgence of the anti-government movement, 
particularly the boogaloo movement, in the past year.
    NRA communications to its members continue to ``pour gasoline on 
the fire'' of right-wing extremism. In a recently uncovered fundraising 
letter to members, Wayne LaPierre warns of ``armed government agents 
storming your house, taking your guns, and hauling you off to prison'' 
in language that worryingly echoes his words in the letter the NRA sent 
to members mere days before the Oklahoma City bombing. In the recent 
letter, LaPierre boasts that ``only the NRA has the strength to win 
knock-down brawls on Capitol Hill.'' The letter's accompanying envelope 
read ``NOTICE OF GUN CONFISCATION''--an overt invocation of civilian 
disarmament conspiracy theories. Similarly, even after the events at 
the Capitol, the NRA promoted a branded meme on social media with an 
AR-15 and the phrase ``Come and Take It.'' This was the same phrase and 
symbolism that flew on a Confederate flag during protests of the 
Governor of Michigan last spring and that was flown at the Capitol on 
the 6th.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         policy recommendations
    The January 6, 2021 insurrection at the U.S. Capitol demonstrated 
the urgent need for policymakers to confront armed extremism. While 
there are many reasons for the rise in armed extremism, we know that 
strong gun policy is critical to address violent extremists' access to 
firearms and establish clear and strong legal standards on what conduct 
is not acceptable in our democracy. To fully address the threat, we'll 
need to address easy access to firearms in the United States, including 
through common sense measures that stop prohibited individuals from 
obtaining guns--like comprehensive background checks and regulations on 
ghost guns. In the meantime, the following three steps can disrupt how 
extremists use firearms to undermine democracy and promote 
insurrection.
    First, the law should prohibit the carrying of firearms at and 
around sensitive government facilities. The carrying of firearms by 
members of the public intimidates citizens, emboldens extremists, and 
is ultimately the means by which a protest can morph into an 
insurrection or escalate into a gunfight. Federal law already prohibits 
firearms at the Capitol and on Capitol Grounds. Federal and State law 
should extend the prohibition on gun carrying to all State capitals and 
their grounds, and the other buildings essential to the functioning of 
government and the electoral process, including polling locations and 
vote counting facilities.
    Second, guns should be prohibited at demonstrations on public 
property. Peaceful protest is an essential form of expression and a 
pillar of American democracy; however, the dangers inherent to the 
carry of firearms in demonstrations are very real, and a recent 
Department of Homeland Security memo warned that ``militia extremists'' 
are prepared to take advantage of public demonstrations to incite 
violence. The presence of armed protesters is in and of itself a show 
of intimidation. The armed extreme right's targets of intimidation are 
often members of already marginalized communities, as evidenced by 
their presence throughout the year at protests for racial equality.
    Third, armed extremists must be held accountable under existing 
laws for their criminal conduct. Federal and State officials must 
enforce laws against unlawful carrying and armed intimidation with a 
focus on the armed extremists and white supremacists who have abridged 
civil rights or sought to intimidate democratic institutions. Laws on 
firearm brandishment should be enforced to capture the tactics we have 
seen deployed by extremists and white supremacists, including those 
armed extremists who go to the homes of elected officials and 
government workers. All 50 States prohibit unauthorized, so-called 
``private militias,'' from engaging in activities reserved for the 
State, including law enforcement activities, but those laws are being 
underutilized to address the unlawful conduct by armed extremists.

    Chairman Thompson. I would also like to indicate that there 
is an FBI report on extremist activities in the United States 
that is 7 months overdue. I don't know what we will have to do 
to get the FBI to produce that information on extremist 
activities in the United States, but it would be advantageous 
to the committee and the public at large if that report was 
made available. I assure you, we will push the necessary 
buttons again to ask for that report, as mandated by Congress.
    Additionally, I ask unanimous consent to submit a letter 
from The Leadership Conference and signed by 135 civil rights 
organizations, as well as a letter from the Center for 
Democracy and Technology and signed by 24 additional civil 
rights organizations, for the record.
    [The information follows:]
    Letter From The Leadership Conference on Civil and Human Rights
                                  January 19, 2021.

    Dear Member of Congress: On behalf of The Leadership Conference on 
Civil and Human Rights (The Leadership Conference), a coalition charged 
by its diverse membership of more than 220 national organizations to 
promote and protect civil and human rights in the United States, and 
the undersigned 134 organizations, we write to express our deep concern 
regarding proposed expansion of terrorism-related legal authority. We 
must meet the challenge of addressing white nationalist and far-right 
militia violence without causing further harm to communities already 
disproportionately impacted by the criminal-legal system. The Justice 
Department (DOJ), including the Federal Bureau of Investigation (FBI), 
has over 50 terrorism-related statutes it can use to investigate and 
prosecute criminal conduct, including white supremacist violence, as 
well as dozens of other Federal statutes relating to hate crimes, 
organized crime, and violent crimes. The failure to confront and hold 
accountable white nationalist violence is not a question of not having 
appropriate tools to employ, but a failure to use those on hand. To 
date, DOJ has simply decided as a matter of policy and practice not to 
prioritize white nationalist crimes.\1\ Congress should use its 
oversight and appropriations authorities to ensure that law enforcement 
appropriately focuses investigative and prosecutorial resources on 
white nationalist crimes.
---------------------------------------------------------------------------
    \1\ Michael German and Sara Robinson, Wrong Priorities on Fighting 
Terrorism, The Brennan Center (Oct 31, 2018), https://
www.brennancenter.org/our-work/research-reports/wrong-priorities-
fighting-terrorism.
---------------------------------------------------------------------------
    We urge you to oppose any new domestic terrorism charge, the 
creation of a list of designated domestic terrorist organizations, or 
other expansion of existing terrorism-related authorities. We are 
concerned that a new Federal domestic terrorism statute or list would 
adversely impact civil rights and--as our nation's long and disturbing 
history of targeting Black Activists, Muslims, Arabs, and movements for 
social and racial justice has shown--this new authority could be used 
to expand racial profiling or be wielded to surveil and investigate 
communities of color and political opponents in the name of national 
security.
    As the Acting US Attorney for the District of Columbia stated on 
January 12, 2021 regarding the January 6 insurrection attack on the 
Capitol, Federal prosecutors have many existing laws at their disposal 
to hold violent white supremacists accountable.\2\
---------------------------------------------------------------------------
    \2\ Department of Justice, Acting U.S. Attorney Michael Sherwin for 
The District of Columbia and FBI Washington Field Office ADIC Steven 
D'Antuono Provide Update on Criminal Charges Related to Events at the 
Capitol on January 6 (Jan 12, 2021) https://www.justice.gov/opa/video/
acting-us-attorney-michael-sherwin-district-columbia-and-fbi-
washington-field-office-adic.
---------------------------------------------------------------------------
    The magnitude of last week's attack demands that Congress focus on 
ensuring that our government addresses white nationalist violence as 
effectively as possible. Members of Congress should not reinforce 
counterterrorism policies, programs, and frameworks that are rooted in 
bias, discrimination, and denial or diminution of fundamental rights 
like due process. Rather, as highlighted below, Congress should focus 
on its oversight and appropriations authority to ensure that the 
Federal Government redirect resources toward the ever-growing white 
nationalist violence plaguing our country, and hold law enforcement 
accountable in doing so.
        law enforcement has the tools to hold white nationalist 
                      insurrectionists accountable
    White supremacist violence goes back to our nation's founding, and 
has never been appropriately addressed--and it manifested last week in 
an unprecedented way. On January 6, 2021, thousands of pro-Trump 
supporters, many of them radical, right-wing, white supremacists, 
unlawfully and violently broke into the nation's Capitol. The rioters, 
some with ``Camp Auschwitz'' shirts, others carrying confederate flags, 
and some who hung a noose on the Capitol grounds, were intent on 
blocking the ratification of President-elect Biden's electoral win. 
Some carried weapons and zip ties, reportedly to kidnap or kill Members 
of Congress and the Vice President. Because of the violent mayhem that 
ensued, at least five people lost their lives and countless others were 
wounded. As this historic event on the nation's legislative branch by 
violent white nationalist insurrectionists is being investigated 
thoroughly, we know that our Federal law enforcement officials have 
more than enough tools at their disposal to address the attack on the 
Capitol.
    According to the Federal Government's own research and reports, 
white nationalist violence has been on the rise for years with the FBI 
reporting that more murders motivated by hate were recorded in 2019 
than any year before.\3\ This 2019 data included the El Paso massacre, 
when a white supremacist targeted the Latino community and shot and 
killed 23 people after publishing a manifesto in which he embraced 
white nationalist and anti-immigrant hatred.\4\ The Department of 
Homeland Security (DHS) and the FBI have repeatedly testified before 
Congress, stating that the greatest threat to US national security 
emanates from white supremacist violence.\5\
---------------------------------------------------------------------------
    \3\ FBI National Press Office, FBI Releases 2019 NIBRS Crime Data 
(Dec 9 2020), FBI Releases 2019 NIBRS Crime Data--FBI; see also Tim 
Arango, Hate Crimes in U.S. Rose to Highest Level in More Than a Decade 
in 2019 (Nov. 16, 2020), https://www.nytimes.com/2020/11/16/us/hate-
crime-rate.html.
    \4\ Peter Baker and Michael D. Shear, El Paso Shooting Suspect's 
Manifesto Echoes Trump's Language (Aug. 4, 2019), https://
www.nytimes.com/2019/08/04/us/politics/trump-mass-shootings.html.
    \5\ The Leadership Conference on Civil and Human Rights, Letter 
from Civil Rights Organizations Calling for Investigation and Hearings 
Into DHS Coverup of White Supremacist Intelligence (Sep 24, 2020), 
House_Homeland_on_White_Supremacist_Cover_Up_092420.pdf 
(civilrightsdocs.info).
---------------------------------------------------------------------------
    Yet, despite overwhelming evidence making clear the source of the 
threat,\6\ the Federal response has failed to prioritize an effective 
policy to combat white nationalist violence. Instead, the Federal 
Government has disproportionately targeted and surveilled Black and 
Brown people, including increasingly targeting Arabs and Muslims since 
9/11, treating them as threats to US national and homeland security. 
This has led to the over-policing of these communities, including 
intrusions into community centers, mosques, and almost every aspect of 
their lives.\7\ US counter-terrorism policy has devastated communities 
of color and religious minorities, and by failing to rein in white 
nationalist violence in a serious way, those same communities suffer 
twice over: First by being over-criminalized and securitized and 
second, by having the State not respond to white nationalists who 
target them.
---------------------------------------------------------------------------
    \6\ The Leadership Conference on Civil and Human Rights, Letter 
from Civil Rights Organizations Calling for Investigation and Hearings 
Into DHS Coverup of White Supremacist Intelligence (Sep 24, 2020), 
House_Homeland_on_White_Supremacist_Cover_Up_092420.pdf 
(civilrightsdocs.info).
    \7\ Michael German and Emmanuel Mauleon, Fighting Far-Right 
Violence and Hate Crimes (July 1, 2019), at 7, 
Report_Far_Right_Violence.pdf (brennancenter.org).
---------------------------------------------------------------------------
                        what should congress do?
    Congress should not enact any laws creating a new crime of domestic 
terrorism, including the Confronting the Threats of Domestic Terrorism 
Act (H.R. 4192 in the 116th Congress) or any other new charges or 
sentencing enhancements expected to be introduced in the 117th Congress 
``to penalize acts of domestic terrorism.'' These bills and others with 
similar provisions are the wrong approach because, as we have seen, 
they will continue to be used as vehicles to target Black and Brown 
communities as they have done since their inception.\8\ The Federal 
Government has no shortage of counterterrorism powers, and these powers 
have been and will be again used to unjustly target Black and Brown 
communities, including Muslim, Arab, Middle Eastern, and South Asian 
communities, as well as those engaged in First Amendment-protected 
activities.\9\ The creation of a new Federal domestic terrorism crime 
ignores this reality and would not address the scourge of white 
nationalism in this country.
---------------------------------------------------------------------------
    \8\ Brennan Center, Countering Violent Extremism in the Trump Era 
(Jun. 2018), https://www.brennancenter.org/analysis/countering-violent-
extremism-trump-era.
    \9\ Patrick G. Eddington, MLK and the FBI: 50 years on, secrets and 
surveillance still (Apr. 2019), https://thehill.com/opinion/civil-
rights/436437-mlk-and-the-fbi-50-years-on-secrets-and-surveillance-
still.
---------------------------------------------------------------------------
    Instead, Congress should use its oversight and appropriations 
powers to demand that Federal agencies make public how they have and 
are now using resources to fight white supremacist violence. Moreover, 
Congress should support other efforts to address the white supremacy at 
the core of these violent attacks. At the outset, Congress should 
identify ways to address the white supremacist infiltration of law 
enforcement that was documented by the FBI. This, a clear and present 
danger, which was highlighted at an Oversight Committee hearing last 
year, puts lives at risk and undermines the criminal legal system.\10\ 
Hate crimes data should be mandated and made publicly available so 
Federal leaders, as well as those at the State and local level, can 
address the threat in a manner best suited to their community. Finally, 
the Leadership Conference encourages Congress to regularly, hold 
hearings featuring communities that are experiencing white nationalist 
violence in an effort to encourage accountability and transparency. 
This would allow Congress to provide communities impacted by white 
supremacist violence support to develop and lead their own programs to 
meet the needs that they identify.
---------------------------------------------------------------------------
    \10\ Press Release Rep. Jamie Raskin, Experts Warn Oversight 
Subcommittee that White Supremacist Infiltration of Law Enforcement 
Poses a Threat to Cops, Communities (Sep. 29, 2020) https://
raskin.house.gov/media/press-releases/experts-warn-oversight-
subcommittee-white-supremacist-infiltration-law.
---------------------------------------------------------------------------
    Please contact Becky Monroe at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d1012130f12183d1e140b14110f141a15090e53120f1a">[email&#160;protected]</a> and Iman 
Boukadoum at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="42202d372923262d372f02212b342b2e302b252a36316c2d3025">[email&#160;protected]</a> to further discuss this matter 
or if there are questions or concerns.
            Sincerely,
The Leadership Conference on Civil and Human Rights
Access Now
Act To Change
Advancement Project, National
Alabama State Association of Cooperatives
American Civil Liberties Union
American Friends Service Committee
American-Arab Anti-Discrimination Committee (ADC)
Americans for Democratic Action (ADA)
Amnesty International USA
Andrew Goodman Foundation
ANYAHS Inc.
Appleseed Foundation
Arab American Institute
Asian American Legal Defense and Education Fund (AALDEF)
Asian Americans Advancing Justice/AAJC
Augustus F. Hawkins Foundation
Autistic Self Advocacy Network
Bend the Arc Jewish Action
Black Alliance for Just Immigration (BAJI)
Brennan Center for Justice
Bridges Faith Initiative
Brooklyn Defender Services
Center for Constitutional Rights
Center for Democracy & Technology
Center for Disability Rights
Center for International Policy
Center for Law and Social Policy (CLASP)
Center for Popular Democracy/Action
Center for Security, Race and Rights
Center for Victims of Torture
Center on Conscience & War
Charity & Security Network
CLEAR project (Creating Law Enforcement Accountability & 
Responsibility)
CODEPINK
Color Of Change
Common Cause
Common Defense
Council on American-Islamic Relations (CAIR)
Council on American-Islamic Relations (CAIR), Washington Chapter
Defending Rights & Dissent
Demand Progress Demos
Detention Watch Network (DWN)
Drug Policy Alliance
Durham Youth Climate Justice Initiative
Emgage Action
End Citizens United/Let America Vote Action Fund
Equal Justice Society
Equality California
Federal Public and Community Defenders
Fight for the Future
Free Press Action
Freedom Network USA
Friends Committee on National Legislation
Government Information Watch
Greenpeace US
Human Rights Campaign
Human Rights First
Human Rights Watch
Immigrant Defense Network
Immigrant Justice Network
Immigrant Defense Project (IDP)
In Our Own Voice: National Black Women's Reproductive Justice Agenda
Interfaith Alliance
Japanese American Citizens League
Justice for Muslims Collective
Kansas Black Farmers Association/Nicodemus Educational Camps
KinderUSA
Labor Council for Latin American Advancement
Lawyers' Committee for Civil Rights Under Law
Legal Aid Society of Metropolitan Family Services
Louisiana Advocates for Immigrants in Detention
Matthew Shepard Foundation
Montgomery County (MD) Civil Rights Coalition
MPower Change
Muslim Advocates
Muslim Justice League
Muslim Public Affairs Council (MPAC)
NAACP
NAACP LEGAL DEFENSE AND EDUCATIONAL FUND, INC. (LDF)
National Alliance for Partnerships in Equity (NAPE)
National Association of Social Workers (NASW)
National Council of Jewish Women
National Education Association
National Employment Law Project (NELP)
National Equality Action Team (NEAT)
National Immigration Law Center (NILC)
National Immigration Project of the National Lawyers Guild (NIPNLG)
National LGBTQ Task Force Action Fund
National Network for Immigrant & Refugee Rights
National Organization for Women (NOW)
National Partnership for Women & Families
National Women's Law Center
NETWORK Lobby
New America's Open Technology Institute
North Carolina Association of Black Lawyers Land Loss Prevention 
Project
Open MIC (Open Media & Information Companies Initiative)
Open The Government
Oxfam America
Palestine Legal
Partnership for Civil Justice Fund
People's Parity Project
Presbyterian Church (USA)
Progressive Turnout Project
Project Blueprint
Project On Government Oversight
Public Advocacy for Kids (PAK)
Public Citizen
Public Justice
Quixote Center
Radiant International
Restore The Fourth
Rethinking Foreign Policy
Rural Coalition
S.T.O.P.--The Surveillance Technology Oversight Project
Sisters of Mercy of the Americas Justice Team
South Asian Americans Leading Together (SAALT)
Southeast Asia Resource Action Center (SEARAC)
SPLC Action Fund
TASH: equity, opportunity and inclusion for people with disabilities
Texas Progressive Action Network
The Human Trafficking Legal Center
The Sentencing Project
The Sikh Coalition
Transformations CDC
True North Research
Tuskegee University
UnidosUS
Union for Reform Judaism
United Church of Christ, OC Inc.
US Human Rights Network
Veterans for American Ideals
Voices for Progress
Win Without War
Wind of the Spirit Immigrant Resource Center
Workplace Fairness
      
                                 ______
                                 
       Letter From Greg Nojeim, Center for Democracy & Technology
                                  January 22, 2021.
Chairman Richard Durbin,
Ranking Member Chuck Grassley,
Senate Judiciary Committee.
Chairman Jerrold Nadler,
Ranking Member Jim Jordan,
House Judiciary Committee.
Re: Law Enforcement Authorities in the Wake of the January 6 Capitol 
Assault.

    Dear Chairmen Durbin and Nadler and Ranking Members Grassley and 
Jordan: We are writing to urge that as you consider appropriate 
responses to the January 6 assault on the Capitol, and that you refrain 
from advancing legislation that would expand law enforcement 
surveillance authorities or create a new crime of ``domestic 
terrorism.'' As the perpetrators of the attack on the Capitol are 
brought to justice, the security failures that permitted that attack 
should not become the basis for expanded police surveillance authority 
or for expansion of prosecutorial authority.
    On January 6, an angry mob, inspired by President Trump and 
encouraged by others, ascended Capitol Hill during the ceremonial 
counting of the votes of the electoral college. They overran the thinly 
staffed Capitol police who were on patrol, broke into the building, 
ransacked members' offices, and called for the hanging of Vice 
President Pence. They organized their attack in plain sight, on social 
media platforms accessible to each other and to the public. In the days 
prior to the attack, news outlets had reported on the violent plans 
unfolding online, and the Virginia Field Office of the FBI warned of an 
impending ``war.'' Despite this information, the police presence was 
minimal and proved insufficient to stop or repel the attack.
    Crime of Domestic Terrorism.--Some are arguing that Congress should 
create a new crime of ``domestic terrorism'' because the violence at 
the Capitol was directed at civilians and was politically motivated. We 
urge you to resist those calls as creating such a crime would threaten 
civil liberties and civil rights, and because the FBI already has 
sufficient legal authority to charge the insurrectionists who stormed 
the Capitol. A new crime of ``domestic terrorism'' would give license 
to authorities to investigate based on political motivation, and we 
have no doubt that it would be turned against marginalized communities 
and those who protest government abuse, stifling free expression and 
leading to punitive policing of communities who had no role in the 
January 6 attack. As the Leadership Conference on Civil and Human 
Rights Stated in a Sept. 6, 2019 letter to Congress, when similar 
legislation was contemplated as a response to gun and hate violence:

``The Federal Government has no shortage of counterterrorism powers, 
and these powers have been used to unjustly target American Muslim, 
Arab American, South Asian American, African American communities and 
those who fight for racial and social justice. The creation of a new 
Federal domestic terrorism crime ignores this reality and does nothing 
to address the problem of gun violence and hate violence incidents in 
this country.''

    Instead of creating a new crime of domestic terrorism, Congress 
should work to ensure that law enforcement response to a protest turns 
on evidence of criminality and violence, as opposed to the political 
motivation of the protesters. Any documented disparities in police 
response based on race, religion, political motivation or other 
protected characteristics must be addressed.
    Moreover, a new crime of domestic terrorism is unnecessary. The 
government already has ample authority under existing law to prosecute 
those who stormed the Capitol. The FBI has charged more than 140 people 
with crimes, is investigating more than 330 people, and has indicated 
that it may level sedition charges that carry a 20-year prison 
sentence. There is no reported instance in which the FBI has identified 
someone who participated in the attack but has been unable to bring 
charges for lack of statutory authority.
    Surveillance Authorities.--After major national tragedies, Congress 
has frequently considered legislation that would add to the 
surveillance authorities and capabilities that law enforcement 
officials already have. However, new surveillance authority is not 
needed to prevent an assault like the one that occurred on January 6. 
The attack on the Capitol was planned and executed in plain sight, and 
was splashed all over social media as the insurrectionists published 
pictures and video clips of themselves and each other breaking into the 
Capitol, invading members' offices, and parading through corridors with 
the Confederate battle flag. Within a few days of the event, the FBI 
said it had received over 130,000 videos and photos associated with the 
attack. The Bureau has commenced one of the largest investigations in 
U.S. history, and it is being inundated with information, not starved 
of it.
    The information in the public domain and on publicly available 
social media was more than sufficient to alert law enforcement 
officials to the danger at hand. Given the ready availability of this 
information, rather than granting additional surveillance powers, 
Congress should be asking authorities why they were so unprepared for 
such a predictable tragedy. Congress should further inquire into what 
other law enforcement and intelligence agency priorities distracted 
officials from preparing the Capitol for a literal insurrection. 
Finally, it should be asking what investigative techniques are being 
deployed, whether unreliable and invasive technologies such as facial 
recognition are being used to investigate these crimes (and generate 
unreliable leads), and whether unconstitutional techniques, such as 
geo-fence warrants, are being used as well. As with domestic terrorism 
efforts, expanding surveillance capabilities will inevitably harm 
marginalized communities while adding little marginal value to law 
enforcement efforts.
    In short, we urge you to ensure that the January 6 assault on the 
Capitol is not used as an excuse to expand surveillance authority or to 
create a dangerous new crime of domestic terrorism.
    Please direct your response to this letter to Greg Nojeim at the 
Center for Democracy & Technology, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="72151c1d18171b1f321116065c1d00155c">[email&#160;protected]</a>
            Sincerely,
Access Now
Brennan Center for Justice
Center for Democracy & Technology
Defending Rights & Dissent
Demand Progress
Downsize DC
Due Process Institute
Fight for the Future
FracTracker Alliance
Free Press Action
Government Information Watch
Human Rights First
Institute for Policy Studies New Internationalism Project
National Association of Criminal Defense Lawyers
National Coalition Against Censorship
New America's Open Technology Institute
Open the Government
Open MIC (Open Media & Information Companies Initiative)
Palestine Legal
Partnership for Civil Justice Fund
Project Blueprint
Project on Government Oversight
Restore the Fourth
ReThinking Foreign Policy
Security Policy Reform Institute

    Chairman Thompson. Without objection, the committee record 
shall be kept open for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 1:44 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Question From Chairman Bennie G. Thompson for Christopher Rodriguez
    Question. I understand that Washington, DC's fusion center receives 
information from DHS and other law enforcement and public safety 
partners and share it with local partners in the District of Columbia. 
As a consumer of DHS intelligence at the local fusion center, do you 
feel the Department produces products that meet the needs of your 
office? What could the Department do differently to help with threat 
awareness and preparedness efforts?
    Answer. The support the District's Fusion Center receives from the 
U.S. Department of Homeland Security (DHS) is fantastic. DHS is 
proactive in sharing information it believes to be valuable to the 
District and is consistently clear and concise in its requests for 
information.
    We believe DHS's Office of Intelligence and Analysis can improve by 
providing more products that are timely, relevant, and actionable for 
District senior leadership. DHS could also better support the Nation's 
fusion centers by producing additional derivative or tear-line products 
from Classified material that fusion center analysts could leverage to 
inform understanding of the local threat environment.
   Questions From Ranking Member John Katko for Christopher Rodriguez
    Question 1. In your testimony you stated that ``we know that our 
foreign adversaries--Russia, in particular--are employing a decades-old 
tool of covert action to fan the flames of cultural conflict here in 
the United States''. Could you elaborate on the impact of these false 
narratives being perpetuated by foreign adversaries? What effects are 
you seeing from the local government level?
    Answer. It has been well-reported in the media, and confirmed by 
the U.S. intelligence community, that foreign adversaries take a vested 
interest in sowing mis- and disinformation oriented around U.S. issues 
to undermine the efficacy of U.S. Government officials--both policy 
makers and law enforcement. Russia, not unlike other foreign 
governments, identify and work to enflame social tensions in the United 
States by antagonizing radicalized groups on social media and other on-
line forums. The results of these on-line campaigns have the potential 
to influence U.S.-based organizations and individuals who champion 
radical causes and demonstrate those beliefs violently.
    Question 2. During the hearing you stated that the D.C. government 
had been in contact with the National Guard, Capitol Police, and 
Federal agencies (including DHS and DOJ). Could you provide a time line 
of when discussions with these Federal partners occurred and what they 
consisted of?
    Answer. See attached time line.
    Question 3. At what point on January 6 did the D.C. government 
contact other States to ask for assistance? Was this assistance 
immediately provided? Did any Federal Government entity assist with 
this request?
    Answer. The District's Emergency Operations Center (EOC) and Joint 
Information Center (JIC) were activated on January 4 to provide common 
operating picture, resource support, operational coordination, 
situational awareness, and public information. The EOC, upon receiving 
the request for additional law enforcement support from United States 
Capitol Police, initiated a request to Maryland, New Jersey, and 
Virginia for State police response through the Emergency Management 
Assistance Compact (EMAC). There were no Federal entities involved in 
this process. Through the EOC, I began coordinating directly with 
executive command at United States Capitol Police Command Center to 
coordinate the DC National Guard response. Additionally, at 2:55 p.m. 
and 8 p.m., EOC staff participated in calls hosted by FEMA Region III 
with the State emergency management directors of Maryland, Virginia, 
West Virginia, Delaware, and Pennsylvania. These calls were to provide 
updates on the situation at the Capitol, confirm the receipt of the 
EMAC requests, and evaluate options for additional support.
    Question 4. Do you believe that there's anything which can be done 
to assist with more seamless communication and coordination between 
Federal, State, and local partners going forward? Legislatively or non-
legislatively.
    Answer.
  <bullet> Increased investment in National Capital Region's (NCR) 
        Urban Areas Security Initiative (UASI) program.--FEMA's UASI 
        program provides financial assistance to address the unique 
        multi-discipline planning, organization, equipment, training, 
        and exercise needs of high-threat, high-density Urban Areas, 
        and to assist these areas in building and sustaining 
        capabilities to prevent, protect against, mitigate, respond to, 
        and recover from threats or acts of terrorism using the Whole 
        Community approach. The NCR, comprised of the District of 
        Columbia, along with 23 jurisdictions in northern Virginia and 
        southern Maryland, received an UASI allocation for fiscal year 
        2021 of $51.75 million. Future NCR funding levels should 
        reflect the increased attention and actions by domestic 
        terrorists to disrupt political acts held in Washington, DC, as 
        the home of the Nation's capital. The fiscal year 2021 UASI 
        allocation for the Chicago and Los Angeles/Long Beach areas is 
        $68 million each.
  <bullet> Leverage our National intelligence network better.--Funded 
        by DHS, these intelligence hubs need to do better at sharing 
        information across the network because the domestic terrorist 
        threat is fundamentally one that originates locally and then 
        spreads across State borders. The nearly 80 fusion centers 
        across the Nation have more than 2,000 intelligence analysts 
        funded by Federal dollars, but their intelligence should be 
        more widely disseminated to those who need it.
  <bullet> Increased Federal presence in District's 24/7 operation 
        center.--The District of Columbia's Joint All-Hazards 
        Operations Center (JAHOC) is the 24/7, 365 hub of coordination 
        for city-wide response operations. The JAHOC looks across all 
        jurisdictions within the District as well as the region to 
        coordinate alerting, warning, notification, and operational 
        support. Currently, FEMA's Office of National Capitol Region 
        Coordination is the only Federal agency that positions staff in 
        the JAHOC, but several other agencies will assign staff to the 
        JAHOC for special events on or near their jurisdiction, 
        including the Pentagon Force Protection Agency, Department of 
        Homeland Security, and others. This is valuable but not 
        consistent. HSEMA is expanding the space within the JAHOC 
        beginning in 2022 and welcomes additional Federal liaisons to 
        operate from the JAHOC to enhance information sharing and a 
        common understanding of what is happening in the District.
  <bullet> Engage communities and workforces better.--People in our 
        communities might know nefarious activities are taking place, 
        either in plain sight, in dark corners of the internet, or in 
        casual conversation. We need to prioritize insider-threat 
        programs in the U.S. military and law enforcement to ensure 
        these specific skill sets, which are developed to defend a 
        nation, a State, or a community, are not then turned on the 
        very people they are sworn to protect.
                               Attachment
            February 23, 2021
    This memorandum is intended to memorialize the time line of 
preparations for, and the response to, the large-scale demonstrations 
in Washington, DC on January 5-6, 2021. This information was collected 
from various District agencies.
Monday, December 14, 2020
  <bullet> 12 P.M.--MPD holds Law Enforcement Briefing with Metro 
        Transit Police, USSS, FBI, USPP, HSEMA/NTIC, U.S. Postal 
        Inspectors.
Sunday, December 19, 2020
  <bullet> President Trump tweets about election results and 
        mentions.--``Big protest in D.C. on January 6th. Be there, will 
        be wild!''
Monday, December 28, 2020
  <bullet> 12 P.M.--MPD holds bi-monthly Law Enforcement Partners 
        Briefing with USSS, FBI, USPP, HSEMA/NTIC, and U.S. Postal 
        Inspectors.
Tuesday, December 29, 2020
  <bullet> 10 A.M.--MPD holds a First Amendment Coordination Call with 
        Partners (FBI, USCP, Supreme Court Police, United States Park 
        Police, Metro Transit Police, HSEMA, USSS, DCFEMS).
Thursday, December 31, 2020
  <bullet> Mayor Bowser convenes public safety and senior staff for a 
        briefing on pending applications before the National Park 
        Service for ``Public Gathering Permits.''
  <bullet> Mayor Bowser sends letter to DC National Guard (DCNG) Major 
        General requesting DCNG support for Metropolitan Police 
        Department (MPD) and DC Fire and Emergency Medical Services 
        (FEMS) for downtown DC. The letter cites concern about the 
        potential for violence, given previous large-scale 
        demonstrations in the District of Columbia after the 
        Presidential Election.
  <bullet> MPD issues press release on street closures and parking 
        restrictions (traffic box) for January 5-7, 2021, in downtown 
        DC during potential First Amendment activities. The press 
        release highlights that no one shall bring illegal weapons into 
        the District because it violates District law. MPD hangs signs 
        across the District asserting that no one illegal firearms are 
        allowed in the city. Media is invited to watch MPD hang the 
        signs.
  <bullet> 8:30 A.M.--HSEMA convenes the Chief Operations Officers/
        Senior Emergency Managers Group from all District agencies to 
        plan and prepare for the demonstrations.
  <bullet> 9 A.M.--MPD participates in the National Park Service call 
        on Freedom Plaza demonstration.
  <bullet> 11 A.M.--MPD participates in the National Park Service call 
        on Ellipse demonstration.
  <bullet> 12 P.M.--DC fusion center sets up a call with U.S. Capitol 
        Police (USCP) and provides a threat brief indicating the 
        potential for violence in the city during January 5-6.
Friday, January 1, 2021
  <bullet> NPS grants a ``Public Gathering Permit'' on the Ellipse to 
        Women For America First on Wednesday, January 6, 2021, with 
        5,000 as an anticipated number of participants. Permit allows 
        move-in beginning on January 2, 2021, and for the event date, 
        gates opening at 7 o'clock a.m. and the program occurring 
        between 9 o'clock a.m. to 3:30 p.m. Since June 2020, the NPS 
        has granted ``Public Gathering Permits'' despite D.C. 
        restrictions on gatherings due to the COVID-19 pandemic.
Saturday, January 2, 2021
  <bullet> 8:10 P.M.--Chief Contee speaks with USCP Chief Sund.
Sunday, January 3, 2021
  <bullet> Mayor Bowser issues press release urging ``Washingtonians 
        and those who live in the region to stay out of the downtown 
        area on Tuesday and Wednesday and not to engage with 
        demonstrators who come to our city seeking confrontation.''
  <bullet> 12 P.M.--MPD holds internal CDU Briefing in preparation for 
        First Amendment Demonstrations.
Monday, January 4, 2021
  <bullet> Mayor Bowser provides situational update to the public and 
        members of the media and reiterates request for residents to 
        avoid the area.
  <bullet> HSEMA stands up the District's Emergency Operations Center 
        (EOC).
  <bullet> 8 A.M.--MPD participates in the National Park Service call 
        on Rally to Revival demonstration.
  <bullet> 9 A.M.--MPD participates in the National Park Service call 
        on Freedom Plaza demonstration.
  <bullet> 9 A.M.--Director Rodriguez and Chief Contee brief the 
        Council of the District of Columbia in closed session on D.C. 
        government preparations for the January 5-6 protests.
  <bullet> 10:40 A.M.--Chief Contee receives verbal confirmation from 
        SecArmy via a conference call that DCNG members will be 
        provided for traffic posts and crowd management. Also on the 
        call: DC National Guard Commanding General and the Chief of 
        Staff of the Army. SecArmy stated that the DCNG members may 
        only be re-tasked or moved with his permission and under his 
        authority. He also stated that NG members could not be posted 
        east of 9th Street.
  <bullet> 11 A.M.--MPD participates in the National Park Service call 
        on Ellipse demonstration.
  <bullet> 11:30 A.M.--D.C. fusion center meets with MPD to discuss 
        threat assessment and operational posture for the 5th and 6th.
  <bullet> 12:30 P.M.--D.C. fusion center provides threat briefing to 
        the U.S. Department of Health and Human Services, which 
        requested information on the protests on the 5th and 6th.
  <bullet> 1 P.M.--D.C. fusion center conducts meeting with regional 
        and State fusion centers in Virginia and Maryland to discuss 
        the District's readiness and outreach to the National Network 
        of Fusion Centers.
  <bullet> 1:30 P.M.--D.C. fusion center convenes the National Network 
        of Fusion Centers for an emergency call to discuss the 
        potential for violence in Washington, DC on the 5th and 6th. 
        D.C. fusion center requests enhanced intelligence sharing and 
        possibly mutual aid.
  <bullet> 2:30 P.M.--D.C. fusion center conducts coordinating call 
        with the U.S. Department of Homeland Security's Intelligence 
        and Analysis liaison.
  <bullet> 3 P.M.--MPD holds a First Amendment Coordination Call with 
        Partners (FBI, USCP, Supreme Court Police, United States Park 
        Police, Metro Transit Police, HSEMA, USSS, DCFEMS).
  <bullet> 3 P.M.--D.C. City Administrator Donahue briefs regional 
        counterparts on mutual assistance need and potential Emergency 
        Management Assistance Compact (EMAC) requests from the District 
        of Columbia. This puts State and local law enforcement in the 
        region on alert to support MPD.
  <bullet> 3:30 P.M.--Chief Contee participates in a coordination call 
        led by the United States Attorney for the District of Columbia; 
        included heads of the Washington Field Offices of the FBI and 
        ATF.
  <bullet> 3:30 P.M.--D.C. fusion center provides threat briefing, on 
        behalf of D.C. Health, to the D.C. Healthcare Coalition and 
        discusses potential impacts from violence to the District's 
        health care system.
  <bullet> 4 P.M.--D.C. fusion center conducts a coordination call with 
        USCP.
  <bullet> 5 P.M.--HSEMA convenes the Consequence Management Team 
        (CMT)--a group of all District department Directors--to discuss 
        and move toward finalizing planning and preparation for the 
        demonstrations.
  <bullet> National Park Service grants a ``Public Gathering Permit'' 
        on Freedom Plaza to Rally for Revival on Tuesday, January 5, 
        2021, with 5,000 as an anticipated number of participants. 
        Permit is for 5 o'clock A.M. to 11:59 P.M. with program 
        occurring between 1 o'clock P.M. and 8:30 P.M.
  <bullet> Evening of January 4, through media inquiries, Mayor's Chief 
        of Staff Falcicchio learns that Federal law enforcement from 
        CBP and Bureau of Prisons have been activated for the 
        demonstrations without notification to District Government. It 
        is not clear what mission they will serve or where they will be 
        deployed.
  <bullet> National Park Service increases permit from 5,000 
        participants to 30,000 participants for January 6 Women For 
        America First event on the Ellipse.
Tuesday, January 5, 2021
  <bullet> Mayor Bowser is cc'd on a letter from Senator Murphy (D-CT) 
        to Acting AG Rosen, SecArmy McCarthy, A/SecDef Miller that 
        ``calls on officials to adhere to new law requiring all Armed 
        Forces and Federal law enforcement officers to visibly 
        identify''. This is based on a new law authored by Murphy and 
        Senate Minority Leader Schumer and passed as the National 
        Defense Authorization Act.
  <bullet> Mayor Bowser sends letter to AG, A/SecDef, and ArmySec 
        asserting that Federal law enforcement deployments on city-
        owned streets--without notification or coordination--can cause 
        confusion and threaten National security, and per new Federal 
        law, must be identifiable when responding to civil disturbance.
  <bullet> 12 P.M.--Chief Contee participates in a law enforcement 
        partners' inauguration briefing hosted by U.S. Capitol Police 
        Chief Steven Sund. The demonstrations were discussed as well.
  <bullet> 4:30 P.M.--D.C. fusion center initiates intelligence 
        coordination calls with law enforcement partners.
Wednesday, January 6, 2021
  <bullet> 9 A.M.--D.C. fusion center leads intelligence coordinating 
        call with fusion centers in Maryland and Virginia; MPD; U.S. 
        Park Police; USCP; and the U.S. Department of Homeland 
        Security.
  <bullet> 12:58 P.M.--USCP requests MPD assistance at the U.S. 
        Capitol. MPD immediately authorizes deployment of 2 platoons to 
        the west front of the U.S. Capitol and puts third platoon on 
        standby at Third Street S.W. and Maryland Avenue S.W.
  <bullet> 1:01 P.M.--USCP requests FEMS assistance at the U.S. 
        Capitol.
  <bullet> 1:03 P.M.--MPD advises USCP they have arrived on the scene.
  <bullet> 1:16 P.M.--Contee calls Mayor Bowser to provide situational 
        update.
  <bullet> 1:18 P.M.--FEMS arrives at U.S. Capitol.
  <bullet> 1:29 P.M.--Contee calls Donahue to provide situational 
        update from U.S. Capitol.
  <bullet> 1:30 P.M.--FEMS Engine 18 establishes Incident Command at 
        U.S. Capitol.
  <bullet> 1:35 P.M.--Mayor Bowser joins call with Contee and Donahue 
        and approves city-wide curfew.
  <bullet> 1:49 P.M.--MPD declares a riot at the U.S. Capitol. 
        Following this declaration, Mayor Bowser speaks with SecArmy.
  <bullet> 1:56 P.M.--Media reports large crowds aggressively probing 
        barricade lines on east side of U.S. Capitol.
  <bullet> 1:59 P.M.--FEMS representative arrives at U.S. Capitol 
        Police Headquarters.
  <bullet> 2:03 P.M.--Media reports barricade has been breached.
  <bullet> 2:10 P.M.--Director Rodriguez calls USCP Chief Sund asking 
        what support is needed immediately; Sund replies he needs 
        anything that can be provided. With MPD and FEMS already at the 
        Capitol under the Mayor's authority, Rodriguez offers to set up 
        a call with DCNG and MPD to outline USCP's specific needs for 
        DCNG support. This can only be approved by SecArmy and A/
        SecDef, and DCNG includes staff of SecArmy on the call.
  <bullet> 2:22 P.M.--Rodriguez convenes a call for USCP with MPD, 
        FEMS, DCNG, and staff of SecArmy to ensure coordination; other 
        D.C. government officials listen in, including Mayor Bowser. On 
        the call, USCP requests immediate DCNG support from General 
        Walker and staff of SecArmy. Contee directly asks Sund if he is 
        requesting DCNG at the U.S. Capitol. Sund says yes. In 
        response, staff of SecArmy says they are not comfortable 
        sending DCNG to the Capitol to confront peaceful protestors 
        without a comprehensive plan. MPD has already been on scene at 
        the U.S. Capitol for over an hour.
  <bullet> 2:25 P.M.--On behalf of USCP, the District EOC issues EMAC 
        requests to Virginia and Maryland for 200 State Troopers from 
        each State (400 total).
  <bullet> 2:28 P.M.--Curfew announced effective 6 P.M. to 6 A.M. city-
        wide.
  <bullet> 2:31 P.M.--Mayor's Office contacts the White House Executive 
        Office of the President and staff-level conversations commence.
  <bullet> 2:39 P.M.--Falcicchio calls counterparts in Maryland and 
        Virginia to confirm formal requests have been made, and both 
        confirm Governors are approving resources to the District of 
        Columbia.
  <bullet> 2:40 P.M.--Mayor Bowser declares a State of Emergency.
  <bullet> 2:53 P.M.--EOC convenes a call with Virginia, Maryland, 
        Pennsylvania, Delaware, and West Virginia emergency management 
        officials, as well as FEMA Region III, to discuss resource 
        needs for USCP.
  <bullet> 2:54 P.M.--HSEMA issues city-wide Wireless Emergency Alert 
        declaring a city-wide curfew will be in effect from 6 P.M. to 7 
        A.M. the next day.
  <bullet> 2:54 P.M.--Dozens of House Members and staff are escorted 
        from the floor.
  <bullet> 2:56 P.M.--Mayor Bowser speaks with Mark Meadows, Chief of 
        Staff to President Trump.
  <bullet> 2:59 P.M.--HSEMA confirms Virginia State Police is in 
        contact with USCP.
  <bullet> 3:05 P.M.--New Jersey counterpart contacts Falcicchio 
        offering resources.
  <bullet> 3:10 P.M.--EOC releases additional EMAC request to New 
        Jersey for 75 State Troopers.
  <bullet> 3:26 P.M.--Mayor Bowser speaks with Secretary of the Army, 
        who confirms USCP request for DCNG support has been approved.
  <bullet> 3:30 P.M.--Mayor Bowser calls Speaker Pelosi and House 
        leaders.
  <bullet> 3:30 P.M.--HSEMA convenes the Chief Operations Officers/
        Senior Emergency Managers from all District agencies to discuss 
        consequence management.
  <bullet> 3:35 P.M.--Mayor Bowser and Chief Contee brief the Council.
  <bullet> 4:30 P.M.--HSEMA convenes the CMT.
  <bullet> 4:31 P.M.--Meadows calls to confirm National Guard approval.
  <bullet> 4:45 P.M.--Mayor Bowser holds news conference with Contee, 
        McCarthy, Rodriguez, and Donnelly.
  <bullet> 6 P.M.--USCP begin fully searching each room inside of the 
        Capitol and sweeping with K-9s.
  <bullet> 6:29 P.M.--MPD was notified that the U.S. Capitol has been 
        secured with no rioters visible inside.
  <bullet> 7:15 P.M.--MPD begins arresting individuals breaking the 
        Mayor's curfew order.
  <bullet> 10:49 P.M.--Mayor Bowser holds news conference with Contee, 
        Rodriguez, and Donnelly.
Thursday, January 7, 2021
  <bullet> Mayor Bowser provides situational update with Contee, 
        McCarthy, Mitchell, Rodriguez, and Donnelly.
Friday, January 8, 2021
  <bullet> On behalf of Mayor Bowser, Director Rodriguez requests an 
        extension of DCNG support for MPD and FEMS through January 25, 
        2021.
    Questions From Chairman Bennie G. Thompson for Elizabeth Neumann
    Question 1. On January 27 DHS put out a Terrorism Advisory bulletin 
to warn the public about the on-going domestic terrorism threat that 
manifested itself as an attack on our democracy on January 6. The 
bulletin states that ``some ideologically-motivated violent extremists 
with objections to the exercise of governmental authority and the 
Presidential transition, as well as other perceived grievances fueled 
by false narratives, could continue to mobilize to incite or commit 
violence.'' Were there any warnings the bulletin left unsaid that you 
would pass on the American public? What changes, if any, do you 
recommend to the National Terrorism Advisory System?
    Answer. Response was not received at the time of publication.
    Question 2. In April 2020 the State Department designated the 
Russian Imperial Movement (RIM) as a Specially-Designated Global 
terrorist, putting them in the same league as al-Qaeda, Hizballah, and 
others. This is the first time a White Supremacist group such as RIM 
has been given this label. Given the transnational nature of the 
threat, do other groups need this label? From your time at DHS, can you 
describe what input DHS had with the State Department toward a 
designation like this?
    Answer. Response was not received at the time of publication.
   Question From Honorable Donald M. Payne, Jr. for Elizabeth Neumann
    Question. In your testimony on February 4, you stated: ``the longer 
that this lie is allowed to stay out there, so it's really important 
for credible voices within the community to come out very clearly and 
explain the election was not stolen, that there was not enough fraud to 
overturn the results of the election, and it helped us retreat that 
pool of vulnerable individuals.'' (sic)
    Later you said: ``We need more credible voices to be speaking out 
calling for calm, telling the truth, that reduces our vulnerability.''
    Can you please share with the committee:
  <bullet> Who are these ``credible voices''?
  <bullet> What messages are they currently saying?
  <bullet> What language could they use that would help to reduce our 
        vulnerability to further attacks?
  <bullet> Can you share some examples of political leaders or other 
        ``credible voices'' disavowing rumors, lies, and extremism to 
        help reduce tensions and further a peace process?
    Answer. Response was not received at the time of publication.
     Questions From Honorable James Langevin for Elizabeth Neumann
    Question 1a. What measurement tools and metrics about the 
information environment would you have found useful in your role at 
DHS, had they been available?
    What offices or resources are available in the Department today to 
develop and operationalize these metrics?
    Question 1b. What outside resources could be utilized or used in 
partnership with DHS to monitor the information environment?
    Question 1c. What guidelines on boundaries and constraints would be 
necessary before implementing monitoring tools, such that freedom of 
thought and expression would be threatened neither in fact nor in the 
public's perception?
    Answer. Response was not received at the time of publication.
    Question 2a. You stated that the Department of Homeland Security 
would be an appropriate agency to take the lead on counter-messaging 
and information resilience, in strong partnership with other agencies. 
Which office or agency within DHS should take the lead, or do you 
recommend creating a new office?
    Which other State, local, or Federal agencies should be in 
partnership?
    Answer. Response was not received at the time of publication.
    Question 2b. What kinds of counter-messaging programs would be 
appropriate? Would you support:
    i. Public service announcements and information awareness education 
        on broadcast media?
    ii. Public service announcements and information awareness 
        education on internet media (YouTube, Facebook, Twitter)?
    iii. Peer-to-peer outreach such as the college program you 
        mentioned (more information about this would be welcome)?
    iv. Faith-based programs?
    v. Mental health programs?
    vi. School education programs?
    Answer. Response was not received at the time of publication.
    Question 3a. You recommended that Congress codify DHS's Office of 
Targeted Violence and Terrorism Prevention.
    What would be an appropriate size, structure, and budget for the 
office?
    Question 3b. What proportion of the office's attention should be 
directed to threats of foreign origin such as ISIS, versus home-grown 
extremism?
    Question 3c. What additional programs would you recommend for this 
office above and beyond its current activities?
    Answer. Response was not received at the time of publication.
     Questions From Ranking Member John Katko for Elizabeth Neumann
    Question 1. You were invited as a witness at the hearing titled 
``Examining the Domestic Terrorism Threat in the Wake of the Attack on 
the U.S. Capitol''. It is our understanding that your area of expertise 
at the Department of Homeland Security (DHS) focused on threat 
prevention and more specifically traveler vetting and terrorism 
prevention.
    What function do the offices of Intelligence and Analysis (I&A) and 
the Office of Operations (OPS) play in real-time response and 
coordination regarding civil unrest and domestic attacks? Is it correct 
that you did not work in either of these offices during your time at 
DHS?
    What role would you have played in the DHS response had you been in 
your previous position of Assistant Secretary for Counterterrorism and 
Threat Prevention on January 6?
    Answer. Response was not received at the time of publication.
    Question 2. During your time at DHS you were responsible for 
pushing initiatives regarding terrorism prevention and domestic 
terrorism at DHS.
    The DHS Strategic Framework for Countering Terrorism and Targeted 
Violence--how long did that strategy take to produce? What level of 
outside contract help was involved in the final production of the 
framework?
    The Implementation Plan for that strategy was due in January 2020. 
Yet, when you left in April 2020, that plan was not completed. What led 
to the delay in completion? Recently, DHS issued an NTAS Bulletin 
regarding domestic threats. Do you agree with that Bulletin? If so, how 
many times did you personally advocate for such a Bulletin during your 
time at the Department?
    How many times did you speak with the Secretary regarding your 
concerns that DHS was not doing enough in the domestic terrorism space?
    What domestic terrorism initiatives did you push forward to DHS 
leadership that they declined to act on?
    Answer. Response was not received at the time of publication.
    Question 3. During the hearing on February 4 you advocated for the 
codification of a Domestic Terrorism criminal statute because it would 
pose a ``deterrent effect''. Do you believe that actors like Timothy 
McVeigh or the perpetrator responsible for planting pipe bombs at the 
Democratic and Republican National Committee Headquarters' on January 6 
did so because they did not believe they would suffer serious criminal 
consequences for their actions?
    What legal or legislative education and experience do you have 
which leads you to this conclusion?
    Answer. Response was not received at the time of publication.
    Question 4. You have been outspoken about former President Trump. 
Yet, you worked for him for almost 3 years. During that time E.O. 
13769, titled Protecting the Nation from Foreign Terrorist Entry into 
the United States, politically labeled as a Muslim Ban, was implemented 
(understanding that your office was responsible for putting together 
the Department's travel vetting and restrictions). During your time at 
DHS, did you advocate for or against the travel restrictions--either at 
the Department, with the interagency, or before Congress?
    Answer. Response was not received at the time of publication.
    Questions From Ranking Member John Katko for Jonathan Greenblatt
    Question 1. During the hearing you spoke about the impact of social 
media on the domestic terrorism landscape. What do you see as the ideal 
way to address this issue legislatively? Does this involve section 230 
and/or other possible legislative measures?
    Answer. Social media has had a profound impact on the domestic 
terrorism landscape. Extremists use social media to spread 
disinformation, amplify conspiracy theories, gain political aims, 
recruit followers, and provoke violence. They find ways to engage on 
mainstream social media platforms like Twitter, Facebook, Youtube, as 
well as emerging platforms like Parler, and the Dark Web (e.g., Gab, 
DLive, america.win). Today, there is a profound distrust of Government 
and institutions and the mainstreaming and normalization of these 
beliefs (including virulently antisemitic and racist conspiracy 
theories) is unprecedented--millions of Americans believe in QAnon 
conspiracies and other extremist ideologies. The ability for extremists 
to spread their message as far and wide as possible is because of 
social media and the complicity of the tech companies running 
platforms. This has led to dangerous activity on-line and on the 
ground, including the insurrection at the Capitol. To adequately 
address this legislatively, Congress must consider the many areas that 
impact social media's complicity to domestic terrorism because there is 
no single fix to this multifaceted issue.
    First, Congress must increase platform accountability--including by 
reforming Section 230 of the Communications Decency Act. Tech companies 
must be held accountable for their roles in facilitating genocide, 
extremist violence, and egregious civil rights abuses. Relief, however, 
must prioritize both civil rights and civil liberties concerns and not 
result in an overbroad suppression of free speech. While many lawmakers 
and policy experts have focused on reforming CDA 230, it is important 
to acknowledge that this is a single step in a much larger process. 
This is especially important because Section 230 reform is unlikely to 
affect much of the ``lawful but awful'' hate that is devastatingly 
common on the internet because that speech is protected by the First 
Amendment. In light of this, the Government must also pass laws that 
require regular reporting, increased transparency, and independent 
audits regarding content moderation, algorithms, and engagement 
features.
    Second, Congress must ensure platforms put people over profit. Tech 
company algorithms are designed to optimize for user engagement because 
keeping people on the platform for as long as possible, to see as many 
ads as possible, generates revenue. Government must focus on how 
consumers and advertisers are impacted by a business model that 
optimizes for engagement and consider how algorithmic amplification and 
monopolistic power can fuel hate. They should ensure algorithms are 
ethical and fair, so that groups associated with hate, misinformation, 
or conspiracies are not recommended to users--even if it results in 
less engagement from users.
    Third, interrupting disinformation and finding off-ramps and 
effective mitigation strategies to mitigate recruitment and 
radicalization to extremist violence is a critical issue that requires 
a whole-of-Government and society approach. Many individuals have been 
radicalized on social media to the point of storming the Capitol or 
committing other acts of domestic terrorism. Disinformation has had, 
and continues to have, profound risks for our democracy. It is a threat 
to National security. Government must find civil rights-protecting ways 
to undermine disinformation and provide resources to civil society 
organizations working to counter it, such as by supporting the grant 
program run by the DHS Office for Targeted Violence and Terrorism 
Prevention (TVTP). Congress must investigate the impact of platforms' 
product designs that allow hatemongers and extremists to exploit 
digital social platforms and spread anti-democratic and hate-based 
disinformation.
    Question 2. In your experience, what impact do foreign governments 
have on what you describe as the ``growing threat of on-line hate''? Do 
you see any way, legislatively or otherwise, to combat this foreign 
government influence?
    Answer. All governments have a basic responsibility to combat 
hatred and the violence that it fuels. But the anonymity of the 
internet has increased the ability and the temptation for irresponsible 
foreign government actors to use the web for fueling hatred for 
political gain, especially given the relatively low costs. Whether the 
on-line hate that they fuel is primarily directed at vulnerable groups 
at home or abroad, the harm that it causes often knows no national 
borders.
    The U.S. Government has identified state-linked actors responsible 
for trying to intervene in American elections through the promotion of 
cyber hate to exacerbate American polarization and societal tensions. 
While ADL certainly does not have access to the underlying intelligence 
in these assessments, we are alarmed that this may be the case.
    Domestically, Congress and the Biden-Harris administration must 
prioritize countering the threat posed by any foreign malign influence 
that manifests as on-line hate that impacts Americans. Once on-line 
hate has impacted Americans, the tools to counter it are those that we 
may use whether the hate is fueled by foreign governments or our own 
citizens--a comprehensive approach to expose, prevent, investigate, and 
prosecute that hate, when applicable depending on the context. U.S. 
actions to expose, deter, and punish foreign government perpetrators 
are important, and should be considered, but they are only part of the 
solution. Globally, a U.S. foreign policy approach that proactively 
encourages pluralism and offsetting such hateful narratives are also an 
important part of addressing this challenge. Here at home, we must 
engage on countering on-line hate wherever we see it, including by 
establishing an independent clearinghouse for on-line extremism that 
can serve--independently from the U.S. Government--as a mechanism to 
refer on-line extremism that may indicate criminal behavior to law 
enforcement, therefore stemming the tide of on-line extremism while 
protecting civil liberties.
    While many of our allies are already taking pro-active steps to 
combat the evolving threat of extremism, both on-line and off-line, 
much remains to be done. We must take steps to support multilateral 
cooperation and promote global best practices, while at the same time 
committing adequate resources to improving our domestic responses to 
on-line hate.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
